App. No. 20A
In the

Supreme Court of the United States
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN
HILLS, AGUDATH ISRAEL OF MADISON, RABBI YISROEL REISMAN,
STEVEN SAPHIRSTEIN,
Applicants,
v.
ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY
AS GOVERNOR OF NEW YORK,
Respondent.
To the Honorable Stephen Breyer Associate Justice of the Supreme Court
of the United States and Acting Circuit Justice for the Second Circuit

APPENDIX TO EMERGENCY APPLICATION
FOR WRIT OF INJUNCTION
VOLUME II (Pages App. 253 to App. 520)
Eric C. Rassbach
Daniel Blomberg
A dèle A. Keim
Joseph Davis
The Becket Fund
For Religious Liberty
1200 New Hampshire Avenue NW,
Suite 700
Washington, DC 20036
(202) 955-0095

Avi Schick
Counsel of Record
Misha Tseytlin
W. A lex Smith
Sean T.H. Dutton
Troutman Pepper Hamilton
Sanders LLP
875 Third Avenue
New York, NY 10022
(212) 704-0000
avi.schick@troutman.com

Counsel for Applicants
299998

A
(800) 274-3321 • (800) 359-6859

TABLE OF CONTENTS
Order Denying Motion for Injunction Pending Appeal, Agudath
Israel of Am. et al. v. Cuomo, No. 20-3572 (2d Cir. Nov. 9,
2020), Dkt. 97 …………………………………………………………………………... App. 1
Judge Michael H. Park, Dissenting from Order Denying Motion
for Injunction Pending Appeal, Agudath Israel of Am. et al. v.
Cuomo, No. 20-3572 (2d Cir. Nov. 9, 2020), Dkt. 98 …………………..…………. App. 6
Transcript of Hearing on Preliminary Injunction, Agudath Israel
of Am. et al. v. Cuomo, No. 1:20-cv-04834 (E.D.N.Y.
Oct. 9, 2020) ……………………………………………………………..……………. App. 10
Plaintiff’s Reply Brief in Support of Motion for Injunction, R. 13 ……………. App. 79
Andrew M. Cuomo, Governor Cuomo Updates New Yorkers On
State’s Progress During COVID-19 Pandemic, R. 2-4 ………………………….. App. 94
Plaintiffs’ Emergency Motion for Injunction Pending Appeal,
Dkt. 21-1 ……………………………………………………………………………… App. 106
Brief Amicus Curiae of the Muslim Public Affairs Council et al. in
Support of Plaintiffs-Appellants and Reversal, Dkt. 57 ……………………… App. 138
Affidavit of Steven Saphirstein, R. 2-19 ………………………………………… App. 167
Affidavit of Rabbi Menachem Feifer, R. 2-20 …………………………………... App. 172
Affidavit of Rabbi Yisroel Reisman, R. 2-21 ……………………………………. App. 177
Affidavit of Aharon Weisenfeld, R. 2-17 ………………………………………… App. 182
Executive Order No. 202, R. 2-10 ….……………………………………………... App. 184
Empire State Development, Guidance for Determining Whether

A Business Enterprise is Subject to A Workforce Reduction
Under Executive Order 202.68, Related to New York’s Cluster
Action Initiative to Address COVID-19 Hotspots, R. 2-13 …………………… App. 188
New York Forward, Phase One, Two, Three, and Four Industries,
R. 2-11 ………………………………………………………………………………… App. 202
N.Y. State, Dep’t of Health, Interim Guidance for Office-Based
Work During the COVID-19 Public Health Emergency, R. 2-15 ………….... App. 253
-i-

N.Y. State, Dep’t of Health, Interim Guidance for Essential &

Phase II Retail Business Activities During the COVID-19
Public Health Emergency, R. 2-16 ……………………………………………….. App. 266
N.Y. State, Dep’t of Health, Interim Guidance for Religious &

Funeral Services During the COVID-19 Public Health
Emergency, R. 2-12 ……………………………………………………………….... App. 292
Plaintiffs-Appellants’ Reply Brief in Support of Emergency
Motion for Injunction Pending Appeal, Dkt. 79 ………………………………... App. 303
Executive Order No. 202.68, R. 2-8 …………………………………………….... App. 322
Andrew M. Cuomo, Governor Cuomo Announces New Cluster
Action Initiative, R. 2-9 ……………………………………………………………. App. 325
N.Y. State, Dep’t of Health, Interim Guidance for In-Person

Instruction At Pre-K to Grade 12 Schools During the
COVID-19 Public Health Emergency, R. 2-14 …………………………………. App. 336
Brief Amicus Curiae of the Becket Fund for Religious Liberty
and the Jewish Coalition for Religious Liberty in Support of
Plaintiffs-Appellants and Injunction Pending Appeal, Dkt. 49-2 …………… App. 374
Plaintiffs’ Complaint for Declaratory and Injunctive Relief, R. 1 …………... App. 395
Plaintiffs’ Motion for a Temporary Restraining Order and a
Preliminary Injunction, R. 2 …………………………………………………….... App. 420
Declaration of Howard A. Zucker, M.D., J.D., R. 12 …………………………... App. 425
Supplemental Declaration of Howard A. Zucker, M.D., J.D.,

The Roman Catholic Diocese of Brooklyn, New York v.
Cuomo, No. 1:20-cv-04844 (E.D.N.Y. Oct. 16, 2020), Dkt. 29-1 ……………… App. 449
Defendant-Appellee’s Memorandum of Law In Opposition to
Plaintiffs-Appellants’ Emergency Motion for an Injunction
Pending Appeal, Dkt. 60 …………………………………………………………… App. 457
Plaintiffs’ Letter Motion for Injunctive Relief Pending Appeal,
R. 22 …………………………………………………………………………………... App. 495
Brief Amicus Curiae of the Becket Fund for Religious Liberty in
Support of the Plaintiff, Cap. Hill Baptist Church v. Bowser,
1:20-CV-02710 (D.D.C. Oct. 7, 2020), Dkt. 28 ………………………………….. App. 497
- ii -

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 1 of 13 PageID #: 226

EXHIBIT L

- App. 253 -

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 2 of 13 PageID #: 227

INTERIM GUIDANCE FOR OFFICE-BASED WORK
DURING THE COVID-19 PUBLIC HEALTH EMERGENCY
When you have read this document, you can affirm at the bottom.
As of July 17, 2020

Purpose
This Interim Guidance for Office-Based Work during the COVID-19 Public Health Emergency (“Interim
COVID-19 Guidance for Office-Based Work”) was created to provide businesses and entities that operate
in office spaces and their employees and contractors with precautions to help protect against the spread
of COVID-19 as their businesses reopen or continue to operate.
This guidance addresses business activities where the core function takes place within an office setting.
This guidance may apply – but is not limited – to businesses and entities in the following sectors:
Professional services, nonprofit, technology, administrative support, and higher education administration
(excluding full campus reopening). Please note that these guidelines may also apply to business
operating parts of their business functions under different guidelines (e.g. front office for a construction
company). This guidance does not address medical offices, such as doctors’ offices or dentists’ offices.
This guidance also does not address building owners/managers and their employees or contractors. For
more information on building management, see, “Interim COVID-19 Guidance for Commercial Building
Management.”
These guidelines are minimum requirements only and any employer is free to provide additional
precautions or increased restrictions. These guidelines are based on the best-known public health
practices at the time of publication, and the documentation upon which these guidelines are based can
and does change frequently. The Responsible Parties – as defined below – are accountable for adhering
to all local, state and federal requirements relative to office-based work activities. The Responsible Parties
are also accountable for staying current with any updates to these requirements, as well as incorporating
same into any office-based work activities and/or Site Safety Plan.
Background
On March 7, 2020, Governor Andrew M. Cuomo issued Executive Order 202, declaring a state of
emergency in response to COVID-19. Community transmission of COVID-19 has occurred throughout
New York. To minimize further spread, social distancing of at least six feet must be maintained between
individuals, where possible.

On March 20, 2020, Governor Cuomo issued Executive Order 202.6, directing all non-essential businesses
to close in-office personnel functions. Essential businesses, as defined by Empire State Development
Corporation (ESD) guidance, were not subject to the in-person restriction, but were, however, directed to
comply with the guidance and directives for maintaining a clean and safe work environment issued by the
New York State Department of Health (DOH), and were strongly urged to maintain social distancing
measures to the extent possible.

1

- App. 254 -

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 3 of 13 PageID #: 228

On April 12, 2020, Governor Cuomo issued Executive Order 202.16, directing essential businesses to
provide employees, who are present in the workplace, with a face covering, at no-cost, that must be
used when in direct contact with customers or members of the public during the course of their work.
On April 15, 2020, Governor Cuomo issued Executive Order 202.17, directing that any individual who is
over age two and able to medically tolerate a face-covering must cover their nose and mouth with a
mask or cloth face-covering when in a public place and unable to maintain, or when not maintaining,
social distance. On April 16, 2020, Governor Cuomo issued Executive Order 202.18, directing that
everyone using public or private transportation carriers or other for-hire vehicles, who is over age two
and able to medically tolerate a face covering, must wear a mask or face covering over the nose and
mouth during any such trip. It also directed any operators or drivers of public or private transport to wear
a face covering or mask which covers the nose and mouth while there are any passengers in such a
vehicle. On May 29, 2020, Governor Cuomo issued Executive Order 202.34, authorizing business
operators/owners with the discretion to deny admittance to individuals who fail to comply with the face
covering or mask requirements.
On April 26, 2020, Governor Cuomo announced a phased approach to reopen industries and businesses
in New York in phases based upon a data-driven, regional analysis. On May 4, 2020, the Governor
provided that the regional analysis would consider several public health factors, including new COVID-19
infections, as well as health care system, diagnostic testing, and contact tracing capacity. On May 11,
2020, Governor Cuomo announced that the first phase of reopening would begin on May 15, 2020 in
several regions of New York, based upon available regional metrics and indicators. On May 29, 2020,
Governor Cuomo announced that the second phase of reopening would begin in several regions of the
state, and announced the use of a new early warning dashboard that aggregates the state's expansive
data collection efforts for New Yorkers, government officials, and experts to monitor and review how the
virus is being contained to ensure a safe reopening.
In addition to the following standards, both essential and non-essential businesses must continue to
comply with the guidance and directives for maintaining clean and safe work environments issued by
DOH.
Please note that where guidance in this document differs from other guidance documents issued by New
York State, the more recent guidance shall apply.
Standards for Responsible Office-Based Work Activities in New York State
No office-based work activities can operate without meeting the following minimum State standards, as
well as applicable federal requirements, including but not limited to such minimum standards of the
Americans with Disabilities Act (ADA), Centers for Disease Control and Prevention (CDC), Environmental
Protection Agency (EPA), and United States Department of Labor’s Occupational Safety and Health
Administration (OSHA). The State standards apply to all office-based work activities (essential and nonessential) in operation during the COVID-19 public health emergency until rescinded or amended by the
State.
The State standards contained within this guidance apply to all office-based work activity – both essential
and non-essential – in operation during the COVID-19 public health emergency until rescinded or
amended by the State. The owner/operator of the business with office-based functions, or another party
as may be designated by the owner/operator (in either case, "the Responsible Parties"), shall be
responsible for meeting these standards. The designated party can be an individual or group of
individuals responsible for the operations of individual office locations/spaces. The building owner, or
their designee, shall be primarily responsible for meeting standards with respect to any unleased or
common areas, and the tenant, if not the owner, shall be primarily responsible for meeting these
standards with respect to their leased space(s), unless the tenant and building owner reach an alternate

2

- App. 255 -

2

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 4 of 13 PageID #: 229

agreement in regard to such responsibilities (e.g. joint screening protocol). Note that the following
guidance specifically addresses tenants occupying office space and their employees, contractors, and
visitors. Responsible Parties for the entities occupying office spaces should coordinate with building
owners/managers, where applicable, on the implementation of practices in accordance with this
guidance.

Note that, except where noted otherwise, references made to “employees” are to the office-based
businesses/tenants and their employees and/or contractors. Responsible Parties should coordinate with
building managers, where applicable, on the implementation of practices in accordance with this
guidance. For more information on building managers and their employees, see “Interim COVID-19
Guidance for Commercial Building Management.”
The following guidance is organized around three distinct categories: people, places, and processes.

I. PEOPLE
A. Physical Distancing
•

Where office-based work is located in a region that is in Phases II, III, or IV, the total number of
occupants is limited to no more than 50% of the maximum occupancy at any given time for a
particular area as set by the certificate of occupancy. Where applicable, Responsible Parties should
work with building owners/managers to maintain capacity limits; and

•

Responsible Parties must ensure that a distance of at least six feet is maintained among individuals at
all times, unless safety of the core activity requires a shorter distance. Any time individuals must
come within six feet of another person, acceptable face coverings must be worn. Individuals must be
prepared to don a face covering if another person unexpectedly comes within six feet.

•

o

Acceptable face coverings for COVID-19 include but are not limited to cloth-based face coverings
and disposable masks that cover both the mouth and nose.

o

However, cloth, disposable, or other homemade face coverings are not acceptable face coverings
for workplace activities that typically require a higher degree of protection for personal protective
equipment (PPE) due to the nature of the work. For those activities, N95 respirators or other PPE
used under existing industry standards should continue to be used, as is defined in accordance
with OSHA guidelines.

o

Responsible Parties should consider closing any common indoor or outdoor seating areas (e.g.
reception areas) within their office space. To the extent that such spaces remain open,
Responsible Parties must modify seating areas arrangements (e.g. chairs, tables) to ensure that
individuals are at least six feet apart in all directions (e.g. side-to-side and when facing one
another).

Responsible Parties may modify or reconfigure the use and/or restrict the number of workstations,
employee seating areas, and desks, so that employees are at least six feet apart in all directions (e.g.
side-to-side and when facing one another) and are not sharing workstations without cleaning and
disinfection between use. When distancing is not feasible between workstations, Responsible Parties
must provide and require the use of face coverings or physical barriers (e.g. plastic shielding walls, in
lieu of face coverings in areas where they would not affect air flow, heating, cooling or ventilation).
o

Physical barriers should be put in place in accordance with OSHA guidelines.

o

Physical barrier options may include: strip curtains, cubicle walls, plexiglass or similar materials,
or other impermeable dividers or partitions.

3

- App. 256 -

3

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 5 of 13 PageID #: 230

•

Responsible Parties should consider implementing strict clean-desk policies, so that non-essential
items are stored in enclosed cabinets or drawers, rather than on desks.

•

Responsible Parties should limit the use of shared workstations (e.g. “hot-desks”), to the extent
practicable. To the extent that such workstations remain in use, they must be cleaned and disinfected
between users.

•

Responsible Parties should prohibit the use of small spaces (e.g. elevators, supply rooms, personal
offices, vehicles) by more than one individual at a time, unless all individuals in such space at the
same time are wearing acceptable face coverings. However, even when face coverings in use,
occupancy must never exceed 50% of the maximum capacity of the space or vehicle, unless it is
designed for use by a single occupant. Responsible Parties should increase ventilation with outdoor
air to the greatest extent possible (e.g., opening windows and doors in individual office rooms), while
maintaining safety protocols. Responsible Parties should take additional measures to prevent
congregation in elevator waiting areas and limit density in elevators, by enabling the use of stairs.

•

o

Responsible Parties may leverage technology, such as room sensors and real-time dashboards, to
quantify and display utilization of spaces throughout the office.

o

Responsible Parties must restrict access to areas that have reached maximum capacity under
distancing guidelines.

Responsible Parties should put in place measures to reduce bi-directional foot traffic using tape or
signs with arrows in narrow aisles, hallways, or spaces, and post signage and distance markers
denoting spaces of six feet in all commonly used areas and any areas in which lines are commonly
formed or people may congregate (e.g. copy rooms, kitchens, reception desks, health screening
stations).
o

•

Responsible Parties should mark six feet distance circles around workstations and other common
stationary work areas.

Responsible Parties must post signs throughout the office, consistent with DOH COVID-19 signage.
Responsible Parties can develop their own customized signage specific to their workplace or setting,
provided that such signage is consistent with the Department’s signage. Signage should be used to
remind individuals to:
o

Cover their nose and mouth with a face covering when six feet of social distance cannot be
maintained.

o

Properly store and, when necessary, discard PPE.

o

Adhere to physical distancing instructions.

o

Report symptoms of or exposure to COVID-19, and how they should do so.

o

Follow hand hygiene and cleaning and disinfection guidelines.

o

Follow appropriate respiratory hygiene and cough etiquette.

B. Gatherings in Enclosed Spaces
•

Responsible Parties should encourage the use of video or teleconferencing for their employee
meetings whenever possible to reduce the density of in-person gatherings, per CDC guidance
“Interim Guidance for Businesses and Employers to Plan and Respond to Coronavirus Disease 2019
(COVID-19)”. Responsible Parties should hold in-person meetings in open, well-ventilated spaces and
ensure that individuals maintain six feet of social distance between one another (e.g. if there are
chairs, leave space between chairs, have employees sit in alternating chairs) or wear appropriate face

4

- App. 257 -

4

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 6 of 13 PageID #: 231

coverings. Responsible Parties may consider implementing the following practices to remind
participants of appropriate social distancing measures when meetings are held:
o

Mark tables in meeting rooms with appropriate distance markers.

•

Responsible Parties should encourage social distancing by limiting occupancy or closing non-essential
amenities and communal areas that do not allow for social distancing protocols. If open, Responsible
Parties must make hand sanitizer or disinfecting wipes available next to equipment near such
amenities (e.g. vending machines, communal coffee stations).

•

Responsible Parties must put in place practices for adequate social distancing in small areas, such as
restrooms and breakrooms, and should develop signage and systems (e.g. flagging when occupied)
to restrict occupancy when social distancing cannot be maintained in such areas.

•

Responsible Parties should stagger schedules for employees to observe social distancing for any
gathering (e.g. coffee breaks, meals, and shift starts/stops).

•

If required, employees that don’t need to be in the office may be allowed to collect documents from
their place of work on a case-by-case basis, but such collection should occur minimally, not with
frequency.

•

Non-essential common areas (e.g. gyms, pools, game rooms) must remain closed.

C. Workplace Activity
•

Responsible Parties must take measures to reduce interpersonal contact and congregation, through
methods such as:
o

adjusting workplace hours;

o

reducing in-office workforce to accommodate social distancing guidelines;

o

shifting design (e.g. A/B teams, staggered arrival/departure times to reduce congestion in lobbies
and elevators); and/or

o

avoiding multiple teams working in one area by staggering scheduled tasks and using signs to
indicate occupied areas.

•

Responsible Parties should create polices which encourage employees to work from home when
feasible. Responsible Parties may choose to develop return-to-office tiers or waves for employees
based on factors such as function, safe transportation, and ability to work remotely, as noted in
Section II “People,” Subsection C “Phased Reopening.”

•

Responsible Parties may choose to implement best practices for employees to successfully work from
home, such as:
o

Conducting regular surveys of employees to determine what practices are working and what can
be improved;

o

Providing tips and tricks for employees to enhance remote work sustainability;

o

Allowing for employees to set morning and evening boundaries and taking regular breaks
throughout the day;

o

Informing employees of the resources they have readily available.

D. Movement and Commerce
•

Responsible Parties should consider limiting all non-essential travel.
5

- App. 258 -

5

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 7 of 13 PageID #: 232

•

Responsible Parties must establish designated areas for pickups and deliveries, limiting contact to the
extent possible.

•

Responsible Parties should limit on-site interactions (e.g. designate an egress for employees leaving
their shifts and a separate ingress for employees starting their shifts) and movements (e.g.
employees should remain near their workstations as often as possible).

II. PLACES
A. Protective Equipment
•

In addition to the necessary PPE as required for certain workplace activities, Responsible Parties must
procure, fashion, or otherwise obtain acceptable face coverings and provide such coverings to their
employees while at work at no cost to the employee. Responsible Parties should have an adequate
supply of face coverings, masks and other required PPE on hand should an employee need a
replacement, or should a visitor be in need. Acceptable face coverings include, but are not limited to,
cloth (e.g. homemade sewn, quick cut, bandana), surgical masks, and face shields.

•

Face coverings must be cleaned or replaced after use and may not be shared. Please consult CDC
guidance for additional information on cloth face coverings and other types of PPE, as well as
instructions on use and cleaning.
o

Note that cloth face coverings or disposable masks shall not be considered acceptable face
coverings for workplace activities that require a higher degree of protection for face covering
requirements. For example, if N95 respirators are traditionally required for specific activities, a
cloth or homemade mask would not suffice. Responsible Parties must adhere to OSHA standards
for such safety equipment.

•

Responsible Parties must allow employees to use their own acceptable face coverings but cannot
require employees to supply their own face coverings. Further, this guidance shall not prevent
employees from wearing their personally owned additional protective coverings (e.g. surgical masks,
N95 respirators, or face shields), or if the Responsible Parties otherwise requires employees to wear
more protective PPE due to the nature of their work. Employers should comply with all applicable
OSHA standards.

•

Responsible Parties must train employees on how to adequately put on, take off, clean (as
applicable), and discard PPE, including but not limited to, appropriate face coverings. Such training
should be extended to contractors if the Responsible Parties will be supplying the contractors with
PPE.

•

Responsible Parties must advise employees and visitors to wear face coverings in common areas
including elevators, lobbies, and when traveling around the office.

•

Responsible Parties must put in place measures to limit the sharing of objects, such as laptops,
notebooks, touchscreens, and writing utensils, as well as the touching of shared surfaces, such as
conference tables; or, require employees to perform hand hygiene before and after contact.

B. Hygiene, Cleaning, and Disinfection
•

Responsible Parties must ensure adherence to hygiene and cleaning and disinfection requirements as
advised by the CDC and DOH, including “Guidance for Cleaning and Disinfection of Public and Private
6

- App. 259 -

6

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 8 of 13 PageID #: 233

Facilities for COVID-19,” and the “STOP THE SPREAD” poster, as applicable. Responsible Parties must
maintain logs that include the date, time, and scope of cleaning and disinfection.
•

Responsible Parties must provide and maintain hand hygiene stations on in the office, as follows:
o

For handwashing: soap, running warm water, and disposable paper towels.

o

For hand sanitizing: an alcohol-based hand sanitizer containing at least 60% alcohol for areas
where handwashing facilities may not be available or practical.

o

Make hand sanitizer available throughout common areas in the office. It should be placed in
convenient locations, such as at entrances, exits, and reception desks. Touch-free hand sanitizer
dispensers should be installed where possible.

•

Responsible Parties should place signage near hand sanitizer stations indicating that visibly soiled
hands should be washed with soap and water; hand sanitizer is not effective on visibly soiled hands.

•

Responsible Parties should place receptacles around the building for disposal of soiled items,
including PPE.

•

Responsible Parties must provide appropriate cleaning and disinfection supplies for shared and
frequently touched surfaces and encourage their employees (or cleaning staffs) to use these supplies,
following manufacturer’s instructions, before and after use of these surfaces, followed by hand
hygiene.
o

•

To reduce high-touch surfaces, Responsible Parties should install touch-free amenities such as
water fountains, trash-cans, and hand-dryers.

Responsible Parties must conduct regular cleaning and disinfection of the building and more frequent
cleaning and disinfection for high risk areas used by many individuals and for frequently touched
surfaces. Cleaning and disinfection must be rigorous and ongoing and should occur at least after
each shift, daily, or more frequently as needed. Please refer to DOH’s “Interim Guidance for Cleaning
and Disinfection of Public and Private Facilities for COVID-19” for detailed instructions on how to
clean and disinfect facilities.
o

Responsible Parties must ensure regular cleaning and disinfection of restrooms. Restrooms
should be cleaned and disinfected more often depending on frequency of use.
▪

Responsible Parties must ensure distancing rules are adhered to by using signage, occupied
markers, or other methods to reduce restroom capacity where feasible.

o

Responsible Parties must ensure that materials and tools are regularly cleaned and disinfected
using registered disinfectants, including at least as often as employees or visitors change
workstations or move to a new set of materials. Refer to the Department of Environmental
Conservation (DEC) list of products registered in New York State and identified by the EPA as
effective against COVID-19.

o

If cleaning or disinfection products or the act of cleaning and disinfection causes safety hazards
or degrades the material or machinery, Responsible Parties must put in place hand hygiene
stations between use and/or supply disposable gloves and/or limitations on the number of
employees using such machinery.

o

Responsible Parties must provide for the cleaning and disinfection of exposed areas in the event
an individual is confirmed to have COVID-19, with such cleaning and disinfection to include, at a
minimum, all heavy transit areas and high-touch surfaces (e.g. touchscreens, printers, keypads,
telephones, hand rails, door handles, vending machines, communal coffee stations).

7

- App. 260 -

7

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 9 of 13 PageID #: 234

•

CDC guidelines on “Cleaning and Disinfecting Your Facility” if someone is suspected or confirmed to
have COVID-19 are as follows:
o

▪

Responsible Parties do not necessarily need to close operations, if they can close off the
affected areas.

▪

Shared building spaces used by the person suspected or confirmed to have COVID-19 (e.g.
elevators, lobbies, building entrances) must also be shut down and cleaned and disinfected in
coordination with the building manager (For more information, see, "Interim COVID-19
Guidance for Commercial Building Management”).

o

Open outside doors and windows to increase air circulation in the area.

o

Wait 24 hours before you clean or and disinfect. If 24 hours is not feasible, wait as long as
possible.

o

Clean and disinfect all areas used by the person suspected or confirmed to have COVID-19, such
as offices, bathrooms, common areas, and shared equipment.

o

Once the area has been appropriately cleaned and disinfected, it can be reopened for use.

o

•

Close off areas used by the person suspected or confirmed to have COVID-19.

▪

Employees without close or proximate contact with the person suspected or confirmed to
have COVID-19 can return to the work area immediately after cleaning and disinfection.

▪

Refer to DOH’s “Interim Guidance for Public and Private Employees Returning to Work
Following COVID-19 Infection or Exposure“ for information on “close or proximate” contacts.

If more than seven days have passed since the person who is suspected or confirmed to have
COVID-19 visited or used the facility, additional cleaning and disinfection is not necessary, but
routine cleaning and disinfection should continue.

Responsible Parties must prohibit shared food and beverages among employees (e.g. self-serve
meals and beverages), encourage employees to bring lunch from home, and reserve adequate space
for employees to observe social distancing while eating meals.

C. Phased Reopening
•

Responsible Parties are encouraged to phase-in reopening activities so as to allow for operational
issues to be resolved before production or work activities return to normal levels. Responsible Parties
should consider limiting the number of employees, hours, and number of customers available to be
served when first reopening so as to provide operations with the ability to adjust to the changes.

D. Communications Plan
•

Responsible Parties must affirm that they have reviewed and understand the state-issued industry
guidelines, and that they will implement them.

•

Responsible Parties should develop a communications plan for employees and visitors, and customers
that includes applicable instructions, training, signage, and a consistent means to provide employees
with information. Responsible Parties should work with building management to help facilitate any
building-wide communications. Responsible Parties may consider developing webpages, text and
email groups, and social media.

8

- App. 261 -

8

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 10 of 13 PageID #: 235

•

Responsible Parties should encourage customers to adhere to CDC and DOH guidance regarding the
use of PPE, specifically face coverings when a social distance of six feet cannot be maintained,
through verbal communication and signage.

•

Responsible Parties should post signage inside and outside of the retail location to remind personnel
and customers to adhere to proper hygiene, social distancing rules, appropriate use of PPE, and
cleaning and disinfection protocols.

•

Responsible Parties should provide building managers/owners a list of essential visitors expected to
enter the building.

III. PROCESSES
A. Screening and Testing
•

Responsible Parties must implement mandatory daily health screening practices of their employees
and, where practicable, visitors, but such screening shall not be mandated for delivery personnel.
o

Screening practices may be performed remotely (e.g. by telephone or electronic survey), before
the employee or visitor reports to the office, to the extent possible; or may be performed on site.

o

Screening should be coordinated to prevent employees or visitors from intermingling in close or
proximate contact with each other prior to completion of the screening.

o

At a minimum, screening must be required for all employees or visitors and completed using a
questionnaire that determines whether the employee or visitor has:
(a) knowingly been in close or proximate contact in the past 14 days with anyone who has
tested positive for COVID-19 or who has or had symptoms of COVID-19;
(b) tested positive for COVID-19 in the past 14 days; and/or
(c) has experienced any symptoms of COVID-19 in the past 14 days.

•

•

Responsible Parties should coordinate with building managers to facilitate screening. Responsible
Parties are responsible for screening their own employees and visitors, unless Responsible Parties
and building management have agreed to an alternate arrangement to ensure screening is in effect.
Screening best practices include:
o

If space and building configuration allows, screen individuals at or near the building entrance to
minimize the impact in case of an individual suspected or confirmed to have COVID-19;

o

Allow for adequate social distancing while individuals queue for screening and/or building entry;

o

Coordinate with building managers to identify individuals who have completed a remote
screening;

o

Use contactless thermal cameras in building entrances, in coordination with building
management, to identify potentially symptomatic visitors and direct them to a secondary
screening area to complete a follow-on screening.

Refer to CDC guidance on “Symptoms of Coronavirus” for the most up to date information on
symptoms associated with COVID-19.

9

- App. 262 -

9

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 11 of 13 PageID #: 236

•

Responsible Parties must require employees to immediately disclose if and when their responses to
any of the aforementioned questions changes, such as if they begin to experience symptoms,
including during or outside of work hours.

•

In addition to the screening questionnaire, temperature checks may also be conducted per U.S. Equal
Employment Opportunity Commission or DOH guidelines. Responsible Parties are prohibited from
keeping records of employee health data (e.g. the specific temperature data of an individual), but are
permitted to maintain records that confirm individuals were screened and the result of such screening
(e.g. pass/fail, cleared/not cleared).

•

Responsible Parties must ensure that any personnel performing screening activities, including
temperature checks, are appropriately protected from exposure to potentially infectious employees or
visitors entering the office. Personnel performing screening activities should be trained by employeridentified individuals who are familiar with CDC, DOH, and OSHA protocols.

•

Screeners should be provided and use PPE, including at a minimum, a face mask, and may include
gloves, a gown, and/or a face shield.

•

An individual who screens positive for COVID-19 symptoms must not be allowed to enter the office
and must be sent home with instructions to contact their healthcare provider for assessment and
testing.
o

Responsible Parties should remotely provide such individuals with information on healthcare and
testing resources.

o

Responsible Parties must immediately notify the state and local health department about the case
if test results are positive for COVID-19.

•

Responsible Parties should refer to DOH’s “Interim Guidance for Public and Private Employees
Returning to Work Following COVID-19 Infection or Exposure” regarding protocols and policies for
employees seeking to return to work after a suspected or confirmed case of COVID-19 or after the
employee had close or proximate contact with a person with COVID-19.

•

Responsible Parties must designate a central point of contact, which may vary by activity, location,
shift or day, responsible for receiving and attesting to having reviewed all employees’ questionnaires,
with such contact also identified as the party for employees and visitors to inform if they later are
experiencing COVID-19-related symptoms, as noted on the questionnaire.
o

If Responsible Parties and building management have agreed to an alternate screening
arrangement whereby building management administers screening on behalf of tenants, then
building management shall be responsible for maintaining a record of the screening process.
Maintaining records of employee health data (e.g. the specific temperature data of an individual)
is prohibited; the only records to be maintained on a daily basis regarding the screening process
are those individuals who were screened and confirmation that no employee or visitor who failed
the screening process was granted access.

•

Responsible Parties must designate a site safety monitor whose responsibilities include continuous
compliance with all aspects of the site safety plan.

•

To the extent possible, Responsible Parties should maintain a log of every person, including
employees and visitors, who may have close or proximate contact with other individuals at the
worksite or area; excluding deliveries that are performed with appropriate PPE or through contactless
means. The log should contain contact information, such that all contacts may be identified, traced
10

- App. 263 -

10

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 12 of 13 PageID #: 237

and notified in the event an employee is diagnosed with COVID-19. Responsible Parties must
cooperate with state and local health department contact tracing efforts.
B. Tracing and Tracking
•

Responsible Parties must notify the state and local health department immediately upon being
informed of any positive COVID-19 test result by an employee in their office.

•

In the case of an employee or visitor testing positive, the Responsible Parties must cooperate with
the state and local health department as required to trace all contacts in the workplace, and the state
and local health department where the building is located must be notified of all individuals who
entered the site dating back 48 hours before the employee or visitor first experienced COVID-19
symptoms or tested positive, whichever is earlier. Confidentiality must be maintained as required by
federal and state law and regulations.
o

As a best practice, Responsible Parties may offer optional tracing and tracking technology (e.g.
Bluetooth enabled mobile applications) to streamline contact tracing and communication process
among their workforce and others.

•

Responsible Parties must ensure that in the case of an employee showing symptoms while in the
workplace, the building managers are immediately notified with information on where the individual
has been throughout the building and notify building management if the symptomatic employee tests
positive.

•

State and local health departments will implement monitoring and movement restrictions of infected
or exposed persons including home isolation or quarantine.

•

Individuals who are alerted that they have come into close or proximate contact with a person with
COVID-19, and have been alerted via tracing, tracking or other mechanism, are required to selfreport to their employer at the time of alert and shall follow the protocol referenced above.

IV. EMPLOYER PLANS
Responsible Parties must conspicuously post completed safety plans on site. The State has made
available a business reopening safety plan template to guide business owners and operators in
developing plans to protect against the spread of COVID-19.
Additional safety information, guidelines, and resources are available at:

New York State Department of Health Novel Coronavirus (COVID-19) Website
https://coronavirus.health.ny.gov/
Centers for Disease Control and Prevention Coronavirus (COVID-19) Website
https://www.cdc.gov/coronavirus/2019-ncov/index.html

Occupational Safety and Health Administration COVID-19 Website
https://www.osha.gov/SLTC/covid-19/

11

- App. 264 -

11

Case 1:20-cv-04834-KAM-RML Document 2-15 Filed 10/08/20 Page 13 of 13 PageID #: 238

At the link below, affirm that you have read and understand your obligation to
operate in accordance with this guidance:
https://forms.ny.gov/s3/ny-forward-affirmation

12

- App. 265 -

12

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 1 of 26 PageID #: 239

EXHIBIT M

- App. 266 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 2 of 26 PageID #: 240

INTERIM GUIDANCE FOR ESSENTIAL & PHASE II RETAIL
BUSINESS ACTIVITIES DURING THE COVID-19 PUBLIC HEALTH
EMERGENCY
When you have read this document, you can affirm at the bottom.
As of July 1, 2020

Purpose
This Interim Guidance for Essential and Phase II Retail Business Activities during the COVID-19 Public
Health Emergency (“Interim COVID-19 Guidance for Essential and Phase II Retail Business Activities”)
was created to provide owners/operators of essential and Phase II retail businesses selling goods and
their employees and contractors with precautions to help protect against the spread of COVID-19 as they
continue to operate or reopen.
This guidance applies to all in-store essential retail business activities throughout the state. This
guidance also applies to all in-store non-essential retail business activities in regions of the state that are
in Phase II or later of reopening. This guidance does not apply to restaurants or other food services,
retailers of rental goods, or personal care services, such as hair salons, nail salons, spas, tattoo parlors,
laser hair removal, or electrolysis.
Essential businesses, as defined by Empire State Development (ESD) pursuant to Executive Order 202.6,
are entities that regardless of the nature of the service that they provide, the function that they perform,
or their corporate or entity structure, are not subject to in-person workforce reductions during the
COVID-19 public health emergency. Essential retail businesses include but are not limited to grocery
stores, including all food and beverage stores; pharmacies; convenience stores; farmer’s markets; gas
stations; and hardware, appliance, and building material stores. Please consult the ESD essential business
guidance for further information.
In regions of the state that are in Phase I of reopening, non-essential retail businesses are only allowed
to operate via curbside and in-store pickup. For information on how to safely conduct these services,
refer to the New York State Department of Health (DOH) “Interim COVID-19 Guidance for Curbside and
In-Store Pickup Retail Business Activities.” This previously issued guidance pertains to curbside and instore pickup as defined as a customer placing an order for specific item(s) by phone or internet, then
collecting such order at or near the retail location. Customers are only allowed on the premise to retrieve
their order; not to browse or place an in-person order.
In regions of the state that are not yet in Phase I of reopening, non-essential retail businesses are only
allowed to operate via delivery of orders paced remotely via phone or online with only one employee
physical present at the business location.
These guidelines are minimum requirements only and any employer is free to provide additional
precautions or increased restrictions. These guidelines are based on the best-known public health
practices at the time of issuance, and the documentation upon which these guidelines are based can and
does change frequently. The Responsible Parties – as defined below – are accountable for adhering to all
local, state and federal requirements relative to retail business activities. The Responsible Parties are also
accountable for staying current with any updates to these requirements, as well as incorporating same
into any retail business activities and/or Site Safety Plan.

1

- App. 267 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 3 of 26 PageID #: 241

Background
On March 7, 2020, Governor Andrew M. Cuomo issued Executive Order 202, declaring a state of
emergency in response to COVID-19. Community transmission of COVID-19 has occurred throughout
New York. To minimize further spread, social distancing of at least six feet must be maintained between
individuals, where possible.
On March 20, 2020, Governor Cuomo issued Executive Order 202.6, directing all non-essential businesses
to close in-office personnel functions. Essential businesses, as defined by Empire State Development
Corporation (ESD) guidance, were not subject to the in-person restriction, but were, however, directed to
comply with the guidance and directives for maintaining a clean and safe work environment issued by
DOH, and were strongly urged to maintain social distancing measures to the extent possible.
On April 12, 2020, Governor Cuomo issued Executive Order 202.16, directing essential businesses to
provide employees, who are present in the workplace, with a face covering, at no-cost, that must be
used when in direct contact with customers or members of the public during the course of their work.
On April 15, 2020, Governor Cuomo issued Executive Order 202.17, directing that any individual who is
over age two and able to medically tolerate a face-covering must cover their nose and mouth with a
mask or cloth face-covering when in a public place and unable to maintain, or when not maintaining,
social distance. On April 16, 2020, Governor Cuomo issued Executive Order 202.18, directing that
everyone using public or private transportation carriers or other for-hire vehicles, who is over age two
and able to medically tolerate a face covering, must wear a mask or cloth face covering over the nose
and mouth during any such trip. It also directed any operators or drivers of public or private transport to
wear a mask or cloth face covering which covers the nose and mouth while there are any passengers in
such a vehicle. On May 29, 2020, Governor Cuomo issued Executive Order 202.34, authorizing business
operators/owners with the discretion to deny admittance to individuals who fail to comply with the face
covering or mask requirements.
On April 26, 2020, Governor Cuomo announced a phased approach to reopen industries and businesses
in New York in phases based upon a data-driven, regional analysis. On May 4, 2020, the
Governor provided that the regional analysis would consider several public health factors, including new
COVID-19 infections, as well as health care system, diagnostic testing, and contact tracing capacity. On
May 11, 2020, Governor Cuomo announced that the first phase of reopening would begin on May 15,
2020 in several regions of New York, based upon available regional metrics and indicators. On May 29,
2020, Governor Cuomo announced that the second phase of reopening would begin in several regions of
the state, and announced the use of a new early warning dashboard that aggregates the state's
expansive data collection efforts for New Yorkers, government officials, and experts to monitor and
review how the virus is being contained to ensure a safe reopening.
In addition to the following standards, both essential and non-essential businesses must continue to
comply with the guidance and directives for maintaining clean and safe work environments issued by
DOH.
Please note that where guidance in this document differs from other guidance documents issued by New
York State, the more recent guidance shall apply.
Standards for Responsible Essential and Phase II Retail Activities in New York State
No essential and Phase II retail activity can occur without meeting the following minimum State
standards, as well as applicable federal requirements, including but not limited to such minimum
standards of the Americans with Disabilities Act (ADA), Centers for Disease Control and Prevention (CDC),

2

2

- App. 268 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 4 of 26 PageID #: 242

Environmental Protection Agency (EPA), and United States Department of Labor’s Occupational Safety
and Health Administration (OSHA).
The State standards contained within this guidance apply to all essential and Phase II retail activities in
operation during the COVID-19 public health emergency until rescinded or amended by the State. The
proprietor/operator of the retail business, or another party as may be designated by the
proprietor/operator (in either case, "the Responsible Parties"), shall be responsible for meeting these
standards.
The following guidance is organized around three distinct categories: people, places, and processes.

I. PEOPLE
A. Physical Distancing
•

Responsible Parties must ensure that for any essential and Phase II retail activity, the workforce and
customer presence is limited to no more than 50% of the maximum occupancy for a particular area
as set by the certificate of occupancy, inclusive of customers, who must maintain six feet of
separation from others and, in all cases, must only be permitted entry into the essential and Phase II
retail store if they wear an acceptable face covering; provided, however, that the customer is over
the age of two and able to medically tolerate such covering; and

•

Responsible Parties must ensure a distance of at least six feet is maintained among employees and
customers at all times, unless the safety of the core activity requires a shorter distance (e.g.
operating cash registers, moving and lifting merchandise). Employees must wear acceptable face
coverings any time they interact with customers (e.g. ringing up a purchase, wrapping an item to
hand off) and any time employees are within six feet of another person. Employees must be
prepared to don a face covering if another person unexpectedly comes within six feet.

•

•

o

Acceptable face coverings for COVID-19 include but are not limited to cloth-based face coverings
and disposable masks that cover both the mouth and nose.

o

However, cloth, disposable, or other homemade face coverings are not acceptable face coverings
for workplace activities that typically require a higher degree of protection for personal protective
equipment (PPE) due to the nature of the work. For those activities, N95 respirators or other PPE
used under existing industry standards should continue to be used, as is defined in accordance
with OSHA guidelines.

Responsible Parties may modify the use and/or restrict the number of work spaces and employee
seating areas, so that employees are at least six feet apart in all directions (e.g. side-to-side and
when facing one another) and are not sharing work stations or spaces without cleaning and
disinfection between use. When distancing is not feasible between work stations or spaces,
Responsible Parties must provide and require the use of face coverings or physical barriers such as
plastic shielding walls, in lieu of face coverings in areas where they would not affect air flow, heating,
cooling, or ventilation.
o

If used, physical barriers should be put in place in accordance with OSHA guidelines.

o

Physical barrier options may include: strip curtains, plexiglass or similar materials, or other
impermeable dividers or partitions.

Responsible Parties are encouraged to modify retail layouts so that employees and customers are at
least six feet apart in all directions when employees are working and customers are browsing, unless
physical barriers are in place (e.g. Plexiglass or partitions at cash registers).
3

3

- App. 269 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 5 of 26 PageID #: 243

o

Responsible Parties must require that employees use masks or cloth face coverings when
interacting with customers. Responsible Parties shall not permit customers into the store without
a face covering, if medically able to tolerate one, and are over age two.

o

If entry is denied, Responsible Parties should seek to provide alternate methods of pickup and/or
delivery for customers, particularly to ensure access to essential goods, including but not limited
to food, medication, and medical equipment or supplies.

o

Responsible Parties must reserve adequate space for employees and customers to work and
shop, considering appropriate social distancing; Responsible Parties should consider creating oneway aisles, otherwise rearranging traffic flow, or using alternating cash registers.

•

Responsible Parties must prohibit the use of small spaces (e.g. behind cash registers, elevators, stock
rooms) by more than one individual at a time, unless all individuals in such spaces at the same time
are wearing acceptable face coverings. However, occupancy must never exceed 50% of the
maximum capacity of the space, unless it is designed for use by a single occupant. Responsible
Parties should increase ventilation with outdoor air to the greatest extent possible (e.g. opening
windows, leaving doors open), while maintaining safety protocols.

•

Responsible Parties should encourage the use of touchless payment options or pay ahead, when
available. Minimize handling cash, credit cards, reward cards, and mobile devices, where possible.

•

Responsible Parties should put in place measures to reduce bi-directional foot traffic of customers
browsing using tape or signs with arrows in narrow aisles, hallways, or spaces, and post signage and
distance markers denoting spaces of six feet in all commonly used areas and any areas in which lines
are commonly formed or people may congregate (e.g., clock in/out stations, health screening
stations, break rooms, cash register areas).
o

Where possible, place markers or barriers to encourage one directional traffic.

•

Responsible Parties must post signage and distance markers denoting spaces of six feet in all
commonly used areas and any areas in which lines are commonly formed or people may congregate
(e.g. clock in/out stations, health screening stations, break rooms, cash register areas, near
merchandise, in aisles etc.).

•

Responsible Parties should strive to minimize the touch points on retail products, by:
o
o

•

suspending the use of bulk-bins and dump bins; and
encouraging customers to touch only products they will be buying (i.e., avoid putting items back
on shelves).

Responsible Parties must post signs inside and outside of the retail location, consistent with DOH
COVID-19 signage. Responsible Parties can develop their own customized signage specific to their
workplace or setting, provided that such signage is consistent with the Department’s signage.
Signage should be used to remind employees and customers to:
o

Cover their nose and mouth with a face covering when six feet of social distance cannot be
maintained.

o

Properly store and, when necessary, discard PPE.

o

Adhere to physical distancing instructions.

o

Report symptoms of or exposure to COVID-19, and how they should do so.

o

Follow hand hygiene and cleaning and disinfection guidelines.

o

Follow appropriate respiratory hygiene and cough etiquette.

4

4

- App. 270 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 6 of 26 PageID #: 244

B. Gatherings in Enclosed Spaces
•

Responsible Parties must limit in-person employee gatherings (e.g. employee meetings, break rooms,
stock rooms) to the greatest extent possible and use other methods such as video or
teleconferencing whenever possible, per CDC guidance “Interim Guidance for Businesses and
Employers to Plan and Respond to Coronavirus Disease 2019 (COVID-19)”. When videoconferencing
or teleconferencing is not possible, Responsible Parties should hold meetings in open, well-ventilated
spaces and ensure that individuals maintain six feet of social distance between one another (e.g. if
there are chairs, leave space between chairs, have employees sit in alternating chairs).

•

Responsible Parties must put in place practices for adequate social distancing in small areas, such as
restrooms and breakrooms, and should develop signage and systems (e.g. flagging when occupied)
to restrict occupancy when social distancing cannot be maintained in such areas; and

•

Responsible Parties should stagger schedules for employees to observe social distancing (i.e., six feet
of space) for any gathering (e.g. while taking breaks).

C. Workplace Activity
•

•

Responsible Parties must take measures to reduce interpersonal contact and congregation, through
methods such as:
o

limiting in-person presence to only those staff who are necessary to be at the workplace;

o

adjusting workplace hours;

o

reducing on-site workforce to accommodate social distancing guidelines;

o

shifting design (e.g. A/B teams, staggered arrival/departure times);

o

batching activities, where possible, so employees can adhere to social distancing and reduce the
number of hands touching products at the same time (e.g. one employee does all packing and a
separate employee fulfills the delivery); and/or

o

encouraging, but not requiring, customers to bag their own purchases.

Responsible Parties should adjust retail hours as necessary to enable enhanced cleaning and
disinfection procedures.

D. Movement and Commerce
•

Responsible Parties must monitor and control the flow of traffic into the establishment to ensure
adherence to maximum capacity requirements.

•

Responsible Parties must establish designated areas for deliveries, limiting contact to the extent
possible.

•

Responsible Parties should provide clearly designated, separate entrances and exits, where possible.
o

•

Responsible Parties must be prepared to queue customers outside while still maintaining physical
distance including through the use of visual cues or markers.

For merchandise deliveries, Responsible Parties should implement a touchless delivery system
whereby drivers stay in the cab of the vehicle while delivery takes place or, where not practicable,
Responsible Parties must provide acceptable PPE appropriate to the anticipated activities that
5

5

- App. 271 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 7 of 26 PageID #: 245

includes, at a minimum, a face covering to personnel involved in the delivery at no cost for the
duration of the delivery process.
•

Responsible Parties must sanitize hands before and after transferring a load (e.g. from a delivery
driver) of merchandise (e.g. sanitize hands before starting to load items; and once all items have
been loaded, finish by sanitizing their hands again).

•

In addition to utilizing curbside and in-store pick up to the extent possible, Responsible Parties should
provide remote shopping alternatives for customers, including click-and-collect, delivery, pick-up, and
shop-by-phone to limit customers in the establishment.

•

Responsible Parties must ensure that fitting rooms are equipped with appropriate cleaning and
hygiene supplies for employee and customer use, including hand sanitizer; and strongly encouraged
to clean and disinfect fitting rooms after each customer’s use.

•

Responsible Parties must close amenities, where applicable, including:
o
o
o

•

self-serve bars and samplers;
water fountains; and
magazine areas.

For any activities related to food services, Responsible Parties must operate in accordance with
“Interim Guidance for Food Services during the COVID-19 Public Health Emergency.”

II. PLACES
A. Protective Equipment
•

Responsible Parties must ensure employees wear face coverings when they are within six feet of
customers or coworkers. Employees also must wear face coverings any time they interact with
customers (e.g. ringing up a purchase, wrapping an item to hand off).

•

Responsible Parties must ensure that customers are only permitted entry into the retail store if they
wear an acceptable face covering; provided, however, that the customer is over the age of two and
able to medically tolerate such covering.

•

In addition to necessary PPE as required for certain workplace activities, Responsible Parties must
procure, fashion, or otherwise obtain acceptable face coverings and provide such coverings to their
employees while at work at no cost to the employee. Responsible Parties should have an adequate
supply of cloth face coverings, masks and other required PPE on hand should an employee need a
replacement. Acceptable face coverings include, but are not limited to, cloth (e.g. homemade sewn,
quick cut, bandana), surgical masks, N95 respirators, and face shields.

•

Face coverings must be cleaned or replaced after use and may not be shared. Please consult CDC
guidance for additional information on cloth face coverings and other types of PPE as well as
instructions on use and cleaning.
o

Note that cloth face coverings or disposable masks shall not be considered acceptable face
coverings for workplace activities that impose a higher degree of protection for face covering
requirements. For example, if N95 respirators are traditionally required for specific retail
activities, a cloth or homemade mask would not suffice. Responsible Parties must adhere to
OSHA standards for such safety equipment.

6

6

- App. 272 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 8 of 26 PageID #: 246

•

Responsible Parties must allow employees to use their own acceptable face coverings but cannot
require employees to supply their own face coverings. Further, this guidance shall not prevent
employees from wearing their personally owned additional protective coverings (e.g. surgical masks,
N95 respirators, or face shields), or if the Responsible Parties otherwise requires employees to wear
more protective PPE due to the nature of their work. Employers should comply with all applicable
OSHA standards.

•

Responsible Parties must put in place measures to limit the sharing of objects, such as tools,
registers, and vehicles, as well as the touching of shared surfaces; or, require employees to wear
gloves (trade-appropriate or medical) when in contact with shared objects or frequently touched
surfaces; or, require employees to sanitize or wash their hands before and after contact.

•

Responsible Parties must ensure gloves are worn while handling any food products.

•

Responsible Parties must train employees on how to adequately put on, take off, clean (as
applicable), and discard PPE, including but not limited to, appropriate face coverings.

B. Hygiene, Cleaning, and Disinfection
•

Responsible Parties must ensure adherence to hygiene and sanitation requirements as advised by the
CDC and DOH, including “Guidance for Cleaning and Disinfection of Public and Private Facilities for
COVID-19,” and the “STOP THE SPREAD” poster, as applicable. Responsible Parties must maintain
logs that include the date, time, and scope of cleaning and disinfection.

•

Responsible Parties must provide and maintain hand hygiene stations on site, as follows:
o

For handwashing: soap, running warm water, and disposable paper towels.

o

For sanitizer: an alcohol-based hand sanitizer containing at least 60% alcohol for areas where
handwashing facilities may not be available or practical.

o

Responsible Parties must make hand sanitizer available throughout the store for use by
employees and customers; it should be placed in convenient locations such as points of entrance
for customers and at cash registers or payment terminals.

•

Responsible Parties should place signage near hand sanitizer stations indicating that visibly soiled
hands should be washed with soap and water; hand sanitizer is not effective on visibly soiled hands.

•

Responsible Parties should place receptacles around the location for disposal of soiled items, including
PPE.

•

Responsible Parties must provide appropriate cleaning and disinfection supplies for shared and
frequently touched surfaces and encourage employees to use these supplies, following
manufacturers’ instructions, before and after use of these surfaces, followed by hand hygiene.

•

Responsible Parties must conduct regular cleaning and disinfection of the retail location and more
frequent cleaning and disinfection for high risk areas used by many individuals and for frequently
touched surfaces. Cleaning and disinfection must be rigorous and ongoing and should occur at least
after each shift, daily, or more frequently as needed. Please refer to DOH’s “Interim Guidance for
Cleaning and Disinfection of Public and Private Facilities for COVID-19” for detailed instructions on
how to clean and disinfect facilities.
o

Responsible Parties must ensure regular cleaning and disinfection of restrooms. Restrooms
should be cleaned and disinfected more often depending on frequency of use.

7

7

- App. 273 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 9 of 26 PageID #: 247

▪

Responsible Parties must ensure distancing rules are adhered to by reducing restroom
capacity where feasible.

o

Responsible Parties must ensure that equipment is regularly disinfected using registered
disinfectants, including at least as often as employees change workstations. Refer to the
Department of Environmental Conservation (DEC) list of products registered in New York State
identified by the EPA as effective against COVID-19.

o

If cleaning or disinfection products or the act of cleaning and disinfection causes safety hazards
or degrades the material or equipment, Responsible Parties must put in place hand hygiene
stations between use and/or supply disposable gloves and/or limitations on the number of
employees using such equipment.

•

Responsible Parties must provide for the cleaning and disinfection of exposed areas in the event of a
positive case of COVID-19 of an employee or customer, with such cleaning and disinfection to
include, at a minimum, all heavy transit areas and high-touch surfaces (e.g. vending machines,
handrails, bathrooms, door knobs).

•

CDC guidelines on “Cleaning and Disinfecting Your Facility” if someone is suspected or confirmed to
have COVID-19 are as follows:
o

Close off areas used by the person suspected or confirmed to have COVID-19.
▪

Responsible Parties do not necessarily need to close operations, if they can close off the
affected areas.

o

Open outside doors and windows to increase air circulation in the area.

o

Wait 24 hours before you clean or disinfect. If 24 hours is not feasible, wait as long as possible.

o

Clean and disinfect all areas used by the person who is suspected or confirmed to have COVID19, such as offices, bathrooms, common areas, and shared equipment.

o

Once the area has been appropriately disinfected, it can be opened for use.

o

▪

Employees without close or proximate contact with the person who is suspected or confirmed
to have COVID-19 can return to the work area immediately after disinfection.

▪

Refer to DOH’s “Interim Guidance for Public and Private Employees Returning to Work
Following COVID-19 Infection or Exposure“ for information on “close or proximate” contacts.

If more than seven days have passed since the person who is suspected or confirmed to have
COVID-19 visited or used the retail location, additional cleaning and disinfection is not necessary,
but routine cleaning and disinfection should continue.

•

For retail activities involving the handling of shared objects (e.g. carts, baskets, payment devices),
areas (e.g. pickup area), and/or surfaces (e.g. doors), Responsible Parties must ensure that such
areas and objects are cleaned and disinfected daily, at a minimum.

•

Responsible Parties should prepare a plan for receipt and resale of returned merchandise, or modify
policies to ensure safety of employees and customers, which may include restricting certain items
from return during the period of the emergency. Responsible Parties should clean and disinfect
returned merchandise, to the extent practicable.

•

Responsible Parties must prohibit shared food and beverages among employees (e.g. self-serve
meals and beverages), encourage employees to bring lunch from home, and reserve adequate space
for employees to observe social distancing while eating meals.

8

8

- App. 274 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 10 of 26 PageID #: 248

C. Phased Reopening
•

To the extent that they are not operating at full capacity during the public health emergency,
Responsible Parties are encouraged to phase-in reopening activities so as to allow for operational
issues to be resolved before production or work activities return to normal levels. Responsible Parties
should consider limiting the number of employees, hours, and number of customers available to be
served when first reopening so as to provide operations with the ability to adjust to the changes.

D. Communications Plan
•

Responsible Parties must affirm that they have reviewed and understand the state-issued industry
guidelines, and that they will implement them.

•

Responsible Parties should develop a communications plan for employees, visitors, and customers
that includes applicable instructions, training, signage, and a consistent means to provide employees
with information. Responsible Parties may consider developing webpages, text and email groups, and
social media.

•

Responsible Parties should encourage customers to adhere to CDC and DOH guidance regarding the
use of PPE, specifically face coverings when a social distance of 6 feet cannot be maintained, through
verbal communication and signage.

•

Responsible Parties should post signage inside and outside of the retail location to remind personnel
and customers to adhere to proper hygiene, social distancing rules, appropriate use of PPE, and
cleaning and disinfection protocols.

III. PROCESSES
A. Screening and Testing
•

Responsible Parties must implement mandatory daily health screening practices for employees and,
where practicable, visitors, but such screening shall not be mandated for customers and delivery
personnel.
o

Screening practices may be performed remotely (e.g. by telephone or electronic survey), before
the employee reports to the workplace, to the extent possible; or may be performed on site.

o

Screening should be coordinated to prevent employees from intermingling in close or proximate
contact with each other prior to completion of the screening.

o

At a minimum, screening must be required of all employees and visitors (but not customers) and
completed using a questionnaire that determines whether the employee or visitor has:
(a) knowingly been in close or proximate contact in the past 14 days with anyone who has
tested positive for COVID-19 or who has or had symptoms of COVID-19;
(b) tested positive for COVID-19 in the past 14 days; and/or
(c) has experienced any symptoms of COVID-19 in the past 14 days.

•

Refer to CDC guidance on “Symptoms of Coronavirus” for the most up to date information on
symptoms associated with COVID-19.

9

9

- App. 275 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 11 of 26 PageID #: 249

•

Responsible Parties must require employees to immediately disclose if and when their responses to
any of the aforementioned questions changes, such as if they begin to experience symptoms,
including during or outside of work hours.

•

In addition to the screening questionnaire, temperature checks may also be conducted per Equal
Employment Opportunity Commission or DOH guidelines. Responsible Parties are prohibited from
keeping records of employee health data (e.g. the specific temperature data of an individual), but are
permitted to maintain records that confirm individuals were screened and the result of such screening
(e.g., pass/fail, cleared/not cleared).

•

Responsible Parties must ensure that any personnel performing screening activities, including
temperature checks, are appropriately protected from exposure to potentially infectious employees
entering the retail location. Personnel performing screening activities should be trained by employeridentified individuals who are familiar with CDC, DOH, and OSHA protocols.

•

Screeners should be provided and use PPE, including at a minimum, a mask or cloth face covering,
and may include gloves, a gown, and/or a face shield.

•

An individual who screens positive for COVID-19 symptoms must not be allowed to enter the
workplace and must be sent home with instructions to contact their healthcare provider for
assessment and testing.
o

Responsible Parties should provide such individuals with information on healthcare and testing
resources.

o

Responsible Parties must immediately notify the state and local health department about the case
if test results are positive for COVID-19.

•

Responsible Parties should refer to DOH’s “Interim Guidance for Public and Private Employees
Returning to Work Following COVID-19 Infection or Exposure” regarding protocols and policies for
employees seeking to return to work after a suspected or confirmed case of COVID-19 or after the
employee had close or proximate contact with a person with COVID-19.

•

Responsible Parties must designate a central point of contact, which may vary by activity, location,
shift or day, responsible for receiving and attesting to having reviewed all questionnaires, with such
contact also identified as the party for individuals to inform if they later are experiencing COVID-19related symptoms, as noted on the questionnaire.

•

Responsible Parties must designate a site safety monitor whose responsibilities include continuous
compliance with all aspects of the site safety plan.

•

To the extent possible, Responsible Parties should maintain a log of employees and visitors who may
have close or proximate contact with other individuals at the workplace or area; excluding customers
and deliveries that are performed with appropriate PPE or through contactless means. Log should
contain contact information, such that all contacts may be identified, traced and notified in the event
an employee is diagnosed with COVID-19. Responsible Parties must cooperate with state and local
health department contact tracing efforts.

•

Responsible Parties cannot mandate that customers complete a health screen or provide contact
information but may encourage customers to do so. Responsible Parties may provide an option for
customers to provide contact information so they can be logged and contacted for contact tracing, if
necessary.

10

10

- App. 276 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 12 of 26 PageID #: 250

B. Tracing and Tracking
•

Responsible Parties must notify the state and local health department immediately upon being
informed of any positive COVID-19 test result by an employee at their workplace.

•

In the case of an employee, visitor, or customer who interacted at the business testing positive, the
Responsible Parties must cooperate with the state and local health department to trace all contacts in
the workplace and notify the state and local health department of all employees logged and
visitors/customers (as applicable) who entered the retail location dating back to 48 hours before the
employee began experiencing COVID-19 symptoms or tested positive, whichever is earlier, but
maintain confidentiality as required by federal and state law and regulations.

•

State and local health departments will implement monitoring and movement restrictions of infected
or exposed persons including home isolation or quarantine.

•

Individuals who are alerted that they have come into close or proximate contact with a person with
COVID-19, and have been alerted via tracing, tracking or other mechanism, are required to selfreport to their employer at the time of alert and shall follow the protocol referenced above.

IV. EMPLOYER PLANS
Responsible Parties must conspicuously post completed safety plans on the premises of the workplace.
The State has made available a business reopening safety plan template to guide business owners and
operators in developing plans to protect against the spread of COVID-19.
Additional safety information, guidelines, and resources are available at:
New York State Department of Health Novel Coronavirus (COVID-19) Website
https://coronavirus.health.ny.gov/
Centers for Disease Control and Prevention Coronavirus (COVID-19) Website
https://www.cdc.gov/coronavirus/2019-ncov/index.html
Occupational Safety and Health Administration COVID-19 Website
https://www.osha.gov/SLTC/covid-19/

At the link below, affirm that you have read and understand your obligation to
operate in accordance with this guidance:
https://forms.ny.gov/s3/ny-forward-affirmation

11

11

- App. 277 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 13 of 26 PageID #: 251

INTERIM GUIDANCE FOR MALLS DURING THE COVID-19 PUBLIC
HEALTH EMERGENCY

When you have read this document, you can affirm at the bottom.
As of August 19, 2020

Pursuant to the Governor’s Executive Orders, malls remain closed until Friday, July 10, 2020
when malls may reopen in regions that have reached Phase 4 and adhere to the following
guidance. Specifically, any indoor common portions of retail shopping malls with 100,000 or more
square feet of retail space available for lease must remain closed to the public until Friday, July 10, 2020
when malls in Phase 4 regions may reopen; however, any stores without their own external entrance(s)
may operate via curbside pickup in Phase 1 and 2 providing purchased items to customers at or near the
general mall entrance and any stores with their own external entrance(s) separate from the general mall
entrance (e.g. strip malls, anchor tenants), may open for curbside and in-store pickup in Phase 1 and all
in-store retail activities in Phase 2.
Purpose
This Interim Guidance for Malls during the COVID-19 Public Health Emergency (“Interim COVID-19
Guidance for Malls”) was created to provide proprietors/owners/operators of malls and their employees,
contractors, vendors, and customers with precautions to help protect against the spread of COVID-19.
This guidance applies to all indoor, strip, and outlet malls permitted to operate. This guidance does not
apply to restaurants or other food services, movie theaters, retailers of rental goods, or personal care
services, such as hair salons, nail salons, spas, tattoo parlors, laser hair removal, or electrolysis, that may
be located in such malls.
Retail stores within malls must follow the guidelines outlined in the Department of Health’s (DOH) “Interim
Guidance for Essential and Phase II Retail Business Activities during the COVID-19 Public Health
Emergency.” Restaurants and other food services within malls must follow the guidelines outlined in DOH’s
“Interim Guidance for Food Services during the COVID-19 Public Health Emergency.” Movie theaters within
malls must follow any guidance issued for such purpose (at the time of publication, movie theaters are not
permitted to open). Personal care services within malls must follow the guidelines outlined in DOH’s “Interim
Guidance for Personal Care Services during the COVID-19 Public Health Emergency.” All other business
within malls should refer to their respective industry guidelines, if and where applicable.
These guidelines are minimum requirements only and any mall proprietor/owner/operator is free to
provide additional precautions or increased restrictions. These guidelines are based on the best-known
public health practices at the time of publication, and the documentation upon which these guidelines are
based can and does change frequently. The Responsible Parties – as defined below – are accountable for
adhering to all local, state and federal requirements relative to mall operations. The Responsible Parties
are also accountable for staying current with any updates to these requirements, as well as incorporating
same into any mall operations and/or Site Safety Plan.
Background
12

- App. 278 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 14 of 26 PageID #: 252

On March 7, 2020, Governor Andrew M. Cuomo issued Executive Order 202, declaring a state of
emergency in response to COVID-19. Community transmission of COVID-19 has occurred throughout
New York. To minimize further spread, social distancing of at least six feet must be maintained between
individuals, where possible.
On March 20, 2020, Governor Cuomo issued Executive Order 202.6, directing all non-essential businesses
to close in-office personnel functions. Essential businesses, as defined by Empire State Development
Corporation (ESD) guidance, were not subject to the in-person restriction, but were, however, directed to
comply with the guidance and directives for maintaining a clean and safe work environment issued by
DOH, and were strongly urged to maintain social distancing measures to the extent possible.
On April 12, 2020, Governor Cuomo issued Executive Order 202.16, directing essential businesses to
provide employees, who are present in the workplace, with a face covering, at no-cost, that must be
used when in direct contact with customers or members of the public during the course of their work.
On April 15, 2020, Governor Cuomo issued Executive Order 202.17, directing that any individual who is
over age two and able to medically tolerate a face-covering must cover their nose and mouth with a
mask or cloth face-covering when in a public place and unable to maintain, or when not maintaining,
social distance. On April 16, 2020, Governor Cuomo issued Executive Order 202.18, directing that
everyone using public or private transportation carriers or other for-hire vehicles, who is over age two
and able to medically tolerate a face covering, must wear a mask or cloth face covering over the nose
and mouth during any such trip. It also directed any operators or drivers of public or private transport to
wear a mask or cloth face covering which covers the nose and mouth while there are any passengers in
such a vehicle. On May 29, 2020, Governor Cuomo issued Executive Order 202.34, authorizing business
operators/owners with the discretion to deny admittance to individuals who fail to comply with the face
covering or mask requirements.
On April 26, 2020, Governor Cuomo announced a phased approach to reopen industries and businesses
in New York in phases based upon a data-driven, regional analysis. On May 4, 2020, the
Governor provided that the regional analysis would consider several public health factors, including new
COVID-19 infections, as well as health care system, diagnostic testing, and contact tracing capacity. On
May 11, 2020, Governor Cuomo announced that the first phase of reopening would begin on May 15,
2020 in several regions of New York, based upon available regional metrics and indicators. On May 29,
2020, Governor Cuomo announced that the second phase of reopening would begin in several regions of
the state, and announced the use of a new early warning dashboard that aggregates the state's
expansive data collection efforts for New Yorkers, government officials, and experts to monitor and
review how the virus is being contained to ensure a safe reopening. On June 11, Governor Cuomo
announced that the third phase of reopening would begin on June 12 in several regions of New York. On
June 24, 2020, Governor Cuomo announced that several regions of the state were on track to enter the
fourth phase of reopening starting on June 26.
In addition to the following standards, businesses must continue to comply with the guidance and
directives for maintaining clean and safe work environments issued by DOH.
Please note that where guidance in this document differs from other guidance documents issued by New
York State, the more recent guidance shall apply.
Standards for Responsible Mall Operations in New York State
No mall operation can occur without meeting the following minimum State standards, as well as
applicable federal requirements, including but not limited to such minimum standards of the Americans
with Disabilities Act (ADA), Centers for Disease Control and Prevention (CDC), Environmental Protection

13

2

- App. 279 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 15 of 26 PageID #: 253

Agency (EPA), and United States Department of Labor’s Occupational Safety and Health Administration
(OSHA).
The State standards contained within this guidance apply to all malls in operation during the COVID-19
public health emergency until rescinded or amended by the State. The proprietor/operator of the mall, or
another party as may be designated by the proprietor/operator (in either case, "the Responsible Parties"),
shall be responsible for meeting these standards.
The proprietor/operator of the mall, or their designee, shall be primarily responsible for meeting
standards with respect to any common areas. Tenants, if not the proprietor/operator, shall be primarily
responsible for meeting these standards with respect to their leased space(s), unless the tenant and
proprietor/operator reach an alternate agreement in regard to such responsibilities (e.g. joint screening
protocol).
Except where noted otherwise, references made to “employees” (1) include employees, contractors, and
vendors, and (2) references to “employees and/or visitors” are to the proprietor/operator of the mall and
their employees and/or visitors. Responsible Parties should coordinate with tenant entities occupying
space within the mall, where applicable, on the implementation of practices in accordance with this
guidance. For more information on such entities and their employees, contractors, and visitors, see the
guidance referenced above.
The following guidance is organized around three distinct categories: people, places, and processes.

I. PEOPLE
A. Physical Distancing
•

Responsible Parties, in coordination with any tenants, must ensure that the workforce and customer
presence is limited to no more than 50% of the maximum occupancy for a particular area as set by
the certificate of occupancy, inclusive of customers, who must maintain six feet of separation from
individuals who are not in their immediate party/household/family and, in all cases, must only be
permitted entry into the mall and businesses within the mall if they wear an acceptable face
covering; provided however, that the customer is over the age of two and able to medically tolerate
such covering; and

•

Responsible Parties must ensure a distance of at least six feet is maintained among employees and
customers at all times, unless the safety or the core activity requires a shorter distance (e.g.
operating cash registers, moving and lifting merchandise). Employees must wear acceptable face
coverings any time they interact with customers (e.g. providing information to customers, ringing up
a purchase, wrapping an item to hand off) and any time employees are within six feet of another
person. Employees must be prepared to don a face covering if another person unexpectedly comes
within six feet. Customers entering the mall must also wear a face covering.
o

Acceptable face coverings for COVID-19 include but are not limited to cloth-based face coverings
and disposable masks that cover both the mouth and nose.

o

However, cloth, disposable, or other homemade face coverings are not acceptable face coverings
for workplace activities that typically require a higher degree of protection for personal protective
equipment (PPE) due to the nature of the work. For those activities, N95 respirators or other PPE
used under existing industry standards should continue to be used, as is defined in accordance
with OSHA guidelines.

14

3

- App. 280 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 16 of 26 PageID #: 254

•

•

Responsible Parties may modify the use and/or restrict the number of work spaces and employee
seating areas, so that individuals are at least six feet apart in all directions (e.g. side-to-side and
when facing one another) and are not sharing spaces without cleaning and disinfection between use.
When distancing is not feasible between work stations or spaces, Responsible Parties must provide
and require the use of face coverings or physical barriers such as plastic shielding walls, in lieu of
face coverings in areas where they would not affect air flow, heating, cooling, or ventilation.
o

If used, physical barriers should be put in place in accordance with OSHA guidelines.

o

Physical barrier options may include: strip curtains, plexiglass or similar materials, or other
impermeable dividers or partitions.

Responsible Parties are encouraged to modify mall layouts so that employees and customers are at
least six feet apart in all directions when employees are working and customers are browsing, unless
physical barriers are in place (e.g. Plexiglass or partitions at cash registers).
o

Responsible Parties must require that employees use face coverings when interacting with
customers. Responsible Parties shall not permit customers into the mall without a face covering,
if medically able to tolerate one, and are over age two.

o

If entry is denied, Responsible Parties should seek to provide alternate methods of pickup and/or
delivery for customers, particularly to ensure access to essential goods, including but not limited
to food, medication, and medical equipment or supplies.

o

Responsible Parties must reserve adequate space for employees and customers to work and
shop, considering appropriate social distancing.

o

Responsible Parties should consider creating one-way corridors or aisles, or otherwise
rearranging traffic flow.

•

Responsible Parties must prohibit the use of small spaces (e.g. elevators, bathrooms, stock rooms) by
more than one individual at a time, unless all individuals in such spaces at the same time are wearing
acceptable face coverings. However, occupancy must never exceed 50% of the maximum capacity of
the space, unless it is designed for use by a single occupant. Responsible Parties should increase
ventilation with outdoor air to the greatest extent possible (e.g. opening windows, leaving doors
open), while maintaining safety protocols.

•

Responsible Parties should encourage the use of touchless payment options or pay ahead, when
available. Minimize handling cash, credit cards, reward cards, and mobile devices, where possible.

•

Responsible Parties should put in place measures to reduce bi-directional foot traffic of customers
using tape or signs with arrows in corridors and hallways, and post signage and distance markers
denoting spaces of six feet in all commonly used areas and any areas in which lines are commonly
formed or people may congregate (e.g., clock in/out stations, health screening stations, in-mall
kiosks, break rooms).
o

Where possible, Responsible Parties should place markers or barriers to encourage one
directional traffic.

•

Responsible Parties must post signage and distance markers denoting spaces of six feet in all
commonly used areas and any areas in which lines are commonly formed or people may congregate
(e.g. clock in/out stations, health screening stations, break rooms, cash register areas, near
merchandise, in aisles).

•

Responsible Parties must post signs inside and outside of the mall, consistent with DOH COVID-19
signage. Responsible Parties can develop their own customized signage specific to their workplace or

15

4

- App. 281 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 17 of 26 PageID #: 255

setting, provided that such signage is consistent with the Department’s signage. Signage should be
used to remind employees and customers to:
o

Stay home if sick.

o

Cover their nose and mouth with face covering.

o

Properly store and, when necessary, discard PPE.

o

Adhere to physical distancing instructions.

o

Report symptoms of or exposure to COVID-19, and how they should do so.

o

Follow hand hygiene and cleaning and disinfection guidelines.

o

Follow appropriate respiratory hygiene and cough etiquette.

B. Gatherings in Enclosed Spaces
•

Responsible Parties should limit in-person gatherings of employees (e.g. team meetings, stock
rooms) to the extent possible, and use other methods such as video or teleconferencing whenever
possible, per CDC guidance “Interim Guidance for Businesses and Employers to Plan and Respond to
Coronavirus Disease 2019 (COVID-19)”. Responsible Parties should hold in-person employee
meetings in open, well-ventilated spaces and ensure that individuals maintain six feet of social
distance between one another (e.g. if there are chairs, leave space between chairs, have employees
sit in alternating chairs) or wear appropriate face coverings.

•

Responsible Parties should encourage social distancing by limiting occupancy or closing non-essential
amenities and communal areas that do not allow for social distancing protocols. If open, Responsible
Parties must make hand sanitizer or disinfecting wipes available next to equipment near such
amenities (e.g. vending machines, communal coffee stations).

•

Responsible Parties must put in place practices for adequate social distancing in small areas, such as
restrooms and breakrooms, and should develop signage and systems (e.g. flagging when occupied)
to restrict occupancy when social distancing cannot be maintained in such areas; and

•

Responsible Parties should stagger schedules for employees to observe social distancing (i.e., six feet
of space) for any gathering (e.g. while taking breaks).

C. Workplace Activity
•

•

Responsible Parties must take measures to reduce interpersonal contact and congregation, through
methods such as:
o

adjusting workplace hours;

o

reducing on-site workforce, where appropriate, to accommodate social distancing guidelines;

o

shifting design (e.g. A/B teams, staggered arrival/departure times);

o

batching activities, where possible, so employees can adhere to social distancing and reduce the
number of hands touching products at the same time (e.g. one employee does all packing and a
separate employee fulfills the delivery); and/or

o

encouraging, but not requiring, customers to bag their own purchases.

Responsible Parties should adjust retail hours as necessary to enable enhanced cleaning and
disinfection procedures.
16

5

- App. 282 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 18 of 26 PageID #: 256

D. Movement and Commerce
•

Responsible Parties must monitor and control the flow of traffic into the mall to ensure adherence to
maximum capacity requirements.
o

Responsible Parties should maintain sufficient employee or security presence to monitor traffic
flow and to ensure groups adhere to social gathering limitations.

o

Responsible Parties must prohibit congregating and loitering by customers and should maintain
sufficient employee or security presence, including hiring additional staff, to eliminate
congregating and loitering.

•

Responsible Parties must establish designated areas for deliveries, limiting contact to the extent
possible.

•

Responsible Parties should provide clearly designated, separate entrances and exits, where possible.
o

Responsible Parties must be prepared to queue customers outside both mall and businesses
while still maintaining physical distance including through the use of visual cues or markers.

•

For merchandise deliveries, Responsible Parties should implement a touchless delivery system
whereby drivers stay in the cab of the vehicle while delivery takes place or, where not practicable,
Responsible Parties must provide acceptable PPE appropriate to the anticipated activities that
includes, at a minimum, a face covering to personnel involved in the delivery at no cost for the
duration of the delivery process.

•

Responsible Parties must perform hand hygiene hands before and after transferring a load (e.g. from
a delivery driver) of merchandise (e.g. perform hand hygiene before starting to load items; and once
all items have been loaded, finish by performing hand hygiene again).

•

Responsible parties should designate curbside pick-up area(s) for interior stores.

•

Responsible parties must suspend valet services.

•

Effective August 20, 2020, Responsible Parties may open limited food court seating areas; provided,
however, that such seating areas and the food services establishments located within the food courts
operate in accordance with DOH's "Interim Guidance for Food Services during the COVID-19 Public
Health Emergency," including any required separation between tables with seating, social distancing
between parties of customers, and occupancy limits.

•

Responsible Parties must close or modify amenities, where applicable, including:
o

Closing common seating areas within the mall, except food court seating areas as provided
above;

o

Closing self-serve bars and samplers; and

o

Closing water fountains.

II. PLACES
A. Air Filtration and Building Systems

17

6

- App. 283 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 19 of 26 PageID #: 257

•

For malls that are greater than 800,000 square feet, Responsible Parties must ensure building HVAC
system filtration meets the highest rated filtration compatible with the currently installed filter rack
and air handling systems, at a minimum MERV-13, or industry equivalent or greater (e.g., HEPA), as
applicable, and as certified and documented by a certified HVAC technician, professional, or
company, ASHRAE-certified professional, certified retro-commissioning professional, or New Yorklicensed professional building engineer.
o

•

▪

Increasing ventilation rates and outdoor air ventilation to the extent possible;

▪

Keeping systems running for longer hours (e.g., 24/7 if possible);

▪

Disabling demand-controlled ventilation, where reasonable, but still maintaining systems that
increase fresh air supply (e.g., conference or meeting rooms);

▪

Opening outdoor air dampers to reduce or eliminate recirculation to the extent possible;

▪

Considering the installation of appropriately designed and deployed ultraviolet germicidal
irradiation (UVGI) to deactivate airborne virus particles;

▪

Sealing edges of the filter to limit bypass; and/or

▪

Regularly inspecting systems and filters to ensure they are properly operating, and filters are
appropriately installed, serviced and within service life.

If a mall greater than 800,000 square feet is unable to meet a building HVAC system filtration rating
of MERV-13 or greater, Responsible Parties must have a certified HVAC technician, professional, or
company, ASHRAE-certified professional, certified retro-commissioning professional, or New Yorklicensed professional building engineer certify and document that the currently installed filter rack
and air handling system would be unable to perform to the minimum level of heating and cooling that
it was otherwise able to provide prior to the COVID-19 public health emergency if such a high degree
of filtration (i.e., MERV-13 or greater) was installed. Further, Responsible Parties must submit such
documentation to DOH for review and approval to operate at a lesser filtration rating of MERV-11 or
MERV-12 with additional ventilation and air filtration mitigation protocols. In all instances, however,
Responsible Parties must maintain a building HVAC system filtration rating of, at least, MERV-11.
o

•

Responsible Parties may also consider adopting additional ventilation and air filtration mitigation
protocols per CDC recommendations, particularly for buildings older than 15 years, including:

In addition, Responsible Parties who are unable to meet a filtration rating of MERV-13 or greater
must put in place additional ventilation and air filtration mitigation protocols per CDC
recommendations, where appropriate, including:
▪

Increasing ventilation rates and outdoor air ventilation to the extent possible;

▪

Keeping systems running for longer hours (e.g., 24/7 if possible);

▪

Disabling demand-controlled ventilation, where reasonable, but still maintaining systems that
increase fresh air supply (e.g., conference or meeting rooms);

▪

Opening outdoor air dampers to reduce or eliminate recirculation to the extent possible;

▪

Considering the installation of appropriately designed and deployed ultraviolet germicidal
irradiation (UVGI) to deactivate airborne virus particles;

▪

Sealing edges of the filter to limit bypass; and/or

▪

Regularly inspecting systems and filters to ensure they are properly operating, and filters are
appropriately installed, serviced and within service life.

For malls that are less than 800,000 square feet, Responsible Parties must ensure building HVAC
system filtration meets the highest rated filtration compatible with the currently installed filter rack
18

7

- App. 284 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 20 of 26 PageID #: 258

and air handling systems, at a minimum MERV-11, or industry equivalent or greater (e.g., HEPA), but
ideally MERV-13, as applicable, and as certified and documented by a certified HVAC technician,
professional, or company, ASHRAE-certified professional, certified retro-commissioning professional,
or New York-licensed professional building engineer.
o

•

Responsible Parties may also consider adopting additional ventilation and air filtration mitigation
protocols per CDC recommendations, particularly for buildings operating HVAC systems at less
than MERV-13 filtration rating and buildings older than 15 years, including:
▪

Increasing ventilation rates and outdoor air ventilation to the extent possible;

▪

Keeping systems running for longer hours (e.g., 24/7 if possible);

▪

Disabling demand-controlled ventilation, where reasonable, but still maintaining systems that
increase fresh air supply (e.g., conference or meeting rooms);

▪

Opening outdoor air dampers to reduce or eliminate recirculation to the extent possible;

▪

Considering the installation of appropriately designed and deployed ultraviolet germicidal
irradiation (UVGI) to deactivate airborne virus particles;

▪

Sealing edges of the filter to limit bypass; and/or

▪

Regularly inspecting systems and filters to ensure they are properly operating, and filters are
appropriately installed, serviced and within service life.

Before occupants return to a building that has been entirely closed, Responsible Parties must
complete pre-return checks, tasks, and assessments to ensure a healthy and safe environment.
These systems include, but are not limited to, mechanical systems, water systems, elevators, and
HVAC systems.
o

Depending on the length of time equipment has been inactive, Responsible Parties should run
systems with careful observation to ensure machinery (e.g. valves and switches) are operating
correctly.

o

Specific system actions may be required to restart systems after prolonged shutdown.
Responsible Parties may determine necessity for each of these items based on length of
shutdown and condition as inspected.

o

As appropriate and applicable, Responsible Parties should flush building with fresh air based on
the design of the makeup/outside air system for a minimum of 24 hours.

o

Responsible Parties must ensure air filters are replaced as needed (e.g. after flushing the
building).

o

Responsible Parties must ensure maintenance and monitoring of cooling towers have been
conducted in accordance with state regulations and that chemical and microbial levels are within
defined ranges for any closed water systems and/or water features, and drain any devices that
may contain stagnant water.

o

Responsible Parties must flush cold- and hot-water systems in accordance with building water
management plan, if applicable.

o

Responsible Parties must ensure any water filters are replaced as needed after flushing the
building’s water systems.

o

For buildings that were entirely closed, Responsible Parties should ensure that the operation of all
mechanical equipment and systems has been restored prior to reopening the building.
19

8

- App. 285 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 21 of 26 PageID #: 259

B. Protective Equipment
•

Responsible Parties must ensure employees wear face coverings when they are within six feet of
customers or coworkers. Employees also must wear face coverings any time they interact with
customers (e.g. ringing up a purchase, wrapping an item to hand off, security interactions).

•

Responsible Parties must ensure that customers are only permitted entry into the mall and
businesses within the mall if they wear an acceptable face covering; provided, however, that the
customer is over the age of two and able to medically tolerate such covering.

•

In addition to necessary PPE as required for certain workplace activities, Responsible Parties must
procure, fashion, or otherwise obtain acceptable face coverings and provide such coverings to their
employees while at work at no cost to the employee. Responsible Parties should have an adequate
supply of face coverings and other required PPE on hand should an employee or customer need a
replacement. Acceptable face coverings include, but are not limited to, cloth (e.g. homemade sewn,
quick cut, bandana), surgical masks, N95 respirators, and face shields.

•

Face coverings must be cleaned or replaced after use and may not be shared. Please consult CDC
guidance for additional information on cloth face coverings and other types of PPE as well as
instructions on use and cleaning.
o

Note that cloth face coverings or disposable masks shall not be considered acceptable face
coverings for workplace activities that require a higher degree of protection for face covering
requirements. For example, if N95 respirators are traditionally required for specific retail
activities, a cloth or homemade mask would not suffice. Responsible Parties must adhere to
OSHA standards for such safety equipment.

•

Responsible Parties must allow employees to use their own acceptable face coverings but cannot
require employees to supply their own face coverings. Further, this guidance shall not prevent
employees from wearing their personally owned protective face coverings (e.g. surgical masks, N95
respirators, or face shields). Responsible Parties may require employees to wear more protective PPE
due to the nature of their work. Employers should comply with all applicable OSHA standards.

•

Responsible Parties must put in place measures to limit the sharing of objects, such as tools,
registers, and vehicles, as well as the touching of shared surfaces; or, require employees to wear
gloves (trade-appropriate or medical) when in contact with shared objects or frequently touched
surfaces; or, require employees to perform hand hygiene before and after contact.

•

Responsible Parties must ensure gloves are worn while handling any food products.

•

Responsible Parties must train employees on how to adequately put on, take off, clean (as
applicable), and discard PPE, including but not limited to, appropriate face coverings.

C. Hygiene, Cleaning, and Disinfection
•

Responsible Parties must ensure adherence to hygiene and cleaning and disinfection requirements as
advised by the CDC and DOH, including “Guidance for Cleaning and Disinfection of Public and Private
Facilities for COVID-19,” and the “STOP THE SPREAD” poster, as applicable. Responsible Parties must
maintain logs that include the date, time, and scope of cleaning and disinfection.

•

Responsible Parties must provide and maintain hand hygiene stations on site, as follows:
o

For handwashing: soap, running warm water, and disposable paper towels.
20

9

- App. 286 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 22 of 26 PageID #: 260

o

For hand sanitizing: an alcohol-based hand sanitizer containing at least 60% alcohol for areas
where handwashing facilities may not be available or practical.

o

Responsible Parties must make hand sanitizer available throughout the mall for use by employees
and customers; it should be placed in convenient locations such as points of entrance of the mall,
information kiosks, and entrances of each store for customers and at cash registers or payment
terminals. Responsible Parties must include signage indicating that visibly soiled hands should be
washed with soap and water; hand sanitizer is not effective on visibly soiled hands.

•

Responsible Parties must provide appropriate cleaning and disinfection supplies for shared and
frequently touched surfaces and encourage employees to use these supplies, following
manufacturers’ instructions for use, before and after use of these surfaces, followed by hand hygiene.

•

Responsible Parties must conduct regular cleaning and disinfection of the mall and more frequent
cleaning and disinfection for high risk areas used by many individuals and for frequently touched
surfaces. Cleaning and disinfection must be rigorous and ongoing and should occur at least after
each twice daily, or more frequently as needed. Please refer to DOH’s “Interim Guidance for Cleaning
and Disinfection of Public and Private Facilities for COVID-19” for detailed instructions on how to
clean and disinfect facilities.
o

Responsible Parties must ensure regular cleaning and disinfection of restrooms. Restrooms
should be cleaned and disinfected more often depending on frequency of use.
▪

Responsible Parties must ensure distancing rules are adhered to by using signage, occupied
markers, or other methods to reduce restroom capacity where feasible.

o

Responsible Parties must ensure that equipment is regularly cleaned and disinfected using
registered disinfectants, including at least as often as employees change workstations. Refer to
the Department of Environmental Conservation (DEC) list of products registered in New York
State identified by the EPA as effective against COVID-19.

o

If cleaning or disinfection products or the act of cleaning and disinfection causes safety hazards
or degrades the material or equipment, Responsible Parties must put in place hand hygiene
stations between use and/or supply disposable gloves and/or limitations on the number of
employees using such equipment.

•

Responsible Parties must provide for the cleaning and disinfection of exposed areas in the event of a
positive case of COVID-19 of an employee or customer, with such cleaning and disinfection to
include, at a minimum, all heavy transit areas and high-touch surfaces (e.g. vending machines,
handrails, bathrooms, door knobs).

•

CDC guidelines on “Cleaning and Disinfecting Your Facility” if someone is suspected or confirmed to
have COVID-19 are as follows:
o

Close off areas used by the person suspected or confirmed to have COVID-19 .
▪

Responsible Parties do not necessarily need to close operations, if they can close off the
affected areas.

o

Open outside doors and windows to increase air circulation in the area.

o

Wait 24 hours before you clean and disinfect. If 24 hours is not feasible, wait as long as possible.

o

Clean and disinfect all areas used by the person suspected or confirmed to have COVID-19 , such as
offices, bathrooms, common areas, and shared equipment.

o

Once the area has been appropriately cleaned and disinfected, it can be re-opened for use.

21

10

- App. 287 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 23 of 26 PageID #: 261

▪
▪
o

Employees without close or proximate contact with the person suspected or confirmed to have
COVID-19 can return to the work area immediately after cleaning and disinfection.
Refer to DOH’s “Interim Guidance for Public and Private Employees Returning to Work
Following COVID-19 Infection or Exposure“ for information on “close or proximate” contacts.

If more than seven days have passed since the person suspected or confirmed to have COVID-19
visited or used the mall location, additional cleaning and disinfection is not necessary, but routine
cleaning and disinfection should continue.

•

For activities involving the handling of shared objects (e.g. baskets, payment devices), areas (e.g.
pickup area), and/or surfaces (e.g. doors, touch-screen directories), Responsible Parties must ensure
that such areas and objects are cleaned and disinfected twice daily, at a minimum.

•

Responsible Parties must prohibit employees from sharing food and beverages (e.g. buffet style
meals), encourage bringing lunch from home, and reserve adequate space for employees to observe
social distancing while eating meals.

D. Phased Reopening
•

Responsible Parties are encouraged to phase-in reopening activities so as to allow for operational
issues to be resolved before mall activities return to normal levels. Responsible Parties should
consider limiting the number of employees, hours, and number of customers available to be served
when first reopening to provide operations with the ability to adjust to the changes.

E. Communications Plan
•

Responsible Parties must affirm that they have reviewed and understand the state-issued industry
guidelines, and that they will implement them.

•

Responsible Parties should develop a communications plan for employees and customers that
includes applicable instructions, training, signage, and a consistent means to provide employees with
information. Responsible Parties may consider developing webpages, text and email groups, and
social media.

•

Responsible Parties should encourage customers to adhere to CDC and DOH guidance regarding the
use of PPE, specifically face coverings when a social distance of six feet cannot be maintained,
through verbal communication and signage.

•

Responsible Parties should post signage inside and outside of the mall to remind personnel and
customers to adhere to proper hygiene, social distancing rules, appropriate use of PPE, and cleaning
and disinfection protocols.

III. PROCESSES
A. Screening and Testing
•

Responsible Parties must implement mandatory daily health screening practices for employees and,
where practicable, visitors, but such screening shall not be mandated for customers or delivery
personnel.

22

11

- App. 288 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 24 of 26 PageID #: 262

o

Screening practices may be performed remotely (e.g. by telephone or electronic survey), before
the employee reports to the workplace, to the extent possible; or may be performed on site.

o

Screening should be coordinated to prevent employees from intermingling in close or proximate
contact with each other prior to completion of the screening.

o

At a minimum, screening must be required of all employees and visitors (but not customers) and
completed using a questionnaire that determines whether the employee or visitor has:
(a) knowingly been in close or proximate contact in the past 14 days with anyone who has
tested positive for COVID-19 or who has or had symptoms of COVID-19;
(b) tested positive for COVID-19 in the past 14 days; and/or
(c) has experienced any symptoms of COVID-19 in the past 14 days.

•

Refer to CDC guidance on “Symptoms of Coronavirus” for the most up to date information on
symptoms associated with COVID-19.

•

Responsible Parties must require individuals to immediately disclose if and when their responses to
any of the aforementioned questions changes, such as if they begin to experience symptoms,
including during or outside of work hours.

•

In addition to the screening questionnaire, temperature checks may also be conducted per Equal
Employment Opportunity Commission or DOH guidelines. Responsible Parties are prohibited from
keeping records of employee health data (e.g. the specific temperature data of an individual), but are
permitted to maintain records that confirm individuals were screened and the result of such screening
(e.g. pass/fail, cleared/not cleared).

•

Responsible Parties must ensure that any personnel performing screening activities, including
temperature checks, are appropriately protected from exposure to potentially infectious employees
entering the mall. Personnel performing screening activities should be trained by employer-identified
individuals who are familiar with CDC, DOH, and OSHA protocols.

•

Screeners should be provided and use PPE, including at a minimum, a mask or cloth face covering,
and may include gloves, a gown, and/or a face shield.

•

An individual who screens positive for COVID-19 symptoms must not be allowed to enter the
workplace and must be sent home with instructions to contact their healthcare provider for
assessment and testing.
o

Responsible Parties should remotely provide such individuals with information on healthcare and
testing resources.

o

Responsible Parties must immediately notify the state and local health department about the case
if test results are positive for COVID-19.

•

Responsible Parties should refer to DOH’s “Interim Guidance for Public and Private Employees
Returning to Work Following COVID-19 Infection or Exposure” regarding protocols and policies for
employees seeking to return to work after a suspected or confirmed case of COVID-19 or after the
employee had close or proximate contact with a person with COVID-19.

•

Responsible Parties must designate a central point of contact, which may vary by activity, location,
shift or day, responsible for receiving and attesting to having reviewed all questionnaires, with such

23

12

- App. 289 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 25 of 26 PageID #: 263

contact also identified as the party for individuals to inform if they later are experiencing COVID-19related symptoms, as noted on the questionnaire.
o

If Responsible Parties and tenants have agreed to an alternate screening arrangement whereby
Responsible Parties screen on behalf of tenants, then Responsible Parties shall be responsible for
maintaining a record of the screening process. Maintaining record of employee health data (e.g.
the specific temperature data of an individual) is prohibited; the only records to be maintained on
a daily basis regarding the screening process are those individuals who were screened, and
confirmation that no employee or visitor who failed the screening process was granted access.

•

Responsible Parties must designate a site safety monitor whose responsibilities include continuous
compliance with all aspects of the site safety plan.

•

To the extent possible, Responsible Parties should maintain a log of every person, including
employees and visitors, who may have close or proximate contact with other individuals at the
workplace or area; excluding customers and deliveries that are performed with appropriate PPE or
through contactless means. Log should contain contact information, such that all contacts may be
identified, traced and notified in the event an employee is diagnosed with COVID-19. Responsible
Parties must cooperate with state and local health department contact tracing efforts.

•

Responsible Parties cannot mandate that customers complete a health screen or provide contact
information but may encourage customers to do so. Responsible Parties may provide an option for
customers to provide contact information so they can be logged and contacted for contact tracing, if
necessary.

B. Tracing and Tracking
•

Responsible Parties must notify the state and local health department where the business is located
immediately upon being informed of any positive COVID-19 test result by an employee at their
workplace.

•

In the case of an employee or customer who interacted at the mall testing positive, the Responsible
Parties must cooperate with the state and local health department to trace all contacts in the
workplace and notify the state and local health department of all employees logged and
visitors/customers (as applicable) who entered the mall dating back to 48 hours before the employee
began experiencing COVID-19 symptoms or tested positive, whichever is earlier, but maintain
confidentiality as required by federal and state law and regulations.

•

State and local health departments will implement monitoring and movement restrictions of infected
or exposed persons including home isolation or quarantine.

•

Individuals who are alerted that they have come into close or proximate contact with a person with
COVID-19, and have been alerted via tracing, tracking or other mechanism, are required to selfreport to their employer at the time of alert and shall follow the protocol referenced above.

IV. EMPLOYER PLANS
Responsible Parties must conspicuously post completed safety plans on site for employees. The State has
made available a business reopening safety plan template to guide business owners and operators in
developing plans to protect against the spread of COVID-19.

24

13

- App. 290 -

Case 1:20-cv-04834-KAM-RML Document 2-16 Filed 10/08/20 Page 26 of 26 PageID #: 264

Additional safety information, guidelines, and resources are available at:
New York State Department of Health Novel Coronavirus (COVID-19) Website
https://coronavirus.health.ny.gov/
Centers for Disease Control and Prevention Coronavirus (COVID-19) Website
https://www.cdc.gov/coronavirus/2019-ncov/index.html
Occupational Safety and Health Administration COVID-19 Website
https://www.osha.gov/SLTC/covid-19/

At the link below, affirm that you have read and understand your obligation to
operate in accordance with this guidance:
https://forms.ny.gov/s3/ny-forward-affirmation

25

14

- App. 291 -

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 1 of 11 PageID #: 163

EXHIBIT I

- App. 292 -

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 2 of 11 PageID #: 164

INTERIM GUIDANCE FOR RELIGIOUS & FUNERAL SERVICES
DURING THE COVID-19 PUBLIC HEALTH EMERGENCY
When you have read this document, you can affirm at the bottom.
As of June 26, 2020

Purpose
This Interim Guidance for Religious and Funeral Services and Operations of Faith-Based institutions
during the COVID-19 Public Health Emergency (“Interim COVID-19 Guidance for Religious and Funeral
Services and Operations of Faith-Based Institutions”) was created to provide faith leaders and officiants
of religious and funeral services and their employees, contractors, volunteers, and attendees with
precautions to help protect against the spread of COVID-19 as religious and funeral services reopen or
increase activity. This guidance applies to all religious and funeral gatherings, including burial and
committal services.
These guidelines are minimum requirements only, and additional precautions or increased restrictions
may be required by the institution or operator. These guidelines are based on the best-known public
health practices at the time of publication, and the documentation upon which these guidelines are based
can and does change frequently. The Responsible Parties – as defined below – are accountable for
adhering to all local, state and federal requirements relative to religious and funeral services. The
Responsible Parties are also accountable for staying current with any updates to these requirements, as
well as incorporating same into any religious and funeral services and/or Site Safety Plan.
Background
On March 7, 2020, Governor Andrew M. Cuomo issued Executive Order 202, declaring a state of
emergency in response to COVID-19. Community transmission of COVID-19 has occurred throughout
New York. To minimize further spread, social distancing of at least six feet must be maintained between
individuals, where possible.
On April 15, 2020, Governor Cuomo issued Executive Order 202.17, directing that any individual who is
over age two and able to medically tolerate a face-covering must cover their nose and mouth with a
mask or cloth face-covering when in a public place and unable to maintain, or when not maintaining,
social distance. On April 16, 2020, Governor Cuomo issued Executive Order 202.18, directing that
everyone using public or private transportation carriers or other for-hire vehicles, who is over age two
and able to medically tolerate a face covering, must wear a mask or face covering over the nose and
mouth during any such trip. It also directed any operators or drivers of public or private transport to wear
a face covering or mask which covers the nose and mouth while there are any passengers in such a
vehicle. On May 29, 2020, Governor Cuomo issued Executive Order 202.34, authorizing business
operators/owners with the discretion to deny admittance to individuals who fail to comply with the face
covering or mask requirements.
On April 26, 2020, Governor Cuomo announced a phased approach to reopen industries and businesses
in New York in phases based upon a data-driven, regional analysis. On May 4, 2020, the
Governor provided that the regional analysis would consider several public health factors, including new
COVID-19 infections, as well as health care system, diagnostic testing, and contact tracing capacity. On
1

- App. 293 -

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 3 of 11 PageID #: 165

May 11, 2020, Governor Cuomo announced that the first phase of reopening would begin on May 15,
2020 in several regions of New York, based upon available regional metrics and indicators. On May 29,
2020, Governor Cuomo announced that the second phase of reopening would begin in several regions of
the state, and announced the use of a new early warning dashboard that aggregates the state's
expansive data collection efforts for New Yorkers, government officials, and experts to monitor and
review how the virus is being contained to ensure a safe reopening. On June 11, Governor Cuomo
announced that the third phase of reopening would begin on June 12 in several regions of New York.
In addition to the following standards, any Department of Health guidance and directives for maintaining
clean and safe work environments must be followed.
Please note that where guidance in this document differs from other guidance documents issued by New
York State, the more recent guidance shall apply.
Standards for Responsible Religious and Funeral Services in New York State
No religious and funeral services activity can occur without meeting the following minimum State
standards, as well as applicable federal requirements, including but not limited to such minimum
standards of the Americans with Disabilities Act (ADA), Centers for Disease Control and Prevention (CDC),
Environmental Protection Agency (EPA), and United States Department of Labor’s Occupational Safety
and Health Administration (OSHA).
The State standards contained within this guidance apply to all religious and funeral services in operation
during the COVID-19 public health emergency until rescinded or amended by the State. The operator of
the religious or funeral service, or another party as may be designated by the operator (in either case,
"the Responsible Parties"), shall be responsible for meeting these standards.
The following guidance is organized around three distinct categories: people, places, and processes.

I. PEOPLE
A. Physical Distancing
•

Responsible Parties must ensure that for any religious or funeral service, the congregant/attendee
capacity is limited to:
o

In Phase 1 regions, no more than 10 people for any services occurring indoor or outdoor.

o

In Phase 2 and 3 regions, no more than 25% of the maximum occupancy for a particular area as
set by the certificate of occupancy for services occurring indoor or no more than 25 people for
services occurring outdoor.

o

In Phase 4 regions, no more than 33% of the maximum occupancy for a particular area as set by
the certification of occupancy for services occurring indoor or no more than 50 people for
services occurring outdoor.
▪

If separate buildings are available for use, Responsible Parties may have multiple groups of
10 in separate buildings at the same time in Phase 1; a maximum occupancy of 25% in
separate buildings at the same time in Phase 2 and 3; or a maximum occupancy of 33% in
separate buildings at the same time in Phase 4 so long as the buildings have separate
entrances and exits designated and groups do not interact.

2

- App. 294 2-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 4 of 11 PageID #: 166

•

Responsible Parties must ensure that a distance of at least six feet is maintained amongst all
individuals at all times, unless safety of the core activity requires a shorter distance (e.g. pallbearing)
or the individuals are members of the same household. However, any singing activity must provide
for a distance between individuals of at least twelve feet, subject to additional protective measures
Any time employees, volunteers, and/or attendees must come within six feet of another person, (or
twelve feet if singing) acceptable face coverings must be worn, unless they are members of the same
household. Employees, volunteers, and/or attendees must be prepared to don a face covering if
another person unexpectedly comes within six feet (e.g. when walking to seats). (See below).
o

•

Acceptable face coverings to protect against COVID-19 include but are not limited to cloth-based
face coverings and disposable masks that cover both the mouth and nose.

Responsible Parties may modify the use and/or restrict the number of stations (e.g. podiums) and
seating areas, so that staff members, volunteers, and attendees are at least six feet apart in all
directions (e.g. side-to-side, in rows, and when facing one another) and are not sharing stations or
seats without cleaning and disinfection between use, unless all individuals are members of the same
household (e.g. seating allows household members to sit together, so long as six feet of distance
from non-household members). When distancing is not feasible between stations (e.g. sound
booths), Responsible Parties must provide and require the use of face coverings and/or enact
physical barriers, such as plastic shielding walls, in lieu of face coverings in areas where they would
not affect air flow, heating, cooling, or ventilation.
o

If used, physical barriers should be put in place in accordance with OSHA guidelines.

o

Physical barrier options may include strip curtains, plexiglass or similar materials, or other
impermeable dividers or partitions.

•

Responsible Parties must prohibit the use of small spaces (e.g. vehicles, elevators) by more than one
individual at a time, unless all individuals in such space at the same time are wearing acceptable face
coverings. However, even with face coverings in use, occupancy must never exceed 50% of the
maximum capacity of the space or vehicle, unless it is designed for use by a single occupant.
Responsible Parties should increase ventilation with outdoor air to the greatest extent possible (e.g.
opening windows and doors), while maintaining safety protocols. Responsible Parties should take
additional measures to prevent congregation in elevator waiting areas and limit density in elevators,
such as enabling the use of stairs.

•

Responsible Parties must put in place measures to reduce bi-directional foot traffic using tape or
signs with arrows in narrow aisles, hallways, pews, or spaces, and post signage and distance markers
denoting spaces of six feet in all commonly used areas and any areas in which lines are commonly
formed or people may congregate (e.g. restrooms, entrances, health screening stations, etc.).

•

Responsible Parties must post signs throughout the facility, consistent with DOH COVID-19 signage.
Responsible Parties can develop their own customized signage specific to their workplace or setting,
provided that such signage is consistent with the Department’s signage. Signage should be used to
remind individuals to:
o

Stay home if sick.

o

Cover their nose and mouth with a face covering.

o

Properly store and, when necessary, discard PPE.

o

Adhere to physical distancing instructions.

o

Report symptoms of or exposure to COVID-19, and how they should do so.

o

Follow hand hygiene and cleaning and disinfection guidelines.

3

- App. 295 3-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 5 of 11 PageID #: 167

o

Follow appropriate respiratory hygiene and cough etiquette.

o

Prohibit holding or shaking hands of members of different households during services or prayers.

B. Gatherings in Enclosed Spaces
•

Responsible Parties must limit in-person gatherings (e.g. rehearsals, congregational meetings) within
the following parameters, and may use other methods such as video, teleconferencing, or drive-in
services whenever possible, per CDC guidance “Interim Guidance for Businesses and Employers to
Plan and Respond to Coronavirus Disease 2019 (COVID-19)”.
o

In Phase 1 regions, no more than 10 people for any services occurring indoor or outdoor.

o

In Phase 2 and 3 regions, no more than 25% of the maximum occupancy for a particular area as
set by the certificate of occupancy for services occurring indoor or no more than 25 people for
services occurring outdoor.

o

In Phase 4 regions, no more than 33% of the maximum occupancy for a particular area as set by
the certification of occupancy for services occurring indoor or no more than 50 people for
services occurring outdoor.

•

Responsible Parties must put in place practices for adequate social distancing in small areas, such as
restrooms and breakrooms, and should develop signage and systems (e.g. flagging when occupied)
to restrict occupancy when social distancing cannot be maintained in such areas; and

•

Responsible Parties should stagger schedules for staff members and volunteers to observe social
distancing (e.g. six feet of space) for any gathering (e.g. coffee breaks, and shift starts/stops).

C. Gathering Activity
•

Responsible Parties must take measures to reduce interpersonal contact and congregation, through
methods such as:
o

limiting in-person presence of staff to only those employees/volunteers who are necessary;

o

holding services outdoors, when possible (e.g. outdoor service for religious gatherings, or
graveside-only service for funerals);

o

reducing on-site attendees to accommodate social distancing guidelines;

o

providing remote service options (e.g. live streaming, AM/FM broadcast);

o

allowing drive-in services:
▪

Ensure attendees remain in the vehicle in which they arrived.

▪

Attendees should not interact physically with clergy, employees, or attendees in other
vehicles.

▪

Vehicles should contain only members of a single household;

▪

Cars must be at least 6 feet apart, or use alternate parking spaces.

o

offering multiple service times, including separate times for vulnerable populations (e.g. those
over 70, who have underlying health condition, or those how are immunocompromised;

o

encouraging advanced sign-ups to manage capacity;

o

prioritizing activities that allow for social distancing over those that do not;
4

- App. 296 4-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 6 of 11 PageID #: 168

•

o

avoiding multiple people and/or teams working in one area by staggering scheduled activities and
using signs to indicate occupied areas;

o

changing or removing practices that involve close or proximate contact or sharing things among
members of different households, such as:
▪

sharing a car or limousine ride between locations;

▪

providing food and beverages for attendees before, during, or after the event or service.

Responsible Parties must limit activities involving singing, e.g., a choir, soloist, cantor, or musical
ensemble, unless at least 12 feet of separation can be provided between individuals, or additional
distancing or physical barriers can reduce transmission of respiratory droplets.

D. Movement and Operations
•

Responsible Parties must establish designated areas for pickups and deliveries, limiting contact to the
extent possible.

•

Responsible Parties should limit on-site interactions (e.g. designate an egress for individuals leaving
the premises and a separate ingress for individuals entering) and movements (e.g. individuals should
remain near their stations or seats as often as possible).

II. PLACES
A. Protective Equipment
•

Responsible Parties must procure, fashion, or otherwise obtain acceptable face coverings and provide
such coverings to their employees while at work at no cost to the employee. Responsible Parties
should have an adequate supply of face coverings, masks and other required personal protective
equipment (PPE) on hand should an employee need a replacement, or should a visitor or attendee be
in need. Acceptable face coverings include, but are not limited to, cloth (e.g. homemade sewn, quick
cut, bandana), surgical masks, and face shields.

•

Responsible Parties must ensure all attendees wear face coverings that completely cover the nose
and mouth unless doing so would be contrary to the individual’s health or safety due to medical a
condition, or if the attendee is under two years old.
o

Face coverings are required at all times except while seated, provided all individuals are six feet
apart except for immediate household members. Faith leaders, officiants, volunteers, and/or
attendees must be prepared to don a face covering if another person unexpectedly comes within
six feet (e.g. when walking to seats).

•

Face coverings must be cleaned or replaced after use and may not be shared. Please consult the CDC
guidance for additional information on cloth face coverings and other types of PPE, as well as
instructions on use and cleaning.

•

Responsible Parties must allow those performing the religious service or ceremony to use their own
acceptable face coverings but cannot require such participants to supply their own face coverings.
Further, this guidance shall not prevent employees, officiants, volunteers or attendees from wearing
their personally owned additional protective coverings (e.g. surgical masks, or face shields.

5

- App. 297 5-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 7 of 11 PageID #: 169

•

Responsible Parties should consider putting in place measures to limit the sharing of objects, such as
religious texts, collection plates, and other materials, as well as the touching of shared surfaces, such
as pews, instruments, doors, and railings; or, require employees and volunteers to wear gloves when
in contact with shared objects or frequently touched surfaces; or, require employees, volunteers, and
attendees to sanitize or wash their hands before and after contact.

•

If providing gowns or other garments, Responsible Parties must ensure they are clean and laundered
between uses.

•

Responsible Parties may implement the following practices to limit the sharing of materials:

•

o

Place donation plates/boxes in central location with proper distancing protocols in place;

o

Remove religious texts from pews or benches, and encourage congregation to bring their own;

o

If choir/musical ensemble meets enhanced distancing measures, encourage members to launder
their own gowns at home, and bring their own instruments, where possible;

o

Adapt certain religious practices that traditionally require close or proximate contact in order to
minimize contact between individuals; and/or

o

Empty fonts or other shared water-related service or ceremonial activities.

Responsible Parties must train employees on how to adequately don, doff, clean (as applicable), and
discard PPE, including but not limited to, appropriate face coverings.

B. Hygiene, Cleaning, and Disinfection
•

Responsible Parties must ensure adherence to hygiene, cleaning and disinfection requirements as
advised by the CDC and DOH, including “Guidance for Cleaning and Disinfection of Public and Private
Facilities for COVID-19,” and the “STOP THE SPREAD” poster, as applicable. Responsible Parties must
maintain logs that include the date, time, and scope of cleaning and disinfection.

•

Responsible Parties must provide and maintain hand hygiene stations on site, as follows:
o

For handwashing: soap, running warm water, and disposable paper towels.

o

For sanitizer: an alcohol-based hand sanitizer containing at least 60% alcohol for areas where
handwashing facilities may not be available or practical.

o

Hand sanitizer must be placed throughout the location for use by all attending or working. It
should be placed in convenient locations such as points of entrance/exit.

•

Responsible Parties should place signage near hand sanitizer stations indicating that visibly soiled
hands should be washed with soap and water; hand sanitizer is not effective on visibly soiled hands.

•

Responsible Parties should place receptacles around the facility for disposal of soiled items, including
PPE.

•

Responsible Parties must provide appropriate cleaning and disinfection supplies for shared and
frequently touched surfaces and encourage participants to use these supplies, following
manufacturers’ instructions, before and after use of these surfaces, followed by hand hygiene.

•

Responsible Parties must conduct regular cleaning and disinfection of the location or facility and more
frequent cleaning and disinfection for high risk areas used by many individuals and for frequently
touched surfaces. Cleaning and disinfection must be rigorous and ongoing and must occur at least
after each service. Please refer to DOH’s “Interim Guidance for Cleaning and Disinfection of Public
and Private Facilities for COVID-19” for detailed instructions on how to clean and disinfect facilities.
6

- App. 298 6-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 8 of 11 PageID #: 170

o

Responsible Parties must ensure regular cleaning and disinfection of restrooms. Restrooms
should be cleaned and disinfected more often depending on frequency of use.
▪

•

Responsible Parties must ensure distancing rules are adhered to by reducing restroom
capacity where feasible.

o

Responsible Parties must ensure that shared objects are regularly disinfected using registered
disinfectants, including at least between services. Refer to the Department of Environmental
Conservation (DEC) list of products registered in New York State and identified by the EPA as
effective against COVID-19.

o

If cleaning or disinfection products or the act of cleaning and disinfection causes safety hazards
or degrades the material (e.g. religious artifact), Responsible Parties must put in place hand
hygiene stations between use and/or supply disposable gloves and/or limitations on the number
of individuals touching such material.

o

Responsible Parties must provide for the cleaning and disinfection of exposed areas in the event
of a positive case of COVID-19, with such cleaning and disinfection to include, at a minimum, all
heavy transit areas and high-touch surfaces (e.g. pews, religious texts, collection plates, railings,
doors and other objects).

CDC guidelines on “Cleaning and Disinfecting Your Facility” if someone is suspected or confirmed to
have COVID-19 are as follows:
o

Close off areas used by the person suspected or confirmed to have COVID-19.
▪

Responsible Parties do not necessarily need to close operations, if they can close off the
affected areas.

o

Open outside doors and windows to increase air circulation in the area.

o

Wait 24 hours before you clean or disinfect. If 24 hours is not feasible, wait as long as possible.

o

Clean and disinfect all areas used by the person suspected or confirmed to have COVID-19, such
as offices, bathrooms, common areas, and shared equipment.

o

Once the area has been appropriately disinfected, it can be opened for use.

o

▪

Anyone without close or proximate contact with the person suspected or confirmed to have
COVID-19 can return to the area immediately after disinfection.

▪

Refer to DOH’s “Interim Guidance for Public and Private Employees Returning to Work
Following COVID-19 Infection or Exposure“ for information on “close or proximate” contacts.

If more than seven days have passed since the person suspected or confirmed to have COVID-19
visited or used the facility, additional cleaning and disinfection is not necessary, but routine
cleaning and disinfection should continue.

•

For funeral related services, Responsible Parties must prohibit touching, hugging, or kissing the body
of a deceased person who had confirmed or suspected COVID-19 per CDC guidance, “Funeral
Guidance for Individuals and Families.”

•

Responsible Parties must prohibit shared food and beverages (e.g. self-serve meals and beverages).

D. Phased Reopening
•

Responsible Parties are encouraged to phase-in reopening activities so as to allow for operational
issues to be resolved before production or work activities return to normal levels. Responsible Parties
should consider limiting the number of staff members and volunteers, hours, and number of
7

- App. 299 7-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 9 of 11 PageID #: 171

attendees available to be served when first reopening so as to provide operations with the ability to
adjust to the changes.
D. Communications Plan
•

Responsible Parties must affirm that they have reviewed and understand the state-issued industry
guidelines, and that they will implement them.

•

Responsible Parties should develop a communications plan for employees, volunteers, or
congregants, that includes applicable instructions, training, signage, and a consistent means to
provide staff members with information. Responsible Parties may consider developing webpages, text
and email groups, and social media.

III. PROCESSES
A. Screening and Testing
•

Responsible Parties must implement mandatory daily health screening practices for employees, faith
leaders and volunteers. Responsible Parties are encouraged to offer optional health screenings for
attendees.
o

Screening practices may be performed remotely (e.g. by telephone or electronic survey), before
the person arrives to the building, to the extent possible; or may be performed on site.

o

Screening should be coordinated to prevent person from intermingling in close or proximate
contact with each other prior to completion of the screening.

o

At a minimum, screening must be completed using a questionnaire that determines whether the
person has:
(a) knowingly been in close or proximate contact in the past 14 days with anyone who has
tested positive for COVID-19 or who has or had symptoms of COVID-19;
(b) tested positive for COVID-19 in the past 14 days; and/or
(c) has experienced any symptoms of COVID-19 in the past 14 days.

•

Refer to CDC guidance on “Symptoms of Coronavirus” for the most up to date information on
symptoms associated with COVID-19.

•

Responsible Parties must require a person to immediately disclose if and when their responses to any
of the aforementioned questions changes, such as if they begin to experience symptoms, including
during or outside of work hours.

•

In addition to the screening questionnaire, temperature checks of employees may also be conducted
per U.S. Equal Employment Opportunity Commission or DOH guidelines. Responsible Parties are
prohibited from keeping records of individuals’ health data (e.g. the specific temperature data of an
individual), but are permitted to maintain records that confirm individuals were screened and the
result of such screening (e.g., pass/fail, cleared/not cleared).

•

Responsible Parties must ensure that any personnel performing screening activities, including
temperature checks, are appropriately protected from exposure to potentially infectious employees or
visitors entering the site. Personnel performing screening activities must be trained by individuals
who are familiar with CDC, DOH, and OSHA protocols.
8

- App. 300 8-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 10 of 11 PageID #: 172

•

Screeners must be provided and use PPE, including at a minimum, a face mask, and may include
gloves, a gown, and/or a face shield.

•

An individual who screens positive for COVID-19 symptoms must not be allowed to enter the
gathering place and must be sent home with instructions to contact their healthcare provider for
assessment and testing.
o

Responsible Parties should provide such individuals with information on healthcare and testing
resources.

o

Responsible Parties must immediately notify the state and local health department about the case
if test results are positive for COVID-19 and they are so informed by the affected person or
persons.

•

Responsible Parties should refer to DOH’s “Interim Guidance for Public and Private Employees
Returning to Work Following COVID-19 Infection or Exposure” regarding protocols and policies for
employees seeking to return to work after a suspected or confirmed case of COVID-19 or after the
employee had close or proximate contact with a person with COVID-19.

•

Responsible Parties must designate a central point of contact, which may vary by activity, location,
shift or day, responsible for receiving and attesting to having reviewed all questionnaires, with such
contact also identified as the party for individuals to inform if they later are experiencing COVID-19related symptoms, as noted on the questionnaire.

•

Responsible Parties must designate a site safety monitor whose responsibilities include continuous
compliance with all aspects of the site safety plan.

•

To the extent possible, Responsible Parties should maintain a log of every person, including
employees and visitors, who may have close or proximate contact with other individuals at the
gathering site or area; excluding deliveries that are performed with appropriate PPE or through
contactless means. The log should contain contact information, such that all contacts may be
identified, traced and notified in the event an employee, volunteer, or attendee is diagnosed with
COVID-19. Responsible Parties must cooperate with state and local health department contact tracing
efforts. The log is not required to maintain a list of attendees.

•

Responsible Parties cannot mandate that attendees complete a health screen or provide contact
information but may encourage attendees to do so. Responsible Parties may provide an option for
attendees to provide contact information so they can be logged and contacted for contact tracing, if
necessary.

B. Tracing and Tracking
•

Responsible Parties must notify the state and local health department immediately upon being
informed of any positive COVID-19 test result by an employee or faith leader at their site.

•

In the case of an employee or faith leader testing positive, the Responsible Parties must cooperate
with the state and local health department to trace all contacts in the workplace and notify the state
and local health department of all employees and visitors who entered the site dating back to 48
hours before the employee began experiencing COVID-19 symptoms or tested positive, whichever is
earlier, but maintain confidentiality as required by federal and state law and regulations.

•

State and local health departments will implement monitoring and movement restrictions of infected
or exposed persons including home isolation or quarantine.
9

- App. 301 9-

Case 1:20-cv-04834-KAM-RML Document 2-12 Filed 10/08/20 Page 11 of 11 PageID #: 173

•

Individuals who are alerted that they have come into close or proximate contact with a person with
COVID-19, and have been alerted via tracing, tracking or other mechanism, are required to selfreport to their employer at the time of alert and shall follow the protocol referenced above.

IV. OPERATOR PLANS
Responsible Parties must conspicuously post completed safety plans on site. The State has made
available a safety plan template to guide in developing plans to protect against the spread of COVID-19,
and such plans are adaptable for faith-based institutions to use.
Additional safety information, guidelines, and resources are available at:
New York State Department of Health Novel Coronavirus (COVID-19) Website
https://coronavirus.health.ny.gov/
Centers for Disease Control and Prevention Coronavirus (COVID-19) Website
https://www.cdc.gov/coronavirus/2019-ncov/index.html
Occupational Safety and Health Administration COVID-19 Website
https://www.osha.gov/SLTC/covid-19/

At the link below, affirm that you have read and understand your obligation to
operate in accordance with this guidance:
https://forms.ny.gov/s3/ny-forward-affirmation

10

- App. 30210-

Case 20-3572, Document 79, 10/29/2020, 2963260, Page1 of 19

20-3572-CV
IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN
HILLS, AGUDATH ISRAEL OF MADISON, RABBI YISROEL REISMAN,
STEVEN SAPHIRSTEIN,
Plaintiffs-Appellants,
v.
ANDREW M. CUOMO, in his official capacity as Governor of New York,
Defendant-Appellee.
Appeal from the United States District Court
for the Eastern District of New York
No. 1:20-cv-04834-KAM
REPLY BRIEF IN SUPPORT OF EMERGENCY MOTION OF
PLAINTIFFS-APPELLANTS FOR INJUNCTION PENDING APPEAL
Misha Tseytlin
TROUTMAN PEPPER
HAMILTON SANDERS LLP
227 W. Monroe Street, Suite 3900
Chicago, IL 60606
Telephone: (608) 999-1240
misha.tseytlin@troutman.com

Avi Schick
W. Alex Smith
TROUTMAN PEPPER
HAMILTON SANDERS LLP
875 Third Avenue
New York, NY 10022
Telephone: (212) 704-6126
avi.schick@troutman.com

Attorneys for Plaintiffs-Appellants
October 29, 2020

- App. 303 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page2 of 19

TABLE OF CONTENTS
INTRODUCTION ..................................................................................................... 1
ARGUMENT ............................................................................................................. 3
I. Plaintiffs Are Likely To Prevail On The Merits.............................................. 3
A. The Order Is Unlawful Under Masterpiece Cakeshop, Lukumi, And
Central Rabbinical ..................................................................................... 3
B. The Order Discriminates By Disfavoring “Houses of Worship” ............... 7
II. Injunctive Relief Is Necessary Under The Equities ....................................... 9
III. Plaintiffs Have Complied With Rule 8(a) .................................................... 11
CONCLUSION ........................................................................................................ 12

- App. 304 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page3 of 19

TABLE OF AUTHORITIES
Page(s)
Cases
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020) ...................................................................................... 7, 8
Cent. Rabbinical Cong. of the U.S. & Can. v. N.Y.C. Dep’t of Health
& Mental Hygiene,
763 F.3d 183 (2d Cir. 2014) .....................................................................1, 2, 3, 4
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520 (1993) ..................................................................................1, 3, 4, 5
Denver Bible Church v. Azar,
2020 U.S. Dist. LEXIS 195607 (D. Colo. Oct. 15, 2020) .................................... 8
Elrod v. Burns,
427 U.S. 347 (1976) .............................................................................................. 9
Emp’t Div., Dep’t of Human Res. of Ore. v. Smith,
494 U.S. 872 (1990) ............................................................................................ 10
Harvest Rock Church, Inc. v. Newsom,
__ F.3d __, 2020 U.S. App. LEXIS 31226 (9th Cir. Oct. 1, 2020) ...................... 9
Homans v. City of Albuquerque,
264 F.3d 1240 (10th Cir. 2001) .......................................................................... 11
In re Flint Water Cases,
960 F.3d 820 (6th Cir. 2020) .............................................................................. 12
Jacobson v. Massachusetts,
197 U.S. 11 (1905) ............................................................................................ 2, 4
Jolly v. Coughlin,
76 F.3d 468 (2d Cir. 1996) ................................................................................... 9
Maryville Baptist Church, Inc. v. Beshear,
957 F.3d 610 (6th Cir. 2020) ................................................................................ 8

- ii -

- App. 305 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page4 of 19

Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm’n,
138 S. Ct. 1719 (2018) ..............................................................................1, 2, 3, 4
N.Y. Progress & Prot. PAC v. Walsh,
733 F.3d 483 (2d Cir. 2013) ............................................................................... 10
Planned Parenthood of Greater Tex. Surgical Health Servs. v. Abbott,
734 F.3d 406 (5th Cir. 2013) .............................................................................. 12
Roberts v. Neace,
958 F.3d 409 (6th Cir. 2020) ................................................................................ 7
Soos v. Cuomo,
2020 U.S. Dist. LEXIS 111808 (N.D.N.Y. June 26, 2020) ................................. 8
South Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020) ..............................................................................4, 7, 8, 9
Spell v. Edwards,
962 F.3d 175 (5th Cir. 2020) ................................................................................ 8
The Roman Catholic Diocese of Brooklyn, New York v. Cuomo,
No. 20-3590 (2d Cir.) ........................................................................................... 6
The Roman Catholic Diocese of Brooklyn, New York v. Cuomo,
No. 20-4844 (E.D.N.Y.) ................................................................................. 6, 10
Rules
Executive Order No. 202.68 .............................................................................passim
Fed. R. App. P. 8 ...................................................................................................... 11
Other Authorities
Carl Campanile, Cuomo Calls COVID-19 Resurgence an ‘UltraOrthodox’ Jewish Problem, NYPost (Oct. 9, 2020) ............................................. 3
Governor Andrew M. Cuomo, Governor Cuomo Announces Travel
Advisory Requiring 14-Day Quarantine, New York State (Oct. 27,
2020) ..................................................................................................................... 7

- iii -

- App. 306 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page5 of 19

Governor Andrew M. Cuomo, Governor Cuomo Updates New
Yorkers on State’s Progress During COVID-19 Pandemic, New
York State (Oct. 23, 2020) ................................................................................ 6, 7
Calculating Severe Acute Respiratory Syndrome Coronavirus 2
(SARS-CoV-2) Laboratory Test Percent Positivity (Sept. 3, 2020) ..................... 6
Mairead McArdle, Cuomo Says ‘Religious Practices’ of Orthodox
Jews Causing Virus to Spread in New York City, National Review
(Oct. 14, 2020) ...................................................................................................... 3
New York “Micro-Cluster” Strategy (Oct. 21, 2020)................................................ 6

- iv -

- App. 307 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page6 of 19

INTRODUCTION
Defendant’s targeting of a religious minority for blame during the COVID-19
pandemic, falsely tarring them as perpetrators rather than victims of the virus, is
religious discrimination that is incompatible with the Free Exercise Clause. As the
amicus brief submitted by the Muslim Public Affairs Council, et al., explains,
Defendant’s statements and actions are yet another example of the regrettable
historical experience that “[t]oo often, religious minorities have served as scapegoats
in times of sickness, war, and fear.” Dkt.57, Am. Br. 2. Plaintiffs respectfully
submit that this Court would not permit a COVID-19 order to stand if an official had
made comments similar to those articulated by Defendant while simply replacing
the words “Orthodox Jewish community” with a racial or ethnic rather than a
religious minority. The same result is required here.
Plaintiffs lead argument in their Motion was that Defendant’s religious
discrimination is forbidden under Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission, 138 S. Ct. 1719 (2018), Church of the Lukumi Babalu Aye, Inc.
v. City of Hialeah, 508 U.S. 520 (1993), and Central Rabbinical Congress of the
United States & Canada v. New York City Department of Health & Mental Hygiene,
763 F.3d 183 (2d Cir. 2014). In particular, Defendant’s discriminatory words and
targeted actions against Orthodox Jews are fatal to Executive Order No. 202.68 (the
“Order”). Defendant largely ignores this argument, instead focusing on Plaintiffs’

- App. 308 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page7 of 19

alternative argument about the Order’s disfavoring of houses of worship. Defendant
fails even to cite Masterpiece Cakeshop or Central Rabbinical, while attempting to
recast his repeated comments about Orthodox Jews as refusing to give them “special
treatment.” Opp’n 26. Plaintiffs trust that the Court can see through this sophistry.
These words led Defendant to design a cluster regime gerrymandered to target
Orthodox Jews, and no amount of post-hoc explanation can justify his ad hoc
creation of zones meant to restrict the Orthodox Jewish community. Tellingly, twice
in the first page of Defendant’s opposition he describes imposing restrictions on
“communities” rather than “neighborhoods.” A community refers to a group of
people, such as Orthodox Jews, while a neighborhood refers to a geographic area.
This Court should take Defendant at his word that the Order was issued to impose
heightened restrictions on Orthodox Jews. Given that Defendant has no plausible
defense for his statements, Plaintiffs are exceedingly likely to prevail on the merits.
On the equities, Defendant’s Order should be enjoined because every day that
it remains in effect it deprives Plaintiffs of their constitutional rights. While a state
“has the right to protect itself against an epidemic of disease,” Jacobson v.
Massachusetts, 197 U.S. 11, 27 (1905), both the Free Exercise Clause and principles
of equity prohibit government officials from scapegoating a religious minority and
targeting them for heightened restrictions.

-2-

- App. 309 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page8 of 19

ARGUMENT
I.

Plaintiffs Are Likely to Prevail on the Merits
A.

The Order Is Unlawful Under Masterpiece Cakeshop, Lukumi, and
Central Rabbinical

Plaintiffs’

lead

merits

argument

is

that

Defendant

engaged

in

unconstitutionally impermissible targeting of a specific religious minority, the
Orthodox Jewish community. Mot. 14–17. There are two independently sufficient
bases on which Plaintiffs prevail on this targeting argument. First, Defendant’s
repeated statements singling out the Orthodox Jewish community—the “ultraOrthodox community” is causing the “problem,” R.2-4:8–9; “the issue is with that
ultra-orthodox community,” Carl Campanile, Cuomo Calls COVID-19 Resurgence
an ‘Ultra-Orthodox’ Jewish Problem, NYPost (Oct. 9, 2020);1 and “[w]e’re now
having issues in the Orthodox Jewish community in New York,” Mairead McArdle,
Cuomo Says ‘Religious Practices’ of Orthodox Jews Causing Virus to Spread in
New York City, National Review (Oct. 14, 2020)2—are sufficient to render this Order
unconstitutional, under a straightforward application of Masterpiece Cakeshop.
Mot. 15–16. Second and independently, under Lukumi and Central Rabbinical,

1

Available at https://nypost.com/2020/10/09/gov-cuomo-ny-covid-19-spikean-ultra-orthodox-jewish-problem/.
2
Available at https://www.nationalreview.com/news/cuomo-says-religiouspractices-of-orthodox-jews-causing-virus-to-spread-in-new-york-city/.
-3-

- App. 310 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page9 of 19

Defendant’s gerrymandering of the zones subject to the Order’s restrictions was
plainly aimed at the Orthodox Jewish community. Mot. 16–17.
Defendant has almost nothing to say in defense of his repeated, discriminatory
statements, other than claiming that all he meant was he would not give Orthodox
Jews “special treatment.” Opp’n 26. That is, with all respect, not a plausible account
of Defendant’s repeated targeting of Orthodox Jews in multiple statements over
more than ten days. Once Defendant’s obviously post-hoc “special treatment”
assertion is properly set aside, his lack of response to Plaintiffs’ lead argument is a
concession that Plaintiffs are exceedingly likely to prevail on the merits.
Defendant’s silence about his repeated comments implicitly acknowledges that they
are more problematic than the comments that the Supreme Court found
impermissible in Masterpiece Cakeshop. Mot. 15–16. Defendant also concedes by
silence Plaintiffs’ point that Jacobson and South Bay United Pentecostal Church v.
Newsom, 140 S. Ct. 1613 (2020), do not apply to cases involving a showing of
targeting a religious minority, because a pandemic does not give public officials
license to discriminate and scapegoat. Mot. 20. Finally, Defendant admits by
silence that his Order cannot survive strict scrutiny, which is what Masterpiece
Cakeshop demands. Mot. 18–19.
Turning to the gerrymandered nature of his Order under Lukumi and Central
Rabbinical, Defendant’s arguments are similarly unpersuasive. Defendant has failed
-4-

- App. 311 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page10 of 19

to set forth any nondiscriminatory basis for his original placement of the Orthodox
Jewish community in highly restrictive Red Zones. Plaintiffs’ lawsuit challenges
that designation, which remains to this day. The Order did not include any criteria
for identifying restricted areas, and Defendant did not disclose any such criteria
when Plaintiffs’ communities were designated as restricted zones on October 6.
Rather, Defendant gerrymandered his zone levels and zone lines to target Orthodox
Jewish communities. Mot. 6–7; accord Dkt. 49-2 at 5 (Brooklyn zone with Jewish
religious institutions identified). Defendant relies on subsequently-issued criteria
purportedly used “to establish zone designations,” disclosed only after Plaintiffs
filed this lawsuit, as evidence of the nondiscriminatory nature of original zones
being challenged. Opp’n 24–25. But these new metrics purport to explain only how
a new “cluster” can achieve a zone designation. They do not even attempt to explain
how the original and still-existing Red Zones targeting Orthodox Jewish
communities were designated,3 and do not cure Defendant’s targeted creation of the
Order.
Defendant’s post-filing actions only further underscore that he continues to
target Orthodox Jewish communities as his “discriminatory object.” Lukumi, 508

3

Defendant wrongly contends that the Brooklyn Orange Zone challenge is
mooted by Defendant’s October 22 re-designation of that zone to a Yellow Zone.
Opp’n 2 n.2, 14. Plaintiffs challenge the Order itself as discriminatory, and
Defendant remains free to move communities between zones at his whim.
-5-

- App. 312 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page11 of 19

U.S. at 533, 540. On October 9, Defendant claimed that he identified areas with 8%
positivity rates4 as “Red Zones.” R.12 ¶ 82. But, after the Diocese court questioned
the metric’s accuracy, The Roman Catholic Diocese of Brooklyn, New York v.
Cuomo, No. 20-3590 (2d Cir.), Dkt. 20-3, Ex. O-1 at 62–63, Defendant unveiled
new metrics the next day pegging Red Zones at 3% or higher positivity rate “for a
sustained period of time” (plus other factors), Declaration of Howard A. Zucker,
Diocese, No. 1:20-cv-04844 (E.D.N.Y.), Dkt. 29-1 at ¶¶ 12–13, 20. Defendant now
points to still new criteria, announced October 21, which Defendant concedes
“afford the Governor and DOH some discretion” in deciding which areas to restrict.
Opp’n 25.5
Defendant has continued to wield this discretion to target Orthodox Jewish
communities for restrictions while relieving others with higher positivity rates.
Defendant has maintained heavily-restrictive Red Zone status for Jewish
communities in Brooklyn that had a 7-day rolling average positivity rate of 4.57%
on October 23. Governor Andrew M. Cuomo, Governor Cuomo Updates New
4

Positivity rate is “the number of positive tests (numerator) divided by the
total number of resulted reported tests (denominator).” Calculating Severe Acute
Respiratory Syndrome Coronavirus 2 (SARS-CoV-2) Laboratory Test Percent
Positivity
(Sept.
3,
2020),
https://www.cdc.gov/coronavirus/2019ncov/lab/resources/calculating-percent-positivity.html/.
5
See New York “Micro-Cluster” Strategy at 3, 9 (Oct. 21, 2020),
https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/MicroCluster
_Metrics_10.21.20_FINAL.pdf/ (consideration of “community cooperation” and
“other epidemiological factors,” like “demographic information”).
-6-

- App. 313 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page12 of 19

Yorkers on State’s Progress During COVID-19 Pandemic, New York State (Oct. 23,
2020).6 Yet Defendant did not impose similar Red Zone restrictions on areas with
higher positivity rates but without a meaningful Orthodox Jewish population. Thus
there is a “Broome yellow-zone” with 6.30% positivity, a “Steuben yellow-zone”
with 4.65%, and a “Chemung orange-zone” with 8.13%. Id.
As of October 27, Defendant continued to impose “Red Zone” restrictions on
Brooklyn Orthodox Jewish communities with 4.23% positivity, while areas without
a Jewish population have higher positivity but fewer restrictions: “Broome yellowzone” at 8.04%, “Steuben yellow-zone” at 4.44%, and “Chemung orange-zone” at
7.80%. Governor Andrew M. Cuomo, Governor Cuomo Announces Travel Advisory
Requiring 14-Day Quarantine, New York State (Oct. 27, 2020).7
B.

The Order Discriminates By Disfavoring “Houses of Worship”

Defendant’s Order is unconstitutional for the additional reason that it
discriminates—on its face—against “houses of worship,” vis-à-vis permitted secular
activity. Mot. 17–18. It is this, second aspect of Plaintiffs’ merits argument that is
the type of claim that South Bay, Calvary Chapel Dayton Valley v. Sisolak, 140 S.
Ct. 2603 (2020), Roberts v. Neace, 958 F.3d 409 (6th Cir. 2020) (per curiam),

6

Available at https://www.governor.ny.gov/news/governor-cuomo-updatesnew-yorkers-states-progress-during-covid-19-pandemic-50/.
7
Available at https://www.governor.ny.gov/news/governor-cuomoannounces-travel-advisory-requiring-14-day-quarantine-0/.
-7-

- App. 314 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page13 of 19

Maryville Baptist Church, Inc. v. Beshear, 957 F.3d 610 (6th Cir. 2020) (per curiam),
Denver Bible Church v. Azar, 2020 U.S. Dist. LEXIS 195607 (D. Colo. Oct. 15,
2020), and Soos v. Cuomo, 2020 U.S. Dist. LEXIS 111808 (N.D.N.Y. June 26,
2020), adjudicated. On this argument, this case is more like Roberts, Maryville
Baptist, Denver Bible, and Soos because the permitted secular activities under the
Order are “comparable,” South Bay, 140 S. Ct. at 1613 (Roberts, C.J., concurring in
denial of application for injunctive relief), to “houses of worship,” in terms of
COVID-19 risk. Mot. 20–21.
By its very terms the Order disproves Defendant’s claim that “houses of
worship are treated more favorably than comparable secular activities.” Opp’n 2.
Defendant’s restrictions afford more favorable rules to schools in Yellow Zones,
R.2-8:3; R.2-14, offices, malls, and retail in Orange Zones, R.2-8:3; R.2-15; R.2-16,
and “essential” businesses, such as “financial services” and manufacturing, in Red
Zones, R.2-8:3; R.2-13:5–6, where individuals congregate and remain in close
proximity for extended periods of time.8 The Order also fails to define the exempted

8

Defendant’s argument that “services vital to public health and safety” are
not comparators because “[i]t is hard to see how” they “could be halted,” Opp’n 23,
fails because a law is underinclusive if “a single secular analog is not regulated.”
Calvary Chapel¸ 140 S. Ct. at 2613 (Kavanaugh, J., dissenting) (citation omitted);
see also Spell v. Edwards, 962 F.3d 175, 183 (5th Cir. 2020) (Ho, J., concurring).
-8-

- App. 315 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page14 of 19

“essential gatherings,” even in Red Zones where houses of worship are limited to 10
individuals.9 Defendant is entirely silent on virtually all of these points.
Defendant also wrongly argues that South Bay “compel[s]” this Court to
conclude that the Order “treat[s] religious gatherings the same as, or more favorably
than, secular comparators.” Opp’n 19. South Bay “was unaccompanied by any
opinion of the Court and thus is precedential only as to the precise issues presented
and necessarily decided.” Harvest Rock Church, Inc. v. Newsom, __ F.3d __, 2020
U.S. App. LEXIS 31226, at *7 (9th Cir. Oct. 1, 2020) (O’Scannlain, J., dissenting).
Moreover, and fatal to Defendant’s South Bay analogy, Chief Justice Roberts’
concurrence distinguished permitted conduct dissimilar to that allowed here, such as
schools, malls, offices, and manufacturing, R.2-8:3; R.2-13:5–6; R.2-14; R.2-15;
R.2-16, “where large groups of people gather in close proximity for extended periods
of time,” 140 S. Ct. at 1613.
II.

Injunctive Relief Is Necessary Under The Equities
Plaintiffs have shown that equitable factors favor relief.

This Court

“presum[es ] irreparable injury . . . flows from a violation of constitutional rights.”
Jolly v. Coughlin, 76 F.3d 468, 482 (2d Cir. 1996); see also Elrod v. Burns, 427 U.S.

9

Twenty-one days after issuing the Order, the best Defendant can muster is
that it “would reasonably be understood” that “essential gatherings” are
“[g]atherings necessary to perform” services associated with “essential businesses.”
Opp’n 5–6 n.7. That reading renders the essential gatherings exemption superfluous.
-9-

- App. 316 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page15 of 19

347, 373 (1976) (plurality op.).

Defendant’s restrictions bar Plaintiffs from

worshipping in synagogue and engaging in critical religious practices essential to
their religious beliefs, such as communal prayer and ritual, which is particularly true
for Orthodox Jews who cannot travel by vehicle on the Sabbath and religious
holidays. Mot. 22. Injunctive relief would benefit the public by protecting Plaintiffs’
constitutional rights, N.Y. Progress & Prot. PAC v. Walsh, 733 F.3d 483, 488 (2d
Cir. 2013), and would not harm Defendant, as Plaintiffs have complied with all
mandates and have not caused COVID-19 spread. Mot. 22–23.
Defendant’s equitable arguments fail. Opp’n 28–30. Plaintiffs cannot simply
“modif[y]” their religious practices to avoid irreparable harm. Id. It is undisputed
that Defendant’s restrictions render it “impossible” for Plaintiffs to worship in
synagogue and to engage in core religious practices, R.2-19 ¶ 5; R.2-20 ¶¶ 4–5; R.221 ¶¶ 5–6; in any event, “courts must not presume to determine the place of a
particular belief in a religion or the plausibility of a religious claim,” Emp’t Div.,
Dep’t of Human Res. of Ore. v. Smith, 494 U.S. 872, 887 (1990). Nor does the timing
of Plaintiffs’ appellate filing “weigh[ ] further against a finding of irreparable harm.”
Opp’n 28. Both Plaintiffs and the Diocese plaintiffs filed complaints on October 8
and had TRO hearings on late-Friday, October 9 that resulted in the denial of relief.
The Diocese court held a preliminary injunction hearing on October 15, and issued
its ruling late-Friday, October 16, Diocese, No. 1:20-cv-04844, Dkt. 32. Had the
- 10 -

- App. 317 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page16 of 19

Diocese court enjoined Defendant from enforcing the Order’s capacity limits on
houses of worship, Plaintiffs surely would have benefitted from that ruling.
Plaintiffs filed this motion on October 21, just three business days after the October
16 ruling. Mot. 1, 4 n.10. Finally, despite his generic claims that relief would harm
the public because Plaintiffs’ “congregants could catch COVID-19,” Opp’n 29,
Defendant fails to provide any evidence that Plaintiffs have failed to successfully
guard against COVID-19 previously or would not continue to do so.10
III.

Plaintiffs Have Complied With Rule 8(a)
Plaintiff complied with Rule 8(a) by seeking “an order . . . granting an

injunction while an appeal is pending” from this Court because asking for this relief
from the district court would have been “impracticable” under that Rule’s text. Fed.
R. App. P. 8(a)(1)(C), 8(a)(2)(A)(i) (emphasis added). Defendant’s action here—
taken after careful consultation with this Court’s clerk’s office on October 20—of
asking for relief from this Court, without re-asking the district court to issue what
essentially would have been the same injunctive relief it had already declined, is
consistent with Rule 8(a)’s “impracticable” clause, the principle that “another
application to the district court would serve little purpose,” Homans v. City of
Albuquerque, 264 F.3d 1240, 1243 (10th Cir. 2001), and the ongoing, emergency

10

Defendant also offers no basis for restricting all houses of worship to 10
people, whether they seat 40 or 400.
- 11 -

- App. 318 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page17 of 19

nature of Plaintiffs’ harms under Defendant’s unlawful Order. See, e.g., In re Flint
Water Cases, 960 F.3d 820, 825 (6th Cir. 2020); Planned Parenthood of Greater
Tex. Surgical Health Servs. v. Abbott, 734 F.3d 406, 410–11 (5th Cir. 2013).
Defendant cites no decision requiring a movant to seek injunctive relief pending
appeal from the district court that has just denied preliminary injunctive relief on the
same grounds that would be argued in any stay application, especially in a case
involving ongoing deprivation of constitutional rights.
CONCLUSION
This Court should enjoin the Order pending appeal.

Dated: October 29, 2020.
Respectfully Submitted,
/s/ Avi Schick
Avi Schick
W. Alex Smith
TROUTMAN PEPPER
HAMILTON SANDERS LLP
875 Third Avenue
New York, NY 10022
Telephone: (212) 704-6126
avi.schick@troutman.com

Misha Tseytlin
TROUTMAN PEPPER
HAMILTON SANDERS LLP
227 W. Monroe Street, Suite 3900
Chicago, IL 60606
Telephone: (608) 999-1240
misha.tseytlin@troutman.com

Attorneys for Plaintiffs-Appellants

- 12 -

- App. 319 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page18 of 19

CERTIFICATE OF COMPLIANCE
Pursuant to Federal Rule of Appellate Procedure 32(g), I certify the following:
This emergency motion complies with the type-volume limitation of Federal
Rule of Appellate Procedure 32(a)(7)(B) and Circuit Rule 32(c) because this brief
contains 2,600 words, excluding the parts of the brief exempted by Federal Rule of
Appellate Procedure 32(f).
This emergency motion complies with the typeface requirements of Federal
Rule of Appellate Procedure 32(a)(5) and Circuit Rule 32(b), and the type style
requirements of Federal Rule of Appellate Procedure 32(a)(6), because this brief has
been prepared in a proportionately spaced typeface using the 2016 version of
Microsoft Word in 14-point Times New Roman font.
Dated: October 29, 2020
/s/ Avi Schick
AVI SCHICK

- App. 320 -

Case 20-3572, Document 79, 10/29/2020, 2963260, Page19 of 19

CERTIFICATE OF SERVICE
I hereby certify that on this 29th day of October, 2020, I filed the foregoing
Emergency Motion with the Clerk of the Court using the CM/ECF System, which
will send notice of such filing to all registered CM/ECF users.
Dated: October 29, 2020
/s/ Avi Schick
AVI SCHICK

- App. 321 -

Case 1:20-cv-04834-KAM-RML Document 2-8 Filed 10/08/20 Page 1 of 3 PageID #: 94

EXHIBIT E

- App. 322 -

Case 1:20-cv-04834-KAM-RML Document 2-8 Filed 10/08/20 Page 2 of 3 PageID #: 95

No.202.68

Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency
WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
emergency for the entire State of New York; and
WHEREAS, both travel-related cases and co=unity contact transmission of COVID-19 have
been documented inNew York State and are expected to continue;
NOW THEREFORE, I, Andrew M. Cuomo, Governor of the State ofNew York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or
modify any statute, local law, ordinance, order, rule, or regulation, or parts thereof, of any agency during a
State disaster emergency, if compliance with such statute, local law, ordinance, order, rule, or regulation
would prevent, hinder, or delay action necessary to cope with the disaster emergency or if necessary to
assist or aid in coping with such disaster, or to provide any directive necessary to respond to the disaster, do
hereby continue the suspensions and modifications of law, and any directives not superseded by a
subsequent directive contained in Executive Orders 202.31, 202.41, 202.42, 202.43, 202.51, 202.52,
202.56, as contained in Executive Order 202.63, and Executive Orders 202.61 and 202.62 for another thirty
days through November 5, 2020, and I hereby temporarily suspend or modify the following from the date
of this Executive Order through November 5, 2020:

•

Sections 12 and 206 of the Public Health Law, to the extent necessary to, notwithstanding
any other provision of this Executive Order, provide that any individual who encourages,
promotes or organizes a non-essential gathering as set forth in Department of Health
regulation, shall be liable for a civil penalty not to exceed $15,000 per day; and

•

Sections 12-a and 206(4) of the Public Health Law, to the extent necessary to authorize, at
the direction of the Co=issioner of Health or the Co=issioner's representative, any local
gove=ent official to as-sess, and the local gove=ent to retain, a civil penalty for
violations of Executive Orders issued pursuant to Section 29-A of the Executive Law, or any
regulations of the Department of Health, that impose requirements pertaining to maintaining
social distance and wearing of face coverings, for the duration of this disaster emergency,
and to conduct any hearing related to such penalties. Such penalties, if assessed on an
individual basis, shall not exceed $1,000 per violation, except as otherwise provided herein.

IN ADDITION, by virtue of the authority vested in me by Section 29-a of Article 2-B of the
Executive Law to issue any directive during a disaster emergency necessary to cope with the disaster, I do
hereby issue the following directives through November 5, 2020:

•

The Department of Health shall determine areas in the State that require enhanced public
health restrictions based upon cluster-based cases of COVID-19 at a level that compromises
the State's contaimnent of the virus. Certain activities shall be restricted and any permitted
activities, in all three zones below, shall be conducted in strict adherence to Depaltment of
Health guidance.
1

- App. 323 -

Case 1:20-cv-04834-KAM-RML Document 2-8 Filed 10/08/20 Page 3 of 3 PageID #: 96

•

o Based upon the severity of the cluster activity, the Department of Health shall adopt
in the most severe, or "red zones," the following mitigation measures:
• Non-essential gatherings of any size shall be postponed or cancelled; all nonessential businesses, as determined by the Empire State Development
Corporation based upon published guidance, shall reduce in-person
workforce by I 00%; houses of worship shall be subject to a capacity limit of
25% of maximum occupancy or 10 people, whichever is fewer; any
restaurant or tavern shall cease serving patrons food or beverage on-premises
and may be open for takeout or delivery only; and the local Department of
Health shall direct closure of all schools for in-person instruction, except as
otherwise provided in Executive Order.
o In moderate severity warning areas or "orange zones" the following mitigation
measures:
• Non-essential gatherings shall be limited to 10 people; certain non-essential
businesses, for which there is a higher risk associated v1ith the transmission
of the COVID-19 virus, including gyms, fitness centers or classes, barbers,
hair salons, spas, tattoo or piercing parlors, nail technicians and nail salons,
cosmetologists, estheticians, the provision oflaser hair removal and
electrolysis, and all other personal care services shall reduce in-person
workforce by 100%; houses of worship shall be subject to a maximum
capacity limit of the lesser of33% of maximum occupancy or 25 people,
whichever is fewer; any restai.rrant or tavern shall cease serving patrons food
or beverage inside on-premises but may provide outdoor service, and may be
open for tskeout or delivery, provided however, any one seated group or
party shallnot exceed 4 people; and the local Department of Health shall
direct closure of all schools for in-person instruction, except as otherwise
provided in Executive Order.
o In precautionary or "yellow zones," the following mitigation measures:
• Non-essential gatherings shall be limited to no more than 25 people; houses
of worship shall be subject to a capacity limit of 50% of its maximum
occupancy and shall adhere to Department of Health guidance; any restaurant
or tavern must limit any one seeted group or party size to 4 people; and the
Department of Health shall issue guidance by October 9, 2020 regarding
mandatory testing of students and school personnel, and schools shall adhere
to such guidance.
The above directive shall be effective immediately, and at such time as notice is provided to
such affected areas, may be enforced and shall be enforced no later than Friday, October 9,
2020, as determined by the county in \Vhich the red zones, orange zones, and yellow zones
are loceted:

G I V EN under my hand and the Privy Seal of the
State in the City of Albany this sixth
day of Octoberin the year two
thousand twenty.

BY THE GOVER.t'IOR

Secretary to the Governor

2

- App. 324 -

Case 1:20-cv-04834-KAM-RML Document 2-9 Filed 10/08/20 Page 1 of 11 PageID #: 97

EXHIBIT F

- App. 325 -

10/7/2020Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
Initiative
Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
Page
2 of |11
PageID
#:M.98

OCTOBER 6, 2020 Albany, NY

Video, Audio, Photos & Rush Transcript: Governor
Cuomo Announces New Cluster Action Initiative
Initiative Developed in Consultation with Leading National Public
Health Experts—Dr. Noam Ross of EcoHealth Alliance, Dr. Michael
Osterholm of the University of Minnesota and Former CDC
Director Dr. Tom Frieden
New Initiative Maps Clusters by Density of Cases to Address
COVID Hot Spots in Brooklyn, Queens, and Broome, Orange and
Rockland Counties
Fines for Sponsors of Mass Gatherings Increased to $15,000
New Rules and Restrictions in Eﬀect for Minimum of 14 Days
Governor Cuomo: "First, identify the cluster. You can identify the
cluster because we do so much testing and we have so much
data. We can tell you where there is a cluster by the actual
number of cases. We have the addresses of people who are
COVID-positive. So we have mapping software where you can
see exactly where the cluster is. That's the highest density of
cases. That's where you have to take the most dramatic action."
Cuomo: "We're increasing the ﬁnes for sponsors of mass
gatherings to $15,000. We are going to be providing the local
governments with the maps that we did in their areas. We'll be
1
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 326 -

1/10

10/7/2020Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
Initiative
Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
Page
3 of |11
PageID
#:M.99

consulting with them. These were done speciﬁcally from the
actual case numbers themselves. If there's some peculiarity, local
governments have a comment, we'll do that today. The rules can
go into eﬀect as soon as tomorrow, that's up to the local
government, but no later than Friday. If local government says we
want time to get adjusted, ﬁne. Today is Tuesday, get adjusted no
later than Friday."
Earlier today, Governor Andrew M. Cuomo announced a new cluster action initiative to
address COVID-19 hot spots that have cropped up in Brooklyn, Queens, and Broome, Orange
and Rockland Counties. Working with the top public health experts, New York State
developed a science-based approach to attack these clusters and stop any further spread of
the virus, including new rules and restrictions directly targeted to areas with the highest
concentration of COVID cases and the surrounding communities. The new rules will be in
eﬀect for a minimum of 14 days.
The plan was developed in consultation with national public health experts including Dr. Noam
Ross of EcoHealth Alliance, Dr. Michael Osterholm of the University of Minnesota and former
CDC Director Dr. Tom Frieden.
VIDEO of the Governor's remarks is available on YouTube here and in TV quality (h.264, mp4)
format here.
AUDIO of today's remarks is available here.
PHOTOS are available on the Governor's Flickr page.

A rush transcript of the Governor's remarks is available below:
Good afternoon. To my right, we have the esteemed secretary to the governor Melissa
DeRosa. To her left, the esteemed budget director Robert Mujica. Thank you all for being here.
Appropriately social distanced.
Today is day 220, believe it or not. The fall is here. What happens in the fall? Leaves come
down, Jimmy Vielkind spends a lot of time with the foliage up north. What else happens in the

2
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 327 -

2/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
| Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
PageInitiative
4 of 11
PageID
#:M.100

fall? The virus goes up. The leaves come down, the virus goes up. They've been talking about
this for a long time. They predicted this and on this prediction they happen to be right. You
see the virus increasing across the country, you see it increasing across the globe, you see
countries that had it under control are now struggling again.
In New York, statewide, we are doing very well on the numbers. We have what I call a COVID
cluster problem. But a cluster problem is serious because a cluster problem can grow. The
virus spreads in mass gatherings. We know this from our own experience, from what we've
seen, and from what every expert tells us, right. The outbreaks, which is when the virus is
spreading out of control, it starts with a mass gathering and then it expands from there,
especially indoors. We've seen it in colleges, state colleges, private colleges, you have that
congregate mass gathering indoors or frequenting a bar in the case of colleges, and it take
oﬀ. We've seen it in factory settings around the country, we've seen it in produce plants, apple
plants, in New York. We've seen it in a single restaurant, can be a mass gathering. We've seen
it at July 4th parties, we've seen it at Labor Day parties. We've seen it in the Rose Garden.
That was a mass gathering, outdoor, by the way, and we've seen it. You see that growing list
of all the people who were infected from that mass gathering.
We see it in places of worship. We've seen one church infect people, we've seen synagogues
infect people, we've seen mosques infect people. We had the ﬁrst hot spot cluster in the
United States of America. New Rochelle, a super spreader who attended a temple service and
then attended a wedding, and that was it. We were oﬀ to the races. So, it's to be taken very
seriously. A mass gathering causes infections. Infections cause a cluster. A cluster causes
community spread. That is the natural evolution of things unless we intervene and we stop the
cycle. If you just let the cycle run, that is what's going to happen.
We see clusters now across the state, colleges upstate. We have a cluster in Binghamton,
Orange Rockland, Queens, Brooklyn, Nassau. The cluster is just that, it's a cluster of cases, a
high density of cases. And it seeps, it grows from that cluster almost in concentric circles.
Drop a pebble into the pond, pebble goes in, then there's one ring, two rings, three rings, and
the rings continue across the pond. That's how the virus spreads. When you see the cluster,
you have to stop it at that point. What's our strategy? Crush the cluster and stop the spread.

3
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 328 -

3/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
| Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
PageInitiative
5 of 11
PageID
#:M.101

And we're announcing a special initiative to do just that, the Cluster Action Initiative. Catchy
name.
Step one, you take the most dramatic action within the cluster itself, where you have the
highest density of cases. Understanding that the people in that cluster interface with the
surrounding communities, take additional action in the communities surrounding the cluster,
and then on a precautionary measure, take action in the communities that are out line that
area, so three steps.
First, identify the cluster. You can identify the cluster because we do so much testing and we
have so much data. We can tell you where there is a cluster by the actual number of cases.
We have the addresses of people who are COVID-positive. So we have mapping software
where you can see exactly where the cluster is. That's the highest density of cases. That's
where you have to take the most dramatic action. The surrounding area is where that cluster
is going to seep. Why? Because that's where people interact in the grocery store. That's
where they interact at the bus stop. That's where they interact in the local recreational areas.
So cluster, the area around the cluster, and then as a precautionary measure, the area around
that's. That's how you attack a cluster. Most intense action on the cluster itself and then
precautionary action as you pull back.
Clusters, all of these areas, you can look at them exactly by the cases. It's not by zip code, it's
not by census tract, it's not by any political metric, it's only by the number of cases. So for
example, Brooklyn New York - we have one area. This is an actual map of Brooklyn. The
cluster is the red area. That is the area in, this is basically south Brooklyn, that has the highest
number of cases by actual data. The surrounding area, orange, that is the second ring. That's
the warning area because the people who are in that cluster, they're going to the same store,
they're going to the same church, they're going to the same bus stop as people in that
surrounding area. These are there are no walls here. The third area is the yellowish area
around the perimeter from that line straight line down. That we call a precautionary area
because they may very well also be coming in contact with the people in the cluster. Or, the
people in the middle of that cluster may have infected somebody in the orange zone who may
be in contact with someone in the yellow zone. It goes red is the cluster, orange is
surrounding the cluster, yellow is the periphery. So that's the actual south Brooklyn map.
4
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 329 -

4/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
| Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
PageInitiative
6 of 11
PageID
#:M.102

Queens, there are two areas that will be mapped just the way Brooklyn is mapped but same
concept. There's a central cluster, there's a surrounding area and there's a precautionary area
surrounding that. Two smaller areas in Queens. The Brooklyn area is larger than either of the
two Queens areas. Binghamton we have a cluster.
Binghamton we're declaring a yellow zone which is the precautionary zone which is a less
intense action plan than in a red zone. Why? Because there's just fewer number of cases in
Binghamton. The density is less, the cluster is less, but it still requires precaution.
Orange County, we have an intense cluster and then what we call a precautionary zone
around that cluster.
Rockland County, same thing. We have an intense cluster and then we're establishing a
precautionary zone around that cluster.
These are relatively small areas geographically. Maybe a cluster is one mile in diameter.
Maybe with the orange warning area it's a mile and a half. Maybe with the precaution area it's
about 2 miles. These are geographically circumscribed, relatively small but that's why they're
clusters. The trick is to keep it small. Keep the infection from spreading. Small, but intense
targeted eﬀorts in that area. We have new rules for red, orange or yellow communities.
The red, which is the most impacted area, houses of worship will be 25 percent capacity up to
10 people maximum. If it's a church or a mosque or a temple, there will be a maximum of 25
percent capacity or 10 people. No mass gatherings, only essential businesses open, only take
out dining and schools are closed.
In the orange areas - that's the second ring - houses of worship 33 percent capacity, 25
people maximum. Mass gatherings, ten people maximum, indoor or outdoor. Businesses, we
closed high-risk, non-essential businesses. High risk are deﬁned businesses like gyms,
personal care, et cetera. Dining, no indoor dining, outdoor dining only. Four people to a table.
Yellow, which is the precautionary zone, 50 percent capacity in a house of worship. Mass
gatherings, 25 people. Businesses are open; dining indoor and outdoor, but 4 people
maximum per table. Also, the schools in yellow areas, public or private, must do mandatory
weekly testing.
5
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 330 -

5/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
| Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
PageInitiative
7 of 11
PageID
#:M.103

The students are people who are very likely to interact with people within that community. We
saw this in New Rochelle. All the kids go to diﬀerent schools, I know, but they meet at the
playground or they're on the little league team or they're on the hockey team or they went to
somebody's birthday party and they interacted. The schools are important because you will
very often see the schools be a place of transmission. If two students interact at a birthday
party on a Friday night and then go to school, they then bring it home to their parents and
now we're oﬀ to the races again.
We're increasing the ﬁnes for sponsors of mass gatherings to $15,000. We are going to be
providing the local governments with the maps that we did in their areas. We'll be consulting
with them. These were done speciﬁcally from the actual case numbers themselves. If there's
some peculiarity, local governments have a comment, we'll do that today. The rules can go
into eﬀect as soon as tomorrow, that's up to the local government, but no later than Friday. If
local government says we want time to get adjusted, ﬁne. Today is Tuesday, get adjusted no
later than Friday.
Testing for schools in the yellow zones starts next week. I am more and more concerned
about schools with the more experience we have. The more we get into this the more
important I think it is that schools do random testing. Well, students are young and they're
resilient. First of all, we don't really know that. What do we know about this virus? And not only
do you have young people in schools, you have teachers. We all think we're young, I think I'm
young, you have teachers and I want to make sure we're protecting all lives. So the schools in
those yellow zones must do weekly testing. The Department of Health will set a sample
number. We want to make sure it's statistically representative and they'll set that sample by
Friday. If a school needs additional testing equipment, they should contact us - we can to help
them. If they want to do pool testing, they should contact us, we can help them. These rules
will be in eﬀect for 14 days, and then we'll see where we are and we'll see the numbers and
we'll adjust from there.
We've gone through this evolving situation with some of the best people on the globe who
have been advising us and I want to thank them very much for their help. Local governments
most enforce the law. I know I've said this several times. But we can sit here all day long and
come up with laws and rules - they are only as good as their enforcement. And a lack of
6
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 331 -

6/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
| Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
PageInitiative
8 of 11
PageID
#:M.104

enforcement has contributed to this problem. There is no one who say they didn't see this
coming. We've had concerts in the Hamptons that should have never happened. We've had
bars that have attracted crowds over and over again that should have never happened. We've
had college parties that have happened oﬀsite that should have never happened. We have
had religious gatherings that have been circulated on social media for weeks and action was
not taken. There can be no surprise - the rules are only as good as their enforcement. "Well
we have COVID fatigue. We're tired of wearing masks." COVID isn't tired. The virus isn't tired.
The virus - still energetic to strong enough to kill you. It's no time to be fatigued. We don't
have the luxury of fatigue.
And I understand it's a politically diﬃcult situations - I've tried everything with local
governments. I said that I would ﬁne local governments if failed to enforce the law because
these are laws that they're enforcing. A law doesn't work if you're too incompetent or too
politically frightened to enforce it, period, said A.J. Parkinson. I also said to local governments,
"Blame me." I understand these are diﬃcult acts to enforce. These are state laws. Blame me. I
have no problem with that.
Moving forward, I'm not going to pass more laws that are not enforced. This is a government
that is competent, this is a government that is capable, this is a government that has helped
the people of the state through this horrendous situation. We'll continue to do it - we do it
because we're eﬀective, that's why. Local governments need to assign people to a State
Enforcement Task Force, because I want to make sure that that is happening. New York City
must provide 400 personnel to the New York State Task Force. I want to thank our
government partners in this Cluster Initiative. I've spoken to many of them myself today. But
we have in Binghamton, Broome, Jason Garner has been very helpful, Steven Neuhaus in
Orange, Ed Day in Rockland County, we spoke through some issues today - I want to thank
him very much for his cooperation. New York City we've been working with, Laura Curran in
Nassau we've been working with. Together we're going to get this done - it's not easy. But we
know where the cases and we know what we have to do.
So, government has to do its job, but individuals have to do their job also. And organizations
have to do their job also. We're all citizens, and it's not government's job to catch you. It's
citizen's obligation to do the right thing, right? You don't speed on the road, not just because
7
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 332 -

7/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor Cuomo
New Cluster Action
| Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
2-9 Announces
Filed 10/08/20
PageInitiative
9 of 11
PageID
#:M.105

you're afraid to get a ticket, because you don't want to kill anyone. Right? You act responsibly
with COVID because you want to protect yourself, you want to protect your family, you want to
protect other people. And organizations have to do the same thing. I am informing all houses
of worship today. Obviously these new rules are most impactful on houses of worship
because this virus is not coming from nonessential businesses. That's not what this is about. It
may be spread by nonessential business. It's not starting in schools; it may be spread by
schools. This is about mass gatherings. And one of the prime places of mass gatherings are
houses of worship. I understand it's a sensitive topic but that is the truth. You want to solve the
problem? Acknowledged the problem. Deny the problem, look at a red herring, and then the
problem gets worse. The problem is mass gatherings and houses of worship, colleges and
some miscellaneous foolish behavior in bars, outdoor venues, etc.
I spoke to members of the Orthodox Jewish community today. I spoke to the leaders myself
this morning. We had a very good conversation. These rules will apply to all houses of
worship. Many of these communities have a large Orthodox population. I have been very
close to the Orthodox community for many years. I understand the imposition this is going to
place on them, and I said to them I need their cooperation. I need their partnership. They're
very cohesive communities. And I asked for them to work with me to follow these guidelines
and that was positively received. I said to them that I'm doing this for a very simple reason
because I have such respect and love for the Orthodox community. I have been friends with
them all my life and my father before me by the way. We go way back and it's out of respect
and it's out of love and it's because I want to protect them. In Jewish teaching, one of the most
precious principles is saving a life. To save a life. The Torah speaks about how certain
religious obligations can be excused, if you are going to save a life. This is about saving a life.
That's what this is. No large gatherings in synagogues to save a life. You look at where the
infection rate is, you look at those clusters, people will die in those clusters and this is about
protecting people and saving lives. And I felt very good about my conversation with the
Orthodox community and I thank them for their help in their cooperation. Seasons change,
circumstances change, and we change with it. That's what we do. This is not a New York State
phenomenon. If you look at what's happening in our region of the country, New York is about
1.2 percent; Pennsylvania's up at about 8 percent; New Jersey is about 2.4 percent;
Connecticut - which God bless Governor Ned Lamont has always had a lower incident rate
than we have, but there are still facts in life: one plus one equals two; night follows day, the

8
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 333 -

8/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor 2-9
Cuomo Filed
Announces
New ClusterPage
Action Initiative
Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
10/08/20
10 of |11
PageID
#:M.106

world is round. These are facts, OK? There's another fact: if the rules are not complied with,
and enforcement is not done, then the infection rate will increase. If the infection rate
increases, we will be forced to close down. We know that. We've been here. This is déjà vu.
So, let's do what we have to do in these clusters, let's save lives, and let's continue the
economic advancement that we're making.
Today's speciﬁc numbers — top 20 zip codes — we're doing two types of testing now. We're
testing in the hotspots and then we're doing the normal testing statewide. In the testing just in
the hotspots, the infection rate is about 5.5. Statewide the testing is about 1.2. If you roll the
hotspots into the state numbers, which now oversamples the hotspots, you're at 1.4 percent.
Nine New Yorkers passed away. They're in our thoughts and prayers. 705 hospitalized, ICU
158, intubation 72.
We're going to do this the way we've done it all along because we are New York tough, smart
united, disciplined, loving.
Last point is I'd like to make a comment about the President, what he's been saying. We
wished him well when we heard about his diagnosis with COVID and we wished the First Lady
well. We sent them a great New York special care package, and I hope he's back to 100
percent as quickly as possible. I think the President has an opportunity that he is missing and I
think he has an opportunity to do a public service and I think he's right now doing the public a
disservice. To say to the people of this country, "Look at me! Don't worry about COVID. Look
how well I'm doing!" First of all, this is a funny disease. We hope you're doing well, but the
disease still has not run its course and it's a little premature to say "I'm doing great," right?
You're not really doing great until you test negative and then, by the way — there are people
who test negative and have consequences that continue for weeks and months and months.
This is a frightening virus. But the President is not analogous to the average person in this
country, right? The average person gets COVID, they don't get ﬂown by helicopter to Walter
Reed Hospital, and have a team of 20 doctors, millions of dollars of medical talent attend to
their needs, receive experimental drugs that haven't been available to the public and are
administered just to the President under Compassionate Care, right? So, there's no analogy
there. From the public service point of view, 210,000 people died. More people die in this
country than countries around the world that were doing much worse than we were. From a
9
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 334 -

9/10

10/7/2020
Case

Video, Audio, Photos & Rush Transcript:
Governor 2-9
Cuomo Filed
Announces
New ClusterPage
Action Initiative
Governor
Andrew
Cuomo
1:20-cv-04834-KAM-RML
Document
10/08/20
11 of |11
PageID
#:M.107

public service point of view, "Don't be afraid of COVID?" No. Be afraid of COVID. It can kill you.
Don't be cavalier. You This is just more denial. This is where it started and you know, the
President — God bless him — he tells you where he's going. We know that when COVID
started, he knew how bad it was going to be and he just lied about it. We know that he had
the White House memo done by Peter Navarro that said millions of people could get infected
and he just lied about it. Woodward's book, he actually has him on tape saying, "I know how
bad it's going to be, but I don't want to tell the American people." Yeah, that cost this nation,
and that confusion cost this nation, many unnecessary lives and expense and pain and
hardship. I was saying at that time, "Take it seriously." The President was saying when it
started, "It's a hoax. It will be gone by Easter. It's going to disappear like a miracle." Yeah, none
of that was true. None of it was true. He knew it wasn't true and it's not true now to say, "Don't
be afraid of COVID."
Denial doesn't works. It never does in life. It never does. "I don't have a drinking problem. I
don't have a substance abuse problem. I don't have a gambling problem." Denial never works.
Acknowledge the problem: it's a frightening virus. Be smart, be careful. Don't hide under your
bed. We're reopening, go about your business, but do it smartly and that's what the President
should be saying.

 Contact us
by phone:

Albany: (518) 474 - 8418
New York City: (212) 681 - 4640



Contact us
by email:

Press.Oﬃce@exec.ny.gov

10
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

- App. 335 -

10/10

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 1 of 38 PageID #: 188

EXHIBIT K

- App. 336 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 2 of 38 PageID #: 189

INTERIM GUIDANCE FOR IN-PERSON INSTRUCTION AT PRE-K TO
GRADE 12 SCHOOLS DURING THE COVID-19 PUBLIC HEALTH
EMERGENCY
When you have read this document, you can affirm at the bottom.
As of August 26, 2020

Purpose
This Interim Guidance for In-Person Instruction at Pre-K to Grade 12 Schools during the COVID-19 Public
Health Emergency (“Interim COVID-19 Guidance for Schools”) was created to provide all elementary
(including pre-kindergarten), middle, and high schools, as well as their employees, contractors, students,
and parents/legal guardians of students with precautions to help protect against the spread of COVID-19
for schools that are authorized to provide in-person instruction in the 2020-2021 school year.
This guidance is intended to address all types of public and private (both secular and non-secular)
elementary (including pre-kindergarten), middle, and high schools. In addition to affirming to understand
and meet the requirements described herein, school districts, boards of cooperative educational services
(BOCES), charter schools, and private schools must develop individual plans for reopening and operating
during the COVID-19 public health emergency. Each plan must meet the minimum standards set forth in
this guidance and reflect engagement with school stakeholders and community members, including but
not limited to administrators, faculty, staff, students, parents/legal guardians of students, local health
departments, local health care providers, and, where appropriate, affiliated organizations (e.g., union,
alumni, and/or community-based groups). Specifically, each school district, BOCES, charter school, and
private school must develop and submit to the New York State Department of Health (DOH) and the New
York State Education Department (NYSED), or the State University of New York (SUNY) for charter
schools authorized by SUNY, a plan that, at minimum, covers:

(1) Reopening of school facilities for in-person instruction,
(2) Monitoring of health conditions,
(3) Containment of potential transmission of the 2019 novel coronavirus (COVID-19), and

(4) Closure of school facilities and in-person instruction, if necessitated by widespread virus
transmission.
Core Health and Safety Principles and Definitions
•

Responsible Parties : Responsible Parties shall be responsible for developing the plan, affirming to

having read and adhere to this guidance, and meeting the standards set forth herein. For school
districts and BOCES, the district superintendent, or another party as may be designated by the
district superintendent, and for private and charter schools, the head of school, or another party as
may be designated by the head of school, is the Responsible Parties. The designated party can be an
individual or group of individuals responsible for the operations of the school or schools.

•

Face Coverings : Responsible Parties must maintain protocols and procedures for students, faculty,

staff, and other individuals to ensure appropriate personal protective equipment (PPE) is used to
protect against the transmission of the COVID-19 virus when on school grounds and in school
facilities. Specifically, appropriate PPE means, at least, an acceptable face covering, which is strongly
1

- App. 337 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 3 of 38 PageID #: 190

recommended to be worn by all individuals at all times but is required to be worn any time or place
that individuals cannot maintain appropriate social distancing. However, if face coverings are to be
worn by all individuals at all times, Responsible Parties should allow students to remove their face
covering during meals, instruction, and for short breaks so long as they maintain appropriate social
distance. Acceptable face coverings include but are not limited to cloth-based face coverings (e.g.,
homemade sewn, quick cut, bandana), and surgical masks that cover both the mouth and nose.
•

Social Distancing: Responsible Parties must maintain protocols and procedures for students, faculty,

•

Spaces : To reduce social density, Responsible Parties should consider and assess additional and/or

and staff to ensure appropriate social distancing to protect against the transmission of the COVID-19
virus when on school grounds and in school facilities. Specifically, appropriate social distancing means
six feet of space in all directions between individuals or use of appropriate physical barriers between
individuals that do not adversely affect air flow, heating, cooling, or ventilation, or otherwise present
a health or safety risk. If used, physical barriers must be put in place in accordance with United
States Department of Labor’s Occupational Safety and Health Administration (OSHA) guidelines, and
may include strip curtains, cubicle walls, code compliant materials, or other impermeable divider or
partition.
alternate indoor space(s) that may be repurposed for instruction or other required purposes in
support of in-person instruction within the school facility, school grounds, municipal facilities,
municipal grounds, or community (e.g., community centers), as well as outdoor space(s) where
health and safety conditions (e.g., allergies, asthma) allow for such potential usage.

•

In-Person Instruction: To ensure equity in education, Responsible Parties should prioritize efforts to

return all students to in-person instruction at this time. However, based on the dynamic nature of
local community transmission of the COVID-19 virus, a phased-in approach or hybrid model
combining in-person instruction and remote/distance learning may be necessary at various times
through the 2020-2021 school year. In planning for these approaches and models, school plans
should indicate if certain students will be prioritized to return to in-person instruction first or more
frequently based on educational or other needs (e.g., early grades, students with disabilities, English
language learners), given requirements for equity, capacity, social distancing, PPE, feasibility, and
learning considerations.
•

Cohorts : Responsible Parties should “cohort” students, to the extent practicable, to limit potential

•

Screening: Responsible Parties must implement mandatory health screenings, including temperature

exposure to the COVID-19 virus. Cohorts, particularly for younger students, are self-contained, preassigned groups of students with reasonable group size limits set forth by the Responsible Parties in
their plans. Responsible Parties should enact measures to prevent intermingling between cohorts, to
the extent possible (e.g., separation by appropriate social distancing, particularly if there are multiple
cohorts in one area). Responsible Parties should make reasonable efforts to ensure that cohorts are
fixed – meaning contain the same students – for the duration of the COVID-19 public health
emergency. Faculty may instruct more than one cohort so long as appropriate social distancing is
maintained.

checks, of students, faculty, staff, and, where applicable, contractors, vendors, and visitors to identify
any individuals who may have COVID-19 or who may have been exposed to the COVID-19 virus.
Specifically, all individuals must have their temperature checked each day. If an individual presents a
temperature of greater than 100.0°F, the individual must be denied entry into the facility or sent
directly to a dedicated area prior to being picked up or otherwise sent home. Responsible Parties
must also use a daily screening questionnaire for faculty and staff reporting to school; and
periodically use a questionnaire for students, particularly younger students, who may require the
assistance of their parent/legal guardian to answer. Remote health screening (e.g., by electronic
survey, digital application, or telephone, which may involve the parent/legal guardian) before any
individual reports to school, is strongly advised.

2

- App. 338 -

2

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 4 of 38 PageID #: 191

•

Transportation: Consistent with State-issued public transit guidance, Responsible Parties must

•

Food Services : Responsible Parties must continue to provide school breakfast and/or lunch to

•

Ventilation: Responsible Parties should increase ventilation with outdoor air to the greatest extent

•

Hygiene, Cleaning, and Disinfection: Responsible Parties must adhere to and promote hygiene,

•

Contact Tracing: Responsible Parties must notify the state and local health department immediately

•

Return to School: Responsible Parties must establish protocols and procedures, in consultation with

develop protocols and procedures, which include that individuals must wear acceptable face
coverings at all times on school buses (e.g., entering, exiting, and seated), and that individuals
should maintain appropriate social distancing, unless they are members of the same household.
Responsible Parties should encourage parents/legal guardians to drop off or walk students to school
to reduce density on buses.
students who were previously receiving school meals, both on site and remote. For students on site,
Responsible Parties must provide meals while maintaining appropriate social distancing between
students. Students do not need to wear face coverings when seated and eating so long as they are
appropriately socially distanced. Responsible Parties may serve meals in alternate areas (e.g.,
classrooms) or staggered meal periods to ensure social distancing and proper cleaning and
disinfection between students.
possible (e.g., opening windows and doors) while maintaining health and safety protocols,
particularly for younger students.

cleaning, and disinfection guidance set forth by DOH and the Centers for Disease Control and
Prevention (CDC). Responsible Parties must train all students, faculty, and staff on proper hand and
respiratory hygiene. Responsible Parties must maintain logs that include the date, time, and scope of
cleaning and disinfection, as well as identify cleaning and disinfection frequency for each facility and
area type and assign responsibility to staff.
upon being informed of any positive COVID-19 diagnostic test result by an individual within school
facilities or on school grounds, including students, faculty, staff, and visitors. In the case of an
individual testing positive, Responsible Parties must develop and maintain plans to support local
health departments in tracing all contacts of the individual, in accordance with the protocols, training,
and tools provided through the New York State Contact Tracing Program. Confidentiality must be
maintained as required by federal and state law and regulations. Responsible Parties must cooperate
with all state and local health department contact tracing, isolation, and quarantine efforts.
the local health department(s), about the requirements for determining when individuals, particularly
students, who screened positive for COVID-19 symptoms can return to the in-person learning
environment at school. This return to school protocol shall include, at minimum, documentation from
a health care provider following evaluation, negative COVID-19 diagnostic test result, and symptom
resolution, or if COVID-19 positive, release from isolation. Responsible Parties should refer to DOH’s
“Interim Guidance for Public and Private Employees Returning to Work Following COVID-19 Infection
or Exposure” regarding protocols and policies for faculty and staff seeking to return to work after a
suspected or confirmed case of COVID-19 or after the faculty or staff member had close or proximate
contact with a person with COVID-19.

Plan Requirements
Reopening of in-person instruction includes protocols and procedures for restarting school
operations including students, faculty, and staff returning to in-person instruction. At a minimum, plans
must incorporate the following:

•

Capacity: Phasing and quantity of students, faculty, and staff allowed to return in-person,

considering factors such as ability to maintain appropriate social distance, personal protective
equipment (PPE) availability, local medical capacity, and availability of safe transportation;

3

- App. 339 -

3

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 5 of 38 PageID #: 192

•

Social Distancing: Protocols and procedures for students, faculty, and staff to ensure appropriate

social distancing when on school grounds and in school facilities;
•

PPE and Face Coverings: Protocols and procedures for students, faculty, staff, and other individuals

•

Operational Activity: Determinations on how classes, shared spaces, and activities may be adapted

•

Restart Operations: Plans to safely reopen facilities and grounds, such as cleaning and disinfection,

to ensure appropriate PPE is used to protect against the transmission of the COVID-19 virus when on
school grounds and in school facilities. Plans for all students, faculty, and staff to have the required
PPE (i.e., acceptable face coverings) before entering school facilities, grounds, or any other space
owned or administered by the school or school district (e.g., school buses);
in various phases of learning and operations (e.g., identify which, if any, students will be offered
alternate approaches, such as alternative schedules or hybrids of in-person and remote learning; how
additional and alternative – school and non-school – spaces can be used for, or in support of, inperson instruction; how such schedules could be administered to create overlap for students from the
same household; how shared spaces, such as cafeterias, libraries, playgrounds, and gymnasiums, will
be modified and used, if and how cohorts will be implemented). Policies regarding field trips, special
congregate events, and visitors considering risks for COVID-19 transmission, as well as protocols and
procedures for social distancing, PPE usage, and cleaning and disinfection, which may include
conducting virtual events;
and restarting building ventilation, water systems, and other key facility components, as applicable;

•

Hygiene, Cleaning, and Disinfection: Protocols and procedures for school-wide cleaning and

•

Extracurriculars: Policies regarding extracurricular programs and which activities will be allowed,

•

Before and Aftercare: Policies regarding before and aftercare programs, considering social

•

Vulnerable Populations: Policies regarding vulnerable populations, including students, faculty and

disinfection of classrooms, restrooms, cafeterias, libraries, playgrounds, school buses, and all other
school facilities, as well as training and promotion of hand and respiratory hygiene among all
individuals in school facilities and on school grounds;

considering social distancing, PPE usage, and cleaning and disinfection, as well as risk of COVID-19
transmission (e.g., interscholastic sports, assemblies, and other gatherings). Policies should consider
how to maintain cohorts, if applicable, or members of the same household. Responsible Parties must
refer to DOH’s “Interim Guidance for Sports and Recreation During the COVID-19 Public Health
Emergency” to assist in development of these policies and the conduct of school-sponsored sports.
Further, lower- and moderate-risk sports (e.g., tennis, soccer, cross country, field hockey, and
swimming) may practice and play, effective September 21, 2020. However, travel for practice or play
is prohibited outside of the school’s region or contiguous regions/counties until October 19,
2020. Higher-risk sports (e.g., football, wrestling, rugby, hockey, and volleyball) may practice,
effective September 21, 2020, but not play until authorized at a later date, but no later than
December 31, 2020; in accordance with the State-issued guidance, such practices are limited to
individual or group, no- to low-contact training (e.g., skills development) whereby contact between
players may only be incidental and any activities that are specifically designed to promote close
physical contact are prohibited. If school is closed for in-person education during the school year due
to an increase in confirmed COVID-19 cases, school-sponsored sports must be suspended until inperson education is resumed; provided, however, that this restriction does not apply to schools that
are conducting only remote instruction.
distancing, PPE usage, and cleaning and disinfection requirements, as well as risk of COVID-19
transmission. Policies should consider how to maintain cohorts, if applicable, or group members of
the same household;
staff who are at increased risk for severe COVID-19 illness, and individuals who may not feel
comfortable returning to an in-person educational environment, to allow them to safely participate in
educational activities and, where appropriate, accommodate their specific circumstances. These

4

- App. 340 -

4

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 6 of 38 PageID #: 193

accommodations may include but are not limited to remote learning or telework, modified
educational or work settings, or providing additional PPE to individuals with underlying health
conditions. Responsible Parties must also identify and describe any modifications to social distancing
or PPE that may be necessary for certain student or staff populations, including individuals who have
hearing impairment or loss, students receiving language services, and young students in early
education programs, ensuring that any modifications minimize COVID-19 exposure risk for students,
faculty, and staff, to the greatest extent possible;
•

Transportation: Consistent with State-issued public transit guidance, protocols and procedures,

•

Food Services: Protocols and procedures for onsite and remote food services for students,

•

Mental Health, Behavioral, and Emotional Support Services and Programs: Available resources and

•

Communication: Communications plans for students, parents/legal guardians of students, faculty,

which include that individuals must wear acceptable face coverings at all times on school buses (e.g.,
entering, exiting, and seated), and that individuals should maintain appropriate social distancing,
unless they are members of the same household. Protocols and procedures should include how
school buses will be adapted to keep students and staff safe (e.g., how face coverings will be
provided to students in need, how members of the same household will be seated together, how
social distancing will be conducted on buses, whether bus schedules will be adapted to accommodate
reduced capacity, whether any health screening will be conducted at home before students board
buses, how parents/legal guardians will be encouraged to drop off or walk students to reduce density
on buses);
considering appropriate social distancing and any modifications to service that may be necessary
(e.g., providing meals in a combination of classrooms and cafeterias, staggering meal periods).
Measures to protect students with food allergies if providing meals in spaces outside the cafeteria.
Protocols and procedures must also include how students will perform hand hygiene before and after
eating, how appropriate hand hygiene will be promoted, and how sharing of food and beverages will
be discouraged. Additionally, protocols and procedures must account for cleaning and disinfection
prior to the next group of students arriving for meals, if served in the same common area (e.g.,
cafeteria);

referrals to address mental health, behavioral, and emotional needs of students, faculty, and staff
when school reopens for in-person instruction (e.g., how they will identify and support students
having difficulty with transitioning back into the school setting, especially given the changed school
environment). Any training for faculty and staff on how to talk with, and support, students during and
after the ongoing COVID-19 public health emergency, as well as information on developing coping
and resilience skills for students, faculty, and staff; and
staff and visitors that includes applicable instructions, training, signage, and a consistent means to
provide individuals with information. Plans should describe how schools will communicate with
students and families about preparing for the upcoming year, which should include adapting to social
distancing requirements, properly wearing face coverings, and proper hand and respiratory hygiene.
Consider developing webpages, text and email groups, and social media to disseminate information.
Schools should develop communication plans in multiple languages, as necessary.

Monitoring includes protocols and procedures to track health conditions at schools. At a minimum, plans
must incorporate the following:

•

Screening: Protocols and procedures for mandatory health screenings, including temperature checks,

•

Testing Protocols: Process for the provision or referral of diagnostic testing for students, faculty, and

of students, faculty, staff, and, where applicable, contractors, vendors, and visitors to identify any
individuals who may have COVID-19 or who may have been exposed to the COVID-19 virus.
Responsible Parties should consider limiting the number of visitors permitted on school grounds or in
school facilities, and, if visitors are allowed, screening of such visitors;

staff for COVID-19, in consultation with local health department officials, when needed, which should

5

- App. 341 -

5

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 7 of 38 PageID #: 194

include plans for testing of symptomatic individuals, close contacts of COVID-19 suspected or
confirmed individuals, and individuals with recent international travel or travel within a state with
widespread transmission of COVID-19 as designated through the New York State Travel Advisory,
before allowing such individuals to return to in-person to the school;
•

Testing Responsibility: Identification of who in the community is responsible for referring, sourcing,

•

Early Warning Signs: Defined metrics that will serve as early warning signs that positive COVID-19

and administering testing (e.g., local health department testing site, physician offices, hospital
system), particularly in the event that large-scale testing at the school is needed; and
cases may be increasing beyond an acceptable level, as established by state and local health
departments; define and deploy method(s) to monitor against such metrics.

Containment includes protocols and procedures for how to respond to positive or presumed-positive
cases, as well as preventative practices. At a minimum, plans must incorporate the following:
•

School Health Offices: Protocols for safely caring for a student, faculty, or staff member if they

develop symptoms of COVID-19 during the school day;

•

Isolation: Procedures to isolate individuals who screen positive upon arrival, or symptomatic

•

Collection: Protocols for how parents or legal guardians should pick up their student with instructions

individuals should they become symptomatic while at school, providing appropriate PPE for school
health office staff caring for the symptomatic individual. Protocols for safe transportation, including
pick-up arrangements, if applicable, for symptomatic students, faculty, and staff;
that the student must be seen by a health care provider;

•

Infected Individuals: Requirements that persons who have tested positive complete isolation and

•

Exposed Individuals: Requirements that individuals who were exposed to the COVID-19 virus

have recovered, and will not transmit COVID-19 when returning to in-person learning. Discharge
from isolation and return to school will be conducted in coordination with the local health
department.
complete quarantine and have not developed symptoms before returning to in-person learning.
Discharge from quarantine and return to school will be conducted in coordination with the local
health department;

•

Hygiene, Cleaning, and Disinfection: Adherence to, and promotion of, hygiene, cleaning, and

disinfection guidance set forth by DOH and CDC, including strategies for cleaning and disinfection of
exposed areas and appropriate notification to occupants of such areas;
•

Contact Tracing: Plans to support local health departments in contact tracing efforts using the

•

Communication: Plans to share protocols and safety measures taken by the school with all relevant

protocols, training, and tools provided through the New York State Contact Tracing Program – an
initiative between the Department of Health, Bloomberg Philanthropies, Johns Hopkins Bloomberg
School of Public Health, and Vital Strategies; and
parties including parents/legal guardians, faculty, staff, students and the local community.

Closure includes contingency plans, protocols, and procedures for decreasing the scale or scope of inperson education, and/or closing the school. At a minimum, plans must incorporate the following:
•

Closure triggers: Identification of the conditions that may warrant reducing in-person education or

•

Operational Activity: Determination of which operations will be decreased, or ceased and which

closing the school, in consultation with state and local health departments, and plan for an orderly
closure;

operations will be conducted remotely; include process to conduct orderly closures which may include
phasing, milestones, and involvement of key personnel; and

6

- App. 342 -

6

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 8 of 38 PageID #: 195

•

Communication: Plan to communicate internally and externally throughout the closure process.

State-Issued Guidance and Minimum Standards

Pre-K through Grade 12 schools involve a variety of activities depending on their specific educational and
extracurricular programs and services, and, as such, should reference relevant “industry-specific”
guidelines provided by DOH – and available on the New York Forward website – for operations of food
services, office workspaces, transportation, and other activities, as applicable. Specifically, operations of
cafeterias and other food services must operate in accordance with “Interim Guidance for Food Services
during the COVID-19 Public Health Emergency” with additional precautions for students that are
contained herein, such as social distancing between students or cohorts of students. Administrative
functions must operate in accordance with, “Interim Guidance for Office-Based Work during the COVID19 Public Health Emergency.” Transportation services administered by the school must operate in
accordance with “Interim Guidance for Public Transportation Activities during the COVID-19 Public Health
Emergency” with additional precautions that are contained herein. Interscholastic athletics must follow
DOH’s “Interim Guidance for Sports and Recreation During the COVID-19 Public Health Emergency” for
the conduct of school-sponsored sports. Specifically, lower- and moderate-risk sports (e.g., tennis,
soccer, cross country, field hockey, and swimming) may practice and play, effective September 21, 2020.
However, travel for practice or play is prohibited outside of the school’s region or contiguous
regions/counties until October 19, 2020. Higher-risk sports (e.g., football, wrestling, rugby, hockey, and
volleyball) may practice, effective September 21, 2020, but not play until authorized at a later date, but
no later than December 31, 2020; in accordance with the State-issued guidance, such practices are
limited to individual or group, no- to low-contact training (e.g., skills development) whereby contact
between players may only be incidental and any activities that are specifically designed to promote close
physical contact are prohibited. If school is closed for in-person education during the school year due to
an increase in confirmed COVID-19 cases, school-sponsored sports must be suspended until in-person
education is resumed; provided, however, that this restriction does not apply to schools that are
conducting only remote instruction. Further, Responsible Parties hosting competitive play must follow the
Department’s guidance, including but not limited to reducing the capacity of indoor sports facilities to no
more than 50% of the maximum occupancy, restricting spectators to no more than two spectators per
player, and, where required, implementing and enforcing rules for appropriate social distancing, face
coverings, and cleaning and disinfection.
These guidelines are minimum requirements only and each school is free to provide additional
precautions or increased restrictions. These guidelines are based on the best-known public health
practices at the time of publication, and the documentation upon which these guidelines are based can
and does change frequently. The Responsible Parties – as defined above – are accountable for adhering
to all local, state and federal requirements relative to schools and auxiliary activities. The Responsible
Parties are also accountable for staying current with any updates to these requirements, and related
guidance as stated above, as well as incorporating same into any school activities and/or school
reopening plan(s).
Background
On March 7, 2020, Governor Andrew M. Cuomo issued Executive Order 202, declaring a state of
emergency in response to COVID-19. Community transmission of COVID-19 has occurred throughout
New York. To minimize further spread, social distancing of at least six feet must be maintained between
individuals, where possible.
On March 16, 2020, Governor Cuomo issued Executive Order 202.4, ordering all schools to close no later
than March 18, 2020. Subsequent Executive Orders 202.11, 202.14, 202.18, and 202.28 extended such
closure through the remainder of the 2019-2020 school year. On June 5, 2020, Governor Cuomo issued

7

- App. 343 -

7

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 9 of 38 PageID #: 196

Executive Order 202.37, allowing in-person special education services and instruction during the summer
term, provided that any district offering such services follow state and federal guidance.
On March 20, 2020, Governor Cuomo issued Executive Order 202.6, directing all non-essential businesses
to close in-office personnel functions. Essential businesses, as defined by Empire State Development
Corporation (ESD) guidance, were not subject to the in-person restriction, but were, however, directed to
comply with the guidance and directives for maintaining a clean and safe work environment issued by the
New York State Department of Health (DOH), and were strongly urged to maintain social distancing
measures to the extent possible.
On April 12, 2020, Governor Cuomo issued Executive Order 202.16, directing essential businesses to
provide employees, who are present in the workplace, with a face covering, at no-cost, that must be
used when in direct contact with customers or members of the public during the course of their work.
On April 15, 2020, Governor Cuomo issued Executive Order 202.17, directing that any individual who is
over age two and able to medically tolerate a face-covering must cover their nose and mouth with a
mask or cloth face-covering when in a public place and unable to maintain, or when not maintaining,
social distance. On April 16, 2020, Governor Cuomo issued Executive Order 202.18, directing that
everyone using public or private transportation carriers or other for-hire vehicles, who is over age two
and able to medically tolerate a face covering, must wear a mask or face covering over the nose and
mouth during any such trip. It also directed any operators or drivers of public or private transport to wear
a face covering or mask which covers the nose and mouth while there are any passengers in such a
vehicle. On May 29, 2020, Governor Cuomo issued Executive Order 202.34, authorizing business
operators/owners with the discretion to deny admittance to individuals who fail to comply with the face
covering or mask requirements.
On April 26, 2020, Governor Cuomo announced a phased approach to reopen industries and businesses
in New York in phases based upon a data-driven, regional analysis. On May 4, 2020, the Governor
provided that the regional analysis would consider several public health factors, including new COVID-19
infections, as well as health care system, diagnostic testing, and contact tracing capacity. On May 11,
2020, Governor Cuomo announced that the first phase of reopening would begin on May 15, 2020 in
several regions of New York, based upon available regional metrics and indicators. On May 29, 2020,
Governor Cuomo announced that the second phase of reopening would begin in several regions of the
state, and announced the use of a new early warning dashboard that aggregates the state's expansive
data collection efforts for New Yorkers, government officials, and experts to monitor and review where
and how the virus is being contained to ensure a safe reopening. On June 11, 2020, Governor Cuomo
announced that the third phase of reopening would begin on June 12, 2020 in several regions of New
York. On June 24, 2020, Governor Cuomo announced that several regions of the state were on track to
enter the fourth phase of reopening, starting on June 26, 2020.

On May 8, 2020, Governor Cuomo launched New York's Reimagine Education Advisory Council – made up
of educators, students, parents, and education leaders – to help school districts, colleges, and universities
reimagine teaching and learning as they prepare to reopen while protecting the health and safety of
students and educators. The collective expertise and experience of this advisory council helped address
key questions about how to strengthen New York's entire education system and helped inform this
guidance. Specifically, this distinguished Council recommended the following key principles, which are
reflected throughout these guidelines:
•

•

Develop Flexible Plans: Schools must allow students, faculty, and staff to return to an in-person
classroom setting with safety rules in place, while creating plans that are flexible and adaptable to
ever-changing circumstances, especially given the possibility of a resurgence of COVID-19.
Enact Safeguards to Protect the Health of Students and Employees: Essential safeguards for inperson education must be embedded in schools’ plans, including but not limited to developing
procedures for hand hygiene, cleaning and disinfection; providing proper PPE; maintaining social
distancing; developing screening procedures; considering implications of busing and transportation;

8

- App. 344 -

8

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 10 of 38 PageID #: 197

•

•

•

•

•

developing mitigation measures in cases of student and staff infections; considering needs of higher
risk and vulnerable populations.
o Develop proper procedures for hand washing, cleaning and disinfection, ventilation, and
appropriate use of PPE.
o Schools should provide proper PPE for those staff that must come into close contact with
students, e.g. those who work with students that have certain disabilities.
o Schools should develop a plan for group purchasing of PPE.
o To maintain the safety of students and staff school districts plans must include physical/social
distancing of six feet. In instances when six feet cannot be maintained proper face coverings
must be worn in common areas such as hallways or on school buses. Provide exemptions or
alternatives for those medically unable to wear masks.
o Place students in cohorts throughout the school day where feasible, and determine appropriate
meal service options to ensure social distancing.
o Develop a plan for screening of students and staff.
o Consider the implications of busing (and limited busing) on students’ ability to attend school in
person.
o Work with state and local health departments to develop mitigation measures—such as additional
disinfecting, postponing in-classroom instruction, or school closures—in cases of student and staff
infections.
o Consider the needs of vulnerable populations and offer options for students and staff at higher
risk of severe illness to limit their risk of exposure (e.g., virtual learning and teaching
opportunities, respectively).
o Schools must work with state and local health departments as conditions may change. The
flexible plan must adhere to federal and state guidelines for cleaning, sanitization and social
distancing protocols.
Prioritize In-Classroom Instruction for Students that Need it the Most: Schools should include steps to
facilitate face-to-face instruction as much as possible, with a particular emphasis on in-person
instruction for younger students, low-income students, special education students, English Language
Learners, and those with limited access to technology.
Arts, CTE, Labs, and Other Areas Must be Prioritized: Recognize the unique challenges and
opportunities of remote instruction to the arts, career and technical education, physical education,
laboratory coursework, and other activity-oriented subjects, understanding it is imperative that
schools include in-person instruction in those areas to the extent possible.
Utilize Innovative Models Such as Community Schools: Schools should be encouraged to expand
community schools and wraparound services to support students and their families with essential
needs like health and support services. Schools should create partnerships with arts, culture, athletic,
and other community-based organizations. As part of this effort, schools should identify and ensure
the availability of community resources to support the social, emotional, and health needs of
students, families, and staff.
Establish Best Practices for Hybrid and Remote Learning: Given the potential for intermittent school
closures, or limited in-school activity, schools should establish effective hybrid and remote learning
strategies in conjunction with stakeholders. In addition, schools should consider providing
education/classroom activities in alternative non-traditional school spaces, such as community
centers, simulcast lessons and professional development.
Share Best Practices throughout the Region/State: Given the unprecedented challenges facing
schools because of the ongoing public health emergency, schools should collaborate in developing
reopening plans and districts should work with their communities and surrounding school districts to
share knowledge and resources which promote efficiencies and increased opportunities for students,
educators, and communities.
9

- App. 345 -

9

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 11 of 38 PageID #: 198

•
•

Collaborate with Stakeholders: Schools should collaborate with stakeholders within districts and
create specific processes to ensure that multiple perspectives are considered when developing plans.
Communicate and Share Plans Widely: School plans should be readily available and accessible in all
dominant languages spoken by students and their parents/legal guardians.

In addition to the following standards, schools must continue to comply with the guidance and directives
for maintaining clean and safe work environments issued by DOH.
Please note that where guidance in this document differs from other guidance documents issued by New
York State, or the respective regulatory or oversight body, such as NYSED or DOH, the more recent
guidance shall apply.
Standards for Responsible School Activities in New York State
No school activities can operate without meeting the following minimum State guidance, as well as
applicable federal requirements, including but not limited to such minimum standards of the Americans
with Disabilities Act (ADA), Centers for Disease Control and Prevention (CDC), Environmental Protection
Agency (EPA), and OSHA. The State standards apply to all school activities in operation during the
COVID-19 public health emergency until rescinded or amended by the State.

The following guidance is provided to help schools develop their reopening plans and is organized around
three distinct categories: people, places, and processes.

I. PEOPLE
A. Social Distancing and Face Covering

Social Distancing
•

Responsible Parties must ensure that appropriate social distancing is maintained between individuals
while in school facilities and on school grounds, inclusive of students, faculty, and staff, unless safety
or the core activity (e.g., instruction, moving equipment, using an elevator, traveling in common
areas) requires a shorter distance or individuals are of the same household.

Face Coverings
•

Any time or place that individuals cannot maintain appropriate social distancing, individuals must
wear acceptable face coverings.

•

Face coverings are strongly recommended at all times, except for meals and instruction with
appropriate social distancing. However, Responsible Parties can require face coverings at all times,
even during instruction; and it is strongly recommended in areas with higher rates of COVID-19
community infection.
o

Responsible Parties requiring the wearing of face coverings by students at all times will need
to consider and address developmental appropriateness, feasibility, and ability to implement
such policy in a safe, consistent manner.

•

Responsible Parties should develop plans for face covering breaks for students when they can
maintain social distance.

•

All individuals in school facilities and on school grounds must be prepared to put on a face covering if
another person unexpectedly cannot socially distance; and for this reason, individuals – including
10

- App. 346 -

10

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 12 of 38 PageID #: 199

students – must wear face coverings in common areas, such as entrances/exits, lobbies, and when
traveling around the school.
•

Students who are unable to medically tolerate a face covering, including students where such
covering would impair their physical health or mental health are not subject to the required use of a
face covering.

•

Responsible Parties should consider assistance to students who may have difficulty in adapting to
wearing a face covering.

•

Responsible Parties must train all students, faculty, and staff on how to adequately put on, take off,
clean (as applicable), and discard PPE, including but not limited to, appropriate face coverings. This
training should be extended to contractors and vendors, if the Responsible Parties will be supplying
the contractors and vendors with PPE.

Social Distancing for Certain Activities
•

Responsible Parties should ensure that a distance of twelve feet in all directions is maintained
between individuals while participating in activities requires projecting the voice (e.g., singing),
playing a wind instrument, or aerobic activity resulting in heavy breathing (e.g., participating in gym
classes).

Space Configurations
•

Responsible Parties are strongly encouraged to (1) modify or reconfigure spaces and areas, and/or
(2) restrict the use of classrooms and other places where students, faculty, and staff gather (e.g.,
lockers, cubbies, entryways, hallways), so that individuals can be socially distanced (e.g., side-to-side
and when facing one another), and are not sharing workstations, desks, tables, or other shared
surfaces without cleaning and disinfection between use.
o

If Responsible Parties are using a cohort model, cleaning and disinfection may be performed in
between each group’s use instead of individual’s use.

•

Where feasible, Responsible Parties should put in place measures to reduce bi-directional foot traffic
using tape or signs with arrows in hallways, or spaces throughout the school, and post signage and
distance markers denoting spaces of six feet in all commonly used areas and any areas in which lines
are commonly formed or people may congregate (e.g., outdoor spaces, libraries, classrooms,
cafeterias, health screening stations).

•

Responsible Parties should determine which facilities, grounds, or portions thereof (e.g., libraries,
recreational facilities) will be closed to the public (i.e., not students, faculty, or staff) or offer limited,
specific hours to members of the general public. Any use of a school facility or grounds by the
general public must be subject to the same guidelines required during all other school operations.

•

Responsible parties should work to find additional or alternate space with community-based
organizations and other operators of alternative spaces (e.g., local governments) to maximize
capacity for in-person learning.

Schedules
•

Responsible Parties should consider staggered arrival and pick-up times to facilitate proper social
distancing, and assign lockers or other student storage areas by cohort or eliminate their use.
However, students should not carry an unreasonable number of books or materials throughout the
day.

Signage
•

Responsible Parties must post signs throughout the school and should regularly share similar
messages with the school community, consistent with DOH COVID-19 signage regarding public health
protections against COVID-19. Responsible Parties can develop their own customized and age-

11

- App. 347 -

11

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 13 of 38 PageID #: 200

appropriate signage specific to their school or educational setting, provided that such signage is
consistent with the Department’s signage. Signage should be used to remind individuals to:
o

Stay home if they feel sick.

o

Cover their nose and mouth with an acceptable face covering when unable to maintain social
distance from others or in accordance with any stricter policy implemented by the school.

o

Properly store and, when necessary, discard PPE.

o

Adhere to social distancing instructions.

o

Report symptoms of, or exposure to, COVID-19, and how they should do so.

o

Follow hand hygiene, and cleaning and disinfection guidelines.

o

Follow respiratory hygiene and cough etiquette.

B. Gatherings

Meals
•

Responsible Parties must ensure social distancing between individuals while eating in school
cafeteria. If not feasible, meals may be served in alternate areas (e.g., classrooms) or in staggered
meal periods to ensure social distancing and proper cleaning and disinfection between students.
o

Responsible Parties must prohibit sharing of food and beverages (e.g., buffet style meals,
snacks), unless individuals are members of the same household. Adequate space should be
reserved for students, faculty, and staff to observe social distancing while eating meals.

Small Spaces
•

Responsible Parties should limit gathering in small spaces (e.g., elevators, supply rooms, faculty
offices) by more than one individual at a time, unless all individuals in such space at the same time
are wearing acceptable face coverings or are members of the same household. However, even with
face coverings in use, occupancy should not exceed 50% of the maximum capacity of the space,
unless it is designed for use by a single occupant.

Faculty and Staff Meetings
•

Pursuant to their school reopening plan, Responsible Parties may consider choosing to use video or
teleconferencing for faculty and staff meetings and conferences to reduce the density of
congregations, per CDC guidance “Interim Guidance for Businesses and Employers to Plan and
Respond to Coronavirus Disease 2019 (COVID-19)”. When videoconferencing or teleconferencing is
not preferable or possible, Responsible Parties may choose to hold meetings in open, well-ventilated
spaces and ensure that individuals maintain appropriate social distance (e.g., leave space between
chairs, have individuals sit in alternating chairs).

Ventilation
•

Responsible Parties should increase ventilation with outdoor air to the greatest extent possible (e.g.,
opening windows and doors) while maintaining health and safety protocols.

Common Areas
•

Responsible Parties should take additional measures to prevent congregation in elevator waiting
areas and limit density in elevators, by, for instance, enabling the use of stairs.

•

Responsible Parties may choose to encourage social distancing by reducing access to, or closing,
non-essential amenities and communal areas that do not allow for adequate social distancing
12

- App. 348 -

12

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 14 of 38 PageID #: 201

protocols to be followed. If open, Responsible Parties should make hand sanitizer or disinfecting
wipes available near such amenities or areas (e.g., vending machines, communal coffee stations).
o

However, Responsible Parties should not provide cleaning and disinfecting supplies to students,
particularly younger students, nor should students be present when disinfectants are in use.

•

Responsible Parties should put in place practices for adequate social distancing in small areas, such
as restrooms and breakrooms, and should develop signage and systems (e.g., flagging when
occupied) to restrict occupancy when social distancing cannot be maintained in such areas.

•

To the extent practical, Responsible Parties may consider staggering schedules for faculty and staff to
reduce density and promote social distancing in enclosed areas (e.g., coffee breaks, meals, and shift
starts/stops).

C. Operational Activity

Cohorts
•

Responsible Parties are recommended to cohort students to the extent practicable to limit potential
exposure. “Cohorts,” particularly for younger students, are self-contained, pre-assigned groups of
students with reasonable group size limits set forth by the school in their plan. Responsible Parties
should enact measures to prevent intermingling across cohorts, to the greatest extent possible (e.g.,
separation by appropriate social distancing, particular if there are multiple cohorts in one area).
Responsible Parties should make reasonable efforts to ensure that cohorts are fixed – meaning
contain the same students – for the duration of the COVID-19 public health emergency. Faculty may
instruct more than one cohort so long as appropriate social distancing is maintained.

In-Person Instruction
•

•

While the goal is to return all students to in-person instruction, due to the dynamic nature and risk of
community transmission of COVID-19, Responsible Parties should prepare for a combination of inperson instruction and remote learning to facilitate a phased-in approach or hybrid model, which may
be necessary at various times throughout the 2020-2021 school year. In such approaches and
models, Responsible Parties may use video or teleconferencing in lieu of in-person gatherings (e.g.,
classes, office hours), per CDC guidance “Interim Guidance for Businesses and Employers to Plan and
Respond to Coronavirus Disease 2019 (COVID-19)”.
o

In cases where in-person instruction is not feasible, phased-in and hybrid models of education
will need to consider if certain students will be prioritized for in-person instruction first or more
frequently based on educational or other needs (e.g., early grades, students with disabilities,
English language learners), and must balance this with equity, capacity, social distancing, PPE,
feasibility, and learning considerations.

o

If COVID-19 cases develop, Responsible Parties may consider restricting access within school
facilities and across school grounds, particularly in affected areas to avoid full school closures. In
such instances, Responsible Parties may choose to temporarily move classes where an individual
has tested positive for COVID-19 to remote/virtual format until all contacts can be identified,
notified, tested, and cleared.

To maximize in-person instruction, Responsible Parties should consider measures that can be
implemented to decrease density and congregation in school facilities and on school grounds, when
possible, such as:
o

Finding alternative spaces in the community to allow for more in-person instruction;

o

adjusting class or work hours, where appropriate and possible;
13

- App. 349 -

13

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 15 of 38 PageID #: 202

o

limiting in-person presence to only those staff who are necessary to be at the school during
normal school hours;

o

maintaining or increasing remote workforce (e.g., administrative staff) to accommodate social
distancing guidelines;

o

staggering schedules and allowing more time between classes to reduce congestion in hallways,
walkways, and buildings; and/or

o

shifting design of class schedules to accommodate social distancing guidelines, including cohorts
(e.g., alternative classroom schedules, full-time in-person learning for younger students, and
part-time distance learning for older students).

D. Movement and Commerce

Student Drop-Off and Pick-Up
•

Responsible Parties should establish designated areas for student drop-off and pick-up, limiting
contact and entry of parents/legal guardians into the building, to the greatest extent possible.

Deliveries
•

Responsible Parties should establish designated areas for pickups and deliveries, limiting contact to
the extent possible.

Faculty/Staff Entrances and Exits
•

To the extent feasible, Responsible Parties should limit on-site interactions (e.g., designating
separate ingress or egress for faculty and staff, eliminating bidirectional flow of individuals to the
extent practicable).

Shared Objects
•

Responsible Parties should put in place plans or measures to limit the sharing of objects, such as
lockers, cubbies, laptops, notebooks, touchscreens, writing utensils, chalk and dry erase boards,
musical instruments, tools, and toys, as well as the touching of shared surfaces, such as conference
tables and desks; or require students, faculty, and staff to perform hand hygiene before and after
contact.

II. PLACES
A. Personal Protective Equipment
•

Acceptable face coverings for COVID-19 include but are not limited to cloth-based face coverings
(e.g., homemade sewn, quick cut, bandana), and surgical masks that cover both the mouth and
nose. Face shields worn without other face coverings are not considered adequate protection or
source control against COVID-19 and should not be used.
o

•

Responsible Parties and faculty may use alternate PPE (i.e., face coverings that are transparent
at or around the mouth) for instruction or interventions that require visualization of the
movement of the lips and/or mouths (e.g., speech therapy). These alternate coverings may also
be used for certain students (e.g., hearing impaired) who benefit from being able to see more of
the face of the faculty or staff member.

However, cloth-based face coverings or disposable masks shall not be considered acceptable face
coverings for workplace activities that require a higher degree of protection for PPE due to the nature
of the work. For those types of activities, N-95 respirators or other PPE used under existing industry
standards should continue to be used, in accordance with OSHA guidelines.
14

- App. 350 -

14

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 16 of 38 PageID #: 203

•

In addition to the necessary PPE as required for certain workplace activities, Responsible Parties must
procure, fashion, or otherwise obtain acceptable face coverings and provide such coverings to their
faculty and staff who directly interact with students or members of the public while at work at no cost
to the faculty or staff member, pursuant to Executive Order 202.16, as amended and extended.

•

Responsible Parties should have an adequate supply of face coverings, masks, and other required
PPE on hand should faculty or staff need a replacement, or a student be in need.

•

Responsible Parties must advise students, faculty, staff, and visitors that they are required to wear
face coverings in common areas or situations where social distancing may be difficult to maintain,
such as riding in elevators, entering/exiting classrooms or student centers, walking in hallways, and
traveling around school buildings.

•

Responsible Parties must allow students, faculty, and staff to use their own acceptable face
coverings, but cannot require faculty and staff to supply their own face coverings. Further, this
guidance shall not prevent employees from wearing their personally owned protective coverings
(e.g., surgical masks, N-95 respirators, face shields), as long as they adhere to the minimum
standards of protection for the specific activity. Responsible Parties may otherwise require employees
to wear more protective PPE due to the nature of their work. If applicable, employers should comply
with all applicable OSHA standards.

•

Responsible Parties may request that students bring their own face covering, but may not require it
and must procure, fashion, or otherwise obtain acceptable face coverings and provide such coverings
to any student who does not have their own, at no cost to the student.

•

Face coverings should be cleaned or replaced after use and must not be shared. Students and
parents/legal guardians should take responsibility for maintaining their face coverings. Please consult
CDC guidance for additional information on cloth face coverings and other types of PPE, as well as
instructions on use and cleaning.

B. Hygiene, Cleaning and Disinfection

Hygiene
•

Responsible Parties must ensure adherence to hygiene and cleaning and disinfection requirements as
advised by the CDC and DOH, including “Guidance for Cleaning and Disinfection of Public and Private
Facilities for COVID-19,” and the “STOP THE SPREAD” poster, as applicable. Responsible Parties must
maintain logs that include the date, time, and scope of cleaning and disinfection. Responsible Parties
must identify cleaning and disinfection frequency for each facility type and assign responsibility.

•

Responsible Parties must train all students, faculty, and staff on proper hand and respiratory hygiene,
and should provide information to parents and/or legal guardians on ways to reinforce this at home.

•

Responsible Parties must provide and maintain hand hygiene stations around the school, as follows:
o

For handwashing: soap, running warm water, and disposable paper towels.

o

For hand sanitizing: an alcohol-based hand sanitizer containing at least 60% alcohol for areas
where handwashing facilities may not be available or practical.
▪

School medical or health directors should approve and permit the use of alcohol-based hand
sanitizers in school facilities without individual’s physician orders as alcohol-based hand
sanitizers are considered over-the-counter drugs. Student use of alcohol-based hand
sanitizers should always be supervised by adults to minimize accidental ingestion and
promote safe usage; supervision is required for elementary school students.
Parents/guardians can inform the school that they do not want their child to use alcoholbased hand sanitizers by sending a written notice to the school. Schools must provide

15

- App. 351 -

15

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 17 of 38 PageID #: 204

accommodations for students who cannot use hand sanitizer, to allow for their use of
handwashing stations.
o

•

Make hand sanitizer available throughout common areas. It should be placed in convenient
locations, such as at building, classroom, and cafeteria entrances and exits. Touch-free hand
sanitizer dispensers should be installed where possible.
▪

Responsible Parties should place signage near hand sanitizer stations indicating that visibly
soiled hands should be washed with soap and water; hand sanitizer is not effective on visibly
soiled hands.

▪

Responsible Parties should remind individuals that alcohol-based hand sanitizers can be
flammable and may not be suitable for certain areas in school facilities and on school
grounds.

Responsible Parties should place receptacles around the school for disposal of soiled items, including
paper towels and PPE.

Cleaning and Disinfection
•

•

Responsible Parties should ensure that cleaning and disinfection are the primary responsibility of the
school’s custodial staff. However, Responsible Parties may also choose to provide appropriate
cleaning and disinfection supplies to faculty and staff for shared and frequently touched surfaces:
o

Consider providing disposable wipes to faculty and staff so that commonly used surfaces (e.g.,
keyboards, desks, remote controls) can be wiped down before and/or after use, followed by hand
hygiene.

o

To reduce high-touch surfaces, Responsible Parties should install touch-free amenities, such as
water-bottle refilling stations, trash receptacles and paper towel dispensers, where feasible.

o

If installing touch-free amenities is not feasible, Responsible Parties should, at a minimum, make
hand sanitizer available near high-touch surfaces (e.g., trash receptacles, paper towel
dispensers).

o

Responsible Parties should consider closing water drinking fountains (unless they are configured
as a bottle refilling station) and encourage students, faculty, and staff to bring their own water
bottles or use disposable cups.

Responsible Parties must conduct regular cleaning and disinfection of the facilities and more frequent
cleaning and disinfection for high-risk areas used by many individuals and for frequently touched
surfaces, including desks and cafeteria tables which should be cleaned and disinfected between each
individual’s use, if shared. If cohorts are used, cleaning and disinfection may take place between
each cohort’s use rather than each individual. Cleaning and disinfection must be rigorous and
ongoing and should occur at least daily, or more frequently as needed. Please refer to DOH’s “Interim
Guidance for Cleaning and Disinfection of Public and Private Facilities for COVID-19” and “Interim
Guidance for Cleaning and Disinfection of Primary and Secondary Schools for COVID-19” for detailed
instructions on how to clean and disinfect facilities.
o

Responsible Parties must ensure regular cleaning and disinfection of restrooms. Restrooms
should be cleaned and disinfected more often depending on frequency of use.

o

Responsible Parties should ensure that materials and tools used by employees are regularly
cleaned and disinfected using registered disinfectants. Refer to the Department of Environmental
Conservation (DEC) list of products registered in New York State and identified by the EPA as
effective against COVID-19.
▪

If cleaning or disinfection products or the act of cleaning and disinfection causes safety
hazards or degrades the material or machinery, Responsible Parties must put in place hand

16

- App. 352 -

16

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 18 of 38 PageID #: 205

hygiene stations between use and/or supply disposable gloves and/or limitations on the
number of employees using such machinery.
o

Best practices to implement in residential, shared (i.e., communal) bathrooms include, but are
not limited to:
▪ Installation of physical barriers between toilets and sinks if six feet of separation is not
feasible; and
▪ Use of touch-free paper towel dispensers in lieu of air dryers.

o

Responsible Parties must ensure distancing rules are adhered to by using signage, occupied
markers, or other methods to reduce restroom occupancy at any given time, where feasible.

Cleaning and Disinfection Following Suspected or Confirmed COVID-19 Case
•

Responsible Parties must provide for the cleaning and disinfection of exposed areas in the event an
individual is confirmed to have COVID-19, with such cleaning and disinfection to include, at a
minimum, all heavy transit areas and high-touch surfaces.

•

Responsible Parties are expected to follow CDC guidelines on “Cleaning and Disinfecting Your
Facility,” if someone is suspected or confirmed to have COVID-19:
o

Close off areas used by the person who is suspected or confirmed to have COVID-19.
▪

Responsible Parties do not necessarily need to close operations, if they can close off the
affected areas (e.g., classroom, restroom, hallway), but they should consult with local health
departments in development of their protocols.

o

Open outside doors and windows to increase air circulation in the area.

o

Wait 24 hours before you clean and disinfect, unless waiting 24 hours is not feasible, in which
case, wait as long as possible.

o

Clean and disinfect all areas used by the person suspected or confirmed to have COVID-19, such
as offices, classrooms, bathrooms, lockers, and common areas.

o

Once the area has been appropriately cleaned and disinfected, it can be reopened for use.

o

▪

Individuals without close or proximate contact with the person suspected or confirmed to
have COVID-19 can return to the area and resume school activities immediately after
cleaning and disinfection.

▪

Refer to DOH’s “Interim Guidance for Public and Private Employees Returning to Work
Following COVID-19 Infection or Exposure” for information on “close and proximate”
contacts.

If more than seven days have passed since the person who is suspected or confirmed to have
COVID-19 visited or used the facility, additional cleaning and disinfection is not necessary, but
routine cleaning and disinfection should continue.

C. Coordination and Phased Reopening

•

Responsible Parties must designate a COVID-19 safety coordinator whose responsibilities include
continuous compliance with all aspects of the school’s reopening plan, as well as any phased-in
reopening activities necessary to allow for operational issues to be resolved before activities return to
normal or “new normal” levels.

D. Communications Plan
17

- App. 353 -

17

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 19 of 38 PageID #: 206

•

Responsible Parties must affirm that they have reviewed and understand the State-issued industry
guidelines and must submit reopening plans, as outlined above and instructed below, prior to
reopening.
o

Please note that the State will decide on reopening dates for Pre-K through Grade 12 schools in
early August 2020.

•

Responsible Parties must engage with school stakeholders and community members (e.g.,
administrators, faculty, staff, students, parents/legal guardians of students, local health departments,
local health care providers, and affiliated organizations, such as unions, alumni, and/or communitybased groups) when developing reopening plans. Plans for reopening should identify the groups of
people involved and engaged throughout the planning process.

•

Responsible Parties must develop a communications plan for students, parents or legal guardians of
students, staff, and visitors that includes applicable instructions, training, signage, and a consistent
means to provide individuals with information. Responsible Parties may consider developing
webpages, text and email groups, and/or social media groups or posts.

•

Responsible Parties must ensure all students are taught or trained how to follow new COVID-19
protocols safely and correctly, including but not limited to hand hygiene, proper face covering
wearing, social distancing, and respiratory hygiene.

•

Responsible Parties must encourage all students, faculty, staff, and visitors through verbal and
written communication (e.g., signage) to adhere to CDC and DOH guidance regarding the use of PPE,
specifically acceptable face coverings, when a social distance cannot be maintained.

•

Responsible Parties should designate a coordinator or other point(s)-of-contact to be the main
contact upon the identification of positive COVID-19 cases and to be responsible for subsequent
communication. Coordinators should be responsible for answering questions from students, faculty,
staff, and parents or legal guardians of students regarding the COVID-19 public health emergency
and plans implemented by the school.
o

Coordinators should also work closely with local health departments and other schools to
monitor public health conditions and jointly develop monitoring strategies.

E. Residential Living Considerations
•

For schools with students who reside on campus, Responsible Parties must consider the following as
they develop their plans:
o

Residence halls: Plans should include protocols for capacity limits, enhanced cleaning and
disinfection, appropriate social distancing, use of acceptable face coverings in common areas,
restrictions on non-essential gatherings and activities, limited access by students to other
residential facilities (e.g., dormitories), restrictions of visitors, special housing considerations for
students who are immunocompromised or who have an underlying health condition, separate
living spaces for persons undergoing isolation or quarantine, and a modified set of rules for
students to follow;

o

Residential testing: Plan for screening all students and faculty upon return, and to ensure
diagnostic testing for any students or faculty members who screen positive for potential COVID19 infection upon return, especially including any individuals with recent international or longdistance travel, or travel from designated states with widespread community transmission of
COVID-19, as identified through the New York State Travel Advisory;

o

Residential isolation and quarantine: Isolation (for individuals with suspected or confirmed case
of COVID-19) or quarantine (for individuals exposed to a suspected or confirmed case of COVID19, or who have recently traveled internationally or in states with widespread COVID-19

18

- App. 354 -

18

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 20 of 38 PageID #: 207

transmission) of individuals residing on school grounds may become necessary and schools
should develop plans, in consultation with the local health department, that specify where
individuals will be residing (e.g., dedicated residence hall, hotel, home) and the support system
that will be implemented to meet daily needs (e.g., food, medication, psychosocial, academic
and/or other support) throughout the duration of their isolation or quarantine. Plans should
include measures to monitor and provide medical care and other health services to students who
test positive and are in isolation, need more advanced medical care, or who are awaiting test
results; and

o

Residence move-out: Plans need to be put in place for how students should safely depart
residence halls in the event of a closure. Schools should consider policies for students who may
not be able to depart campus quickly (e.g. international students).

III. PROCESSES
A. Screening and Testing

Health Screening and Temperature Checks
•

Responsible Parties must implement mandatory health screenings, including temperature checks, of
students, faculty, staff, and, where applicable, contractors, vendors, and visitors to identify any
individuals who may have COVID-19 or who may have been exposed to the COVID-19 virus.
o

Temperature checks should be conducted per U.S. Equal Employment Opportunity Commission or
DOH guidelines. Specifically, all individuals must have their temperature checked each day –
ideally, at home, prior to departing to school – before entering any school facility. If an individual
presents a temperature of greater than 100.0°F, the individual must be denied entry into the
facility, or sent directly to a dedicated area prior to being picked up or otherwise sent home.

o

Responsible Parties must also use a daily screening questionnaire for faculty and staff reporting
to school; and periodically use a questionnaire for students, particularly younger students, who
may require the assistance of their parent/legal guardian to answer.
▪

o

o

Responsible Parties are prohibited from keeping records of student, faculty, staff, and visitor
health data (e.g., the specific temperature data of an individual), but are permitted to
maintain records that confirm individuals were screened and the result of such screening
(e.g., pass/fail, cleared/not cleared).

Screening is strongly recommended to be conducted remotely (e.g. by electronic survey, digital
application, or telephone, which may involve the parent/legal guardian), before the individual
reports to school, to the extent possible; or may be performed on site at the school.
▪

Remote screening should be coordinated to identify individuals who should not go to school
and should be referred to their health care provider for further evaluation and COVID-19
testing.

▪

On-site screening should be coordinated in a manner that prevents individuals from
intermingling in close or proximate contact with each other prior to completion of the
screening.

Screening for all students, faculty, staff, and, where practicable, visitors, contractors, and
vendors, must be completed using a questionnaire that determines whether the individual has:
(a) knowingly been in close or proximate contact in the past 14 days with anyone who has
tested positive through a diagnostic test for COVID-19 or who has or had symptoms of
COVID-19;

(b) tested positive through a diagnostic test for COVID-19 in the past 14 days;
19

- App. 355 -

19

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 21 of 38 PageID #: 208

(c) has experienced any symptoms of COVID-19, including a temperature of greater than
100.0°F, in the past 14 days; and/or
(d) has traveled internationally or from a state with widespread community transmission of
COVID-19 per the New York State Travel Advisory in the past 14 days.
•

As able, Responsible Parties should consider implementing health screening practices for unscheduled
visitors (e.g., members of the public allowed to use school grounds).

•

Refer to CDC guidance on “Symptoms of Coronavirus” for the most up to date information on
symptoms associated with COVID-19.

o

•

Please note that the manifestation of COVID-19 in children, although similar, is not always the
same as that for adults. Children may be less likely to present with fever as an initial symptom,
and may only have gastrointestinal tract symptoms, which should be taken into consideration
during the screening process. Schools should also consider reminding parents/guardians that
students may not attend school if they have had a temperature of greater than 100.0°F at any
time in the past 14 days, even if a fever-reducing medication was administered and the student
no longer has a fever.

Responsible Parties should remain aware that quarantine of students, faculty, or staff may be
required after international travel or travel within certain states with widespread community
transmission of COVID-19, pursuant to current CDC and DOH guidance, as well as Executive Order
205.

Positive Screen Protocols
•

Any individual who screens positive for COVID-19 exposure or symptoms, if screened at the school,
must be immediately sent home with instructions to contact their health care provider for assessment
and testing.
o

Students who are being sent home because of a positive screen (e.g., onset of COVID-19
symptoms) must be immediately separated from other students and supervised until their
parent/legal guardian or emergency contact can retrieve them from school.

o

Responsible Parties should provide such individuals with information on health care and testing
resources, if applicable.

o

Responsible Parties must immediately notify the state and local health department about the case
if diagnostic test results are positive for COVID-19.

•

Responsible Parties must require individuals to immediately disclose if and when their responses to
any of the aforementioned questions changes, such as if they begin to experience symptoms,
including during or outside of school hours.

•

Responsible Parties must establish policies, in consultation with the local health department(s), about
the requirements for determining when individuals, particularly students, who screened positive for
COVID-19 symptoms can return to the in-person learning environment. This returning to learning
protocol must include at minimum documentation from a health care provider evaluation, negative
COVID-19 testing, and symptom resolution, or if COVID-19 positive, release from isolation.

•

Responsible Parties must designate a central point of contact(s), which may vary by activity, location,
shift or day, responsible for receiving and attesting to having reviewed all screening activities, with
such contact(s) also identified as the party for individuals to inform if they later experience COVID19-related symptoms or COVID-19 exposure, as noted on the questionnaire.

In-Person Screening
•

Responsible Parties must ensure that any personnel performing in-person screening activities,
including temperature checks, are appropriately protected from exposure to potentially infectious

20

- App. 356 -

20

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 22 of 38 PageID #: 209

individuals entering the facilities. Personnel performing screening activities should be trained by
employer-identified individuals who are familiar with CDC, DOH, and OSHA protocols.
•

Screeners should be provided and use PPE, which includes at a minimum, an acceptable face
covering or mask, and may also include gloves, a gown, and/or a face shield.

B. School Health Offices

•

Responsible Parties may consider developing testing systems in school facilities or self-testing
systems in collaboration with local health departments or local health care providers, as able.

•

Responsible Parties must develop protocols for caring for a student, faculty, or staff member who
develops COVID-19 symptoms during the school day. These protocols must include:

•

o

Identification of a dedicated area to separate students, faculty, or staff with symptoms of COVID19 from others until they can go home or to a health care facility, depending on severity of
illness;

o

Plans to ensure that symptomatic students who are waiting to be picked up remain under the
visual supervision of a staff member who is socially distanced;

o

PPE requirements for school health office staff caring for sick individuals, which must include both
standard and transmission-based precautions. In areas with moderate to substantial community
transmission, eye protection (i.e., goggles or face shield) should be added. When caring for a
suspect or confirmed individual with COVID-19, gloves, a gown, and a fit-tested N-95 respirator
should be used, if available (or surgical face mask and face shield, if not available), as well as eye
protection. Please consult CDC guidance for additional information; and

o

Required guidelines for cleaning and disinfection.

Responsible Parties must develop protocols for asthma-related acute respiratory treatment care using
up to date standard of care:
o

Nebulizer treatments and suctioning are identified by the CDC as aerosol-generating procedures
requiring a N-95 mask fitted to the healthcare worker;

o

Consult with students’ healthcare providers for alternate asthma medication delivery systems;
and

o

Consult with school maintenance and facilities department for environmental controls.

C. Tracing and Tracking

Metrics
•

Responsible Parties should identify clearly defined measures that will serve as warning signs that the
level of COVID-19 transmission may be increasing in the school setting beyond an acceptable level,
as defined by state and local health departments.
o

Responsible Parties must include a process in their plan if/when COVID-19 cases are discovered
at school, including closing areas or classes where individuals were infected or more broadly the
entire school in consultation with the local health department.

o

Responsible Parties may choose to modify operations prior to instituting school-wide closures to
help mitigate a rise in cases.

Notification

21

- App. 357 -

21

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 23 of 38 PageID #: 210

•

Responsible Parties must notify the state and local health department immediately upon being
informed of any positive COVID-19 diagnostic test result by an individual in school facilities or on
school grounds, including students, faculty, staff, and visitors.

Tracing Support
•

In the case of an individual testing positive, Responsible Parties must develop plans to support local
health departments in tracing all contacts of the individual, in accordance with the protocols, training,
and tools provided through the New York State Contact Tracing Program. Confidentiality must be
maintained as required by federal and state law and regulations. Responsible Parties must cooperate
with state and local health department contact tracing, isolation, and quarantine efforts.
o

If feasible, Responsible Parties may offer optional tracing and tracking technology (e.g., mobile
applications) to streamline contact tracing and communication process among their students,
faculty, staff, parents/legal guardians of students, and community.

o

Responsible Parties should partner with local health departments to train faculty and staff to
undertake contact tracing efforts for populations in school facilities and on school grounds, where
feasible.

Quarantine, Isolation, and Return to School
•

State and local health departments will implement monitoring and movement restrictions of COVID19 infected or exposed persons, including isolation or quarantine.

•

Responsible Parties must ensure that reporting plans are in place for individuals who are alerted that
they have come into close or proximate contact with a person with COVID-19, and have been alerted
to such exposure via tracing, tracking or other mechanism.

•

Responsible Parties should refer to DOH’s “Interim Guidance for Public and Private Employees
Returning to Work Following COVID-19 Infection or Exposure” regarding protocols and policies for
faculty and staff seeking to return to work after a suspected or confirmed case of COVID-19 or after
the faculty or staff member had close or proximate contact with a person with COVID-19.

IV. SUBMISSION OF SCHOOL PLANS
Responsible Parties must submit an affirmation at the below link that they have read and understand this
guidance. Further, pursuant to this guidance, Responsible Parties must prepare and submit plan(s) for
reopening and operating during the ongoing emergency by July 31, 2020. If an extension is required,
Responsible Parties should contact DOH and either NYSED if they are a school district, BOCES, private
school, or NYSED-authorized charter school, or SUNY if they are a SUNY-authorized charter school, for an
extension. Plans should be presumed to be approved upon submission, unless otherwise notified by the
State that modifications are necessary to ensure compliance with this guidance.
Plans should reflect engagement with school stakeholders and community members (e.g., administrators,
faculty, staff, students, parents/legal guardians of students, local health care providers, and affiliated
organizations, such as unions, alumni, and/or community-based groups), particularly local health
department(s), and, in accordance with the minimum requirements referenced herein, cover: (1)
reopening of school facilities for in-person instruction, (2) monitoring of health conditions, (3)
containment of potential transmission of the 2019 novel coronavirus, and (4) closure of school facilities
and in-person instruction, if necessitated by widespread virus transmission.
Responsible Parties must conspicuously post completed reopening plans at the school and on their
website for faculty, staff, students, and parents and legal guardians of students to access.

22

- App. 358 -

22

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 24 of 38 PageID #: 211

School districts and BOCES should use the following submission form link to file their plans with
NYSED and DOH. DOH and/or NYSED may require such school districts and BOCES to modify their plans,
to the extent necessary to ensure compliance with this guidance. Plans will be made publicly available.
https://forms.ny.gov/s3/PK-12-Education-Reopening-Plan, then select “School Districts and
BOCES”
Charter schools should use the following submission form link to file their plans with DOH and their
authorizer (i.e., NYSED or SUNY). DOH and/or NYSED/SUNY may require charter schools to modify their
plans to the extent necessary to ensure compliance with this guidance. Plans will be made publicly
available.

https://forms.ny.gov/s3/PK-12-Education-Reopening-Plan, then select “Charter Schools”
Private schools should use the following submission form link to file their plans with NYSED and DOH.
DOH and/or NYSED may require private schools to modify their plans to the extent necessary to ensure
compliance with this guidance. Plans will be made publicly available.

https://forms.ny.gov/s3/PK-12-Education-Reopening-Plan, then select “Private Schools”

Additional safety information, guidelines, and resources are available at:
New York State Department of Health Novel Coronavirus (COVID-19) Website
https://coronavirus.health.ny.gov/

New York State Education Department Coronavirus (COVID-19) Website
http://www.nysed.gov/coronavirus
Centers for Disease Control and Prevention Coronavirus (COVID-19) Website
https://www.cdc.gov/coronavirus/2019-ncov/index.html
Occupational Safety and Health Administration COVID-19 Website
https://www.osha.gov/SLTC/covid-19/

At the link below, affirm that you have read and understand your obligation to
operate in accordance with this guidance:
https://forms.ny.gov/s3/ny-forward-affirmation

23

- App. 359 -

23

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 25 of 38 PageID #: 212

INTERIM GUIDANCE FOR HIGHER EDUCATION
DURING THE COVID-19 PUBLIC HEALTH EMERGENCY
When you have read this document, you can affirm at the bottom.
As of June 28, 2020

Purpose
This Interim Guidance for Higher Education during the COVID-19 Public Health Emergency (“Interim
COVID-19 Guidance for Higher Education”) was created to provide colleges, universities and other higher
education institutions, and their employees, students, visitors, contractors, and vendors with precautions
to help protect against the spread of COVID-19.
This guidance is intended to address all types of in-person higher education institutions, including but not
limited to community and junior colleges, universities, graduate and professional schools, medical
schools, and technical schools. In addition to affirming to understand and meet the requirements
described herein, higher education institutions must develop a plan for reopening and operating for the
duration of the COVID-19 public health emergency. Plans should reflect engagement with campus
stakeholders, including but not limited to administrators, faculty, staff, students and, where appropriate,
affiliated organizations (e.g., union, alumni, and/or community-based groups). Specifically, each
institution must develop and submit a plan that, at a minimum, covers:
(1) Reopening of the campus,
(2) Monitoring of health conditions,
(3) Containment of potential transmission of the virus, and
(4) Shut down of in-person operations on the campus, if necessitated by widespread COVID-19
transmission.
Reopening includes plans for restarting campus operations including student, faculty, and staff return.
The following considerations must be included, at a minimum:
•

Capacity: Phasing and quantity of students, faculty and staff to return to campus, considering
factors such as ability to maintain social distance in public spaces and residence halls, testing
capabilities, Personal Protective Equipment (PPE) availability, quarantine and isolation capacity, local
medical capacity, and availability of safe transportation;

•

PPE: Develop plans for obtaining and providing acceptable face coverings to all employees of the
institution. Determine if the institution will be providing face coverings or other PPE to students.
Develop requirements about what PPE is required where and when for employees, students, and
other individuals on campus, in accordance with state and local public health laws, regulations, and
policies;

•

Testing: Plan for screening and diagnostic testing students and faculty for SARS-CoV-2 upon return,
especially any individuals with recent international or long-distance travel, particularly from areas
with widespread community transmission of the virus. Plans should indicate if individuals will be
tested, who will be tested, the frequency of testing, the method of testing, notification of test results,
and the process for those arriving to campus untested. Plans may determine whether to quarantine
students upon arrival until they receive testing and a negative test result;
24

- App. 360 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 26 of 38 PageID #: 213

•

Residential living: Residential living plans should include protocols for capacity limits, enhanced
cleaning and disinfection, appropriate social distancing, use of acceptable face coverings in common
areas, restrictions on non-essential gatherings and activities, limited access by students to other
residential facilities (e.g. dormitories), restrictions of visitors, special housing considerations for
students who are immunocompromised or who have an underlying health condition, separate living
spaces for persons undergoing isolation or quarantine, and a modified set of rules for students to
follow;

•

Operational activity: Determine how classes, shared spaces, and activities may be adapted in
various phases of return and operations (e.g., identify which classes will offer alternate approaches
such as A/B schedules or remote instruction; appointment-only use of shared spaces, limiting number
of individuals participating in in-person activities at any given time);

•

Restart operations: Implement plans to safely reopen buildings such as cleaning and disinfection,
and restarting ventilation, water systems, and other key facility components, as applicable;

•

Extracurriculars: Institute policies regarding extracurricular programs and which activities will be
allowed, considering social distancing and risk of COVID-19 transmission;

•

Vulnerable Populations: Consider vulnerable populations on campus and individuals who may not
feel comfortable returning, to allow them to safely participate in educational activities and
accommodate their specific circumstances; and

•

Hygiene, cleaning and disinfection: Establish campus-wide cleaning and disinfection protocols for
classrooms, residence halls, restrooms, dining halls and other facilities. Promote hand and respiratory
hygiene among all individuals on campus.

Monitoring includes policies to track health conditions on campus. The following considerations must be
included, at a minimum:
•

Testing responsibility: Identify who is responsible for purchasing and administering testing, as
well as notification of test results; plans should offer contingencies for continual screening of
symptoms and temperature checks without testing, if needed.

•

Testing frequency and protocols: Determine testing frequency and process which may include
plans to test for cause (e.g. symptomatic individuals, close or proximate contacts, international
travel), plans to test for surveillance to proactively monitor for symptoms of influenza-like illness, as
well as protocols around group testing.

•

Early warning signs: Define metrics that will serve as early warning signs that positive cases may
be increasing beyond an acceptable level; define method(s) to monitor against such metrics;

•

Tracing: Consider plans for contact tracing in close coordination with state and local health
departments using the protocols, training, and tools provided through the New York State Contact
Tracing Program – an initiative between the Department of Health, Bloomberg Philanthropies, Johns
Hopkins Bloomberg School of Public Health, and Vital Strategies; and

•

Screening: Develop plans for regular health screening of employees, students, and visitors.

Containment includes plans for how to respond to positive or suspected cases as well as preventative
policies and practices. The following considerations must be included, at a minimum:
•

Isolation: Identify how to isolate symptomatic individuals, both residential and non-residential (as
applicable). Plans must specifically identify where individuals will be residing (e.g. residence halls,
hotels, home) throughout the duration of their isolation, as well as the support system that will be
provided including food, medicine, psychosocial, academic and/or other support, as needed;

25

2

- App. 361 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 27 of 38 PageID #: 214

•

Quarantine: Identify how exposed individuals (residential and non-residential) will be quarantined
away from others, including the support system that will be provided including food, medicine,
psychosocial, academic and/or other support, as needed;

•

Students confirmed or suspected to have COVID-19: Residential institutions need to include
plans to monitor and provide medical care and other health services to students who test positive
and are in isolation, need more advanced medical care, or who are awaiting test results;

•

Hygiene, cleaning and disinfection: Implement strategies for cleaning and disinfection of
exposed areas and appropriate notification to occupants of such areas; and

•

Communication: Develop plans to share protocols and safety measures taken by the institution.

Shutdown includes contingency plans for decreasing on-campus activities and operations and/or closing
the campus. The following considerations must be included, at a minimum:
•

Operational Activity: Include which operations will be decreased, scaled back, ramped down, or
shutdown and which operations will be conducted remotely; include process to conduct orderly
shutdown which may include phasing, milestones, and involvement of key personnel.

•

Move-out: For residential universities, plans need to be put in place for how students would safely
depart campus. Institutions should consider policies for students who may not be able to depart
campus quickly (e.g. international students); and

•

Communication: Develop comprehensive plans to communicate internally and externally
throughout the process.

Higher education institutions involve a variety of activities and should reference relevant “industryspecific” guidelines provided by the Department of Health – and available on the New York Forward
website – for operations of dining halls, research, office workspaces, transportation, retail stores, and
others, as applicable. Specifically, operations of dining halls and other on-campus food services must
operate in accordance with, “Interim Guidance for Food Services during the COVID-19 Public Health
Emergency.” Research activities must operate in accordance with, “Interim Guidance for Higher Education
Research during the COVID-19 Public Health Emergency.” Administrative functions must operate in
accordance with, “Interim Guidance for Office-Based Work during the COVID-19 Public Health
Emergency.” Transportation services run by the institution must operate in accordance with “Interim
Guidance for Public Transportation Activities during the COVID-19 Public Health Emergency.” Campus
bookstores and other retail locations must operate in accordance with, “Interim Guidance for Retail
Business Activities during the COVID-19 Public Health Emergency.” On-campus gyms and fitness centers
must operate in accordance with forthcoming guidance. Collegiate athletics operated by the institution
must operate in accordance with forthcoming guidance.
These guidelines are minimum requirements only and each institution is free to provide additional
precautions or increased restrictions. These guidelines are based on the best-known public health
practices at the time of publication, and the documentation upon which these guidelines are based can
and does change frequently. The Responsible Parties – as defined below – are accountable for adhering
to all local, state and federal requirements relative to higher education, and auxiliary activities. The
Responsible Parties are also accountable for staying current with any updates to these requirements, and
related guidance as stated above, as well as incorporating same into any higher education activities
and/or Site Safety Plan.
Background
On March 7, 2020, Governor Andrew M. Cuomo issued Executive Order 202, declaring a state of
emergency in response to COVID-19. Community transmission of COVID-19 has occurred throughout
26

3

- App. 362 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 28 of 38 PageID #: 215

New York. To minimize further spread, social distancing of at least six feet must be maintained between
individuals, where possible.
On March 20, 2020, Governor Cuomo issued Executive Order 202.6, directing all non-essential businesses
to close in-office personnel functions. Essential businesses, as defined by Empire State Development
Corporation (ESD) guidance, were not subject to the in-person restriction, but were, however, directed to
comply with the guidance and directives for maintaining a clean and safe work environment issued by the
New York State Department of Health (DOH), and were strongly urged to maintain social distancing
measures to the extent possible.
On April 12, 2020, Governor Cuomo issued Executive Order 202.16, directing essential businesses to
provide employees, who are present in the workplace, with a face covering, at no-cost, that must be
used when in direct contact with customers or members of the public during the course of their work.
On April 15, 2020, Governor Cuomo issued Executive Order 202.17, directing that any individual who is
over age two and able to medically tolerate a face-covering must cover their nose and mouth with a
mask or cloth face-covering when in a public place and unable to maintain, or when not maintaining,
social distance. On April 16, 2020, Governor Cuomo issued Executive Order 202.18, directing that
everyone using public or private transportation carriers or other for-hire vehicles, who is over age two
and able to medically tolerate a face covering, must wear a mask or face covering over the nose and
mouth during any such trip. It also directed any operators or drivers of public or private transport to wear
a face covering or mask which covers the nose and mouth while there are any passengers in such a
vehicle. On May 29, 2020, Governor Cuomo issued Executive Order 202.34, authorizing business
operators/owners with the discretion to deny admittance to individuals who fail to comply with the face
covering or mask requirements.
On April 26, 2020, Governor Cuomo announced a phased approach to reopen industries and businesses
in New York in phases based upon a data-driven, regional analysis. On May 4, 2020, the Governor
provided that the regional analysis would consider several public health factors, including new COVID-19
infections, as well as health care system, diagnostic testing, and contact tracing capacity. On May 11,
2020, Governor Cuomo announced that the first phase of reopening would begin on May 15, 2020 in
several regions of New York, based upon available regional metrics and indicators. On May 29, 2020,
Governor Cuomo announced that the second phase of reopening would begin in several regions of New
York. On June 11, 2020, Governor Cuomo announced that the third phase of reopening would begin on
June 12, 2020 in several regions of New York.
On May 8, 2020, Governor Cuomo launched New York's Reimagine Education Advisory Council – made up
of educators, students, parents, and education leaders – to help colleges, universities, and school districts
reimagine teaching and learning as they prepare to reopen while protecting health and safety of students
and educators. The collective expertise and experience of this advisory council helped address key
questions about how to strengthen New York's entire education system and helped inform this guidance.
In addition to the following standards, higher education institutions must continue to comply with the
guidance and directives for maintaining clean and safe work environments issued by DOH.
Please note that where guidance in this document differs from other guidance documents issued by New
York State, the more recent guidance shall apply.
Standards for Responsible Higher Education Activities in New York State
No higher education activities can operate without meeting the following minimum State guidance, as
well as applicable federal requirements, including but not limited to such minimum standards of the
Americans with Disabilities Act (ADA), Centers for Disease Control and Prevention (CDC), Environmental
Protection Agency (EPA), and United States Department of Labor’s Occupational Safety and Health
27

4

- App. 363 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 29 of 38 PageID #: 216

Administration (OSHA). The State standards apply to all higher education activities in operation during
the COVID-19 public health emergency until rescinded or amended by the State.
The primary executive/owner/operator of the higher education institution (e.g., university president), or
another party designated by the executive/owner/operator (in either case, "the Responsible Parties"),
shall be responsible for meeting these standards. The designated party can be an individual or group of
individuals responsible for the operations of the higher education institution.
The following guidance is provided to help higher education institutions develop their reopening plans
and is organized around three distinct categories: people, places, and processes.

I. PEOPLE
A. Physical Distancing
•

•

Responsible Parties should ensure that a distance of at least six feet is maintained among individuals
while on campus, inclusive of employees and students, to the extent possible and when seated in a
classroom setting or meeting, unless safety or the core activity (e.g., moving equipment, using an
elevator, performing a transaction) requires a shorter distance or individuals are of the same
residence. Any time individuals come within six feet of another person who does not reside in the
same residence (i.e., roommate), acceptable face coverings must be worn. Individuals should be
prepared to don a face covering if another person unexpectedly comes within six feet.
o

Acceptable face coverings are required for individuals who are over the age of two and able to
medically tolerate such covering.

o

Acceptable face coverings for COVID-19 include but are not limited to cloth-based face coverings
(e.g. homemade sewn, quick cut, bandana), surgical masks, and face shields that cover both the
mouth and nose.

o

However, cloth, disposable, or other homemade face coverings are not acceptable face coverings
for workplace activities that typically require a higher degree of protection for personal protective
equipment (PPE) due to the nature of the work. For those activities, N-95 respirators or other
PPE used under existing industry standards should continue to be used, as is defined in
accordance with OSHA guidelines.

o

This provision should not be construed to require physical distancing among roommates, or
require face coverings to be worn while inside an individual’s residence. For the purposes of this
guidance, students who share the same residence (i.e., dormitory room) should be considered
members of the same household.

Responsible Parties are encouraged to modify or reconfigure spaces and/or restrict the use of
classrooms and other places where students and employees congregate, so that individuals are
spaced at least six feet apart in all directions (e.g. side-to-side and when facing one another) and are
not sharing workstations without appropriate cleaning and disinfection between use. When distancing
is not feasible in public spaces, Responsible Parties must require the use of face coverings or physical
barriers (e.g. plastic shielding walls, in lieu of face coverings in areas where they would not affect air
flow, heating, cooling or ventilation, or otherwise present a health or safety risk).
o

Physical barriers should be put in place in accordance with OSHA guidelines.

o

Physical barrier options may include strip curtains, cubicle walls, plexiglass or similar materials, or
other impermeable dividers or partitions.

28

5

- App. 364 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 30 of 38 PageID #: 217

•

Responsible Parties should limit gathering in small spaces (e.g. elevators, supply rooms, faculty
offices) by more than one individual at a time, unless all individuals in such space at the same time
are wearing acceptable face coverings or are members of the same residence. However, even with
face coverings in use, occupancy should not exceed 50% of the maximum capacity of the space,
unless it is designed for use by a single occupant. Responsible Parties should increase ventilation with
outdoor air to the greatest extent possible (e.g. opening windows and doors) while maintaining
health and safety protocols. Further, Responsible Parties should take additional measures to prevent
congregation in elevator waiting areas and limit density in elevators, by, for instance, enabling the
use of stairs.

•

Where feasible, Responsible Parties should put in place measures to reduce bi-directional foot traffic
using tape, signs, or other indicators with arrows in hallways, or spaces throughout campus, and post
signage and distance markers denoting spaces of six feet in all commonly used areas and any areas
in which lines are commonly formed or people may congregate (e.g., campus centers, libraries,
classrooms, dining halls, health screening stations).
o

•

•

•

Responsible Parties may choose to mark six feet distance circles around desks, workstations and
other common work areas or areas where gathering is likely to occur (e.g. libraries, study
centers, lawns).

Responsible parties should determine which on-campus facilities (e.g., libraries, study lounges,
recreational facilities) will be closed to the general public (i.e., not students or employees) or offer
limited, specific hours to members of the general public. Recommended practices for limiting public
interactions on campus include, but are not limited to:
o

Limiting visitors to "invited guests" only, who are expected to abide all campus and building
specific protocols; and

o

Requiring student/institutional identification (IDs) to enter any on-campus building(s).

In consultation with the local health department, Responsible Parties must identify where students
who are exposed to, or infected with, COVID-19 will be residing and how daily needs (e.g., food,
medication) will be met if it becomes necessary to have a period of quarantine or isolation.
Recommended facilities include, but are not limited to:
o

Reserved residence halls with private bathrooms, if possible, used solely for the purpose of
isolating or quarantining individuals living on-campus who have, who are suspected to have, or
who were exposed to COVID-19;

o

Nearby hotels that are arranged to accommodate individuals who have, who are suspected to
have, or who were exposed to COVID-19; and/or

o

Individual student homes, pending the student’s ability to safely get home (e.g., not using mass
transit) and their home is safe for them to isolate away from other individuals.

o

Local health departments may, under their legal authority, implement monitoring and movement
restrictions of COVID-19 infected or exposed persons including home isolation or quarantine

Responsible Parties should post signs throughout the institution or campus, consistent with DOH
COVID-19 signage. Responsible Parties can develop their own customized signage specific to their
workplace or setting, provided that such signage is consistent with the Department’s signage.
Signage should be used to remind individuals to:
o

Stay home if they feel sick.

o

Cover their nose and mouth with an acceptable face-covering.

o

Properly store and, when necessary, discard PPE.
29

6

- App. 365 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 31 of 38 PageID #: 218

o

Adhere to social distancing instructions.

o

Report symptoms of or exposure to COVID-19, and how they should do so.

o

Follow hand hygiene and cleaning and disinfection guidelines.

o

Follow respiratory hygiene and cough etiquette.

B. Gatherings in Enclosed Spaces
•

Responsible Parties may choose to use and encourage video or teleconferencing in lieu of in-person
gatherings (e.g. classes, conferences, office hours) to reduce the density of congregations, per CDC
guidance “Interim Guidance for Businesses and Employers to Plan and Respond to Coronavirus
Disease 2019 (COVID-19)”. When videoconferencing or teleconferencing is not preferable or possible,
Responsible Parties may choose to hold classes or meetings in open, well-ventilated spaces and
ensure that individuals maintain six feet of social distance between one another (e.g. leave space
between chairs, have individuals sit in alternating chairs).

•

Responsible Parties may consider closing non-essential amenities and communal areas that promote
gathering or are high-touch (e.g., break areas, communal coffee machines); or providing cleaning
and disinfecting supplies that may be used by individuals before and after they use the amenity or
area.

•

Responsible Parties should put in place practices for adequate social distancing in small areas, such
as restrooms and breakrooms, and should develop signage and systems (e.g. flagging when
occupied) to restrict occupancy when social distancing cannot be maintained in such areas.

•

Responsible Parties should consider staggering schedules for employees to promote social distancing
(e.g. coffee breaks, meals, and shift starts/stops).

C. Operational Activity
•

Responsible Parties should consider a mix of traditional in-person and remote classes depending on
student needs (e.g., vulnerable populations), technological capabilities, and/or immediately following
historically high-travel periods (e.g., limiting in-person classes during holiday travel periods), among
other measures to reduce in-person congregation.

•

Responsible Parties should take measures to reduce interpersonal contact and decrease density on
campus, through methods, such as:

•

o

adjusting class or work hours, where appropriate and possible;

o

limiting in-person presence to only those employees who are necessary to be at the institution;

o

reducing in-person workforce and increasing remote workforce to accommodate social distancing
guidelines;

o

staggering schedules and allowing more time between classes to reduce congestion in walkways
and buildings; and/or

o

shifting design of class schedules to create cohorts or sections of students (e.g., A/B schedule or
course sections) to reduce risk of exposure and transmission among students.

When COVID-19 cases develop, Responsible Parties should consider restricting social contact and
mobility across campus, particularly in affected areas (e.g., shutting down some functions, but
keeping others open to help contain the spread).

30

7

- App. 366 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 32 of 38 PageID #: 219

o

Responsible Parties may choose to temporarily move all classes where an individual has tested
positive to remote/virtual format until all contacts can be identified, notified, tested, and cleared.

D. Movement and Commerce
•

Responsible Parties should establish designated areas for pickups and deliveries, limiting contact to
the extent possible.

•

To the extent feasible, Responsible Parties should limit on-site interactions (e.g., designating
separate ingress or egress for employees, eliminating bidirectional flow of individuals to the extent
practicable).

II. PLACES
A. Protective Equipment
•

In addition to the necessary PPE as required for certain workplace activities, Responsible Parties must
procure, fashion, or otherwise obtain acceptable face coverings and provide such coverings to their
employees who directly interact with students or members of the public while at work at no cost to
the employee, pursuant to Executive Order 202.16, as amended.

•

Responsible Parties should have an adequate supply of face coverings, masks and other required PPE
on hand should an employee need a replacement. Acceptable face coverings include, but are not
limited to, cloth (e.g. homemade sewn, quick cut, bandana), surgical masks, N95 respirators, and
face shields.

•

Responsible Parties should advise employees, students, and visitors that they are required to wear
face coverings in common areas or situations where social distancing may be difficult to maintain,
such as riding in elevators, entering/exiting classrooms or student centers, and traveling around the
campus.

•

Face coverings should be cleaned or replaced after use and must not be shared. Please consult CDC
guidance for additional information on cloth face coverings and other types of PPE, as well as
instructions on use and cleaning.
o

Note that cloth face coverings or disposable masks shall not be considered acceptable face
coverings for workplace activities that require a higher degree of protection for face covering
requirements. For example, if N-95 respirators are traditionally required for specific activities, a
cloth or homemade mask would not suffice. Responsible Parties must adhere to OSHA guidelines
for such safety equipment.

•

Responsible Parties must allow individuals to use their own acceptable face coverings but cannot
require employees to supply their own face coverings. Further, this guidance shall not prevent
employees from wearing their personally owned protective coverings (e.g. surgical masks, N95
respirators, or face shields), as long as they abide by the minimum standards of protection for the
specific activity. The Responsible Parties may require employees to wear more protective PPE due to
the nature of their work. Employers should comply with all applicable OSHA standards.

•

Responsible Parties must train employees on how to adequately put on, take off, clean (as
applicable), and discard PPE, including but not limited to, appropriate face coverings. Such training
should be extended to contractors if the Responsible Parties will be supplying the contractors with
PPE.
31

8

- App. 367 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 33 of 38 PageID #: 220

•

Responsible Parties should put in place plans to limit the sharing of objects, such as laptops,
notebooks, touchscreens, and writing utensils, as well as the touching of shared surfaces, such as
conference tables; or, require employees to perform hand hygiene before and after contact.

B. Hygiene, Cleaning, and Disinfection
•

Responsible Parties must ensure adherence to hygiene and cleaning and disinfection requirements as
advised by the CDC and DOH, including “Guidance for Cleaning and Disinfection of Public and Private
Facilities for COVID-19,” and the “STOP THE SPREAD” poster, as applicable. Responsible Parties must
maintain logs that include the date, time, and scope of cleaning and disinfection. Responsible Parties
must identify cleaning and disinfection frequency for each facility type and assign responsibility.

•

Responsible Parties should provide and maintain hand hygiene stations around the institution, as
follows:
o

For handwashing: soap, running warm water, and disposable paper towels.

o

For hand sanitizing: an alcohol-based hand sanitizer containing at least 60% alcohol for areas
where handwashing facilities may not be available or practical.

o

Make hand sanitizer available throughout common areas. It should be placed in convenient
locations, such as at building entrances, exits, and points of reception. Touch-free hand sanitizer
dispensers should be installed where possible.
▪ Responsible Parties should place signage near hand sanitizer stations indicating that visibly
soiled hands should be washed with soap and water; hand sanitizer is not effective on visibly
soiled hands.
▪ Responsible Parties should remind individuals that alcohol-based hand sanitizers can be
flammable and may not be suitable for certain areas on campus.

o
•

•

Place receptacles around the institution for disposal of soiled items, including paper towels and
PPE.

Responsible Parties may choose to provide appropriate cleaning and disinfection supplies for shared
and frequently touched surfaces and encourage their employees (or cleaning staff) to use these
supplies following manufacturer’s instructions for use before and after use of these surfaces, followed
by hand hygiene.
o

Consider providing disposable wipes to employees so that commonly used surfaces (e.g.,
keyboards, desks, remote controls) can be wiped down before and/or after use.

o

To reduce high-touch surfaces, Responsible Parties should install touch-free amenities such as
water fountains, trash receptacles, and paper towel dispensers, where feasible.

o

If installing touch-free amenities is not feasible, Responsible Parties should, at a minimum, make
hand sanitizer available near high-touch surfaces (e.g. trash receptacles, paper towel
dispensers).

Responsible Parties must conduct regular cleaning and disinfection of the facilities and more frequent
cleaning and disinfection for high risk areas used by many individuals and for frequently touched
surfaces. Cleaning and disinfection must be rigorous and ongoing and should occur at least daily, or
more frequently as needed. Please refer to DOH’s “Interim Guidance for Cleaning and Disinfection of
Public and Private Facilities for COVID-19” for detailed instructions on how to clean and disinfect
facilities.

32

9

- App. 368 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 34 of 38 PageID #: 221

o

Responsible Parties must ensure regular cleaning and disinfection of restrooms. Restrooms
should be cleaned and disinfected more often depending on frequency of use.

o

Responsible Parties should ensure that materials and tools used by employees are regularly
cleaned and disinfected using registered disinfectants. Refer to the Department of Environmental
Conservation (DEC) list of products registered in New York State and identified by the EPA as
effective against COVID-19. If cleaning or disinfection products or the act of cleaning and
disinfection causes safety hazards or degrades the material or machinery, Responsible Parties
must put in place hand hygiene stations between use and/or supply disposable gloves and/or
limitations on the number of employees using such machinery.

o

Best practices to implement in residential, shared (i.e., communal) bathrooms include, but are
not limited to:
▪ Installation of physical barriers between showers, toilets, and sinks if six feet of separation is
not feasible;
▪ Use of paper towel dispensers in lieu of air dryers;
▪ Where the physical layout of the building permits, designation of communal bathrooms on a
residential hall floor for use by specific rooms or individuals may limit cross contamination
and assist with traffic control; and/or
▪ Limit storage of personal items within communal bathrooms, particularly if they are shared
by individuals who are not members of the same residence (i.e., roommates).

o

Responsible Parties must ensure distancing rules are adhered to by using signage, occupied
markers, or other methods to reduce restroom occupancy at any given time, where feasible.

•

Responsible Parties must provide for the cleaning and disinfection of exposed areas in the event an
individual is confirmed to have COVID-19, with such cleaning and disinfection to include, at a
minimum, all heavy transit areas and high-touch surfaces.

•

Responsible Parties are expected to follow CDC guidelines on “Cleaning and Disinfecting Your Facility”
if someone is suspected or confirmed to have COVID-19:
o

Close off areas used by the person who is suspected or confirmed to have COVID-19.
▪ Responsible Parties do not necessarily need to close operations, if they can close off the
affected areas.

o

Open outside doors and windows to increase air circulation in the area.

o

Wait 24 hours before you clean and disinfect. If 24 hours is not feasible, wait as long as possible.

o

Clean and disinfect all areas used by the person suspected or confirmed to have COVID-19, such
as offices, classrooms, bathrooms, and common areas.

o

Once the area has been appropriately cleaned and disinfected, it can be reopened for use.
▪ Individuals without close or proximate contact with the person suspected or confirmed to
have COVID-19 can return to work area or resume on-campus activities in the area
immediately after cleaning and disinfection.
▪ Refer to DOH’s “Interim Guidance for Public and Private Employees Returning to Work
Following COVID-19 Infection or Exposure” for information on “close and proximate”
contacts.

33

10

- App. 369 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 35 of 38 PageID #: 222

o

If more than seven days have passed since the person who is suspected or confirmed to have
COVID-19 visited or used the facility, additional cleaning and disinfection is not necessary, but
routine cleaning and disinfection should continue.

•

Responsible Parties should prohibit shared food and beverages among employees (e.g. self-serve
meals and beverages), unless individuals are members of the same household, and reserve adequate
space for employees and students to observe social distancing while eating meals.

•

Responsible Parties may open buffets, provided that they are not self-serve and that they are
sufficiently staffed to ensure that there is no customer touching of common objects (e.g. serving
spoons, tongs) and that appropriate social distance is maintained.

C. Phased Reopening
•

Responsible Parties must designate a campus safety monitor whose responsibilities include
continuous compliance with all aspects of the higher education institution’s reopening plan.

•

Responsible Parties are encouraged to phase-in reopening activities to allow for operational issues to
be resolved before activities return to normal levels. Responsible Parties should consider limiting the
number of employees, hours, and number of students when first reopening so as to provide
operations with the ability to adjust to the changes.

D. Communications Plan
•

Responsible Parties must affirm that they have reviewed and understand the state-issued industry
guidelines and must submit reopening plans, as instructed below, prior to reopening.

•

Responsible Parties should engage with campus community members (e.g., employees, students,
interested organizations) when developing reopening plans. Plans for reopening should identify the
groups of people involved and engaged throughout the planning process.

•

Responsible Parties should develop a communications plan for students, parents or legal guardians,
employees and visitors that includes reopening-related instructions, training, signage, and a
consistent means to provide individuals with information. Responsible Parties may consider
developing webpages, text and email groups, and/or social media groups or posts.

•

Responsible Parties should encourage all students, employees, and visitors to adhere to CDC and
DOH guidance regarding the use of PPE, specifically face coverings when a social distance of six feet
cannot be maintained, through verbal communication and signage.

•

Responsible Parties should designate points-of-contact or coordinators to be the main contact upon
the identification of positive cases and who are responsible for subsequent communication.
Coordinators should be responsible for answering questions from students and employees regarding
the COVID-19 public health emergency and plans implemented by the institution.
o

If feasible, coordinators should also work closely with local health departments and other higher
education institutions to monitor public health conditions and jointly develop monitoring
strategies.

III. PROCESSES

34

11

- App. 370 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 36 of 38 PageID #: 223

A. Screening and Testing
•

Residential higher education institutions may choose to test students, faculty, and/or student-facing
staff for COVID-19 using a molecular diagnostic test prior to or upon arrival.
o

It is recommended, at a minimum, that institutions test students who are arriving from other
states and countries upon arrival.

o

The best practice is to re-test individuals arriving from other states and countries between 7 to
14 days after arrival, or upon development of symptoms.

o

Individuals who become symptomatic, but who have a negative COVID-19 test result should
continue to stay home or in isolation while they are sick and should consult their health care
provider about the need for additional testing and when to resume normal activities.

o

In residential higher education institutions, Responsible Parties should determine whether to
separate students upon arrival until they can be tested, and test results return negative.

•

Responsible Parties should remain aware that quarantine of students or employees may be required
after international travel, pursuant to current CDC and DOH guidance.

•

Responsible Parties may consider developing testing systems on campus or self-testing systems, as
able.

•

Responsible Parties must implement mandatory regular health screening practices of their employees,
students, and, where practicable, scheduled visitors (e.g., on-campus tour groups), but such
screening shall not be mandated for delivery personnel.
o

Employees reporting to work on-campus must be screened on a daily basis.

o

Students must be screened periodically as determined by the higher education institution but are
not required to be screened on a daily basis.

o

Screening practices are recommended to be conducted remotely (e.g., by telephone or electronic
survey), before the individual reports in-person to the higher education related activity, to the
extent possible; or may be performed on site.

o

Screening should be completed using either a digital or in-person questionnaire that determines
whether the individual has:
(a) knowingly been in close or proximate contact in the past 14 days with anyone who has
tested positive for COVID-19 or who has or had symptoms of COVID-19;

(b) tested positive for COVID-19 in the past 14 days; and/or
(c) has experienced any symptoms of COVID-19 in the past 14 days.
•

As able, Responsible Parties should consider implementing health screening practices for unscheduled
visitors (e.g., members of the public allowed to use campus facilities).

•

Refer to CDC guidance on “Symptoms of Coronavirus” for the most up-to-date information on
symptoms associated with COVID-19.

•

Any individual who screens positive for COVID-19 exposure or symptoms must be immediately sent
home, to their residence, or to the designated quarantine or isolation location with instructions or
arrangement for health assessment and testing. Responsible Parties must immediately notify the
state and local health departments about the case if test results are positive for COVID-19.
35

12

- App. 371 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 37 of 38 PageID #: 224

Responsible Parties should also provide the individual with information on health care and testing
resources, if applicable.
•

Responsible Parties must designate a central point of contact(s), which may vary by activity, location,
shift or day, responsible for receiving and attesting to having reviewed all screening activities, with
such contact(s) also identified as the party for individuals to inform if they later are experiencing
COVID-19-related symptoms or COVID-19 exposure, as noted on the questionnaire.

•

Responsible Parties must require individuals to immediately disclose if and when their responses to
any of the aforementioned questions changes, such as if they begin to experience symptoms,
including during or outside of work hours.
o

In addition to the screening questionnaire, temperature checks may also be conducted per U.S.
Equal Employment Opportunity Commission or DOH guidelines. Responsible Parties are
prohibited from keeping records of employee health data (e.g. the specific temperature data of
an individual), but are permitted to maintain records that confirm individuals were screened and
the result of such screening (e.g. pass/fail, clear/not cleared).

•

Responsible Parties must ensure that any personnel performing in-person screening activities,
including temperature checks, are appropriately protected from exposure to potentially infectious
employees or visitors entering the facilities. Personnel performing screening activities should be
trained by employer-identified individuals who are familiar with CDC, DOH, and OSHA protocols.

•

Screeners should be provided and use PPE, including at a minimum, an acceptable face covering or
mask, and may include gloves, a gown, and/or a face shield.

B. Tracing and Tracking
•

Responsible Parties must notify the state and local health department immediately upon being
informed of any positive COVID-19 test result by an individual on campus, including employees,
students, and visitors.

•

In the case of an individual testing positive, Responsible Parties must develop plans with local health
departments to trace all contacts of the individual, in accordance with the protocols, training, and
tools provided through the New York State Contact Tracing Program. Confidentiality must be
maintained as required by federal and state law and regulations. Responsible Parties must cooperate
with state and local health department contact tracing, isolation, and quarantine efforts.
o

If feasible, Responsible Parties may offer optional tracing and tracking technology (e.g., mobile
applications) to streamline contact tracing and communication process among the workforce and
student body.

o

Responsible Parties should partner with local health departments to train staff and students to
undertake contact tracing efforts for on-campus populations, where feasible.

•

State and local health departments will implement monitoring and movement restrictions of COVID19 infected or exposed persons, including isolation or quarantine.

•

Responsible Parties must ensure that reporting plans are in place for individuals who are alerted that
they have come into close or proximate contact with a person with COVID-19, and have been alerted
to such exposure via tracing, tracking or other mechanism.

36

13

- App. 372 -

Case 1:20-cv-04834-KAM-RML Document 2-14 Filed 10/08/20 Page 38 of 38 PageID #: 225

•

Responsible Parties should refer to DOH’s “Interim Guidance for Public and Private Employees
Returning to Work Following COVID-19 Infection or Exposure” regarding protocols and policies for
individuals seeking to return to work or class after a suspected or confirmed case of COVID-19 or
after individuals have had close or proximate contact with a person with COVID-19.

IV. INSTITUTION PLANS
Responsible Parties must submit an affirmation at the below link that they have read and understand this
guidance. Further, pursuant to this guidance, Responsible Parties must prepare and submit plan(s) for
reopening and operating during the ongoing emergency.
Plans should reflect engagement with campus stakeholders and, in accordance with the minimum
requirements referenced herein, cover: (1) reopening of the campus, (2) monitoring of health conditions,
(3) containment of potential transmission of the virus, and (4) shut down of in-person operations on the
campus, if necessitated by widespread COVID-19 transmission. Responsible Parties must conspicuously
post completed reopening plans for employees and students to access.
Private and other non-public higher education institutions should use the following submission
form link to file their plans with DOH. DOH may require such higher education institutions to modify their
plans, to the extent necessary to ensure compliance with this guidance.
https://forms.ny.gov/s3/higher-education-reopening
State University of New York (SUNY) and City University of New York (CUNY) institutions
should submit their plans to their respective chancellor’s office and should not use the above submission
form. SUNY and CUNY officials will directly contact each institution regarding their submitted plans.

Additional safety information, guidelines, and resources are available at:
New York State Department of Health Novel Coronavirus (COVID-19) Website
https://coronavirus.health.ny.gov/
Centers for Disease Control and Prevention Coronavirus (COVID-19) Website
https://www.cdc.gov/coronavirus/2019-ncov/index.html
Occupational Safety and Health Administration COVID-19 Website
https://www.osha.gov/SLTC/covid-19/
American College Health Association Website
https://www.acha.org

At the link below, affirm that you have read and understand your obligation to
operate in accordance with this guidance:
https://forms.ny.gov/s3/ny-forward-affirmation

37

14

- App. 373 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page1 of 21

20-3572-CV
IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN
HILLS, AGUDATH ISRAEL OF MADISON, RABBI YISROEL REISMAN, and
STEVEN SAPHIRSTEIN,
Plaintiffs-Appellants,
v.
ANDREW M. CUOMO, in his official capacity as Governor of New York,
Defendant-Appellee.
On appeal from the United States District Court for the Eastern
District of New York, No. 1:20-cv-04834-KAM
BRIEF AMICUS CURIAE OF THE BECKET FUND FOR
RELIGIOUS LIBERTY AND THE JEWISH COALITION FOR
RELIGIOUS LIBERTY IN SUPPORT OF PLAINTIFFSAPPELLANTS AND AN INJUNCTION PENDING APPEAL
Josh Blackman
JEWISH COALITION FOR
RELIGIOUS LIBERTY
1303 San Jacinto Street
Houston, TX 77002
(202) 294-9003

Eric C. Rassbach
William J. Haun
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire Ave. N.W.,
Ste. 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org

- App. 374 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page2 of 21

RULE 26.1 CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 26.1 of the Federal Rules of Appellate Procedure,
Each of The Becket Fund for Religious Liberty and The Jewish Coalition
for Religious Liberty states that it has no parent corporation and that no
publicly held corporation owns any part of it.

ii
- App. 375 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page3 of 21

TABLE OF CONTENTS
RULE 26.1 CORPORATE DISCLOSURE STATEMENT ........................ ii
TABLE OF AUTHORITIES ..................................................................... iv
INTEREST OF THE AMICI ..................................................................... 1
ARGUMENT ............................................................................................. 2
I. The Governor’s Order violates the Free Exercise
Clause. .............................................................................................. 4
A. The Governor’s Order is not neutral. .......................................... 4
B. Governor Cuomo’s Order fails strict scrutiny. ............................ 7
II. Jacobson is also no defense............................................................ 10
CONCLUSION ........................................................................................ 12
CERTIFICATE OF COMPLIANCE ........................................................ 13
CERTIFICATE OF SERVICE................................................................. 14

iii
- App. 376 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page4 of 21

TABLE OF AUTHORITIES
Page(s)
Cases
Bayley’s Campground, Inc. v. Mills,
No. 20-cv-00176, 2020 WL 2791797
(D. Me. May 29, 2020) ......................................................................... 11
Brown v. Ent. Merchs. Ass’n,
564 U.S. 786 (2011) ............................................................................... 8
Burwell v. Hobby Lobby Stores,
573 U.S. 682 (2014) ............................................................................... 1
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020) ......................................................................... 11
Capitol Hill Baptist Church v. Bowser,
No. 20-cv-02710, 2020 WL 5995126
(D.D.C. Oct. 9, 2020) .................................................................... 11, 12
Central Rabbinical Congress v. N.Y.C. Dep’t of Health &
Mental Hygiene,
763 F.3d 183 (2d. Cir. 2014) ......................................................... 1, 4, 7
Church of the Lukumi Babalu Aye v. City of Hialeah,
508 U.S. 520 (1993) ....................................................................... 4, 6, 8
City of Cleburne v. Cleburne Living Ctr.,
473 U.S. 432 (1985) ............................................................................... 9
Denver Bible Church v. Azar,
No. 1:20-cv-02362 (D. Colo. Oct. 15, 2020) ......................................... 11
Employment Div. v. Smith,
494 U.S. 872 (1990) ............................................................................... 4
Fratello v. Archdiocese of N.Y.,
863 F.3d 190 (2d Cir. 2017) .................................................................. 1

iv
- App. 377 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page5 of 21

Gonzales v. O Centro Espirita Beneficente Uniao
do Vegetal, 546 U.S. 418 (2006) ......................................................... 7-8
Hassan v. City of N.Y.,
804 F.3d 277 (3d Cir. 2015) .................................................................. 7
Holt v. Hobbs,
574 U.S. 352 (2015) ........................................................................... 1, 9
Hosanna-Tabor Evangelical Lutheran Church
& School v. EEOC,
565 U.S. 171 (2012) ............................................................................... 1
Jacobson v. Massachusetts,
197 U.S. 11 (1905) ................................................................... 10, 11, 12
Korematsu v. United States,
323 U.S. 214 (1944) ................................................................... 3, 11, 12
Lebovits v. Cuomo,
No. 1:20-cv-01284 (N.D.N.Y. filed Oct. 16, 2020) ................................. 2
Little Sisters of the Poor v. Pennsylvania,
140 S. Ct. 2367 (2020) ........................................................................... 1
McCullen v. Coakley,
573 U.S. 4646 (2014) ............................................................................. 9
New Hope Family Services v. Poole,
966 F.3d 145 (2d Cir. 2020) .................................................................. 4
Our Lady of Guadalupe School v. Morrissey-Berru,
140 S. Ct. 2049 (2020) ........................................................................... 1
Phillips v. City of New York,
775 F.3d 538 (2d Cir. 2015) .......................................................... 10, 11
Prince v. Massachusetts,
321 U.S. 158 (1944) ............................................................................. 11
Roberts v. Neace,
958 F.3d 409 (6th Cir. 2020) ................................................................. 7
v
- App. 378 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page6 of 21

Roman Catholic Diocese of Brooklyn v. Cuomo,
No. 20-CV-4844, 2020 WL 5994954
(E.D.N.Y. Oct. 9, 2020) ......................................................................... 4
Shrum v. City of Coweta,
449 F.3d 1132 (10th Cir. 2006) ............................................................. 7
Trump v. Hawaii, 138 S. Ct. 2392 (2018) ................................................. 3
Turner Broad. Sys., Inc. v. FCC,
512 U.S. 622 (1994) ............................................................................... 9
W. Virginia State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) ............................................................................... 3
Wisconsin v. Yoder,
406 U.S. 205 (1972) ............................................................................... 8
Zucht v. King,
260 U.S. 174 (1922) ............................................................................. 10
Other Authorities
Executive Order 202.68 ............................................................................. 5
FRAP 29..................................................................................................... 1
Governor Cuomo Is a Guest on CNN Newsroom with Poppy
Harlow and Jim Sciutto, New York State
(Oct. 9, 2020), ........................................................................................ 6
Governor Cuomo Updates New Yorkers on State’s Progress
During COVID-19 Pandemic, New York State
(Oct. 12, 2020) ....................................................................................... 8
Governor Cuomo Updates New Yorkers on State’s Progress
During COVID-19 Pandemic, New York State
(Oct. 5, 2020) ..................................................................................... 6, 7
Hana Levi Julian, Cuomo Warns Yeshivas, ‘Stay Closed or
Lose Funding,’ Jewish Press (Oct. 14, 2020) ........................................ 6

vi
- App. 379 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page7 of 21

Reuvain Borchardt, Jewish Leaders Say They Were ‘Stabbed
in the Back’ by Cuomo, Hamodia (Oct. 12, 2020) ........................... 9, 10
U.S. coronavirus map: What do the trends mean for you?,
Mayo Clinic ........................................................................................... 8

vii
- App. 380 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page8 of 21

INTEREST OF THE AMICI
Amicus Becket Fund for Religious Liberty is a non-profit law firm
dedicated to protecting the free exercise of all religious traditions.1 To
that end, it has represented agnostics, Buddhists, Christians, Hindus,
Jews, Muslims, Santeros, Sikhs, and Zoroastrians, among others, in
lawsuits across the country, including multiple merits cases at the
United States Supreme Court. See, e.g., Our Lady of Guadalupe School
v. Morrissey-Berru, 140 S. Ct. 2049 (2020); Little Sisters of the Poor v.
Pennsylvania, 140 S. Ct. 2367 (2020); Holt v. Hobbs, 574 U.S. 352 (2015);
Burwell v. Hobby Lobby Stores, 573 U.S. 682 (2014); Hosanna-Tabor
Evangelical Lutheran Church & School v. EEOC, 565 U.S. 171 (2012).
Becket has also appeared frequently before this Court. See, e.g.,
Fratello v. Archdiocese of N.Y., 863 F.3d 190 (2d Cir. 2017) (merits
counsel); Central Rabbinical Congress v. N.Y.C. Dep’t of Health & Mental
Hygiene, 763 F.3d 183 (2d. Cir. 2014) (amicus).
Amicus Jewish Coalition for Religious Liberty is an incorporated
group of rabbis, lawyers, and communal professionals who practice
Judaism and are committed to defending religious liberty. JCRL has an
Appellants have consented to the filing of this brief. Appellees take no
position on the filing of this brief. No party’s counsel has authored this
brief in whole or in part; no party nor party’s counsel contributed money
that was intended to fund preparing or submitting this brief; and no
person—other than amicus curiae, its members, or its counsel—
contributed money that was intended to fund preparing or submitting the
brief. FRAP 29(a)(4)(E).
1

1
- App. 381 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page9 of 21

interest in restoring an understanding of the Free Exercise Clause that
offers broad protection to religious liberty.
Amici currently represent Yitzchok and Chana Lebovits and their two
daughters, along with Bais Yaakov Ateres Miriam (“BYAM”), an
Orthodox Jewish girls’ school in Far Rockaway, Queens. The Lebovits
family and BYAM have challenged Governor Cuomo’s actions—including
the Executive Order at issue in this appeal—in federal district court.
Lebovits v. Cuomo, No. 1:20-cv-01284 (N.D.N.Y. filed Oct. 16, 2020).
Amici submit this brief to make a simple but important point: because
all parties to the case agree that Governor Cuomo’s Executive Order
No.202.68 is directed at Orthodox Jews and their worship services, strict
scrutiny applies, regardless of the government’s motive. Whether the
Governor targeted Orthodox Jews for bad reasons or good ones, the First
Amendment requires strict scrutiny. And the Governor’s own admissions
foreclose any hope of meeting that standard.
ARGUMENT
Some free exercise cases are hard, but this one is not. Under any
theory of the Free Exercise Clause, a government that uses targeted
restrictions to close houses of worship must face constitutional scrutiny.
That is particularly true where, as here, the religious restrictions are
specifically focused on a minority group. Express attacks on religious
minority groups in response to real or perceived threats have a terrible
historical pedigree, and do not belong in American public discourse. The
2
- App. 382 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page10 of 21

First Amendment helps weed out such attacks by subjecting targeted
restrictions to strict scrutiny to ensure it happens only where
government has exceptionally good reasons.
Almost eighty years ago, the Supreme Court rejected an attack on
another religious minority that had been scapegoated as a threat and
singled out for ill treatment. See W. Virginia State Bd. of Educ. v.
Barnette, 319 U.S. 624 (1943). Few things could be more corrosive to the
body politic than allowing collective guilt to be applied to a disfavored
religious group because of the perceived actions of some of their coreligionists. As it was 77 years ago, it is sadly again “necessary to say
that the First Amendment to our Constitution was designed to avoid
these ends by avoiding these beginnings.” Id. at 641; accord Trump v.
Hawaii, 138 S. Ct. 2392, 2423 (2018) (overruling Korematsu v. United
States, 323 U.S. 214 (1944)). By applying strict scrutiny, the Court should
nip this attack on our core constitutional values in the bud.
And it is on this question of strict scrutiny—even more than on
targeting—where Governor Cuomo’s many public comments about his
Order are dispositive. Where the Governor himself characterizes his
Order as based on fear rather than science, as cut by a “hatchet” rather
than a scalpel, and designed to manage public “anxiety” and people
“moving out” of the City, no Court should uphold his Order and allow
worship to be largely prohibited for a religious minority. Rather, the only
constitutional course is an injunction.
3
- App. 383 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page11 of 21

I. The Governor’s Order violates the Free Exercise Clause.
A. The Governor’s Order is not neutral.
Governor Cuomo’s Order is not neutral because it is “‘specifically
directed at [a] religious practice.’” Central Rabbinical Congress v. N.Y.C.
Dep’t of Health & Mental Hygiene, 763 F.3d 183, 193 (2d Cir. 2014)
(quoting Employment Div. v. Smith, 494 U.S. 872, 878 (1990)). That is
exactly what happened here. Governor Cuomo has clearly and repeatedly
emphasized that his Order is designed to specifically restrict Orthodox
Jewish religious practice. As Judge Komitee held, “the Governor of New
York made remarkably clear that this Order was intended to target
[Orthodox Jewish] institutions.” Roman Catholic Diocese of Brooklyn v.
Cuomo, No. 20-CV-4844, 2020 WL 5994954 at *1 (E.D.N.Y. Oct. 9, 2020).
To determine whether a government action is an “improper attempt to
target [a religion],” courts look to its “text” as well as its “effect” “in its
real operation.” Church of the Lukumi Babalu Aye v. City of Hialeah, 508
U.S. 520, 534-35 (1993). A court also “must consider ‘the historical
background of the decision under challenge, the specific series of events
leading to the enactment or official policy in question, and the legislative
or administrative history, including contemporaneous statements made
by members of the decisionmaking body.’” New Hope Family Services v.
Poole, 966 F.3d 145, 163 (2d Cir. 2020) (quoting Lukumi, 508 U.S. at 534,
540).

4
- App. 384 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page12 of 21

Here, the text, effect, and history of the Governor’s Order show it was
designed to limit Orthodox Jewish practices and institutions.
As to text, the Order specifically regulates “houses of worship[.]” See
Executive Order 202.68, available at https://perma.cc/QV5W-YF2M.
Under Lukumi, the “choice of these words” supports “a finding of
improper targeting of” religion. 508 U.S. at 534.
The effect of the Governor’s Order is likewise unmistakable. The
Governor specifically targeted as “clusters” several predominantly
Jewish areas in New York, as overlaying the Brooklyn clusters on a map
of Orthodox Jewish synagogues, yeshivas, and businesses illustrates:

5
- App. 385 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page13 of 21

Lebovits, Dkt.6-1, Ex.X at 3. By drawing the boundaries of the “clusters”
to include Orthodox Jewish areas while excluding other areas that are
experiencing similar COVID-19 rates, the Governor “accomplishe[d] . . . a
“religious gerrymander.” Lukumi, 508 U.S. at 535.
The history of the Governor’s order is even more damning. The
Governor explained on October 9 that “we have a couple of unique
clusters, frankly, which are more religious organizations, and that’s what
we’re targeting.” Governor Cuomo Is a Guest on CNN Newsroom with
Poppy Harlow and Jim Sciutto, New York State (Oct. 9, 2020),
https://perma.cc/LDV2-8EVR (emphasis added) (“[T]he issue is with that
ultra-orthodox community.”). The Governor further explained that he
believed the spread was “because of their religious practices.” Hana Levi
Julian, Cuomo Warns Yeshivas, ‘Stay Closed or Lose Funding,’ Jewish
Press (Oct. 14, 2020), https://perma.cc/HLB7-CXAJ.
The Governor’s other statements confirm the targeting. Governor
Cuomo Updates New Yorkers on State’s Progress During COVID-19
Pandemic, New York State (Oct. 5, 2020), https://perma.cc/67T4-TDPH
(“10/5 Briefing”). At the October 5 press conference announcing the
“cluster” policy, the Governor repeatedly referred to “the Orthodox
community,” the “Jewish community” and “rabbi[s].” Id. He stated that
he was “going to meet with members of the ultra-Orthodox community”
and tell them “[i]f you do not agree to enforce the rules, then we’ll close
6
- App. 386 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page14 of 21

the institutions down.” Id. And he illustrated his claim that “[r]eligious
gatherings . . . have been a problem” with photographs of gatherings of
members of one (and only one) religion—Orthodox Jews. Id.
That targeting is enough to trigger strict scrutiny: It does not matter
whether the government acted out of subjective animus or hostility
towards Orthodox Jews. As this Court has previously ruled, “close
scrutiny of laws singling out a religious practice for special burdens is not
limited to the context where such laws stem from animus, pure and
simple.” Central Rabbinical, 763 F.3d at 197-98; accord Shrum v. City of
Coweta, 449 F.3d 1132, 1145 (10th Cir. 2006) (McConnell, J.) (“the Free
Exercise Clause is not confined to actions based on animus”); Hassan v.
City of N.Y., 804 F.3d 277, 309 (3d Cir. 2015) (hostility not required).
With or without animus, Governor Cuomo’s admitted “targeting”
requires strict constitutional scrutiny.
B. Governor Cuomo’s Order fails strict scrutiny.
Compelling governmental interest. The government has a
“compelling interest in preventing the spread of” COVID-19. Roberts v.
Neace, 958 F.3d 409, 415 (6th Cir. 2020). But compelling interests aren’t
assessed in the abstract. Courts must “look[] beyond broadly formulated
interests” and “‘searchingly examine’” whether Governor Cuomo has a
compelling interest in taking the particular action at issue here—placing
onerous restrictions on Plaintiffs’ synagogues. Gonzales v. O Centro

7
- App. 387 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page15 of 21

Espirita Beneficente Uniao do Vegetal, 546 U.S. 418, 431 (2006) (quoting
Wisconsin v. Yoder, 406 U.S. 205, 221 (1972)). There is no such interest.
The Governor has said renewed lockdowns are justified by positivity
rates in the “micro-clusters” exceeding 2%, while the statewide goal is
1%. Governor Cuomo Updates New Yorkers on State’s Progress During
COVID-19

Pandemic,

New

York

State

(Oct.

12,

2020),

https://perma.cc/KR96-G4BP (“10/12 Briefing”). Yet as the Governor
admitted, the micro-clusters’ positivity rates would be “nothing” “[t]o
other states”; indeed, the micro-clusters would be a “safe zone” or “cool
spot” nationwide. Id. And the 1% goal is “unrealistic” when considered
“intellectually”—“absurdly low.” Id.; compare U.S. coronavirus map:
What do the trends mean for you?, Mayo Clinic, https://perma.cc/Q7TVV5BR (showing 6.49% national positivity rate as of Oct. 25). Amicus
doesn’t blame the Governor for wishing the virus would evaporate. But a
government official’s self-described “emotional[]” fixation on an
“absurd[]” and “unrealistic” goal, see 10/12 Briefing, is not an “interest[]
of the highest order” that overrides First Amendment rights, Lukumi,
508 U.S. at 546. As in other First Amendment contexts, “the government
does not have a compelling interest in each marginal percentage point by
which its goals are advanced.” Brown v. Ent. Merchs. Ass’n, 564 U.S. 786,
803 n.9 (2011).
At bottom, the only interest consistent with his actions is the one
Governor Cuomo “candid[ly]” articulated on October 6—a climate of
8
- App. 388 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page16 of 21

“fear” in the City, which the Governor thought he needed to appease with
a “blunt policy.” Reuvain Borchardt, Jewish Leaders Say They Were
‘Stabbed

in

the

Back’

by

Cuomo,

Hamodia

(Oct.

12,

2020),

https://perma.cc/93XT-TS3Q. Indeed, the Governor acknowledged that
“the fear [was] too high” in the City to take “a smarter, more tailored
approach” because “we have a real problem with fear and anxiety” and
people “moving out.” Id.
But “unsubstantiated” “fear[s] . . . are not permissible bases for”
overriding fundamental rights. City of Cleburne v. Cleburne Living Ctr.,
473 U.S. 432, 448 (1985).
Furthering. Nor does the Order “actually further[]” the claimed
compelling interest. Holt v. Hobbs, 574 U.S. 352, 364 (2015); Turner
Broad. Sys., Inc. v. FCC, 512 U.S. 622, 664 (1994) (government “must
demonstrate” that restriction “will in fact alleviate these harms in a
direct and material way.”). Effectively shutting down Plaintiffs’
synagogues won’t help prevent the spread of COVID-19, because
Plaintiffs have been assiduously following health guidance and have
experienced no COVID-19 outbreak. Agudath Mot. 23. Indeed, the
Governor himself has indicated that merely following his prior rules
sufficed. See 10/5 Briefing (“[H]ow’s it increasing? Because people are not
following the rules.”). Cf. McCullen v. Coakley, 573 U.S. 4646, 492 (2014)
(government should have enforced “existing” restrictions). Shuttering

9
- App. 389 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page17 of 21

synagogues that are following the rules out of fear that others aren’t does
not further the asserted interest.
Least restrictive means. The Governor has also freely admitted that
he is not using the means least restrictive of religious exercise. He
expressly conceded that applying the Order to effectively shut down
Orthodox Jewish worship was “not a policy being written by a scalpel,”
but rather one “cut by a hatchet.” Borchardt, https://perma.cc/93XTTS3Q. Indeed, he expressly contrasted it with “a smarter, more tailored
approach[.]” Id. A dumber, less-tailored approach is hardly the least
restrictive means.
II. Jacobson is also no defense.
The courts below mistakenly supplanted ordinary free exercise
principles with Jacobson v. Massachusetts, 197 U.S. 11 (1905)—a 115year-old case addressing substantive due process objections to an acrossthe-board mandatory vaccination law. But this Court has already decided
that “Jacobson does not specifically control [a Plaintiff’s] free-exercise
claim,” “because, at the time it was decided, the Free Exercise Clause of
the First Amendment had not yet been held to bind the states.” Phillips
v. City of New York, 775 F.3d 538, 543 (2d Cir. 2015). Jacobson only
“settled that it is within the police power of a state to provide for
compulsory vaccination.” Zucht v. King, 260 U.S. 174, 176 (1922).
Accordingly, Phillips applied Jacobson to resolve a substantive due

10
- App. 390 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page18 of 21

process claim, but applied standard free exercise principles to the free
exercise claim. 775 F.3d at 542-43.2
Echoing Phillips, several other justices and judges reject treating
Jacobson as “a rubber stamp for all but the most absurd and egregious
restrictions on constitutional liberties, free from the inconvenience of
meaningful judicial review.” Bayley’s Campground, Inc. v. Mills, No. 20cv-00176, 2020 WL 2791797, *8 (D. Me. May 29, 2020); accord Calvary
Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603, 2608 (2020) (Alito, J.,
dissenting); Denver Bible Church v. Azar, No. 1:20-cv-02362, Dkt. 65 at
*16 (D. Colo. Oct. 15, 2020), temporarily stayed, No. 20-1377 (10th Cir.
Oct. 22, 2020); Capitol Hill Baptist Church v. Bowser, No. 20-cv-02710,
2020 WL 5995126, at *7 (D.D.C. Oct. 9, 2020).
Nor does the Chief Justice’s South Bay concurrence change Phillips.
No other justice joined his opinion. And South Bay involved only a denial
of emergency relief under the heightened standard required under the
All Writs Act. Indeed, “other Justices, and even a majority of the Court,
may very well have agreed with Justice Alito’s suspicion of Jacobson and
its application to the issues facing the Court.” Capitol Hill Baptist, 2020
Phillips cited what it called the “persuasive dictum” in Prince that
“‘[t]he right to practice religion freely does not include liberty to expose
the community or the child to communicable disease or the latter to ill
health or death.’” Phillips, 775 F.3d at 543 (quoting Prince v.
Massachusetts, 321 U.S. 158, 166-67 (1944)). But Phillips held that this
dictum is “consonant” with standard free exercise analysis, not a new,
more deferential analysis. 775 F.3d at 543.
2

11
- App. 391 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page19 of 21

WL 5995126, at *7 n.9. Finally, even if Jacobson authorizes vaccine
regulations “applicable equally to all in like condition,” 197 U.S. at 30, it
surely cannot displace judicial review where, as here, the government
admits to fear-based targeting and extinguishing constitutional rights
over COVID levels that would be “safe zones” elsewhere nationwide.
CONCLUSION
In Korematsu, Justice Jackson warned against allowing a “passing
incident [to] become[] the doctrine of the Constitution. There it has a
generative power of its own, and all that it creates will be in its own
image. Nothing better illustrates this danger than does . . . this case.”
Korematsu, 323 U.S. at 246, (Jackson, J., dissenting). Singling out a
minority group for collective blame should be stopped at the outset.
This Court should enjoin Governor Cuomo’s Order pending appeal.
Respectfully submitted,
Josh Blackman
JEWISH COALITION FOR
RELIGIOUS LIBERTY
1303 San Jacinto Street
Houston, TX 77002
(202) 294-9003

/s/ Eric C. Rassbach
Eric C. Rassbach
William J. Haun
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire Ave.
N.W., Ste. 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org
Counsel for Amici Curiae

12
- App. 392 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page20 of 21

CERTIFICATE OF COMPLIANCE
This brief complies with the type-volume limitation of Second Circuit
Rule 29.1(c), which sets the length of amicus briefs as one-half the length
of the supported party’s briefing. Here, the supported party’s motion is
limited to 5,200 words, see Fed. R. App. P. 27(d)(2), and the foregoing
brief contains 2,573 words, excluding the parts of the brief exempted by
Fed. R. App. P. 32(a)(7)(B)(iii). The brief also complies with the typeface
and style requirements of Fed. R. App. P. 32(a)(5)-(6), because it has been
prepared using Microsoft Word Century Schoolbook font measuring no
less than 14 points.
October 26, 2020
/s/ Eric C. Rassbach
Eric C. Rassbach

13
- App. 393 -

Case 20-3572, Document 49-2, 10/26/2020, 2960631, Page21 of 21

CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the foregoing with the Clerk
of the Court for the United States Court of Appeals for the Second Circuit
by using the appellate CM/ECF system on October 26, 2020.
I certify that all participants in the case have been served a copy of the
foregoing by the appellate CM/ECF system or by other electronic means.

October 26, 2020

/s/ Eric C. Rassbach
Eric C. Rassbach

14
- App. 394 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 1 of 21 PageID #: 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF
KEW GARDEN HILLS, AGUDATH ISRAEL OF MADISON,
AGUDATH ISRAEL OF BAYSWATER, RABBI YISROEL
REISMAN, RABBI MENACHEM FEIFER, and STEVEN
SAPHIRSTEIN,
Plaintiffs,

1:20-cv-4834
Civil Action No._____________

vs
ANDREW M. CUOMO, Governor of the State of New York, in
his official capacity,
Defendant.

COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF
Plaintiffs, by and through their undersigned counsel Troutman Pepper Hamilton Sanders
LLP, respectfully allege as follows:
PRELIMINARY STATEMENT
1.

Orthodox Jews celebrate three holidays on October 9, 10, and 11, respectively.

These holidays each have special prayers and rituals that are incorporated into worship services.
2.

Orthodox Jews will gather at their synagogues for collective prayer, Torah readings,

remembrances of deceased loved ones, and other rituals in observance of Hoshanah Rabbah,
Shmini Atzeres, and Simchas Torah.
3.

Forty-eight hours before the onset of these holidays, Defendant Governor Cuomo

issued an Executive Order that singles out and discriminates against all houses of worship—and
synagogues in particular—by imposing occupancy and gathering restrictions that make it
impossible for Orthodox Jews to comply with both their religious obligations and the Order.

- App. 395 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 2 of 21 PageID #: 2

4.

In doing so, Defendant explicitly targeted the Orthodox Jewish community,

declaring that if the “orthodox community” does not agree with his rules “the state will take
action.” See Professor Josh Blackman, New York Governor Cuomo: “I’m Going to Say to the
Orthodox Community Tomorrow If You Don’t Agree Then We Will Have to Close Down Your
Religious

Institutions,”

The

Volokh

Conspiracy

(Oct.

6,

2020)

https://reason.com/

2020/10/06/new-york-governor-cuomo-im-going-to-say-to-the-orthodox-community-tomorrowif-you-dont-agree-then-we-will-have-to-close-down-your-religious-institutions/.
5.

Defendant’s Executive Order and the restrictions it contains will disrupt the

religious observance of tens of thousands of Orthodox Jews in New York State, depriving them of
their religious worship and holiday observance. The Executive Order requires enforcement of its
restrictions to begin on Friday, October 9, which is Hoshanah Rabbah, the first of these three
holidays.
6.

Defendant has imposed these onerous and discriminatory new restrictions despite

the fact that even he concedes he has not enforced the existing restrictions on houses of worship
that already impose capacity limits and health requirements. Plaintiffs have completely complied
with these rules, and Defendant does not contend otherwise.
7.

Defendant’s Executive Order violates Plaintiffs’ constitutional rights under the

Free Exercise Clause of the First Amendment in two separate ways, both independently sufficient
to justify the temporary restraining order and all other equitable relief that they are requesting.
8.

First, Defendant’s restrictions are facially discriminatory toward religious practices

when compared to similar secular activities.

-2-

- App. 396 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 3 of 21 PageID #: 3

9.

Second, Defendant’s explicit targeting of religious institutions and communities for

these restrictions is a punitive attempt to infringe upon Plaintiffs’ religious services because of
their religious nature.
10.

Plaintiffs will suffer imminent, irreparable harm because of Defendant’s actions.

By depriving Plaintiffs and their congregants of the critical religious worship and practices
associated with these upcoming holidays, Defendant has trampled on their constitutional right to
the Free Exercise of Religion, an injury that cannot be remedied with a later money judgment.
11.

This action therefore seeks immediate judicial relief from Defendant’s

discriminatory restrictions by way of a temporary restraining order, followed by a preliminary and
permanent injunction and a declaratory judgment that the Executive Order is unconstitutional and
void because it deprives Plaintiffs of their constitutional rights.
PARTIES, JURISDICTION, AND VENUE
12.

Plaintiff Agudath Israel of America, founded in 1922, is a national grassroots

Orthodox Jewish organization. Among its other functions and activities, Agudath Israel articulates
and advances the position of the Orthodox Jewish community on a broad range of legal issues
affecting religious rights and liberties in the United States. Agudath Israel regularly intervenes at
all levels of government to advocate and protect the interests of the Orthodox Jewish community
in the United States in particular and religious liberty in general. Agudath Israel has a large number
of Agudath-Israel affiliated synagogues throughout the country, with close to 70 in New York
State, and advocates for synagogues whenever their rights are threatened. Agudath Israel of
America’s principal place of business is located at 42 Broadway, 14th Floor, New York, NY
10004.

-3-

- App. 397 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 4 of 21 PageID #: 4

13.

Plaintiff Agudath Israel of Kew Garden Hills is an Orthodox Jewish Synagogue

located at 14737 70th Rd., Flushing, NY 11367.
14.

Plaintiff Agudath Israel of Madison is an Orthodox Jewish Synagogue located at

2122 Ave. S, Brooklyn, NY 11229.
15.

Plaintiff Agudath Israel of Bayswater is an Orthodox Jewish Synagogue located at

2422 Bayswater Ave., Far Rockaway, NY 11691.
16.

Plaintiff Rabbi Yisroel Reisman is the Rabbi at Agudath Israel of Madison, located

at 2122 Ave. S, Brooklyn, NY 11229. Rabbi Reisman resides in Brooklyn, New York.
17.

Plaintiff Rabbi Menachem Feifer is the Rabbi at Agudath Israel of Bayswater,

located at 2422 Bayswater Ave., Far Rockaway, NY 11691. Rabbi Feifer is a Resident of Far
Rockaway, New York.
18.

Plaintiff Steven Saphirstein is the Secretary of Agudath Israel of Kew Garden Hills,

located at 14737 70th Rd., Flushing, NY 11367. Mr. Saphirstein is a resident of Queens, New
York.
19.

Defendant Governor Andrew M. Cuomo is the Governor of the State of New York

and is acting in his official capacity at all times relevant to the allegations herein. Defendant’s
principal place of business is located at the State Capitol Building, Albany, New York.
20.

This action raises federal questions under the First Amendment to the United States

Constitution and under federal law, 28 U.S.C. §§ 2201 and 2202, as well as 42 U.S.C. §§ 1983
and 1988.
21.

This Court has jurisdiction over these federal claims under 28 U.S.C. §§ 1331

and 1343.

-4-

- App. 398 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 5 of 21 PageID #: 5

22.

This Court has the authority to grant the requested injunctive relief under 28 U.S.C.

§ 1343(3), the requested declaratory relief pursuant to 28 U.S.C. §§ 2201 and 2202, and Plaintiffs’
prayer for costs, including reasonable attorneys’ fees, under 42 U.S.C. § 1988 and 28 U.S.C.
§ 1920.
23.

Venue is proper in the Eastern District pursuant to 28 U.S.C. § 1391, as a substantial

part of the events giving rise to the claims herein arise in this District.
BACKGROUND
New York State Restrictions
24.

To combat the “transmission of COVID-19” and the “threat that COVID-19 poses

to the health and welfare” of the State of New York, Defendant issued Executive Order No. 202
on March 7, 2020, declaring a disaster emergency in New York.1
25.

In the following months, Defendant issued dozens of orders imposing business

closures, in-person gathering restrictions, and other requirements throughout the State.2
26.

In May of this year, the State announced that it would allow a phased, regional

approach for non-essential businesses to reopen and other conduct to resume, based on regions
satisfying certain health-related metrics specified by the New York Department of Health.3
27.

Pursuant to that regional plan, Defendant has issued orders exempting non-essential

businesses and other conduct from his gathering and closure restrictions in certain regions of the
State, provided that such entities operate subject to Department of Health guidance.

1

Available at https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/EO_202.pdf.
See generally https://www.governor.ny.gov/keywords/executive-order.
3
See, e.g., https://forward.ny.gov/.
2

-5-

- App. 399 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 6 of 21 PageID #: 6

28.

Among other things, the Department of Health guidance requires such businesses

and other conduct to adhere to certain health and safety protocols, which often include capacity
limitations on maximum occupancy.
29.

All regions of the State currently are in the final phase (Phase 4) of that plan.4

30.

For religious services in Phase 4,5 the State’s guidelines impose a restriction of “no

more than 33% of the maximum occupancy for a particular area for services occurring indoor; or
no more than 50 people for services occurring outdoors.”
31.

In Soos v. Cuomo, ___ F. Supp. 3d ___, 2020 U.S. Dist. LEXIS 111808 (N.D.N.Y.

June 26, 2020), the district court enjoined Defendant’s previous attempt to impose a 25% indoorcapacity limitation on houses of worship, concluding that this limitation imposed more restrictive
capacity limits than on comparable secular activity that allowed 50% capacity, such as “offices,
retail stores that are not inside of shopping malls, [ ] salons,” and restaurants, and restrained
Defendant from enforcing such limitations on houses of worship greater than those imposed for
such comparable secular activity. Id. at *29–30, 25.
32.

Despite the extensive existing restrictions on houses of worship and worship

services, Defendant has publicly conceded that there has been no enforcement of those
requirements against persons who have not voluntarily complied with them.
Defendant’s “Redlining” Initiative and Executive Order 202.68
33.

Rather than enforce these existing rules—which can both be effective at stopping

the transmission of COVID-19 and allow for religious services and safety to coexist—earlier this

4

See https://forward.ny.gov/phase-four-industries (“All regions of the state have entered Phase 4 of reopening.”).
Available at https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/ReligiousandFuneralServices
SummaryGuidance.pdf.
5

-6-

- App. 400 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 7 of 21 PageID #: 7

week Defendant imposed punitive new restrictions that create conflict between religious services
and government mandates.
34.

On October 5, Defendant held a press conference to announce the new restrictions

he intended to impose.6 At this press conference, Defendant explained that his new restrictions
are designed to target religious institutions.
35.

Defendant stated that “[r]eligious institutions” and “mass gatherings,” can spread

COVID-19. Further, Defendant singled out “[r]eligious institutions” as “the greatest potential”
threat, declaring that “[w]e know religious institutions have been a problem.”
36.

During this press conference, Defendant displayed pictures of Orthodox Jews,

including a fourteen-year-old photo that was described as “recent.”7

37.

Defendant also stated that he planned to “meet with members of the ultra-Orthodox

community tomorrow,” and threatened that “we’ll close the [religious] institutions down” if “you
do not agree to enforce the rules.”

6

Available at https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-newyorkers-states-progress-during-1.
7
Available at https://www.flickr.com/photos/governorandrewcuomo/albums/72157716268567076.

-7-

- App. 401 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 8 of 21 PageID #: 8

38.

The following day, on October 6, 2020, Defendant announced at a press conference

a “new cluster action initiative,” intended to curb the transmission of COVID-19.8
39.

This new initiative imposes selective and discriminatory gathering restrictions on

houses of worship, which are given their own category of restriction.
40.

Defendant admitted that he intended his restrictions to be “most impactful on

houses of worship” because “[t]he problem is mass gatherings and houses of worship.”
41.

To that end, the initiative declares COVID-19 “high density” zones by

neighborhood, and assigns such zones with a color—red, orange, or yellow—each of which has
their own set of COVID-19 restrictions.
42.

Defendant also released a chart9 explaining the particular restrictions applicable to

each zone, and noting that the “cluster action initiative . . . divide[s] clusters and the areas around
them into three categories with successively higher restrictions within each one”:

8

Available at https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announcesnew-cluster-action-initiative.
9
See https://www.flickr.com/photos/governorandrewcuomo/albums/72157716284149688.

-8-

- App. 402 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 9 of 21 PageID #: 9

43.

In areas that the Defendant decides are in the “Red Zone – Cluster Itself,”

Defendant restricts houses of worship to a 10-person maximum limit.
44.

“Essential businesses” in the red zone, however, are exempted from the restrictions.

The Executive Order, released later that night, also permits “essential” gatherings. No definition
of essential gatherings has ever been provided.
45.

In areas that Defendant determines are in the “Orange Zone – Warning Zone,”

Defendant restricts houses of worship to a 25-person maximum limit.
46.

In this zone, Defendant exempts most businesses from the restrictions, allowing

them to operate without any specified capacity limitation, and “[c]losing” only “high-risk nonessential businesses, such as gyms and personal care.”
47.

Finally, in areas Defendant determines are in the “Yellow Zone – Precautionary

Zone,” Defendant restricts houses of worship to 50% capacity.
48.

Defendant exempts all businesses, including restaurants for indoor and outdoor

dining service, and schools, from these “Yellow Zone” restrictions, allowing them to remain

-9-

- App. 403 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 10 of 21 PageID #: 10

“[o]pen” without any specified capacity limitation, except for limiting each restaurant table to a
maximum of four persons.
49.

To enforce these new restrictions, Defendant announced that sponsors of worship

services in violation of his rules will be subject to fines of $15,000.
50.

Consistent with these announcements, Defendant issued Executive Order 202.68

(“EO 202.68”) on October 6.10 This Order directs the Department of Health to adopt the “most
severe” mitigation measures in “red zones,” precluding all “[n]on-essential gatherings,”
prohibiting all non-essential employees from in-person work, and specifically “subject[ing]” all
houses of worship “to a capacity limit of 10 people.” Id. at 2.
51.

EO 202.68 mandates that “moderate severity warning areas, or ‘orange zones,’” are

allowed non-essential gatherings of 10 people or less, permits non-essential businesses—except
for gyms, fitness centers or classes, barbers, hair salons, spas, tattoo or piercing parlors, nail
technicians and nail salons, cosmetologists, estheticians, the provision of laser hair removal and
electrolysis, and all other personal care services—to return to in-person work, and restricts houses
of worship “to a maximum capacity limit of . . . 25 people.” Id.
52.

Finally, in “precautionary” or “yellow zones,” non-essential gatherings are limited

to 25 or fewer people, “houses of worship shall be subject to a capacity limit of 50% of its
maximum occupancy and shall adhere to Department of Health guidance,” whereas restaurants
and taverns are permitted indoor and outdoor seating for all parties of four or less, and children
can return to in-person school. Id.
53.

EO 202.68 also announced that it “shall be enforced no later than Friday, October

9, 2020.” Id.

10

Available at https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/EO202.68.pdf.

-10-

- App. 404 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 11 of 21 PageID #: 11

54.

At his October 6 press conference, Defendant also declared that “[t]he state is going

to take over the enforcement oversight in all the hotspot clusters.”
Jewish Houses of Worship Are A Vital Component of Jewish Religious Practice
55.

Synagogues are a necessary and critical component of Jewish life.

56.

Plaintiff synagogues and dozens or hundreds more just like them each serve several

hundred men and woman every week and have legal occupancy capacities that permit them to have
several hundred worshippers in the building at any one time.
57.

Plaintiff Agudath Israel of Kew Garden Hills holds daily worship services, serving

over 150 men and women each week. It is located in a geographic area affected by Defendant’s
gathering restrictions on houses of worship. Without such restrictions it has a legal capacity of
400 persons in its main sanctuary.
58.

Plaintiff Agudath Israel of Madison holds worship services, conducted every day,

serving over 300 men and women every week. It is located in a geographic area affected by
Defendant’s gathering restrictions on houses of worship. Without such restrictions it has a legal
capacity of 186 persons in its main sanctuary, with an additional capacity of more than 145 persons
each in its lower and upper levels.
59.

Plaintiff Agudath Israel of Bayswater holds daily worship services and serves over

150 men and women every week. It is located in a geographic area affected by Defendant’s
gathering restrictions on houses of worship. Without such restrictions it has a legal capacity of
250 persons in its main sanctuary.
60.

The congregants’ spiritual connection to the synagogue and its community is

intense. The spiritual role of the synagogue and its community is especially critical during these
unprecedented and challenging times.

-11-

- App. 405 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 12 of 21 PageID #: 12

61.

A high point of this communal life takes place during the current holiday period,

which began nearly three weeks ago with Rosh Hashona, the Jewish New Year.
62.

The holiday period culminates with three special days on the Jewish calendar.

These days are known as Hoshanah Rabbah, Shmini Atzeres, and Simchas Torah, and this year
they are observed on October 9, October 10, and October 11, respectively.
63.

Hoshanah Rabbah, observed on October 9, marks the conclusion of the Days of

Judgment that began with Rosh Hashona. There are special, additional services and rituals that
are required on Hoshanah Rabbah, including reading from a Torah scroll, seven additional prayers,
and the traditional beating of a willow branch in the synagogue. This tradition dates back 2,000
years, to the times of the Temple. Religious services on Hoshanah Rabbah take at least ninety to
one hundred and twenty minutes.
64.

Saturday, October 10, is the holiday of Shmini Atzeres. Among the special features

of the holiday is the Yizkor service, which is the Prayer for Departed Relatives. This prayer is only
recited four times a year and, after this Saturday, will not be recited again until Passover in April.
These additional prayers by men and women alike are especially emotional, led by a Rabbi, require
approximately 15 additional minutes of service, and are only offered in group prayer.
65.

Shmini Atzeres is also the only day of the year that Orthodox Jews read

Ecclesiastes, which they accept as the Book of Wisdom, in shul. In many synagogues, including
that of Plaintiff Agudath Israel of Madison, Ecclesiastes is read from a parchment and requires a
trained cantor.
66.

Simchas Torah, falling on October 11, is literally translated as “the Joy of the

Torah,” and is a celebration of the completion of the annual cycle of Torah readings. As part of
this celebration, each congregant is called to the Torah for a short reading. Traditionally, the Rabbi

-12-

- App. 406 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 13 of 21 PageID #: 13

is then called to read the final portion of the Torah, after which the first portion of the Torah is
read to begin the new cycle.
67.

Practitioners of Judaism observe these holidays primarily in the synagogue.

Plaintiffs and their congregants understand that joining together to pray is more than a religious
ceremony; it is an emotional connection to God and community.
Executive Order 202.68 Makes It Impossible for Orthodox Jews to Conduct Services
68.

Defendant’s EO 202.68 renders it impossible for Plaintiffs’ synagogues and their

congregants to fulfill their religious obligations.
69.

For all synagogues in the “red zone,” including Plaintiff Agudath Israel of Madison,

EO 202.68 limits attendance at worship services to 10 individuals.
70.

Under these new restrictions, then, it is impossible for Plaintiffs to both comply

with the State-issued restrictions on houses of worship and fulfill their religious obligations.
71.

For example, Hoshanah Rabbah services, Friday, October 9, take approximately

ninety to one hundred and twenty minutes. For a synagogue the size of Plaintiff Agudath Israel of
Madison, the capacity limits would require over twenty such services on Friday morning to serve
the entire congregation. That is simply impossible.
72.

Under the existing COVID-19 capacity limitations, however, Plaintiffs use all of

their various spaces and outdoor settings to divide their congregants into multiple services.
73.

Plaintiffs also cannot conduct Shmini Atzeres services, on Saturday, October 10,

under the new restrictions. The additional services on Shmini Atzeres, including Yizkor (the
Prayer for Departed Relatives), add roughly fifteen minutes to the services, and are only offered
in group-prayer settings. Under the new restrictions, Plaintiffs and their congregants will suffer

-13-

- App. 407 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 14 of 21 PageID #: 14

the particularly devastating harm of being deprived these special prayers, which are only recited
four times a year.
74.

Under the existing COVID-19 capacity limits, Plaintiffs are able to conduct such

services.
75.

The new restrictions embodied in the Executive Order also make it impossible for

Plaintiffs to complete all required prayers and readings for Simchas Torah, on Sunday October 11.
This “Joy of the Torah” service requires individual, short Torah readings by all congregants, in
addition to the regular services. It is impossible for Plaintiffs to hold such services for all of their
congregants while complying with the ten-person capacity limits.
76.

Under the existing COVID-19 capacity limits, Plaintiffs are be able to comply with

their religious and civil dictates for the entirety of the holiday period.
77.

Although Defendant’s EO 202.68 discriminates against all religions by singling out

houses of worship for more restrictive treatment than similarly situated secular institutions, the
order disproportionately impacts Orthodox Jewish services.
78.

Because Orthodox Jews are prohibited by their faith from engaging in vehicular

travel on the Saturday Sabbath and religious holidays, they must walk to their synagogues, which
are generally located within the communities where their congregants reside.
79.

Although Orthodox Jews can continue to drive outside of restricted areas to go to

work or engage in other permitted activities outside of prohibited zones, the restrictions bar
Orthodox Jews principally from attending religious services, as they are unable to travel to
synagogues outside of their restricted zones.

-14-

- App. 408 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 15 of 21 PageID #: 15

80.

Without minimizing the unconstitutional impact that the Executive Order has on

practitioners of other faiths, they at least retain the ability to drive to houses of worship in nearby,
unrestricted zones, whereas Orthodox Jews are simply unable to do so.
81.

There are hundreds of synagogues in the presently delineated “restricted zones,”

with many tens of thousands of Orthodox Jews residing in those communities. Therefore, the
brunt of the religious burden imposed by Defendant’s EO 202.68 falls upon the Orthodox Jewish
community, who, alone, are totally deprived of the ability to participate in religious services.
Jewish Houses of Worship Protect Against the Transmission of COVID-19
82.

Plaintiffs and other Jewish houses of worship have adopted rigorous health

protocols and have altered religious congregation to safeguard against the spread of COVID-19.
83.

Prior to the Executive Order, Plaintiffs have followed all closure, capacity

limitation, social distancing, and masking requirements imposed by the State.
84.

These include the capacity limits currently imposed upon all religious activities.

85.

Plaintiffs suspended services in mid-March, and remained closed until they were

granted permission to resume services around Memorial Day.
86.

Since resuming services, Plaintiffs have at all times operated in conformity with all

health requirements.
87.

In addition to capacity limits and masking, Plaintiff and other synagogues have

erected plexiglass barriers between those leading services and reading the Torah and others.
88.

They have also split the traditional congregational service into separate gatherings.

This accommodates every congregant while ensuring that they maintain proper social distancing.
89.

Plaintiffs and other synagogues require congregants to wear masks during the entire

service, and congregants have fully complied with this requirement.

-15-

- App. 409 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 16 of 21 PageID #: 16

90.

For the upcoming holidays, Plaintiffs have previously announced additional

limitations to ensure the safety of all during these important religious services and rituals.
91.

By way of example, a principal part of the service typically has the congregation

circle the synagogue together, but Plaintiffs instead have had only one individual perform that
ritual, as the rest of the congregation stands in place in prayer.
92.

By implementing rigorous health and safety protocols, Plaintiffs have been able to

allow their members to continue to practice their religious beliefs while still safeguarding from the
spread of COVID-19.
COUNT I
Violation of the First Amendment to the United States Constitution
42 U.S.C. § 1983
93.

Plaintiffs incorporate and reallege Paragraphs 1 through 92 as if fully set forth

herein.
94.

The Free Exercise Clause of the First Amendment to the United States Constitution,

as applied to the States through the Fourteenth Amendment, forbids the States from enacting laws
inhibiting the free exercise of religion. See Wisconsin v. Yoder, 406 U.S. 205, 213–14, 232 (1972);
Cantwell v. Connecticut, 310 U.S. 296, 303 (1940). Accordingly, Plaintiffs have a constitutional
right to freely exercise their religious beliefs and practices by providing a religious upbringing for
their children and families. See Wisconsin v. Yoder, 406 U.S. 205, 213–14, 232 (1972).
95.

The government violates the Free Exercise Clause when it burdens a person’s

religious exercise through a law that is not neutral or generally applicable, unless the government
can satisfy strict scrutiny. Church of Lukumi Babalu Aye v. City of Hialeah, 508 U.S. 520, 546
(1993).

-16-

- App. 410 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 17 of 21 PageID #: 17

96.

A law may fail the First Amendment’s neutrality requirement in two ways: (1) if it

the law regulates motivated conduct, but not similar secular conduct, Cent. Rabbinical Congress
of the U.S. & Can. v. NYC Dep’t of Health & Mental Hygiene, 763 F.3d 183, 195 (2d Cir. 2014),
or is specifically directed at religious practice; or (2) if the government targeted the law at
religiously motivated conduct for special restrictions, even if the text of the law is facially neutral,
Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, 138 S. Ct. 1719, 1731 (2018); Lukumi,
508 U.S. at 540.
97.

EO 202.68 burdens Plaintiffs’ religious beliefs by restricting the number of

individuals who may gather in houses of worship, at risk of substantial financial penalties.
Plaintiffs are sincere practitioners of Judaism who believe that attending religious services at the
synagogue, especially on Jewish holidays, is a critical and necessary component of their religious
practices and beliefs.

EO 202.68’s restrictions make it impossible for Plaintiffs and their

congregants and others to conduct services on Jewish holidays observed on October 9, 10, and 11,
2020, thereby infringing upon Plaintiffs’ ability to comply with religious dictates.
98.

EO 202.68 is not neutral, and violates the Free Exercise Clause for two

independently sufficient reasons.
99.

First, EO 202.68 is not neutral because it is facially discriminatory, as the

restrictions in each zone expressly impose gathering restrictions on “houses of worship” and not
other secular conduct.
100.

In areas designated to be in the “Yellow Zone,” EO 202.68 restricts houses of

worship to 50% capacity while permitting all businesses, including restaurants for indoor and
outdoor dining service, and schools, to remain open (subject to Department of Health guidance).
Further, the secular conduct that EO 202.68 permits to open at greater capacity than 50% similarly

-17-

- App. 411 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 18 of 21 PageID #: 18

constitutes gatherings of individuals for a prolonged period of time—the very characteristics of
public congregation used to justify restrictions to combat the transmission of COVID-19.
101.

In areas designated to be in the “Orange Zone,” EO 202.68 restricts worship

services to a maximum of 25 people while closing only non-essential businesses, for which there
is a higher risk associated with the transmission of the COVID-19 virus. The “non-essential”
businesses that EO 202.68 permits to open at greater capacity than 50%, which include offices and
retail, among other things, similarly constitute gatherings of individuals for a prolonged period of
time that should trigger the same concerns relating to the spread of COVID-19 that Defendant
claims justify restrictions on houses of worship.
102.

In areas designated to be in the “Red Zone – Cluster Itself,” EO 202.68 restricts

houses of worship to a 10-person maximum. These restrictions similarly facially target religious
practice. Moreover, EO 202.68 exempts all essential gatherings and businesses from such
restrictions, yet it fails to define “essential” gatherings not subject to the gathering restrictions.
103.

Second, EO 202.68 is not neutral because it infringes on the religious practices of

the Orthodox Jewish community because of their religious motivation. Defendant’s actions and
contemporaneous statements establish this lack of neutrality.
104.

The day before issuing his restrictions, Defendant singled out houses of worship

for discriminatory treatment, stating: “Religious institutions are mass gatherings and raise the
greatest potential” for the spread of COVID-19, and that “[w]e know religious institutions have
been a problem.” Defendant further threatened “religious institutions” and “members of the ultraOrthodox community” that “[i]f you do not agree to enforce the rules, then we’ll close the
[religious] institutions down.”

-18-

- App. 412 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 19 of 21 PageID #: 19

105.

Defendant’s order requires enforcement of its restrictions beginning October 9—

the first of the three upcoming Jewish holidays, ensuring it will be impossible for Plaintiffs to
conduct services for all of their congregants.
106.

Furthermore, the brunt of Defendant’s restrictions falls disparately on Orthodox

Jews, who do not use vehicular travel on Sabbath or on religious holidays and thus are unable to
travel to houses of worship for religious practice in other, permitted areas.
107.

Given its lack of neutrality, EO 202.68 can only survive a Free Exercise Clause

challenge if it satisfies the exceptionally demanding strict-scrutiny review, which requires it to
further a compelling government interest in a narrowly tailored way.
108.

Here, EO 202.68 is not narrowly tailored because it is massively underinclusive in

relation to its goals: it exempts secular activity—all businesses and restaurants in counties in the
Yellow Zone, and most businesses in counties in the Orange Zone, in which individuals congregate
and remain in close proximity for long periods—that endangers the health and welfare of the public
through the transmission of COVID-19 in a similar or greater degree than do houses of worship.
109.

EO 202.68 will cause irreparable harm to Plaintiffs absent preliminary injunctive

relief. EO 202.68 deprives Plaintiffs of their free-exercise rights during three Jewish holidays, and
“[t]he loss of First Amendment freedoms, for even minimal periods of time, unquestionably
constitutes irreparable injury.” Elrod v. Burns, 427 U.S. 347, 473 (1976) (plurality op.); see also
LeBlanc-Sternberg v. Fletcher, 67 F.3d 412, 426 (2d Cir. 1995).
110.

Defendant would suffer no harm if EO 202.68 were preliminarily enjoined, because

Plaintiffs have guarded against the spread of COVID-19 with their own comprehensive health and
safety protocols, and Plaintiffs have been fully compliant with all State and local mandates since
the onset of the pandemic.

-19-

- App. 413 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 20 of 21 PageID #: 20

111.

Injunctive relief would further the public interest by protecting Plaintiffs’

constitutional rights and treating religious and secular conduct in comparable ways.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully request that this Court grant the following relief:
(a)

a temporary restraining order, followed by a preliminary and final injunction

restraining Defendant, and all those acting in concert with him, from enforcing EO 202.68;
(b)

a declaratory judgment that the enforcement of EO 202.68 is unconstitutional, both

facially and as applied to plaintiffs;
(c)

an award of costs of this litigation, including reasonable attorneys’ fees, pursuant

to 42 U.S.C. § 1988 and 28 U.S.C. § 1920; and
(d)

such other and further relief as the Court may deem just and proper.

-20-

- App. 414 -

Case 1:20-cv-04834 Document 1 Filed 10/08/20 Page 21 of 21 PageID #: 21

This 8th day of October, 2020.
/s/ Avi Schick
Avi Schick
avi.schick@troutman.com
TROUTMAN PEPPER HAMILTON SANDERS LLP
875 Third Avenue
New York, NY 10022
(212) 704-6000
Misha Tseytlin (NY Bar No. 4642609)
misha.tseytlin@troutman.com
*Pro Hac Vice Application Forthcoming
W. Alex Smith (GA Bar No. 532647)
alex.smith@troutman.com
*Pro Hac Vice Application Forthcoming
Sean T.H. Dutton (IL Bar No. 6319132)
sean.dutton@troutman.com
*Pro Hac Vice Application Forthcoming
Kevin M. LeRoy (WI Bar No. 1105053)
kevin.leroy@troutman.com
*Pro Hac Vice Application Forthcoming
Attorneys for Plaintiffs

-21-

- App. 415 -

JS 44 (Rev. 10/20)

Case 1:20-cv-04834 Document
Filed SHEET
10/08/20 Page 1 of 2 PageID #: 22
CIVIL 1-1
COVER

The JS 44 civil cover sheet and the information contained herein neither replace nor supplement the filing and service of pleadings or other papers as required by law, except as
provided by local rules of court. This form, approved by the Judicial Conference of the United States in September 1974, is required for the use of the Clerk of Court for the
purpose of initiating the civil docket sheet. (SEE INSTRUCTIONS ON NEXT PAGE OF THIS FORM.)

I. (a) PLAINTIFFS

DEFENDANTS

Agudath Israel of America, Agudath Israel of Kew
Garden Hills, Agudath Israel of Madison, Agudath Israel
(b) County of Residence of First Listed Plaintiff New York

Andrew M. Cuomo, Governor of the State of New York, in
his official capacity
County of Residence of First Listed Defendant
Albany

(EXCEPT IN U.S. PLAINTIFF CASES)
NOTE:

(c) Attorneys (Firm Name, Address, and Telephone Number)
Avi Schick, 875 Third Avenue, New York NY 10022
(212) 704-6000
II. BASIS OF JURISDICTION (Place an “X” in One Box Only)
1

U.S. Government
Plaintiff

3

Federal Question
(U.S. Government Not a Party)

2

U.S. Government
Defendant

4

Diversity
(Indicate Citizenship of Parties in Item III)

(IN U.S. PLAINTIFF CASES ONLY)
IN LAND CONDEMNATION CASES, USE THE LOCATION OF
THE TRACT OF LAND INVOLVED.

Attorneys (If Known)

III. CITIZENSHIP OF PRINCIPAL PARTIES (Place an “X” in One Box for Plaintiff
(For Diversity Cases Only)
PTF
Citizen of This State
1

2

2

Incorporated and Principal Place
of Business In Another State

5

5

Citizen or Subject of a
Foreign Country

3

3

Foreign Nation

6

6

Click here for: Nature of Suit Code Descriptions.

TORTS

110 Insurance
120 Marine
130 Miller Act
140 Negotiable Instrument
150 Recovery of Overpayment
& Enforcement of Judgment
151 Medicare Act
152 Recovery of Defaulted
Student Loans
(Excludes Veterans)
153 Recovery of Overpayment
of Veteran’s Benefits
160 Stockholders’ Suits
190 Other Contract
195 Contract Product Liability
196 Franchise

REAL PROPERTY
210 Land Condemnation
220 Foreclosure
230 Rent Lease & Ejectment
240 Torts to Land
245 Tort Product Liability
290 All Other Real Property

PERSONAL INJURY
310 Airplane
315 Airplane Product
Liability
320 Assault, Libel &
Slander
330 Federal Employers’
Liability
340 Marine
345 Marine Product
Liability
350 Motor Vehicle
355 Motor Vehicle
Product Liability
360 Other Personal
Injury
362 Personal Injury Medical Malpractice
CIVIL RIGHTS
440 Other Civil Rights
441 Voting
442 Employment
443 Housing/
Accommodations
445 Amer. w/Disabilities Employment
446 Amer. w/Disabilities Other
448 Education

and One Box for Defendant)
PTF
DEF
Incorporated or Principal Place
4
4
of Business In This State

Citizen of Another State

IV. NATURE OF SUIT (Place an “X” in One Box Only)
CONTRACT

DEF
1

PERSONAL INJURY
365 Personal Injury Product Liability
367 Health Care/
Pharmaceutical
Personal Injury
Product Liability
368 Asbestos Personal
Injury Product
Liability
PERSONAL PROPERTY
370 Other Fraud
371 Truth in Lending
380 Other Personal
Property Damage
385 Property Damage
Product Liability
PRISONER PETITIONS
Habeas Corpus:
463 Alien Detainee
510 Motions to Vacate
Sentence
530 General
535 Death Penalty
Other:
540 Mandamus & Other
550 Civil Rights
555 Prison Condition
560 Civil Detainee Conditions of
Confinement

FORFEITURE/PENALTY

BANKRUPTCY

625 Drug Related Seizure
of Property 21 USC 881
690 Other

422 Appeal 28 USC 158
423 Withdrawal
28 USC 157

LABOR
710 Fair Labor Standards
Act
720 Labor/Management
Relations
740 Railway Labor Act
751 Family and Medical
Leave Act
790 Other Labor Litigation
791 Employee Retirement
Income Security Act

IMMIGRATION
462 Naturalization Application
465 Other Immigration
Actions

OTHER STATUTES

PROPERTY RIGHTS
820 Copyrights
830 Patent
835 Patent - Abbreviated
New Drug Application
840 Trademark
880 Defend Trade Secrets
Act of 2016
SOCIAL SECURITY
861 HIA (1395ff)
862 Black Lung (923)
863 DIWC/DIWW (405(g))
864 SSID Title XVI
865 RSI (405(g))
FEDERAL TAX SUITS
870 Taxes (U.S. Plaintiff
or Defendant)
871 IRS—Third Party
26 USC 7609

375 False Claims Act
376 Qui Tam (31 USC
3729(a))
400 State Reapportionment
410 Antitrust
430 Banks and Banking
450 Commerce
460 Deportation
470 Racketeer Influenced and
Corrupt Organizations
480 Consumer Credit
(15 USC 1681 or 1692)
485 Telephone Consumer
Protection Act
490 Cable/Sat TV
850 Securities/Commodities/
Exchange
890 Other Statutory Actions
891 Agricultural Acts
893 Environmental Matters
895 Freedom of Information
Act
896 Arbitration
899 Administrative Procedure
Act/Review or Appeal of
Agency Decision
950 Constitutionality of
State Statutes

V. ORIGIN (Place an “X” in One Box Only)
1 Original
Proceeding

2 Removed from
State Court

3

Remanded from
Appellate Court

4 Reinstated or
Reopened

5 Transferred from
Another District
(specify)

6 Multidistrict
Litigation Transfer
Cite the U.S. Civil Statute under which you are filing (Do not cite jurisdictional statutes unless diversity):

8 Multidistrict
Litigation Direct File

42 U.S.C. Section 1983

VI. CAUSE OF ACTION Brief description of cause:
Suit to declare unlawful and enjoin enforcement of executive orders

VII. REQUESTED IN
COMPLAINT:
VIII. RELATED CASE(S)
IF ANY
DATE

CHECK IF THIS IS A CLASS ACTION
UNDER RULE 23, F.R.Cv.P.

CHECK YES only if demanded in complaint:
Yes
No
JURY DEMAND:

DEMAND $

(See instructions):

JUDGE

DOCKET NUMBER

SIGNATURE OF ATTORNEY OF RECORD

/s/Avi Schick

October 8, 2020
FOR OFFICE USE ONLY
RECEIPT #

AMOUNT

APPLYING IFP

JUDGE

- App. 416 -

MAG. JUDGE

CERTIFICATION
Case 1:20-cv-04834
DocumentOF
1-1ARBITRATION
Filed 10/08/20 ELIGIBILITY
Page 2 of 2 PageID #: 23

Local Arbitration Rule 83.' provides that with certain exceptions, actions seeking money damages only in an amount not in excess of $150,000,
exclusive of interest and costs, are eligible for compulsory arbitration. The amount of damages is presumed to be below the threshold amount unless a
certification to the contrary is filed.
+-7/ 27 ,3212.3/ 056 *6.286-8254

Avi Schick
Plaintiffs
I, __________________________________________,
counsel for____________________________,
do hereby certify that the above captioned civil action is ineligible for
compulsory arbitration for the following reason(s):

monetary damages sought are in excess of $150,000, exclusive of interest and costs,
the complaint seeks injunctive relief,
the matter is otherwise ineligible for the following reason

DISCLOSURE STATEMENT - FEDERAL RULES CIVIL PROCEDURE 7.1
Identify any parent corporation and any publicly held corporation that owns 10% or more or its stocks:

No such parent corporation or publicly held corporation exists.

RELATED CASE STATEMENT (Section VIII on the Front of this Form)
Please list all cases that are arguably related pursuant to Division of Business Rule 50.3.1 in Section VIII on the front of this form. Rule 50.3.1 (a) provides that “A civil case is “related”
to another civil case for purposes of this guideline when, because of the similarity of facts and legal issues or because the cases arise from the same transactions or events, a
substantial saving of judicial resources is likely to result from assigning both cases to the same judge and magistrate judge.” Rule 50.3.1 (b) provides that “ A civil case shall not be
deemed “related” to another civil case merely because the civil case: (A) involves identical legal issues, or (B) involves the same parties.” Rule 50.3.1 (c) further provides that
“Presumptively, and subject to the power of a judge to determine otherwise pursuant to paragraph (d), civil cases shall not be deemed to be “related” unless both cases are still
pending before the court.”

NY-E DIVISION OF BUSINESS RULE 50.1(d)(2)
1.)

Is the civil action being filed in the Eastern District removed from a New York State Court located in Nassau or Suffolk
County?
Yes
No

2.)

If you answered “no” above:
a) Did the events or omissions giving rise to the claim or claims, or a substantial part thereof, occur in Nassau or Suffolk
County?
Yes
No
b) Did the events or omissions giving rise to the claim or claims, or a substantial part thereof, occur in the Eastern
District?
Yes
No
c) If this is a Fair Debt Collection Practice Act case, specify the County in which the offending communication was
received:______________________________.

If your answer to question 2 (b) is “No,” does the defendant (or a majority of the defendants, if there is more than one) reside in Nassau or
Suffolk County, or, in an interpleader action, does the claimant (or a majority of the claimants, if there is more than one) reside in Nassau or
$%'"""""""""""""""""""#&
Suffolk County?___________________________________
(Note: A corporation shall be considered a resident of the County in which it has the most significant contacts).

BAR ADMISSION
I am currently admitted in the Eastern District of New York and currently a member in good standing of the bar of this court.
Yes

No

Are you currently the subject of any disciplinary action (s) in this or any other state or federal court?
Yes

(If yes, please explain

No

I certify the accuracy of all information provided above.
/s/ Avi Schick
Signature: ____________________________________________________

- App. 417 (*01 )/+.-.,+' $$"%&"%#$&

Case 1:20-cv-04834 Document 1-2 Filed 10/08/20 Page 1 of 2 PageID #: 24
AO 440 (Rev. 06/12) Summons in a Civil Action

UNITED STATES DISTRICT COURT
for the

Eastern District
of of
New
York
__________
District
__________
Agudath Israel of America, Agudath Israel of Kew
Garden Hills, Agudath Israel of Madison, Agudath
Israel of Bayswater, Rabbi Yisroel Reisman, Rabbi
Menachem Feifer, and Steven Saphirstein
Plaintiff(s)

v.
Andrew M. Cuomo, Governor of the State of New
York, in his official capacity,
Defendant(s)

)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 1:20-cv-4834

SUMMONS IN A CIVIL ACTION
To: (Defendant’s name and address) The Honorable Andrew M. Cuomo
Governor of New York State
State Capital Building
Albany, New York 12224

A lawsuit has been filed against you.
Within 21 days after service of this summons on you (not counting the day you received it) — or 60 days if you
are the United States or a United States agency, or an officer or employee of the United States described in Fed. R. Civ.
P. 12 (a)(2) or (3) — you must serve on the plaintiff an answer to the attached complaint or a motion under Rule 12 of
the Federal Rules of Civil Procedure. The answer or motion must be served on the plaintiff or plaintiff’s attorney,
whose name and address are:
Avi Schick
Troutman Pepper Hamilton Sanders LLP
875 Third Avenue
New York, NY 10022
(212) 704-6000

If you fail to respond, judgment by default will be entered against you for the relief demanded in the complaint.
You also must file your answer or motion with the court.

&+/()$."%#",$)*'CLERK OF COURT

Date:
Signature of Clerk or Deputy Clerk

- App. 418 -

Case 1:20-cv-04834 Document 1-2 Filed 10/08/20 Page 2 of 2 PageID #: 25
AO 440 (Rev. 06/12) Summons in a Civil Action (Page 2)

Civil Action No. 1:20-cv-4834
PROOF OF SERVICE
(This section should not be filed with the court unless required by Fed. R. Civ. P. 4 (l))
This summons for (name of individual and title, if any)
was received by me on (date)

.

" I personally served the summons on the individual at (place)
on (date)

; or

" I left the summons at the individual’s residence or usual place of abode with (name)
, a person of suitable age and discretion who resides there,
on (date)

, and mailed a copy to the individual’s last known address; or

" I served the summons on (name of individual)

, who is

designated by law to accept service of process on behalf of (name of organization)
on (date)

; or

" I returned the summons unexecuted because

; or

" Other (specify):
.
My fees are $

for travel and $

for services, for a total of $

0.00

I declare under penalty of perjury that this information is true.

Date:
Server’s signature

Printed name and title

Server’s address

Additional information regarding attempted service, etc:

- App. 419 -

.

Case 1:20-cv-04834-KAM-RML Document 2 Filed 10/08/20 Page 1 of 5 PageID #: 26

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF
KEW GARDEN HILLS, AGUDATH ISRAEL OF MADISON,
AGUDATH ISRAEL OF BAYSWATER, RABBI YISROEL
REISMAN, RABBI MENACHEM FEIFER, STEVEN
SAPHIRSTEIN,

1:20-cv-04834
Civil Action No._____________

Plaintiffs,
vs.
ANDREW M. CUOMO, Governor of the State of New York, in
his official capacity,
Defendant.

PLAINTIFFS’ MOTION FOR A TEMPORARY RESTRAINING ORDER
AND A PRELIMINARY INJUNCTION
Plaintiffs, by and through their undersigned counsel Troutman Pepper Hamilton
Sanders LLP, respectfully request that this Court enter a temporary restraining order and
preliminary injunction pursuant to Fed. R. Civ. P 65 against Defendant Governor Andrew M.
Cuomo, and all those acting in concert with him, from restricting gathering at houses of worship
pursuant to the restrictions set forth in New York Executive Order No. 202.68. The grounds for
emergency relief are summarized as follows:
1.

Plaintiff Agudath Israel of America, founded in 1922, is a national grassroots

Orthodox Jewish organization. Among its other functions and activities, Agudath Israel articulates
and advances the position of the Orthodox Jewish community on a broad range of legal issues
affecting religious rights and liberties in the United States. Agudath Israel has a large number of
Agudath-Israel affiliated synagogues throughout the country, with close to 70 in New York State.

- App. 420 -

Case 1:20-cv-04834-KAM-RML Document 2 Filed 10/08/20 Page 2 of 5 PageID #: 27

2.

Plaintiff Agudath Israel of Kew Garden Hills is an Orthodox Jewish Synagogue

located in New York. Agudath Israel of Kew Garden Hills holds worship services, which are
conducted every day, and serves more than 150 men and women each week. Agudath Israel of
Kew Garden Hills is located in a geographic area affected by Defendant’s gathering restrictions
on houses of worship.
3.

Plaintiff Agudath Israel of Madison is an Orthodox Jewish Synagogue located in

New York. Agudath Israel of Madison holds worship services, which are conducted every day,
and serves more than 300 men and women each week. Agudath Israel of Madison is located in a
geographic area affected by Defendant’s gathering restrictions on houses of worship.
4.

Plaintiff Agudath Israel of Bayswater is an Orthodox Jewish Synagogue located in

New York. Agudath Israel of Bayswater holds worship services, which are conducted every day,
and serves more than 150 men and women each week. Agudath Israel of Bayswater is located in
a geographic area affected by Defendant’s gathering restrictions on houses of worship.
5.

Plaintiff Rabbi Yisroel Reisman serves as the Rabbi of Agudath Israel of Madison.

6.

Plaintiff Rabbi Menachem Feifer serves as the Rabbi of Agudath Israel of

Bayswater.
7.

Plaintiff Steven Saphirstein serves as the Secretary of Agudath Israel of Kew

Garden Hills.
8.

On October 6, 2020, Defendant introduced issued an Executive Order that imposed

selective and discriminatory restrictions on gathering at houses of worship. Executive Order No.
202.68 requires enforcement of the restrictions “no later than Friday, October 9, 2020[.]”
9.

As set forth in the accompanying Memorandum of Law, Declarations, and Exhibits,

Defendant’s restrictions set forth in Executive Order No. 202.68 imposing gathering limitations at

2

- App. 421 -

Case 1:20-cv-04834-KAM-RML Document 2 Filed 10/08/20 Page 3 of 5 PageID #: 28

houses of worship violate Plaintiffs’ free exercise of religion by preventing Plaintiffs from
conducting services for all of their congregants at the existing COVID-19 occupancy capacities.
10.

Plaintiffs simply request that Defendant not target houses of worship, with their

essential religious elements protected by the First Amendment to the United States Constitution,
for discriminatory treatment as compared to secular activities, which Defendant has permitted to
operate under more favorable limitations provided that they adhere to health and safety protocols
similar to those that Plaintiffs’ houses of worship have and will continue to implement.
11.

Plaintiffs will suffer irreparable harm in the absence of a temporary restraining

order and preliminary injunction, as the closure of houses of worship would require Plaintiffs to
sacrifice the provision of constitutionally-protected religious practice. This is particularly true
given the timing of Defendant’s restrictions, which require enforcement of the restrictions on the
beginning of the Jewish holidays observed on October 9–11, 2020, known as Hoshana Rabbah,
Shmini Atzeres, and Simchas Torah, respectively. The balance of the hardships tips strongly in
Plaintiffs’ favor, as Plaintiffs have guarded against the spread of COVID-19 by implementing strict
health and safety protocols and have been fully compliant with all State and local mandates since
the onset of the pandemic. Finally, injunctive relief would serve the public interest in securing the
right to the free exercise of religion.
12.

In support of this Motion, Plaintiffs rely on the accompanying Memorandum of

Law, the Declarations of Rabbi Yisroel Reisman, Rabbi Menachem Feifer, Avrohom Weinstock,
Aharon Weisenfeld, Steven Saphirstein, and Avi Schick, and the Exhibits attached thereto.

3

- App. 422 -

Case 1:20-cv-04834-KAM-RML Document 2 Filed 10/08/20 Page 4 of 5 PageID #: 29

WHEREFORE, Plaintiffs request:
(a) that a temporary restraining order be issued by this Court enjoining Defendant, and all
those acting in concert with him, from enforcing New York Executive Order No. 202.68 to restrict
gathering at houses of worship, and that such relief be granted on or before October 9, 2020 so
that synagogues and worshippers can engage in religious wordship and practices.

This is

particularly urgent given that the new restrictions are set to commence during the Jewish holidays
observed from October 9–11, 2020, during which congregants observe the holidays primarily in
the synagogue, engaging in special religious practices and rituals;
(b) in the alternative, a preliminary injunction hearing on an expedited basis;
(c) such other relief as this Court deems proper.
Plaintiffs request that the Court waive bond or require only a nominal bond.

4

- App. 423 -

Case 1:20-cv-04834-KAM-RML Document 2 Filed 10/08/20 Page 5 of 5 PageID #: 30

This 8th day of October, 2020.

Is/ A vi Schick
A vi Schick
avi.schick@troutman.com
TROUTMAN PEPPER HAMILTON SANDERS LLP

875 Third Avenue
New York, NY 10022
(212) 704-6000
Misha Tseytlin (NY Bar No. 4642609)
misha. tseytlin@tro utman. com
*Pro Hac Vice Application Forthcoming
W. Alex Smith (Ga. Bar No. 532647)
alex.smith@troutman.com
*Pro Hac Vice Application Fmthcoming
Sean T.H. Dutton (IL Bar No. 6319132)
sean.dutton@troutman.com
*Pro Hac Vice Application Forthcoming
Kevin M. LeRoy (WI Bar No. 11 05053)
kevin.leroy@troutman.com
*Pro Hac Vice Application Forthcoming

Attorneys for Plaintiffs

5

- App. 424 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 1 of 24 PageID #: 363

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

AGUDATH ISRAEL OF AMERICA, AGUDATH
ISRAEL OF KEW GARDEN HILLS, AGUDATH
ISRAEL OF MADISON, AGUDATH ISRAEL OF
BAYSWATER, RABBI YISROEL REISMAN, RABBI
MENACHEM FEIFER, STEVEN SAPHIRSTEIN,

DECLARATION
Civil No. 20-cv-04834

Plaintiffs,
vs.
ANDREW M. CUOMO, Governor of the State of New
York, in his official capacity,
Defendant.

Howard A. Zucker, M.D., J.D., on the date noted below and pursuant to § 1746 of title 28
of the United States Code, declares the following to be true and correct under penalty of perjury
under the laws of the United States of America:
Background and Qualifications
1)

I am the Commissioner of the New York State Department of Health

(“Department”). I make this declaration in my capacity as the Commissioner after consultation
with Department program staff directing the initiatives detailed below. I respectfully submit this
declaration in order to place before the Court certain testimony and documents relevant to the relief
requested. I am familiar with the matters set forth herein, either from professional knowledge,
conversations with Department staff, or on the basis of documents that have been provided to and
reviewed by me. I have been asked to assist New York State in its response to the COVID-19

1

- App. 425 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 2 of 24 PageID #: 364

public health emergency. I have attended meetings of the Governor’s COVID-19 Response and
Recovery Task Force (the “COVID-19 Task Force”).
2)

I have extensive knowledge of pediatric medicine and care and am aware of many

family health issues. I am board-certified in six specialties/subspecialties and trained in pediatrics
at Johns Hopkins Hospital, anesthesiology at the Hospital of the University of Pennsylvania,
pediatric critical care medicine/pediatric anesthesiology at The Children’s Hospital of
Philadelphia, and pediatric cardiology at Children’s Hospital Boston/Harvard Medical School. I
was a professor of clinical anesthesiology at Albert Einstein College of Medicine of Yeshiva
University and pediatric cardiac anesthesiologist at Montefiore Medical Center in the Bronx. I
also served as associate professor of clinical pediatrics and anesthesiology at Columbia University
College of Physicians & Surgeons and pediatric director of the ICU at New York Presbyterian
Hospital. I am a former Columbia University Pediatrics Teacher of the Year.
3)

As Commissioner of the Department, I must “take cognizance of the interests of

health and life of the people of the state, and of all matters pertaining thereto and exercise the
functions, powers and duties of the department prescribed by law.” Public Health Law (“PHL”)
§206(1)(a).
4)

I preside over the State’s Office of Public Health, which includes epidemiology,

the Medicaid program, the New York State Public Health and Health Planning Council, and the
Wadsworth Center, New York’s premier public health lab, as well as the entire health care
workforce, and health care facilities.
5)

In the last five months, I have been personally involved in the development and

implementation of what is known as the “New York State on PAUSE” initiative—restrictions
2

- App. 426 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 3 of 24 PageID #: 365

implemented through a series of executive orders and associated guidance designed to stop the
transmission of the novel coronavirus (COVID-19)—and I am also familiar with the detailed plan
that the State adopted to allow the safe reopening of each New York industry, including all
gatherings. I am familiar with the facts set forth herein based upon personal knowledge,
discussions with Department staff, and Department records. This declaration has also been
informed by other declarations I and my colleagues have drafted to oppose challenges to State
regulations and guidance issued to respond to the COVID-19 pandemic. See Exhs. EE and FF.
6)

I make this declaration in support of Defendant’s Opposition to Plaintiffs’ Motion

for a Temporary Restraining Order and Preliminary Injunction.
COVID-19
7)

On January 7, 2020, following an outbreak of pneumonia of unknown etiology in

China’s Wuhan Province, Chinese authorities identified a novel coronavirus—COVID-19. Its
spread around the world has been well documented. Exh. A.
8)

COVID-19 is a highly infectious and potentially deadly respiratory disease caused

by a novel coronavirus that spreads easily from person-to-person. Exh. B.
9)

Because there is no pre-existing immunity against this new virus, it has spread

worldwide in an exceptionally short period of time, posing a “serious public health risk.” Id.
10)

On January 31, 2020, the World Health Organization (“WHO”) declared a “public

health emergency of international concern.” Exh. C.
11)

Less than two months later, on March 11, 2020, the World Health Organization

declared COVID-19 a global pandemic. Exh. D

3

- App. 427 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 4 of 24 PageID #: 366

12)

On March 13, 2020, the President of the United States declared a national

emergency. Exh. E.
13)

“Transmission of SARS-CoV-2 can occur through direct, indirect, or close contact

with infected people through infected secretions such as saliva and respiratory secretions or their
respiratory droplets, which are expelled when an infected person coughs, sneezes, talks or sings.”
Exh. F.

“WHO, together with the scientific community, has been actively discussing and

evaluating whether SARS-CoV-2 may also spread through aerosols in the absence of aerosol
generating procedures, particularly in indoor settings with poor ventilation.” Id. “Current evidence
suggests that SARS-CoV-2 may remain viable for hours to days on surfaces made from a variety
of materials.” Exh. G.
14)

COVID-19 has an incubation period of up to fourteen days. Exh. F. Social

distancing is one of the most effective means of limiting transmission of COVID-19. Id.
15)

The CDC has thus issued guidance recommending that people comply with social

distancing measures in order to prevent the spread of COVID-19. According to the CDC,
“[l]imiting face-to-face contact with others is the best way to reduce the spread” of COVID-19.
Exh. H.
16)

In order to limit exposure to COVID-19 and slow its spread, the CDC recommends

keeping “at least six feet away from other people” and limiting “close contact with others outside
your household in indoor and outdoor spaces” including avoiding groups and crowded places. Id.
Social distancing “is one of the best tools we have to avoid being exposed to this virus and slowing
its spread locally and across the country and world” because it “helps limit contact with infected
people and contaminated surfaces.” Id.
4

- App. 428 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 5 of 24 PageID #: 367

17)

The rapid spread of COVID-19 in New York, in the United States, and worldwide,

presented and continues to present a grave threat to New Yorkers and to New York’s health care
system. However, by taking strong action to ensure social distancing as well as other important
measures, New York has mitigated that threat. To avoid a devastating resurgence of COVID-19,
responsible parties, business owners, and the public must continue to adhere to the Executive
Orders and guidance.
18)

At the end of September, we crossed the grim milestone of more than 1,000,000

deaths worldwide. As of October 8, 2020, 1,060,370 people have died worldwide1; 211,132 people
have died of COVID-19 in the United States of COVID-192; and 25,555 have died in the State of
New York of COVID-193.
COVID-19 Surges in New York
19)

New York recorded its first cases of COVID-19 on March 1, 2020, in New York

City and on March 2, 2020, in Westchester County.
20)

On March 7, 2020, Governor Cuomo declared a State of Emergency. See Executive

Order 202, Exh. I4, available at https://www.governor.ny.gov/news/no-202-declaring-disasteremergency-state-new-york. As of March 7, 2020, 60 people had tested positive for COVID-19 in
the State of New York. See Fn. 3. Cases in the United States totaled 275. See Fn. 2. Cases

1

Johns Hopkins Coronavirus Resource Center COVID-19 Dashboard: https://coronavirus.jhu.edu/map.html; see
also WHO Coronavirus Disease (COVID-19) Dashboard found at https://covid19.who.int/ (last viewed October 8,
2020).
2
CDC Covid Tracker found at https://www.cdc.gov/covid-data-tracker/index.html#cases (last viewed October 8,
2020).
3
NYSDOH COVID-19 Tracker found at https://covid19tracker.health.ny.gov/views/NYS-COVID19Tracker/NYSDOHCOVID-19Tracker-DailyTracker?%3Aembed=yes&%3Atoolbar=no&%3Atabs=n#/views (last
viewed October 8, 2020).
4
All of Governor Cuomo’s Executive Orders can be found at https://www.governor.ny.gov/executiveorders.

5

- App. 429 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 6 of 24 PageID #: 368

worldwide totaled 179,111, with 7,426 deaths reported. See Fn. 1.
21)

By March 20, 2020, the number of individuals testing positive for COVID-19 in

New York approached 10,000, and deaths exceeded 150. See Fn. 3.
22)

By April 20, 2020, over 267,000 individuals had tested positive for COVID-19, and

over 13,000 people had died from COVID-19 in New York State. See Fn. 3. See also,
https://www.syracuse.com/coronavirus/2020/06/where-is-coronavirus-in-ny-see-map-charts-ofcovid-19-cases-deaths-hospitalizations-sunday-june-14.html (includes similar charts with trends
over time).
23)

These events placed significant strain on New York State’s healthcare system. For

example, as the virus spread, New York faced a shortage of hospital beds, ventilators, and personal
protective equipment such as masks and gloves.
24)

As a result, alternate care sites were set up, including at the Javits Center in New

York City. The United States Navy sent the U.S.N.S. Comfort, a Mercy-class hospital ship, to New
York to assist with medical care.
25)

Funeral homes were also overwhelmed, resulting in the use of mass graves to bury

the dead.
26)

At the worst stage of the pandemic, New York State had more coronavirus cases

than any single country in the world.
27)

Among other measures aimed at flattening the curve, slowing the spread of

COVID-19, and preventing the health care system from becoming overburdened, Governor
Cuomo issued multiple Executive Orders restricting gatherings.
28)

On March 16, 2020, gatherings in excess of 50 people were prohibited. On6

- App. 430 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 7 of 24 PageID #: 369

premises service of food and beverages in all bars and restaurants were indefinitely suspended and
gambling establishments, gyms, and movie theaters were indefinitely closed. Exh. J, Executive
Order 202.3. All non-essential state and local workers to stay home, “except for those personnel
essential to the . . . response to the COVID-19 emergency.” Exh. K, Executive Order 202.4. All
schools were closed. Id.
29)

On March 18, 2020, all malls and places of public amusement closed. Exh. L,

Executive Order 202.5.

New York State on PAUSE
30)

On March 20, 2020, the governor announced the New York State on PAUSE

initiative.
31)

The 10-point New York State on PAUSE plan is as follows:
•

All non-essential businesses statewide closed, effective March 22, 2020, at 8pm;

•

Non-essential gatherings of individuals of any size for any reason (e.g., parties,
celebrations or other social events) are canceled or postponed at this time;

•

Any concentration of individuals outside their home must be limited to workers
providing essential services and social distancing should be practiced;

•

When in public, individuals must practice social distancing of at least six feet from
others;

•

Businesses and entities that provide other essential services must implement rules
that help facilitate social distancing of at least six feet;

•

Individuals should limit outdoor recreational activities to non-contact and avoid
activities where they come in close contact with other people;

•

Individuals should limit use of public transportation to when absolutely necessary
and should limit potential exposure by spacing out at least six feet from other
7

- App. 431 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 8 of 24 PageID #: 370

riders;

32)

•

Sick individuals should not leave their home unless to receive medical care and
only after a telehealth visit to determine if leaving the home is in the best interest
of their health;

•

Young people should also practice social distancing and avoid contact with
vulnerable populations; and

•

Use precautionary sanitizer practices such as using isopropyl alcohol wipes.
Among the more important measures the Governor adopted as part of the New

York on PAUSE initiative were restrictions on non-essential gatherings.
33)

On March 23, 2020, the Governor issued Executive Order 202.10, which banned

“[n]on-essential gatherings of any size for any reason.” Exh. M.
34)

That restriction remained in place until May 21, 2020, when the Governor issued

Executive Order 202.32 to permit non-essential outdoor gatherings of up to ten individuals for
religious services or Memorial Day service or commemoration, provided the participants follow
the social distancing and cleaning and disinfection protocols established by the Department. Exh.
N.
35)

The following day, May 22, 2020, the Governor issued Executive Order 202.33,

which further modified the ban to permit non-essential outdoor gatherings of up to ten
individuals for any lawful purpose or reason, provided the participants follow the social
distancing and cleaning and disinfection protocols established by the Department. Exh. O.
36)

On June 15, 2020, the Governor issued Executive Order 202.42, which extended

Executive Order 202.33 until July 15, 2020, and further modified the restriction to permit nonessential outdoor gatherings of up to twenty-five individuals for any purpose or reason, provided
8

- App. 432 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 9 of 24 PageID #: 371

the gathering was in a region that had reached Phase Three of the re-opening plan and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. Exh. P.
37)

On June 15, 2020, the Governor issued Executive Order 202.45, which permits

non-essential gatherings of up to 50 individuals for any purpose or reason, provided the
gathering was in a region that had reached fourth phase of the re-opening plan, and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. Exh. Q.
APRIL, MAY, and JUNE 2020—New York Appears to Flatten the Curve
38)

Before the New York State on PAUSE initiative, the daily increase in the number

of positive COVID-19 tests had been rising quickly. On March 19, the number of positive tests
increased nearly 70%, from, 1,769 to 2,950. For the remainder of March and early April, the
number of positive tests increased at an average rate of approximately 20% per day. On April 9,
2020, alone, over 10,000 people tested positive for COVID-19. Since April 9, 2020, the number
of positive tests per day has declined steadily. On May 28, 2020, over 1,551 people tested positive
for COVID-19. On June 29, 2020, 46,428 people were tested and only 319 tested positive—a
positivity rate below .7 %.5
New York Forward
39)

When New York transitioned from New York State on PAUSE to New York

Forward, four phases were created to guide non-essential businesses and offices, as well as the

5

Found at https://covid19tracker.health.ny.gov/views/NYS-COVID19-Tracker/NYSDOHCOVID-19TrackerDailyTracker?%3Aembed=yes&%3Atoolbar=no&%3Atabs=n (last viewed October 8, 2020).

9

- App. 433 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 10 of 24 PageID #: 372

essential businesses that remained open, on how to reopen.

See https://forward.ny.gov/ny-

forward.
40)

Due to the success of the people of the State of New York at flattening the curve,

all regions are in Phase Four. See https://forward.ny.gov/.
41)

Providing transmission and infection rates remain stable, restrictions can be relaxed

allowing for larger gatherings.
42)

By following the guidelines and requirements, such as social distancing and

wearing masks, New York has successfully reduced the spread of the virus. As testing throughout
the

state

has

increased,

the

number

of

positive

cases

has

decreased.

See

https://forward.ny.gov/percentage-positive-results-region-dashboard. On August 2, 2020, the
downward trend of positive cases continued as 51,839 individuals were tested and 545 of those
tested positive. Id.
43)

The transmission rate, also known as the reproduction rate—which measures the

number of individuals infected on average by an infected individual—was at 3.59 on February 24,
2020. The rate was as low as .67 on April 17, 2020. The rate remained consistent between .67 and
.73 until May when the NY Forward transition began. Since reopening the rate has remained low
but has begun inching up as the state progresses through the phases of reopening. On October 8,
2020, the transmission rate was 1.13%, slightly above the critical 1.0, which warrants close
monitoring. See https://rt.live/.

10

- App. 434 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 11 of 24 PageID #: 373

The Pandemic Continues to Present a Grave Threat to the Health and Safety
of the People of the State of New York
44)

Despite the gains that New York has made, the pandemic is not over as numbers

have continued to increase. On July 29, 2020, WHO reported 16,558,289 individuals confirmed
positive for COVID-19, and 656,093 confirmed COVID 19 deaths worldwide.6 On July 29, 2020,
the CDC reported that 4,339,997 individuals in the United States had tested positive for COVID19, and 148,866 had died of COVID-19.7
45)

Indeed, during the week of July 18 through July 24, the United States reported the

highest seven-day average of new COVID-19 cases with the highest number of new cases reported
in a single day on July 24, 2020 – 74,818. Id.
46)

COVID-19 cases and deaths continue to grow globally. On October 8, 2020, Johns

Hopkins reported a total 36,423,659 individuals confirmed positive for COVID-19, and 1,060,370
confirmed COVID-19 deaths worldwide. See Fn. 1.
47)

A second wave of the COVID-19 pandemic is currently sweeping United States.

On September 29, 2020, the CDC reported that 7,095,422 individuals in the United States had
tested positive for COVID-19, and 204,328 had died of COVID-19. See Fn. 8.
48)

In an effort to sustain the gains attributable to the PAUSE initiative, the Governor,

on June 24, issued Executive Order 205, “Quarantine Restrictions on Travelers Arriving in New
York.” Exh. R. The Order requires all travelers entering New York from a state with a positive
test rate higher than 10 per 100,000 residents, or higher than a 10% test positivity rate, over a

6
7

Found at https://covid19.who.int/ (last viewed September 25, 2020).
Found at https://www.cdc.gov/covid-data-tracker/index.html#trends (last viewed October 8, 2020).

11

- App. 435 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 12 of 24 PageID #: 374

seven-day rolling average, to quarantine for a period of 14 days consistent with Department of
Health regulations for quarantine. See also https://coronavirus.health.ny.gov/covid-19-traveladvisory.
49)

As of October 6, 2020, 33 states and two territories had a positivity rate of over

10%, or positive test rate higher than 10 per 100,000 residents, over a seven-day rolling average,
including Alabama, Alaska, Arkansas, Colorado, Delaware, Florida, Georgia, Guam, Idaho,
Illinois, Indiana, Iowa, Kansas, Kentucky, Louisiana, Minnesota, Mississippi, Missouri, Montana,
Nebraska, Nevada, New Mexico, North Carolina, North Dakota, Oklahoma, South Carolina, South
Dakota, Tennessee, Texas, Utah, West Virginia, Wisconsin, and Wyoming. See id., COVID-19
Travel Advisory, available at https://coronavirus.health.ny.gov/covid-19-travel-advisory.
50)

Executive Order 205 gives discretion to the Commissioner of the Department of

Health to issue additional protocols for essential workers, or for other extraordinary
circumstances, when a quarantine is not possible, provided such measures continue to safeguard
the public health. See Exh. R.
51)

On June 24, 2020, the Office of the Commissioner for the New York State

Department issued the “Interim Guidance for Quarantine Restrictions on Travelers Arriving in
New York State Following Out of State Travel.” See NYS Interim Guidance for Quarantine
Restrictions on Travelers Arriving in New York State Following Out of State Travel, available at
https://coronavirus.health.ny.gov/covid-19-travel-advisory.
52)

All individuals traveling to New York from any of the restricted states must

complete the form upon entering New York. Travelers coming to New York from designated
states through means of transport, including trains and cars, must fill out the form online. Id.
12

- App. 436 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 13 of 24 PageID #: 375

Risks for Non-essential Business and Indoor Gatherings
53)

Restrictions on the operation of non-essential businesses and indoor gatherings

are necessary to ensure sufficient space for proper distancing, thereby reducing potential
transmission rates.
54)

The four phases were intended to have gradually increasing gathering sizes and

decreasing occupancy restrictions, with Phase One having the most restrictions and Phase Four
having the least.
55)

The phases allowed monitoring for, and to quickly identify, any increase in virus

transmission in a particular community that may have occurred as a result of moving to a new, less
restrictive phase. This is necessary to ensure that virus transmission in a community is stable before
continuing on to the next phase.
56)

Providing transmission rates remained stable during each transition, restrictions on

less risky activities were relaxed allowing for larger gatherings in each subsequent phase. This can
be seen with respect to guidance for restaurants. For a region in Phase One, restaurants are
permitted to be open for takeout and delivery service only, with no indoor or outdoor dining
allowed. For a region in Phase Two, restaurants are permitted to expand their services to include
outdoor dining only, limited to a maximum of ten individuals per table. For a region in Phase Three,
restaurants added indoor dining with capacity limited to no more than 50% of the maximum
occupancy.
57)

The directive in Executive Order 202.48, which modified the directive contained

in Executive Order 202.41, that prohibited indoor food services and dining as part of Phase
Three in New York City, has been modified by EO 202.61 to allow indoor food services and
13

- App. 437 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 14 of 24 PageID #: 376

dining in New York City beginning September 30, 2020, so long as the Department’s, and any
other applicable State-issued guidance, is strictly adhered to. Exh. S.
58)

The restrictions in the Executive Orders and guidance are developed in consultation

and cooperation with medical staff in the Department with the goal of reducing the opportunity for
the virus to spread.
59)

The limits and restrictions lessen and evolve as the curve continues to flatten

through the continuing practice of these social distancing and hygiene and disinfecting guidelines.
The numbers of new infections, hospitalizations, and deaths continue to decline in areas where
these guidelines are followed, which shows why adherence to these practices is so crucial to
safeguarding public health.
60)

Conversely, the limits and restrictions will increase, similar to the earlier phases, if

a review of the data indicates a trend of increasing COVID-19 cases or spikes of cases in cluster
areas.
61)

The Governor and the Department of Health are constantly monitoring transmission

and infection rates. See COVID-19 Early Warning Monitoring System Dashboard8.
62)

Again, large gatherings present the greatest risk for rapid and widespread

transmission of the virus in a community given the nature of having many people in a single
enclosed space. For this reason, non-essential outdoor gatherings, excluding religious activity, were
limited to a maximum of 50 people for regions in Phase Four.

8

Found at https://forward.ny.gov/early-warning-monitoring-dashboard (last viewed September 29, 2020).

14

- App. 438 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 15 of 24 PageID #: 377

Large and Super-Spreader Gatherings
63)

Gatherings, both indoor and outdoor, pose a significant risk of becoming super-

spreader events. For example, “[a]s scientists have learned more about COVID-19, it has become
clear that so-called superspreader incidents—in which one person infects a disproportionate
number of other individuals—have played an oversized role in the transmission of the virus that
causes the disease.” Exh T.
64)

“The more individuals you pile into one place, the greater the opportunity for the

coronavirus to infect many people at once…. If you max out at five people, it will be very hard
to have a superspreading event…. But as a group’s size increases, so does the risk of transmitting
the virus to a wider cluster. A large group size also increases the chance that someone present
will be infectious.” Id.
65)

It is critically important to control the size of gatherings, both indoor and outdoor,

since “as a group’s size increases, so does the risk of transmitting the virus to a wider cluster. A
large group size also increases the chance that someone present will be infectious.” Id.
66)

A research team “found that superspreading events tended to happen in indoor

spaces, with people in close proximity. Social occasions led to more clusters than exposure in the
workplace or home – mass transmissions occurred at weddings, temples, bars and karaoke
parties, for instance. The risk seems to be higher if people are raising their voices in some way,
such as singing or shouting.” Exh. U.
67)

The Department tracks clusters throughout the State and data indicates that social

gatherings followed by restaurants/bars present the highest levels of clusters – 46 and 30 from
New York State, excluding New York City, respectively from June 16, 2020 to September 28,
15

- App. 439 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 16 of 24 PageID #: 378

2020. Within each separate cluster are many individual cases of COVID-19.
68)

As CDC stated in guidance released on Friday June 12, 2020: The more people an

individual interacts with at a gathering and the longer that interaction lasts, the higher the potential
risk of becoming infected with COVID-19 and COVID-19 spreading. Exh. V.
69)

Gatherings provide an ideal platform for the efficient transmission of COVID-19

to multiple people at once. Those individuals who contract COVID-19 at a gathering may
themselves become super-spreaders if they attend further gatherings while they are
asymptomatic. Exh W.
70)

A super-spreader, usually identified in retrospect, has a greater than average

propensity to infect a larger number of people and it is thought that “10% of the [COVID-19]
cases may be responsible for 80% of the transmission”. Id.
71)

“[A]ny large gathering or movement of groups or individuals can constitute

super-spreading.” Id.
72)

The idea of “super-spreaders” or super-spreading events is not new to COVID-19.

“[S]uper-spreading was thought to be a driver of MERS, SARS and, to a lesser extent, Ebola.”
Id.
73)

Large social gatherings were only permitted if 10 or fewer people were in

attendance during Phase One, 25 or fewer people attending during Phases Two and Three, and
now if 50 or fewer people attend a social gathering during Phase Four. See
https://coronavirus.health.ny.gov/travel-large-gatherings-and-quarantines. During a large social
gathering, “[i]ndividuals must wear face coverings when they are in a public and are: within six
feet of distance from other individuals; or in a situation or setting where they are unable to
16

- App. 440 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 17 of 24 PageID #: 379

maintain six feet of distance from other individuals….” Id.
74)

While attending a service, “[a] distance of at least 6 ft. must be maintained

amongst all individuals at all times, unless safety or the core activity requires a shorter distance
(e.g. pallbearing) or the individuals are members of the same household. However, any singing
activity must provide for a distance between individuals of 12 ft., subject to additional protective
measures.” Exh X.
75)

Attendees are prohibited from “holding or shaking hands of members in different

households during services or prayers.” Id.
76)

Attendees must also “[l]imit activities involving singing (e.g. choir, soloist,

cantor, musical ensemble), unless 12 ft. of separation can be provided between individuals or
additional distancing or physical barriers can reduce transmission of respiratory droplets.” Id.
77)

The CDC provides recommendations “to help communities of faith discern how

best to practice their beliefs while keeping their staff and congregations safe.” Exh. Y.
78)

It is important for these communities to promote social distancing and “[t]ake

steps to limit the size of gatherings in accordance with the guidance and directives of state
and local authorities and subject to the protections of the First Amendment and any other
applicable federal law.” Id. [Emphasis added.]
79)

It is important to consider the intention behind the guidance and the activities that

take place during normal business operations. Here, restaurants are not appropriate comparators
to religious services and therefore they should be treated differently. For example, when going
to a restaurant for a meal, the expectation during normal business operations is that small parties
(a maximum of 10 individuals per table) are there to eat their meal and leave, not to mix and
17

- App. 441 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 18 of 24 PageID #: 380

mingle with other patrons at the restaurant for hours. Patrons generally arrive with their group
and do not coordinate arrivals for the same time.
80)

In a religious service or ceremony, the idea is a group of people coming together

as a community to interact and pray together, as stated in ¶ 67 of the Complaint. Generally, the
congregants are arriving and leaving at the same time and are together over an extended period
of time. This type of close interaction, while having deep meaning for the congregants, poses a
higher risk of transmission of the virus. See Compl. ¶¶ 60-67.
81)
Since the beginning of September, the Department has seen the number of
clusters spike in a few areas around the state:
• Broome County (One Area, Yellow)
• Brooklyn (One Area, Red, Orange and Yellow)
• Orange County (One Area, Red and Yellow)
• Queens (Two Areas, Red, Orange and Yellow)
• Rockland County (One Area, Red and Yellow)
Exh. Z. See also Fn. 9 and Fn. 3.
82)

The data and report from the New York City Department of Health indicated that

immediate action was required to contain the virus and prevent a super-spreader event. A status
report submitted in the Soos case clearly summarizes the urgency in each of the cluster areas as
positivity rates spiked. Exh. AA. _For example, while most of New York City has a rate of
positive tests around 1%, the red zone area had a positivity rate of approximately 8% which is
alarming. Id.
83)

According to the CDC, “A high percent positivity means that SARS-CoV-2, the

virus that causes COVID-19, transmission is elevated in the jurisdiction and community
mitigation measures are warranted to reduce transmission. A high percent positivity means there
is a high rate of SARS-CoV-2 infections due to extensive transmission of the virus in the
18

- App. 442 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 19 of 24 PageID #: 381

geographic area.” Exh. BB.
84)

The CDC also provides guidance for community mitigation when there is a high

positivity rate in an area. Exh. CC. “The goal of community mitigation in areas with local
COVID-19 transmission is to slow its spread and to protect all individuals, especially those
at increased risk for severe illness, while minimizing the negative impacts of these strategies.”
Id.
85)

The CDC describes layers of mitigation and levels of mitigation needed based on

the levels of transmission, which is what is being done through the creation of the three zones
described below. See id., Table 1.
86)

On October 6, 2020, the Governor announced a new Cluster Action Initiative to

deal with the hotspots found in Brooklyn and Queens, as well as Broome, Orange, and Rockland
Counties.9 The purpose is to “develop[ ] a science-based approach to attack these clusters and
stop any further spread of the virus, including new rules and restrictions directly targeted to areas
with the highest concentration of COVID cases and the surrounding communities. The new rules
will be in effect for a minimum of 14 days.” See Exh Z.
87)

EO 202.68 was issued to address these hotspots and created three zones with the

level of restriction thee highest in red, and lower in yellow. Exh. DD.
88)

In the most severely impacted area, the “red zone”,
Non-essential gatherings of any size shall be postponed or
cancelled; all non-essential businesses, as determined by the Empire
State Development Corporation based upon published guidance,
shall reduce in-person workforce by 100%; houses of worship shall

9

Cluster Action Initiative found at https://www.governor.ny.gov/news/governor-cuomo-announces-new-clusteraction-initiative (last visited October 8, 2020).

19

- App. 443 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 20 of 24 PageID #: 382

be subject to a capacity limit of 25% of maximum occupancy or 10
people, whichever is fewer; any restaurant or tavern shall cease
serving patrons food or beverage on-premises and may be open for
takeout or delivery only; and the local Department of Health shall
direct closure of all schools for in-person instruction, except as
otherwise provided in Executive Order.
Id.
89)

The “orange zone” is a moderately severe location and
Non-essential gatherings shall be limited to 10 people; certain nonessential businesses, for which there is a higher risk associated with
the transmission of the COVID-19 virus, including gyms, fitness
centers or classes, barbers, hair salons, spas, tattoo or piercing
parlors, nail technicians and nail salons, cosmetologists,
estheticians, the provision of laser hair removal and electrolysis, and
all other personal care services shall reduce in-person workforce by
100%; houses of worship shall be subject to a maximum capacity
limit of the lesser of 33% of maximum occupancy or 25 people,
whichever is fewer; any restaurant or tavern shall cease serving
patrons food or beverage inside on-premises but may provide
outdoor service, and may be open for takeout or delivery, provided
however, any one seated group or party shall not exceed 4 people;
and the local Department of Health shall direct closure of all schools
for in-person instruction, except as otherwise provided in Executive
Order.

Id.
90)

The precautionary or “yellow zone” requires that
Non-essential gatherings shall be limited to no more than 25 people;
houses of worship shall be subject to a capacity limit of 50% of its
maximum occupancy and shall adhere to Department of Health
guidance; any restaurant or tavern must limit any one seated group
or party size to 4 people; and the Department of Health shall issue
guidance by October 9, 2020 regarding mandatory testing of
students and school personnel, and schools shall adhere to such
guidance.

Id.
91)

Again, one of the most effective ways to mitigate the risk of infection and reduce

transmission is to reduce density.
20

- App. 444 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 21 of 24 PageID #: 383

92)

The purpose behind the initiative is to “take dramatic action within the cluster”

while also taking action in the surrounding area in order to contain and prevent spread of the
virus. Exh. BB Precautionary actions are taken in the outlying communities. Id.
93)

Each zone allows for a different maximum number of people allowed to gather.

In the red zone, only essential businesses are permitted to be open, dining is take-out only,
schools are closed and remote learning only, and all mass gatherings are prohibited, with the
exception houses of worship are allowed a maximum of 10 people – similar to regressing to
Phase One. Id.
94)

In the warning or orange zone, high risk non-essential businesses are closed, such

as gyms and personal care, only outdoor dining with four people maximum per table is
permitted, schools are still remote only, and mass gatherings allow a maximum of 10 people
indoor and outdoor, while an exception is made for houses of worship where it is 33% capacity
with a 25 person maximum. Id.
95)

The precautionary yellow zone businesses are open, indoor and outdoor dining are

permitted with a maximum of four people per table, schools are open with mandatory testing
each week of students, teachers, and staff, and a maximum of 25 people are allowed at a mass
gathering either indoor or outdoor, with the exception of houses of worship, which are allowed
50% capacity. Id.
96)

The zones are representative of the prior reopening phases, but now on a smaller

scale to target hotspots and clusters.

21

- App. 445 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 22 of 24 PageID #: 384

Responsible Parties
97)

For industries where people may gather, guidelines are directed at a responsible

party – the individual who will ensure that the guidelines and EOs are being adhered to at the
gatherings. See https://forward.ny.gov/statewide-guidelines. It is the responsible party for any
gathering who must ensure that masks are worn, soap and water and/or hand sanitizer are
available, proper distances are maintained, and any necessary markings are made on the floor or
ground to show proper distancing.
98)

It is important for responsible parties to follow State and local guidance to prevent

transmission of COVID-19.
99)

True and accurate copies of the following documents are attached hereto:
Exhibit A: WHO Situation Report 1.
Exhibit B: WHO Situation Report 3.
Exhibit C: A true and accurate copy of the Statement on the Second Meeting of
the International Health Regulations (2005) Emergency Committee
Regarding the Outbreak of Novel Coronavirus (2019-nCoV) (Jan 30,
2020).
Exhibit D: WHO Declares Global Pandemic.
Exhibit E: A true and accurate copy of the National Emergency Declaration
signed by President Trump on March 13, 2020.
Exhibit F: WHO Article: Transmission of SARS-CoV-2: implications for
infection prevention precautions
Exhibit G: CDC: Cleaning and Disinfection for Households.
Exhibit H: CDC: Social Distancing.
Exhibit I: Governor Cuomo’s Executive Order 202.
22

- App. 446 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 23 of 24 PageID #: 385

Exhibit J: Governor Cuomo’s Executive Order 202.3.
Exhibit K: Governor Cuomo’s Executive Order 202.4.
Exhibit L: Cuomo’s Executive Order 202.5.
Exhibit M: Governor Cuomo’s Executive Order 202.10.
Exhibit N: Governor Cuomo’s Executive Order 202.32.
Exhibit O: Governor Cuomo’s Executive Order 202.33.
Exhibit P: Governor Cuomo’s Executive Order 202.42.
Exhibit Q: Governor Cuomo’s Executive Order 202.45.
Exhibit R: Governor Cuomo’s Executive Order 205.
Exhibit S: Governor Cuomo’s Executive Order 202.61.
Exhibit T: Scientific American Article.
Exhibit U: New Scientist Article.
Exhibit V: CDC Large Event Considerations.
Exhibit W: NIH, COVID-19 Super-spreaders: Definitional Quandaries and
Implications
Exhibit X: Governor Cuomo’s Executive Order 202.6.
Exhibit Y: CDC Considerations for Communities of Faith.
Exhibit Z: Governor Cuomo’s Announcement of Cluster Initiative.
Exhibit AA: New York City Status Report in Soos, et al. v. Cuomo, et al., 1:20CV-651 (GLS)(DJS).
Exhibit BB: CDC Frequently Asked Questions: Calculating Severe Acute
Respiratory Syndrome Coronavirus 2 (SARS-CoV-2) RT-PCR
Laboratory Test Percent Positivity.
Exhibit CC: CDC Implementation of Mitigation Strategies for Communities.
23

- App. 447 -

Case 1:20-cv-04834-KAM-RML Document 12 Filed 10/09/20 Page 24 of 24 PageID #: 386

Exhibit DD: Governor Cuomo’s Executive Order 202.68
Exhibit EE: Affidavit of Elizabeth M. Dufort, M.D., FAAP, sworn to September
14, 2020 in Sportsmen’s Tavern LLC v. N.Y. State Liquor Auth.,
Index No. 809297 (Sup. Ct., Erie Cnty.) (without exhibits)
Exhibit FF: Declaration of Howard Zucker, M.D., J.D, dated August 11, 2020.
in DiMartile et al v. Cuomo, et al., 20-cv-859 (N.D.N.Y.) (without
exhibits).

Dated: October 9, 2020
Albany, New York
____________________________
Howard A. Zucker, M.D., J.D.

24

- App. 448 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 1 of 8 PageID #: 725

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

THE ROMAN CATHOLIC DIOCESE OF BROOKLYN,
NEW YORK,
DECLARATION
Plaintiff,
Civil No. 20-cv-4844
VS.

GOVERNOR ANDREW M. CUOMO, in his official
capacity,
Defendant.

Howard A. Zucker, M.D., J.D., on the date noted below and pursuant to§ 1746 oftitle 28
of the United States Code, declares the following to be true and cotTect under penalty of petjury
under the laws of the United States of America:

Background and Qualifications
1)

I am the Commissioner of the New York State Department of Health

("Department"). I make this declaration in my capacity as the Commissioner after consultation
with Depru1ment program staff directing the initiatives detailed below. I respectfully submit this
declaration in order to place before the Court certain testimony and documents relevant to the relief
requested. I am familiar with the matters set forth herein, either from professional knowledge,
conversations with Department staff, or on the basis of documents that have been provided to and
reviewed by me. I have been asked to assist New York State in its response to the COVID-19
public health emergency. I am a member of the Governor's COVID-19 Response and Recovery
Task Force (the "COVID-19 Task Force").

I

- App. 449 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 2 of 8 PageID #: 726

2)

I have extensive knowledge of pediatric medicine and care and am aware of many

family health issues. I am board-certified in six spccialties/subspecialties and trained in pediatrics
at Johns Hopkins Hospital, anesthesiology at the Hospital of the University of Pennsylvania,
pediatric critical care medicine/pediatric anesthesiology at The Children's Hospital of
Philadelphia, and pediatric cardiology at Children's Hospital Boston/Harvard Medical School. I
was a professor of clinical anesthesiology at Albert Einstein College of Medicine of Yeshiva
University and pediatric cardiac anesthesiologist at Montefiore Medical Center in the Bronx. I
also served as associate professor of clinical pediatrics and anesthesiology at Columbia University
College of Physicians & Surgeons and pediatric director of the ICU at New York Presbyterian
Hospital. I am a former Columbia University Pediatrics Teacher of the Year.
3)

As Commissioner of the Department, I must "take cognizance of the interests of

health and life of the people of the state, and of all matters pertaining thereto and exercise the
functions, powers and duties of the department prescribed by law." Public Health Law ("PHL")
§206(1)(a).
4)

I preside over the State's Office of Public Health, which includes epidemiology,

the Medicaid program, the New York State Public Health and Health Planning Council, and the
Wadsworth Center, New York's premier public health lab, as well as the entire health care
workforce, and health care facilities.
5)

In the last nine months, I have been personally involved in the development and

implementation of what is known as the "New York State on PAUSE" initiative-restrictions
implemented through a series of executive orders and associated guidance designed to stop the
transmission of the novel coronavirus (COVID-19)-and I am also familiar with the detailed plan
2

- App. 450 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 3 of 8 PageID #: 727

that the State adopted to allow the safe reopening of each New York industry, including all
gatherings. I am familiar with the facts set forth herein based upon personal knowledge,
discussions with Department staff, and Department records.
6)

I make this declaration- based upon, among other things, my personal knowledge;

my studies and research on matters related to infectious diseases; and my work and discussions
with other infectious disease experts and public health officials- to, among other things, further
clarify the process and the creation, designation, and monitoring of the zones through the
Governor's Cluster Action Initiative ("Initiative"); the tracking of the disease; and the State's
response generally to this global pandemic.
7)

The data throughout New York shows the State has maintained an average

transmission rate around 1% or below since March 22, 2020, when the New York State on PAUSE
plan was initiated, but there have been outbreaks and spikes in areas necessitating immediate
attention to contain the virus and mitigate spread throughout the community.
8)

The intention is to create an aggressive and targeted approach to contain and control

the spread of the virus from the immediate area where the cluster is located and to a larger region.
COVID-19 Mapping

9)

The Initiative was created to divide clusters and the areas around them into three

categories with successively higher restrictions within each one: Red Zone - cluster itself;
Orange Zone- waming zone; and Yellow Zone -precautionary zone.
10)

The creation of the Zones is intended to be a short-term, but aggressive, approach

to contain the threat of the virus spreading throughout a community and creating a larger potential
super-spreader event.

3

- App. 451 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 4 of 8 PageID #: 728

11)

Members of my team in the Department closely track the metrics related to

COVID~ 19

on a daily basis to determine areas of pruticular concern that may need additional

resources such as increased testing access, compliance enforcement, or targeted pause on
economic and/or social activities. My staff and 1 work with members of the Governor's

COVID~

19 Response and Recovery Task Force ("COVJD~ 19 Task Force"), by, among other things,
providing case data and rates to help inform decisions on what steps the State needs to take to
address areas of concern with higher positivity rates.
An area may be placed in a "Red Zone" if the following factors are met:

12)

•

The area is a defined geographic area (which may or may not align
to geopolitical or other common geographic subdivisions, such as
county, zip codes, or contiguous neighborhoods) has a ?~day rolling
average positivity rate of3% or higher for a sustained period of time
(metrics adjusted for population size and population density);

•

Positive cases reflect community spread and cannot be solely
explained by a contained cluster in a single institution (e.g., nursing
home, factory, college, etc.); and

•

The Depmtment, in consultation with the local departments of
health, finds that it is in the best interest of public health for the area
to be placed in Red Zone status.

13)

Once an area has been designated as a "Red Closure Zone," the following steps

are taken:

•

The Department, in coordination with local health authorities, uses
case incidence and mapping data to refine boundaries that balance
epidemiological priorities with geographic realities;

•

The Department, in coordination with local health authorities, uses
case incidence and mapping data to refine and establish boundaries
for "buffer zones" around the Red Closure Zone to ensure spread
4

- App. 452 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 5 of 8 PageID #: 729

from the closure zone docs not broaden into the wider community.
In densely populated urban areas, two buffer zones - an Orange
Warning Zone and a Yellow Precautionary Zone-- may be required;
and
•

14)

The Department issues guidance specific to each warning zone and
the status of activities within the zone (i.e., mass gatherings,
businesses, schools, etc.).
After 14 days, the Department, in coordination with local health authorities and in

consultation with global health experts, detennines whether data sufficiently demonstrate that the
area has successfully reduced viral spread to a level able to be contained given testing, contact
tracing, and other health system metrics. Based on this data and expert advisement, the
Department decides whether the Red Closure Zone will be extended, modified, or ended.
Mapping Data

15)

The creation of the cluster zones is map-based and formulated from data

submitted to the Department and analyzed by Depattment staff.
16)

We rely upon data submitted to the State's Electronic Clinical Laboratory

Reporting System ("ECLRS") to map the zones. Laboratories in New York State use this system
for secure and rapid transmission of reportable disease information to the Department, county
health departments, and the New York City Deprutment of Health and Mental Hygiene
("NYCDOHMH").

17)

A laboratory is required to report all COVID-19 tests results to the State and will

upload data files related to these tests. It is this data analyzed and used to generate a map
indicating the location of these cases (COVID-19 positive test results). The cases are
represented as dots on a map and indicate areas with high positivity percentages. My team

5

- App. 453 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 6 of 8 PageID #: 730

works with members of the Task Force to look first at the zip codes with the highest positivity
rates and then break that down further based on individual addresses using the data pulled from
ECLRS.
18)

The Red Zone contains the highest level and concentration of positive cases,

which is the cluster itself and is created by analyzing the mapping of the positivity rates and
using streets as a boundary.
19)

The Red Zone is created by pulling data fonn ECLRS and analyzing it to map out

cases as dots. It is the concentration of dots that indicate a high level of virus in an area which in
turn delineates the boundaries of the red zone. When we are mapping the positive cases and
creating the zones, we are not looking at the businesses or entities located within those zones,
only the number and grouping of positive cases. We look solely at the data and do not take into
account who or what are located in that zone- whether it is a non-essential business, school,
yeshiva, church, synagogue, or a car dealership- as they all face restrictions, if justified by the
scientific data, whether or not that particular school, car dealership, or religious group has
positive cases within it. The data drives the zone.
20)

There is no specific percentage or threshold to determine when an area should be

designated as an Orange or Yellow Zone, as it is a nuanced process that takes multiple factors
into account and not solely the positivity percentage. It is important, for instance, to consider the
population density of the area. The Department analyzes the number of cases within the Orange
and Yellow Zones to determine the rates positive cases. The positivity percentages within those
zones indicate the level of spread beyond the cluster and require some level of mitigation to
prevent any further spread of the virus.
6

- App. 454 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 7 of 8 PageID #: 731

21)

The Orange Zone serves as a buffer to the Red Zone and is generally a five block

or quarter mile boundary around the Red Zone tracked by streets. The goal of having such an
area, which is given more scrutiny, is to prevent the cluster zone from expanding further and
keep it contained.
22)

The Yellow Zone serves as a buffer to the Orange Zone with the same goal of

containing the virus and not allowing the cluster to expand.
Positivity Rates

23)

The positivity rates are pulled daily from ECLRS, are mapped out, and are

analyzed to determine if a particular cluster is improving or getting worse. The positivity rates in
all red zones as of October 15, 2020 is 4.8% a reduction of the 7. 9% positivity rate the week of
September 20 through September 26 and reducing each subsequent week. While this indicates
that the targeted restrictions are having the desired effect to mitigate and control the spread of the
virus, this is still approximately 4 times the overall state positivity rate, which is still highly
concerning since it is over I%.
24)

Any re-evaluation for a reduction in restrictions would not occur before 14 days

since that is the incubation period for the virus. This data and analysis are provided to the
Governor and his team on a daily basis, including the COVID-19 Task Force.
25)

Any reduction or increase in restrictions will occur based on the analysis of all of

the available data. While we do not speculate on what future actions will be taken since this is
an ever-evolving process, driven by the positivity rates and trends over time, the goal is clearly to
mitigate community spread and continue the phased reopening tbmughout the state.
26)

Many different actions can be taken based on an analysis of the data and due to its

7

- App. 455 -

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 8 of 8 PageID #: 732

evolving nature. This is a highly calibrated process to ensure that the most precise restrictions are
in place. The Department receives new data throughout the day creating fluctuations in numbers
and rates. The data is continually reassessing to fine tune the statistics to ensure that we, the Task
Force, and the Governor have the most current data available to indicate progress, or lack thereof,
in the zones.

Modification of the Zones
27)

The Department and the Task Force arc continually monitoring and testing the data

related to transmission, including the positivity rates and population density, to infonn decisions
on zone designation and possible modification.
28)

Where the data shows sustained decrease in community transmission in the cluster,

the Depa1tment, the Task Force, and the Governor assess the change in transmission rates and all
available relevant information related thereto to determine whether zone modification is warranted
and would protect the public health of New Yorkers.
29)

With respect to any easing of restrictions in the Red Zone, the Depmtment, the

Governor's team, and the Task Force will continue to monitor and assess the current decreasing
trend in that zone to ensure that it a sustained downward trend. Upon this review, if the operation
has been successful, the designation of a Red Zone may be modified or lifted altogether.

Dated: October 16, 2020
Albany, New York
Howard A. Zuc

, M.D., J.D

8

- App. 456 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page1 of 38

UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
AGUDATH ISRAEL OF AMERICA, AGUDATH
ISRAEL OF KEW GARDEN HILLS,
AGUDATH ISRAEL OF MADISON, AGUDATH
ISRAEL OF BAYSWATER, RABBI YISROEL
No. 20-3572
REISMAN, RABBI MENACHEM FEIFER,
STEVEN SAPHIRSTEIN,
Plaintiffs-Appellants,
v.
ANDREW M. CUOMO, Governor of the State of
New York, in his official capacity,
Defendant-Appellee.

DEFENDANT-APPELLEE’S MEMORANDUM OF LAW IN
OPPOSITION TO PLAINTIFFS-APPELLANTS’ EMERGENCY
MOTION FOR AN INJUNCTION PENDING APPEAL

BARBARA D. UNDERWOOD
Solicitor General
ANDREA OSER
Deputy Solicitor General
JOSHUA M. PARKER
Assistant Solicitor General
Of Counsel

LETITIA JAMES
Attorney General
State of New York
Attorney for Defendant-Appellee
Governor Andrew Cuomo
28 Liberty Street
New York, New York 10005
(212) 416-6160
joshua.parker@ag.ny.gov
October 27, 2020

- App. 457 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page2 of 38

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES ....................................................................... ii
PRELIMINARY STATEMENT .................................................................. 1
QUESTION PRESENTED ......................................................................... 3
STATEMENT OF THE CASE ................................................................... 4
A.

The COVID-19 Pandemic and the State’s Early
Response ..................................................................................... 5

B.

New York’s Phased Reopening .................................................. 6

C.

The Latest Spike in Cases ......................................................... 9

D.

Proceedings Below ................................................................... 14

ARGUMENT ............................................................................................. 16
POINT I
THE MOTION SHOULD BE DENIED FOR FAILURE TO COMPLY WITH
F.R.A.P. 8(A) ...................................................................................... 16
POINT II
THE DISTRICT COURT SOUNDLY EXERCISED ITS DISCRETION IN
REFUSING TO PRELIMINARILY ENJOIN EXECUTIVE ORDER 202.68 ..... 17
A.

Plaintiffs Are Not Clearly or Substantially Likely to
Succeed on Their First Amendment Claim. ........................... 18

B.

The District Court Correctly Found That a Preliminary
Injunction Should Not Issue Because Plaintiffs Meet
None of the Other Requirements for Preliminary Relief. ...... 28

CONCLUSION ......................................................................................... 30
i
- App. 458 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page3 of 38

TABLE OF AUTHORITIES
Cases

Page(s)

Calvary Chapel Lone Mountain v. Sisolak,
No. 20-cv-00907, 2020 WL 3108716 (D. Nev. June 11, 2020) ............ 21
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520 (1993) .................................................................. 18, 19, 23
Elim Romanian Pentecostal Church v. Pritzker,
962 F.3d 341 (7th Cir. 2020) .......................................................... 21, 23
Employment Div., Dep’t of Human Resources of Oregon v. Smith,
494 U.S. 872 (1990) ........................................................................ 18, 26
Harvest Rock Church, Inc. v. Newsom,
No. 20-55907, 2020 WL 5835219 (9th Cir. Oct. 1, 2020) .............. 21, 29
Jacobson v. Massachusetts,
197 U.S. 11 (1905) ................................................................................ 19
Lynch v. City of New York,
589 F.3d 94 (2d Cir. 2009) ................................................................... 17
Maryville Baptist Church, Inc. v. Beshear,
957 F.3d 610 (6th Cir. 2020) ................................................................ 21
Phillips v. City of New York,
775 F.3d 538 (2d Cir. 2015) ................................................................. 26
Roberts v. Neace,
958 F.3d 409 (6th Cir. 2020) ................................................................ 21
Roman Catholic Diocese of Brooklyn v. Cuomo,
No. 20-cv-04844, 2020 WL 6120167 (E.D.N.Y. Oct. 16, 2020) ..... 21, 24
Salinger v. Colting,
607 F.3d 68 (2d Cir. 2010) ................................................................... 28
Soos v. Cuomo,
No. 20-cv-651, 2020 WL 3488742 (N.D.N.Y. June 26, 2020) ............. 21
ii
- App. 459 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page4 of 38

Cases

Page(s)

South Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020) .............................................................. 19, 20, 25
Rules
Fed. R. App. P. 8 ................................................................................. 16, 17
Miscellaneous Authorities
Andrew Cuomo, Governor, State of N.Y., Press Conference
Announcing New Cluster Action Initiative (Oct. 6, 2020),
https://www.governor.ny.gov/news/governor-cuomoannounces-new-cluster-action-initiative#initiativemaps ............ 10, 13
Andrew Cuomo, Governor, State of N.Y., Press Conference
Detailing COVID-19 Micro-Cluster Metrics (Oct. 21, 2020),
https://www.governor.ny.gov/news/governor-cuomo-detailscovid-19-micro-cluster-metrics ................................................ 13, 14, 25
Andrew Cuomo, Governor, State of N.Y., Press Conference to
Update New Yorkers on State’s Progress During COVID-19
Pandemic (Oct. 5, 2020),
https://www.governor.ny.gov/news/video-audio-photos-rushtranscript-governor-cuomo-updates-new-yorkers-statesprogress-during-1 ............................................................................. 9, 10
Apoorva Mandavilli, Schoolchildren Seem Unlikely to Fuel
Coronavirus Surges, Scientists Say, N.Y. Times (Oct. 22, 2020),
https://www.nytimes.com/2020/10/22/health/coronavirusschools-children.html ........................................................................... 22
Brooklyn, NY, COVID Cluster Zones (as of Oct. 21, 2020),
https://www.governor.ny.gov/sites/governor.ny.gov/files/at
oms/files/Brooklyn_HiRes2.pdf ........................................................... 26
Campbell Robertson et al., U.S. Sets Coronavirus Case Record
Amid New Surge, N.Y. Times (last updated Oct. 26, 2020),
https://www.nytimes.com/2020/10/23/us/covid-worst-day.html ........... 1
iii
- App. 460 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page5 of 38

Miscellaneous Authorities

Page(s)

The COVID Tracking Project, Our Data: New York,
The Atlantic (last updated Oct. 25, 2020),
https://covidtracking.com/data/state/new-york#historical ................... 4
Dana Rubinstein & J. David Goodman, Surprising Results
in Initial Virus Testing in N.Y.C. Schools, N.Y. Times
(last updated Oct. 22, 2020),
https://www.nytimes.com/2020/10/19/nyregion/schoolscoronavirus.html .................................................................................. 22
Empire State Dev. Corp., Guidance for Determining Whether
a Business Enterprise Is Subject to a Workforce Reduction
Under Recent Executive Orders (updated Oct. 23, 2020),
https://esd.ny.gov/guidance-executive-order-2026................................ 5
Jesse McKinley, New York City Region Is Now an Epicenter
of the Coronavirus Pandemic, N.Y. Times (Mar. 22, 2020),
https://nyti.ms/3kUJgbs......................................................................... 4
Joseph Spector & Jon Campbell, Coronavirus Timeline in
New York, LoHud.com (Mar. 13, 2020),
https://www.lohud.com/story/news/politics/2020/03/13/coro
navirus-timeline-new-york-how-we-got-here-and-wherewere-headed/5045463002/ ..................................................................... 7
Luis Ferré-Sadurní & Jesse McKinley, Cuomo Imposes Tight Virus
Rules on Areas Hit by Spikes Across State, N.Y. Times (Oct. 6,
2020), https://www.nytimes.com/2020/10/06/nyregion/cuomoshutdown-coronavirus.html................................................................... 9
New York Forward, Percentage Positive Results by Region
Dashboard (last updated Oct. 26, 2020),
https://forward.ny.gov/percentage-positive-results-regiondashboard ............................................................................................... 8

iv
- App. 461 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page6 of 38

Miscellaneous Authorities

Page(s)

New York State Dep’t of Health, Fatalities,
https://covid19tracker.health.ny.gov/views/NYSCOVID19-Tracker/NYSDOHCOVID-19TrackerFatalities?:embed=yes&:toolbar=no&:tabs=n ...................................... 4
New York State Dep’t of Health, Interim Guidance for In-Person
Instruction at Pre-K to Grade 12 Schools During the COVID-19
Public Health Emergency (Aug. 26, 2020),
https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/fi
les/Pre-K_to_Grade_12_Schools_MasterGuidance.pdf ...................... 22
Press Release, N.Y. State Office of the Governor, Governor
Cuomo Announces Five Regions on Track to Enter Phase IV
of Reopening Friday (June 24, 2020),
https://www.governor.ny.gov/news/governor-cuomoannounces-five-regions-track-enter-phase-iv-reopening-friday ........ 23
Press Release, N.Y. State Office of the Governor, Governor
Cuomo Announces Travel Advisory Requiring 14-Day
Quarantine (Oct. 20, 2020),
https://www.governor.ny.gov/news/governor-cuomoannounces-travel-advisory-requiring-14-day-quarantine .................. 11

v
- App. 462 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page7 of 38

PRELIMINARY STATEMENT
The State of New York, like the rest of the world, continues to
confront the greatest public-health crisis in living memory. The COVID19 pandemic has caused over 16,000 deaths in New York City alone—an
enormous number that could have been far higher had the State not
taken urgent action to halt the spread of the virus. Indeed, New York has
been enormously successful in controlling the virus’s spread and is now
working toward lifting restrictions in a measured way, balancing the
lives, health, and safety of New Yorkers with the need to protect their
other interests. But the danger of a resurgence in cases remains clear
and present; not only are many states around the country now
experiencing record numbers of new cases, 1 but certain communities
within the State are once again experiencing troubling spikes in new
cases. In response, Governor Cuomo issued Executive Order (“EO”)
202.68 to impose heightened restrictions in these communities to stop the
rise in cases before they increase exponentially.

1

https://www.nytimes.com/2020/10/23/us/covid-worst-day.html.

- App. 463 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page8 of 38

Under EO 202.68, houses of worship are treated more favorably
than comparable secular activities. In communities with the most
troubling spikes, labeled “Red Zones,” houses of worship may remain
open, but are limited to the lesser of 25% of occupancy capacity or 10
people. In outlying areas labeled “Yellow Zones,” houses of worship are
limited to 50% of occupancy capacity with no numerical limit on the
number of persons who may be present. 2 Comparable secular activities,
however, such as concerts and other events where attendees arrive and
leave at the same time to congregate and mingle for an extended period
of time, are completely prohibited.
In a lawsuit before the U.S. District Court for the Eastern District
of New York, plaintiffs-appellants (“Plaintiffs”)—an Orthodox Jewish
organization, synagogues, and rabbis—sought a temporary restraining
order and preliminary injunction to enjoin application of EO 202.68’s
restrictions on them. The court (Matsumoto, J.) denied the motion. In a

The Order also created a buffer area in between, an “Orange
Zone.” As of October 22, due to an improvement of conditions in affected
areas, there are no Orange Zones in New York City, where Plaintiffs are
located. Because the restrictions applicable in those zones can provide no
basis for injunctive relief at this time, we do not address them further.
2

2
- App. 464 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page9 of 38

thorough ruling, the court found that because EO 202.86 is a neutral and
generally applicable restriction that was not motivated by religious
animus, it is subject to rational basis review, which it readily satisfies.
Plaintiffs therefore failed to demonstrate a likelihood of success on the
merits. The court additionally found that the other factors relevant to a
grant of injunctive relief did not favor Plaintiffs.
Plaintiffs waited 11 days after the district court’s ruling to move
this Court for an injunction pending appeal without seeking that same
relief first in the district court. The Court should deny Plaintiffs’ motion.
QUESTION PRESENTED
To address troubling spikes in new COVID-19 cases in various
communities in the State, the Governor issued EO 202.68, which imposes
gathering restrictions on houses of worship in those communities, while
imposing (or leaving in place) more onerous restrictions on comparable
secular activities. The question presented is:
Did the district court abuse its discretion in denying a
preliminary injunction to enjoin enforcement of EO 202.68’s
restrictions against Plaintiffs?
3
- App. 465 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page10 of 38

STATEMENT OF THE CASE
The ongoing COVID-19 pandemic has caused over 25,000 deaths in
New York State, over 16,000 of which were in New York City alone, 3 and
hundreds of thousands of deaths worldwide. For much of this past spring,
New York was the epicenter of the global crisis. 4 Thanks to the lifesaving
efforts of medical professionals, essential workers, and state and local
governments; ordinary New Yorkers who heeded calls to shelter in place
and practice social distancing; and New York’s aggressive restrictions on
gatherings and businesses, the State’s daily death toll has been reduced
from a peak of approximately 800 per day to an average of less than 10
per day. 5 The threat is not over, however, as states across the nation
report record numbers of new cases and hundreds of New Yorkers remain
hospitalized. 6 Continued vigilance is essential to prevent a deadly
resurgence of the pandemic in the State.

https://covid19tracker.health.ny.gov/views/NYS-COVID19Tracker/NYSDOHCOVID-19TrackerFatalities?:embed=yes&:toolbar=no&:tabs=n.
3

4

See https://nyti.ms/3kUJgbs.

5

See https://covidtracking.com/data/state/new-york#historical.

6

See id.
4
- App. 466 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page11 of 38

A.

The COVID-19 Pandemic and the State’s Early Response
COVID-19 is a highly infectious and potentially deadly respiratory

disease caused by a newly discovered coronavirus that spreads easily
from person-to-person through droplets or aerosols released when
infected individuals cough, sneeze, speak, and breathe. Emergency Mot.
of Pls.-Appellants for Inj. Pending Appeal (“Mem.”), Ex. E, Decl. of
Howard A. Zucker, (“Zucker Decl.”) ¶¶8, 13 & Ex. B (Oct. 9, 2020).
On March 7, 2020, Governor Cuomo issued EO 202, implementing
the State Comprehensive Emergency Management Plan and declaring a
statewide disaster emergency. Zucker Decl. ¶20 & Ex. I. Multiple
supplemental EOs followed. See, e.g., id. ¶¶27-37. Among many important
measures the Governor adopted as part of the “New York State on PAUSE”
initiative were restrictions on non-essential gatherings and businesses.
EO 202.10, issued on March 23, banned “[n]on-essential gatherings of
any size for any reason” and required non-essential businesses to close.
Id. ¶¶30-31 & Ex. M. 7

“Essential” services and functions are listed in EO 202.6 and in
related guidance issued by the Empire State Development Corporation
(“ESDC”). See https://esd.ny.gov/guidance-executive-order-2026. They
7

5
- App. 467 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page12 of 38

B.

New York’s Phased Reopening
These measures worked. In May and June, the State’s rates of new

cases and fatalities slowly stabilized and then declined, and New York
was able to start easing restrictions. EO 202.32, issued on May 21, 2020,
permitted non-essential outdoor gatherings of up to ten people for
religious services or Memorial Day observance, provided that participants
followed social-distancing, masking, and cleaning and disinfection
protocols established by the State’s Department of Health (“DOH”).
Zucker Decl., Ex. N. The State also announced the “New York Forward”
initiative, a multi-phased plan to guide the reopening of the various
sectors of the economy. Id. ¶¶39-42. This initiative was designed to permit
a reopening in a slow, measured way that would prevent new spikes in
COVID-19 cases. See id.
In June and July 2020, the restrictions on non-essential gatherings
were eased further as regions of the State progressed through the phases

include services and functions essential to public health and safety, such
as hospitals, airports, public utilities, child-care services, law enforcement, and grocery stores (including stores, like Target, that have grocery
stores inside them). Gatherings necessary to perform these services and
functions would reasonably be understood to be “essential.”
6
- App. 468 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page13 of 38

of the State’s reopening plan, so that gatherings of up to 25 and then 50
were permitted, with social-distancing and other protocols still in place.
Id., Exs. P-Q.
Large gatherings still present a severe risk of spread, however,
because a single individual—even one who is asymptomatic—can infect
many others. The larger the gathering and the longer it lasts, the greater
the risk, with large indoor gatherings presenting the greatest risk of
becoming super-spreader events. Id. ¶¶66, 68-72. The spread of the disease
expands out from the gathering as people who contract it thereafter
interact with others, potentially at other mass gatherings. Id. ¶69. 8
Social occasions and religious services and ceremonies where large
numbers of people arrive and leave at the same time for the very purpose
of mingling, worshipping, or celebrating together for an extended period
of time present a heightened risk of transmission, as compared to retail
establishments, restaurants, or workplaces. And raising voices, singing,

New York’s first super-spreader events were gatherings that
occurred
at
a
synagogue.
See
https://www.lohud.com/story/news/politics/2020/03/13/coronavirustimeline-new-york-how-we-got-here-and-where-wereheaded/5045463002/.
8

7
- App. 469 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page14 of 38

or chanting only further increases the risk of spread. Id. ¶66. Not
surprisingly, then, mass transmissions have occurred at weddings, temples,
bars, and karaoke parties. Id. ¶¶66, 79-80 & Ex. U.
As a result of the State’s measured reopening plan, which has been
data-driven and guided by public health experts, the number of new
infections and deaths has remained relatively flat, while much of the
nation has seen a spike in cases. Id. ¶¶38, 42. Indeed, after reaching a
peak in early April of the positive test rate (positive test results as a
percentage of tests administered) of around 48%, the rate was reduced to
a low of 0.7% in mid-August, and remained relatively stable through
early September. 9

9

dashboard.

https://forward.ny.gov/percentage-positive-results-region8
- App. 470 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page15 of 38

C.

The Latest Spike in Cases
Since early September 2020, DOH has observed clusters of spikes

in certain areas, including one large area in Brooklyn; two smaller areas
in Queens; and one area in each of Broome, Orange, and Rockland
Counties. Zucker Decl. ¶81. In the 20 most problematic zip codes, the
positive test rate was 5.5% on October 6, 2020, far exceeding the 1.2%
rate for the rest of the State. 10 At an October 5 press conference, Governor
Cuomo expressed frustration that local authorities and some leaders in
the religious community writ large—including the Orthodox Jewish
community—in these zip codes appeared to be failing adequately to
enforce mandatory masking and other requirements, given the potential
for super-spreader events at mass gatherings. 11 The Governor emphasized
that the same rules apply to everyone, including churches and parade
organizers, and that he would take dramatic action to combat the spread

https://www.nytimes.com/2020/10/06/nyregion/cuomo-shutdowncoronavirus.html.
10

https://www.governor.ny.gov/news/video-audio-photos-rushtranscript-governor-cuomo-updates-new-yorkers-states-progressduring-1.
11

9
- App. 471 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page16 of 38

of COVID-19 at churches and parades, as well, if sufficiently high positive
test rates required such action. 12
On October 6, the Governor announced the “Cluster Action Initiative”
to address what he termed COVID-19 “hotspots.” 13 The initiative is
composed of three steps: (1) take dramatic action within the cluster; (2)
take action in the area surrounding the cluster to stop the spread; and
(3) take precautionary action in the outlying communities. Zucker Decl.
¶92. The clusters were based on scientific and other data showing the
areas with elevated positive test rates. 14
In EO 202.68, the Governor directed DOH to determine areas in the
State that require “enhanced public health restrictions based upon
cluster-based cases of COVID-19 at a level that compromises the State’s
containment of the virus.” “Red Zones” are those with the sharpest
increase in COVID-19 cases—the rate of positive tests in these zones was

12

Id.

https://www.governor.ny.gov/news/governor-cuomo-announcesnew-cluster-action-initiative#initiativemaps.
13

See
https://www.governor.ny.gov/news/governor-cuomoannounces-new-cluster-action-initiative/.
14

10
- App. 472 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page17 of 38

approximately 8%, while the rate in the rest of the City hovered around
1%. Zucker Decl. ¶82. Since the implementation of EO 202.68, those
figures have already dropped significantly, with positive test rates across
all Red Zones dropping from 7.9% during the week of September 20 to
4.8% as of October 15, and 2.91% as of October 19. 15 See Decl. of Howard
A. Zucker ¶23, Roman Catholic Dicoese of Brooklyn v. Cuomo, No. 20-cv04844 (E.D.N.Y. Oct. 16, 2020), ECF No. 29-1 (“Diocese Zucker Decl.”).
The Red-Zone positive test rate nonetheless remains more than twice the
statewide rate in areas outside the Red Zones. 16
The most restrictive mitigation measures are thus imposed in “Red
Zones,” with gradually fewer restrictions in surrounding areas labeled
“Orange Zones” and outlying areas labeled “Yellow Zones.” Zucker Decl.
¶87-90 & Ex. DD.
In Red Zones, DOH adopted mitigation measures that postpone or
cancel all non-essential gatherings and largely close non-essential
businesses, restaurants, and schools:

See
https://www.governor.ny.gov/news/governor-cuomoannounces-travel-advisory-requiring-14-day-quarantine.
15

16

See id.
11
- App. 473 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page18 of 38

• “Non-essential gatherings of any size shall be postponed or
cancelled”;
• “[A]ll non-essential businesses . . . shall reduce in-person
workforce by 100%”;
• “[A]ny restaurant . . . shall cease serving patrons food or
beverages on-premises and may be open for takeout or
delivery only”; and
• “[T]he local Department of Health shall direct closure of all
schools for in-person instruction, except as otherwise
provided in” the EO.
Id. ¶ 88 & Ex. DD.
Houses of worship in Red Zones can continue in-person religious
services, but under heightened restrictions. Specifically, they “shall be
subject to a capacity limit of 25% of maximum occupancy or 10 people,
whichever is fewer.” Id. ¶88.
The least restrictive zone restrictions apply in the Yellow Zones,
where non-essential gatherings are limited to 25 people, and houses of
worship are limited to “a capacity limit of 50% of its maximum occupancy,”
with no numerical limit on the number of persons who may be present.
Id. ¶90 & Ex. DD.
Explaining the new initiative, Governor Cuomo stated that,
“[w]orking with the top public health experts, New York State developed
12
- App. 474 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page19 of 38

a science-based approach to attack these clusters and stop any further
spread of the virus, including new rules and restrictions directly targeted
to areas with the highest concentration of COVID cases and the
surrounding communities.”17 The EO mitigates infection risk and reduces
transmission by reducing density in places where people gather, including
houses of worship. Zucker Decl. ¶¶91-96.
On October 21, 2020, Governor Cuomo announced the target metrics
that DOH, in consultation with local departments of health, uses to
determine whether to designate an area as a specified zone or change its
zone designation. For example, an area will no longer qualify as a red
zone once it demonstrates a decline in positivity over a 10-day period and
a positive test rate of under 3% (4% in less populated areas) for at least
3 consecutive days at the end of the 10-day period. 18 Among the additional
factors that DOH considers before changing a zone designation are whether

See
https://www.governor.ny.gov/news/governor-cuomoannounces-new-cluster-action-initiative.
17

See https://www.governor.ny.gov/news/governor-cuomo-detailscovid-19-micro-cluster-metrics.
18

13
- App. 475 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page20 of 38

new hospitalizations are trending downward and whether the local
government has undertaken effective enforcement measures. 19
Applying these metrics, DOH has since re-designated all of New
York City’s Orange Zones as Yellow Zones. And the Red Zones in Queens
County have since been re-designated as Yellow Zones. For affected
businesses and houses of worship, these changes became effective October
22.20 Accordingly, there are no areas in New York City currently designated
as Orange Zones, and Plaintiffs have no basis for preliminary relief
arising from restrictions in those zones.
D.

Proceedings Below
Plaintiffs commenced this action by filing a complaint on October 8,

2020. ECF No. 1. The Complaint alleged only one count: that EO 202.68
violates Plaintiffs’ rights under the First Amendment’s Free Exercise
Clause.
Also on October 8, 2020, Plaintiffs filed a motion for a temporary
restraining order and preliminary injunction to enjoin enforcement of EO

19

See id.

20

See id.
14
- App. 476 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page21 of 38

202.68’s restrictions against Plaintiffs no later than sundown on October
9, 2020, when the first of three successive Jewish holidays—during which
congregants hoped to gather en masse—began. ECF No. 2.
The district court (Matsumoto, J.) conducted a hearing on Plaintiffs’
motion via telephone conference on October 9, 2020, in which it extensively
questioned both parties. See Mem., Ex. H (“Tr.”). In a ruling from the
bench, the district court denied Plaintiffs’ motion, holding that the State
was likely to succeed on the merits. The court found that EO 202.68 is
neutral and generally applicable and, thus, should be reviewed under the
deferential rational basis standard. Id. 58-64. The court concluded that
the EO met that standard given its “very real and substantial relation to
protecting the public health.” Id. 48.
The court rejected Plaintiffs’ claim that EO was motivated by
religious animus and, thus, should be reviewed under strict scrutiny. The
court found “no evidence” that selected comments from the Governor—
which the court found were “taken…out of context”—reflected “an
animus” against the Orthodox Jewish community or a “deliberate
imposition of a requirement directed at thwarting the [community’s]
religious practices.” Id. 65.
15
- App. 477 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page22 of 38

The court further found that the other factors relevant for
injunctive relief favored the State, as well. It reasoned that it was in the
public interest to deny the motion; that the balance of equities favored
the State; and that the Plaintiffs would suffer unfortunate, but not
irreparable, harm from the denial of the motion. Id. 53-54, 65-66.
Plaintiffs waited until October 19 to file a notice of appeal, and the
next day—11 days after the district court denied them relief—they filed
the present motion. Plaintiffs did not move in the district court for an
injunction pending appeal before seeking that relief from this Court.
ARGUMENT
POINT I
THE MOTION SHOULD BE DENIED FOR FAILURE TO COMPLY
WITH F.R.A.P. 8(A)
This Court should deny Plaintiffs’ motion for failure to comply with
Rule 8(a) of the Federal Rules of Appellate Procedure (“F.R.A.P.”). “A
party must ordinarily move first in the district court for” an order
“granting an injunction while an appeal is pending.” F.R.A.P. 8(a)(1)(C).
Plaintiffs did not move for that relief in the district court before filing the
present motion with this Court. Contrary to their argument (Mem. at 11
n.19), the injunction they sought in the district court was a different one,
16
- App. 478 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page23 of 38

a preliminary injunction pending the district court’s final judgment.
Plaintiffs also make no showing, as required, that “moving first in the
district court would be impracticable.” F.R.A.P. 8(a)(2)(A). Nor could they
have done so given that they let 11 days elapse after the district court’s
ruling before seeking relief from this Court.
POINT II
THE DISTRICT COURT SOUNDLY EXERCISED ITS DISCRETION
IN REFUSING TO PRELIMINARILY ENJOIN EXECUTIVE ORDER
202.68
The district court did not abuse its discretion in denying Plaintiffs’
motion for a preliminary injunction. 21 See Lynch v. City of New York, 589
F.3d 94, 99 (2d Cir. 2009). First, the district court correctly concluded
that Plaintiffs are unlikely to prevail on their sole claim, that EO 202.68’s
gathering restrictions on houses of worship violate Plaintiffs’ free
exercise rights. Second, the district court providently exercised its
discretion to conclude that the other factors relevant to a grant of
injunctive relief did not favor Plaintiffs, either.

The State’s memorandum of law in the Roman Catholic Diocese
of Brooklyn case sets out more fully the standard for a preliminary
injunction and the applicable abuse of discretion standard of review.
21

17
- App. 479 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page24 of 38

A.

Plaintiffs Are Not Clearly or Substantially Likely to
Succeed on Their First Amendment Claim.
Plaintiffs are not clearly or substantially likely to prove that EO

202.68 violates Plaintiffs’ First Amendment free exercise rights. The
court correctly concluded that EO 202.68 is subject to rational basis
review, which it readily satisfies, because it is a neutral and generally
applicable restriction that treats religious gatherings alike or better than
secular comparators and was not motivated by religious animus.
1. Generally, and as the district court correctly recognized, rational
basis review applies to free exercise challenges to “neutral, generally
applicable law[s].” Employment Div., Dep’t of Human Resources of Oregon
v. Smith, 494 U.S. 872, 881 (1990); Tr. 54-55. That is true even when a
law incidentally imposes a burden on the exercise of religion by, for
example, effectively prohibiting a denomination’s churchgoers from
possessing a controlled substance they ingest as a sacrament. Smith, 494
U.S. at 874, 878.
On the other hand, laws whose “object or purpose … is the
suppression of religion or religious conduct” are “not neutral or not of
general application,” and accordingly are subject to strict scrutiny.
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520,
18
- App. 480 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page25 of 38

533, 546 (1993). For example, a Florida municipality’s ordinances that
“were gerrymandered with care to proscribe religious killings of animals”
only by Santeria church members were specifically directed at a religious
practice and thus strict scrutiny applied. Id. at 542.
The district court also properly recognized (Tr. 46) that under
Jacobson v. Massachusetts, a “community has the right to protect itself
against an epidemic of disease which threatens the safety of its members,”
197 U.S. 11, 27 (1905), and in such times judicial scrutiny is reserved for
a measure that “has no real or substantial relation to” the object of
protecting the public “or is, beyond all question a plain, palpable invasion
of rights secured by the fundamental law,” id. at 31.
2. As the district court recognized, laws like EO 202.68 that treat
religious gatherings the same as, or more favorably than, secular
comparators, are for purposes of the Free Exercise Clause treated as
neutral, generally applicable laws, even if they apply distinct restrictions
to religious gatherings. Tr. 56-62.
Indeed, that conclusion is compelled by the most recent Supreme
Court decision in the Jacobson line, South Bay United Pentecostal
Church v. Newsom, 140 S. Ct. 1613 (2020). There, the Supreme Court
19
- App. 481 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page26 of 38

denied the plaintiffs’ application for preliminary injunctive relief from a
California executive order limiting attendance at places of worship to
25% of a building’s capacity or 100 attendees, whichever was fewer. Id.
at 1613 (Roberts, C.J., concurring). In his concurrence to the Court’s
denial of injunctive relief, Chief Justice Roberts explained that “the
restrictions appear consistent with the Free Exercise Clause” because
“[s]imilar or more severe restrictions apply to comparable secular
gatherings, including lectures, concerts, movie showings, spectator
sports, and theatrical performances, where large groups of people gather
in close proximity for extended periods of time.” Id. at 1613-14.
Meanwhile, “the Order exempts or treats more leniently only dissimilar
activities, such as operating grocery stores, banks, and laundromats, in
which people neither congregate in large groups nor remain in close
proximity for extended periods.” Id.
Chief Justice Roberts also admonished that the restrictions “should
not be subject to second-guessing by an unelected federal judiciary, which
lacks the background, competence, and expertise to assess public health
and is not accountable to the people.” Id. at 1614 (quotation marks omitted).

20
- App. 482 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page27 of 38

“Since South Bay, nearly every court to consider the issue
has . . . applied a rational basis analysis to free exercise challenges to
COVID-related restrictions on religious gatherings.” 22 Roman Catholic
Diocese of Brooklyn v. Cuomo, No. 20-cv-04844, 2020 WL 6120167, at *7
& n.7 (E.D.N.Y. Oct. 16, 2020), citing, e.g., Elim Romanian Pentecostal
Church v. Pritzker, 962 F.3d 341, 347 (7th Cir. 2020); Harvest Rock
Church, Inc. v. Newsom, No. 20-55907, 2020 WL 5835219 (9th Cir. Oct.
1, 2020); Calvary Chapel Lone Mountain v. Sisolak, No. 20-cv-00907,
2020 WL 3108716, at *4 (D. Nev. June 11, 2020). Each of these cases
involved gathering restrictions specific to houses of worship, belying
Plaintiffs’ argument (Mem. at 17) that all gathering restrictions that
expressly apply to “houses of worship” are subject to strict scrutiny.

The Sixth Circuit cases on which Plaintiffs rely (Mem. at 13, 19,
21, 23) predated South Bay. See Roberts v. Neace, 958 F.3d 409 (6th Cir.
2020); Maryville Baptist Church, Inc. v. Beshear, 957 F.3d 610 (6th Cir.
2020). Plaintiffs’ reliance (Mem. at 5, 21-23) on Soos v. Cuomo, No. 20-cv651, 2020 WL 3488742 (N.D.N.Y. June 26, 2020), is also misplaced. Soos,
which is currently on appeal to this Court, turned on allegations that
houses of worship were treated less favorably than comparable nonessential businesses, and that facially neutral restrictions were being
selectively enforced. Id. at *11-*12. Neither allegation is present here.
22

21
- App. 483 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page28 of 38

Indeed, E.O. 202.68 treats religious institutions more favorably
than their secular comparators, “congregate functions” like concerts and
performances—where attendees similarly arrive and leave at the same
time to congregate and mingle for an extended period—which remain
banned entirely. See Tr. 62-64. One of Plaintiffs’ temples is currently in
a Red Zone, where “public gatherings are prohibited outright” and
“restaurants and bars cannot seat patrons,” while houses of worship
“need only reduce capacity.” 23 Tr. 60. While schools remain open in
Yellow Zones (Mem. at 18), as the district court recognized, schools,
unlike houses of worship, are subject to other more onerous requirements, such as being required to test “their students and personnel.” See
Tr. 60. And mounting scientific evidence shows that, in contrast to houses
of worship, COVID-19 outbreaks are not occurring in schools. 24

Schools are also required, to the extent practicable, to limit group
(or “cohort”) sizes and prevent intermingling between cohorts. See
https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/PreK_to_Grade_12_Schools_MasterGuidance.pdf.
23

See https://www.nytimes.com/2020/10/22/health/coronavirusschools-children.html;
https://www.nytimes.com/2020/10/19/nyregion/schools-coronavirus.html.
In addition, the 50% capacity limit at houses of worship in Yellow Zones
is more generous than the 33% capacity limit that otherwise applies to
24

22
- App. 484 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page29 of 38

Plaintiffs repeatedly note that essential businesses (and associated
gatherings) are subject to less onerous restrictions. Mem. at 2, 8, 14, 17.
It is hard to see how services vital to public health and safety could be
halted. Elim, 962 F.3d at 347 (making this point). But Plaintiffs have not
in any event satisfied their burden to show that the comparison is apt.
Unlike religious gatherings, at essential businesses, like grocery stores,
pharmacies, and hardware stores, “‘people neither congregate in large
groups nor remain in close proximity for extended periods.’” Id. (quoting
South Bay).
3.

Plaintiffs additionally argue that EO.202.68 is not neutral

because it was motivated by religious animus. Mem. at 14-19. While
recognizing that heightened scrutiny is warranted when reviewing laws
whose aim is “the suppression of religion or religious conduct,” see
Lukumi, 508 U.S. at 533, the district court soundly exercised its
discretion to find that targeting Orthodox Jews was “not the object of

houses of worship in the current phase (Phase 4) of reopening.
https://www.governor.ny.gov/news/governor-cuomo-announces-fiveregions-track-enter-phase-iv-reopening-friday.
23
- App. 485 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page30 of 38

[EO] 202.68,” and that the record was “absent of any evidence that the
State’s measures...are a pretext” (Tr. 49, 57-58).
The court chose instead to credit DOH Commissioner Dr. Howard
Zucker’s statement that “the data indicated that immediate action” was
required in the affected areas “to contain the virus and to prevent [a]
superspreader event,” and found that the EO was formulated based on
“medical, epidemiological and other expertise.” Tr. 50, 52; Zucker Decl.
¶¶81-87, 92-96; see also Roman Catholic Diocese, 2020 WL 6120167, at
*10 (finding same).
Plaintiffs falsely assert that the State used “no objective metrics” to
establish zone designations for particular areas. See Mem. at 3. The very
support they cite for this assertion explains that to qualify as a Red Zone,
an area must have had a 7-day rolling average positive test rate of 3% or
higher for a sustained period. Diocese Zucker Decl. ¶12. Indeed, the State
relied on data from the Electronic Clinical Laboratory Reporting System
“to generate precise maps to allow for microtargeting of neighborhoods
with high positivity rates and evidence of community spread.” Roman
Catholic Diocese, 2020 WL 6120167, at *10; Diocese Zucker Decl. ¶¶12,
16. And the State looked “solely at the data” to determine which areas
24
- App. 486 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page31 of 38

qualified for a given zone, regardless of “who or what are located in that
zone.” Diocese Zucker Decl. ¶19. Then, on October 21, the State announced
the specific empirical metrics for designating areas as Red, Orange, or
Yellow Zones.25 See supra at 13-14. These metrics cover counties statewide.26
Contra Mem. at 6-7 (asserting restrictions apply only to five counties).
While the State’s metrics afford the Governor and DOH some discretion,
the State has “especially broad” latitude “to act in” this area “fraught
with medical and scientific uncertainties.” See South Bay, 140 S.Ct. at
1613 (Roberts, C.J., concurring) (quotation marks omitted).
Nor is it true that the zones designated by EO 202.68 “encircle[]
only members of the Orthodox Jewish community” (Mem. at 7). The
parallel action by the Roman Catholic Diocese of Brooklyn proves as
much, as do the cluster maps, which cover broad swaths of counties that
include vast numbers of populations and businesses apart from the

https://www.governor.ny.gov/news/governor-cuomo-detailscovid-19-micro-cluster-metrics.
25

26

Id.
25
- App. 487 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page32 of 38

Orthodox Jewish community. 27 Indeed, a law firm and a car dealership
have also initiated suits challenging EO 202.68. See Plaza Motors of
Brooklyn, Inc. v. Cuomo, No. 20-cv-4851 (E.D.N.Y.); Turturro Law, P.C.
v. Cuomo, No. 20-cv-4824 (E.D.N.Y.).
To the extent Governor Cuomo advised “religious institutions” and
“members of the ultra-Orthodox community” that “[i]f you do not agree
to enforce the rules, then we’ll close the [religious] institutions down”
(Mem. at 5, 14 (quotation marks omitted)), that was simply to explain
that houses of worship would not be exempt from a generally applicable
Executive Order. The Governor did not single out this community for
negative treatment, but clarified that this community would not receive
special treatment. His statement is entirely consistent with the
Constitution and the First Amendment. See Smith, 494 U.S. at 879 (free
exercise rights do not relieve an individual or entity of obligation to
comply with a “valid and neutral law of general applicability” (quotation
marks omitted)); Phillips v. City of New York, 775 F.3d 538, 543 (2d Cir.

See
https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/Broo
klyn_HiRes2.pdf.
27

26
- App. 488 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page33 of 38

2015) (“The right to practice religion freely does not include liberty to
expose the community…to communicable disease” (quotation marks
omitted).).
4. Because EO 202.68 is a neutral and generally applicable law,
and was not motivated by religious animus, the district court correctly
found it subject to deferential review. Tr. 46-47. And the rational basis
for the order is manifest: the State’s continuing exercise of its police
power to mitigate the ongoing public health crisis of Covid-19. See Tr. 48
(finding EO 202.68 has “a very real and substantial relation to protecting
the public health”). Indeed, Plaintiffs in effect concede the point by not
challenging the rational basis for the order.

27
- App. 489 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page34 of 38

B.

The District Court Correctly Found That a Preliminary
Injunction Should Not Issue Because Plaintiffs Meet
None of the Other Requirements for Preliminary Relief.
The district court soundly exercised its discretion to find that a

preliminary injunction would not serve the public interest and that
Plaintiffs would not suffer irreparable harm in the absence of preliminary
relief. See Tr. 65-66. Because this Court must find both factors in
Plaintiffs’ favor to award preliminary injunctive relief, the district court’s
findings provide two additional independent bases for denying injunctive
relief. See Salinger v. Colting, 607 F.3d 68, 80 (2d Cir. 2010).
Plaintiffs do not address the two reasons the district court gave in
support of its finding that Plaintiffs will not suffer irreparable harm: that
(a) Plaintiffs previously complied with comparable and more onerous
restrictions, and (b) Plaintiffs could still observe their religion with
modifications. See Tr. 66. That Plaintiffs waited 11 days after the district
court denied an injunction before seeking relief in this Court weighs
further against a finding of irreparable harm. Though Plaintiffs insist (at
4 n.10) they were waiting for the Diocese district court to rule, the Diocese
plaintiff sought only as-applied relief, which would not have redressed
any purported harm (irreparable or otherwise) to Plaintiffs.
28
- App. 490 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page35 of 38

And, as the district court found, “[t]he balance of equities and the
public interest weigh strongly in favor of New York’s mission to protect
its citizens from this global pandemic,” especially given that COVID-19
is fatal and can lead to significant bodily injuries. Tr. 65-66; contra Mem.
at 22 (asserting “no harm” to public interest from granting injunctive
relief). Plaintiffs’ interest in having indoor, in-person religious gatherings
of potentially hundreds of people in the very areas where positive test
rates have spiked does not outweigh the need to prevent infection spikes
from rapidly increasing and spreading further. See Zucker Decl. ¶¶77-80;
see Harvest Rock, 2020 WL 5835219, at *2 (injunction pending appeal not
in public interest when restrictions not “materially different from those
presented” in South Bay); Order Granting Stay Pending Appeal,
DiMartile v. Cuomo, No. 20-2683 (2d Cir. Sept. 8, 2020) (staying August
2020 preliminary injunction barring State from enforcing 50-person limit
on the size of gatherings as applied to plaintiffs’ wedding). Furthermore,
whether

or

not

COVID-19

was

initially

spread

by

Plaintiffs’

congregations (see Mem. at 22-23) is immaterial to the significant risk
that congregants could catch COVID-19 now in these neighborhoods—
which presently have exceptionally high COVID-19 positive test rates—
29
- App. 491 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page36 of 38

and then spread it at the religious services they attend, even if
asymptomatic.
CONCLUSION
Plaintiffs’ motion should be denied.
Dated: New York, New York
October 27, 2020

Respectfully submitted,
LETITIA JAMES
Attorney General
State of New York
Attorney for Appellee
By:. /s/ Joshua M. Parker .
JOSHUA M. PARKER
Assistant Solicitor General

BARBARA D. UNDERWOOD
Solicitor General
ANDREA OSER
Deputy Solicitor General
JOSHUA M. PARKER
Assistant Solicitor General
Of Counsel

28 Liberty Street
New York, New York 10005
(212) 316-6160

30
- App. 492 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page37 of 38

CERTIFICATE OF COMPLIANCE
Pursuant to Rules 27 and 32 of the Federal Rules of Appellate
Procedure, Joshua M. Parker, an employee in the Office of the Attorney
General of the State of New York, hereby certifies that according to the
word count feature of the word processing program used to prepare this
document, the document contains 5,155 words and complies with the
typeface requirements and length limits of Rules 27(d) and 32(a)(5)-(6).
. /s/ Joshua M. Parker

.

- App. 493 -

Case 20-3572, Document 60, 10/27/2020, 2961088, Page38 of 38

CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the accompanying
memorandum of law by using the CM/ECF system on October 27, 2020.
I certify that all participants in the case are registered CM/ECF users
and that service will be accomplished by the CM/ECF system.
Dated:

October 27, 2020
New York, NY
/s/ Joshua M. Parker

- App. 494 -

Case 1:20-cv-04834-KAM-RML Document 22 Filed 11/13/20 Page 1 of 2 PageID #: 727
Troutman Pepper Hamilton Sanders LLP
875 Third Avenue
New York, New York 10022
troutman.com

Avi Schick
avi.schick@troutman.com

November 13, 2020
VIA ECF
The Honorable Kiyo A. Matsumoto
United States District Court for the Eastern District of New York
225 Cadman Plaza East
Brooklyn, NY 11201
Re:

Agudath Israel of America, et al. v. Andrew M. Cuomo, No. 1:20-cv-4834 (E.D.N.Y.)

Dear Judge Matsumoto:
We represent Plaintiffs in the above-referenced case. On October 8, 2020, Plaintiffs filed
a complaint asking this Court to enjoin Defendant from enforcing New York Executive Order
No. 202.68 (the “Order”) and to declare the Order unconstitutional because it violates Plaintiffs’
Free Exercise rights. Dkt. 1. That same day, Plaintiffs filed a motion for temporary restraining
order and preliminary injunction, Dkt. 2, which the Court denied on October 9, Tr. 66. On
October 19, Plaintiffs filed a notice of appeal from that denial. Dkt. 16.
Pursuant to Federal Rule of Civil Procedure 62(d) and Federal Rule of Appellate
Procedure 8(a)(1)(C), Plaintiffs hereby move this Court for an injunction pending appeal of its
order denying preliminary injunctive relief. In support of their request, Plaintiffs rely on the
arguments stated in their motion for temporary restraining order and preliminary injunction and
accompanying documents, Dkt 2, as well as at the October 9 hearing. Plaintiffs acknowledge the
prior rulings by this Court and the Second Circuit Court of Appeals, which denied their request
for an injunction pending appeal. In light of those rulings, Plaintiffs respectfully request this
Court’s ruling on this request for an injunction pending appeal by the close of business today.
Plaintiffs respectfully ask this Court to accept this submission as Plaintiffs’ letter motion
for an injunction pending appeal, and to enter an expedited ruling based on the parties’ prior
submissions and the prior rulings in this matter. Pursuant to Local Rule 37.3, we have met and
conferred with counsel for Defendant, who opposes the request for an injunction pending appeal.

- App. 495 -

Case 1:20-cv-04834-KAM-RML Document 22 Filed 11/13/20 Page 2 of 2 PageID #: 728
Hon. Kiyo A. Matsumoto
November 13, 2020
Page 2

Respectfully,
s/ Avi Schick
Avi Schick

Cc: Counsel for Defendant (via ECF)

- App. 496 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 1 of 15

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CAPITOL HILL BAPTIST
CHURCH,
525 A Street NE
Washington, DC 20002
Plaintiff,
v.
MURIEL BOWSER, in her official
capacity as Mayor of the District
of Columbia,
John A. Wilson Building
1350 Pennsylvania Avenue, NW
Washington, DC 20004

Civil Action No. 1:20-cv-2710
THE HONORABLE TREVOR
MCFADDEN
BRIEF AMICUS CURIAE OF THE
BECKET FUND FOR RELIGIOUS
LIBERTY IN SUPPORT OF
PLAINTIFF

DISTRICT OF
COLUMBIA,
c/o Karl A. Racine, Attorney General
400 6th Street, NW
Washington, DC 20001
Defendants.

- App. 497 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 2 of 15

TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................................................................... ii
INTRODUCTION .......................................................................................................... 1
INTEREST OF THE AMICUS ...................................................................................... 2
ARGUMENT .................................................................................................................. 3
I. Unless the District can meet strict scrutiny, the Court should
grant an injunction under RFRA. ...................................................................... 3
A. RFRA’s clear standards allow the Court to reach a
workable solution in this case. ...................................................................... 3
1.

Substantial burden. ....................................................................... 3

2.

Compelling interest. ...................................................................... 5

3.

Least restrictive means. ................................................................ 6

B. Under RFRA, the District must provide evidence for why it
cannot follow the less-restrictive approaches adopted by
other jurisdictions. ......................................................................................... 7
CONCLUSION............................................................................................................... 9

i

- App. 498 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 3 of 15

TABLE OF AUTHORITIES
Cases

Page(s)

Brown v. Ent. Merchs. Ass’n,
564 U.S. 786 (2011) .............................................................................................. 5, 6
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) ...................................................................................... 2, 4, 6, 9
Espinoza v. Mont. Dep’t of Revenue,
140 S. Ct. 2246 (2020) .............................................................................................. 6
Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418 (2006) .......................................................................................... 3, 5, 6
Holt v. Hobbs,
574 U.S. 352 (2015) .........................................................................................passim
Little Sisters of the Poor Saints Peter & Paul Home v. Pennsylvania,
140 S. Ct. 2367 (2020) .......................................................................................... 2, 3
McCullen v. Coakley,
573 U.S. 464 (2014) .................................................................................................. 7
Soos v. Cuomo,
No. 1:20-cv-651, 2020 WL 3488742 (N.D.N.Y. June 26, 2020) ............................... 9
Zubik v. Burwell,
136 S. Ct. 1557 (2016) .............................................................................................. 2
Statutes
42 U.S.C. § 2000bb-1 et seq...................................................................................passim
Other Authorities
Capitol Hill Baptist Church, Service Times ................................................................. 4
City of Boston, Places of Worship Overview (Updated Sept. 22, 2020) ....................... 9
Federal Communications Commission, Low Power Radio – General
Information ............................................................................................................... 4
Montgomery County Executive Order 117-20 .............................................................. 8
Prince George’s County CR-90-2020, Attachment A .................................................... 8
Seamus Hasson, The Right to Be Wrong (2d ed. 2012) ................................................ 1
ii

- App. 499 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 4 of 15

INTRODUCTION
This brief has one simple point: on the current record, RFRA requires an injunction because the overwhelming majority of other U.S. jurisdictions—forty-two states,
including Virginia—allow religious worship gatherings to occur outdoors without any
statewide capacity restrictions at all. The District’s strict limits have turned Church
members into modern-day Roger Williamses, banished to another state to practice
their faith.1 Because other jurisdictions have addressed the same interests in a less
restrictive way, the District “must, at a minimum, offer persuasive reasons” why it
cannot do the same. Holt v. Hobbs, 574 U.S. 352, 369 (2015). The District cannot
prevail unless it meets this burden, and so far it has not.
The clash between COVID-19 restrictions and religious liberty has produced contentious litigation across the country. That litigation has often proceeded under the
First Amendment, and has forced courts to try to identify the best comparator for
worship services so as to determine whether restrictions are neutral and generally
applicable. Is going to church more like indoor dining? Gambling at a casino? Grocery
shopping? Attending a political protest? Courts, including the Supreme Court, have
been divided over these questions as they try to determine whether to subject COVID19 restrictions to strict scrutiny under the First Amendment.
Thankfully, this Court need not wade into that thicket to resolve this motion. That
is because Congress has made the Religious Freedom Restoration Act (RFRA) applicable to the District of Columbia, and RFRA requires strict scrutiny here regardless
of the comparator questions that have divided other courts. RFRA therefore allows
this Court to put knottier First Amendment questions to the side and simply determine whether the District of Columbia has carried its burden of proving that a hardand-fast numerical cap of 100 people on even outdoor, socially-distant, mask-wearing
Seamus Hasson, The Right to Be Wrong 34-35 (2d ed. 2012) (describing the exile
of Roger Williams, regarded as one of the earliest Baptists in the Americas, from
Massachusetts Bay Colony to what would become Rhode Island).
1

1

- App. 500 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 5 of 15

worship, see D.C. Mayor’s Order 2020-075, is the least restrictive means of serving a
compelling interest.
To meet its burden, the District would need to provide evidence to show why its
100-person limit on outdoor religious gatherings is justified even though it is a national outlier. Forty-two states have no statewide capacity restrictions on the kind of
outdoor, masked, and distanced religious gatherings at issue here. Indeed, thirty-one
states do not limit the size of masked, distanced religious worship even when it is held
indoors. Even California, where notoriously strict worship restrictions have been imposed, has no statewide size restriction on outdoor religious gatherings. And none of
the Maryland or Virginia jurisdictions surrounding the District—from which thousands of residents commute every day—limit outdoor gatherings as severely. Under
RFRA, the District must demonstrate why these less restrictive alternatives are not
enough. See Holt, 574 U.S. at 369. 2 Until it does so—and it hasn’t yet—it cannot
prevail.
INTEREST OF THE AMICUS
Amicus the Becket Fund for Religious Liberty is a non-profit law firm dedicated
to protecting the free exercise of all religious traditions. To that end, it has represented agnostics, Buddhists, Christians, Hindus, Jews, Muslims, Santeros, Sikhs,
and Zoroastrians, among others, in lawsuits across the country and around the world.
Most relevant here, Becket has litigated RFRA and RLUIPA cases in the Supreme
Court, including one merits RFRA case last term. Little Sisters of the Poor Saints
Peter & Paul Home v. Pennsylvania, 140 S. Ct. 2367 (2020); Zubik v. Burwell, 136 S.
Ct. 1557 (2016); Holt v. Hobbs, 574 U.S. 352 (2015); Burwell v. Hobby Lobby Stores,
Inc., 573 U.S. 682 (2014). Becket offers its RFRA expertise to help guide the Court’s

Holt was decided under RFRA’s companion statute RLUIPA, but for most purposes, the analysis is the same.
2

2

- App. 501 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 6 of 15

analysis.3
ARGUMENT
I. Unless the District can meet strict scrutiny, the Court should grant an
injunction under RFRA.
RFRA helpfully allows this motion to be resolved by answering a single question:
whether the government can produce evidence to carry its heavy burden of satisfying
strict scrutiny. This is by design—Congress wrote RFRA to “provide very broad protection for religious liberty,” a right which Congress described as “unalienable.” Little
Sisters of the Poor, 140 S. Ct. at 2383. RFRA mandates that a “[g]overnment shall not
substantially burden a person’s exercise of religion even if the burden results from a
rule of general applicability” unless “it demonstrates that application of the burden . . . is in furtherance of a compelling governmental interest; and . . . is the least
restrictive means of furthering that compelling governmental interest.” 42 U.S.C.
§ 2000bb-1(a)-(b). “[T]he term ‘demonstrates’ means meets the burdens of going forward with the evidence and of persuasion.” Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418, 428 (2006) (quoting 42 U.S.C. § 2000bb-2(3)). The
District of Columbia, as a federal enclave, must comply with RFRA. 42 U.S.C.
§ 2000bb-2(2).
A. RFRA’s clear standards allow the Court to reach a workable solution
in this case.
1. Substantial burden.
The District asserts that its 100-person limit on religious worship, D.C. Mayor’s
Order 2020-075, does not impose a substantial burden on the Church. It admits that
the Church sincerely believes that its congregation should gather as one and that this
is a religious exercise. D.C. Opp. at 34. But it points out that other faith communities
Amicus has sought leave to file this brief under LCvR 7(o)(1) in a motion filed
with this brief. No party’s counsel has authored this brief in whole or in part; no
party or party’s counsel contributed money that was intended to fund preparing
or submitting the brief; and no person—other than Amicus—contributed money
that was intended to fund preparing or submitting the brief. See LCvR 7(o)(5).
3

3

- App. 502 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 7 of 15

in the District have adopted other ways of worshiping during the pandemic. D.C. Opp.
at 23. And it then suggests that the Church is not burdened because it may still “hold
multiple services, host a drive-in service, or broadcast the service online or over the
radio.”4 D.C. Opp. at 34.
This will not do. Under RFRA, the “‘substantial burden’” inquiry “asks whether
the government has substantially burdened religious exercise . . . not whether [the
Church] is able to engage in other forms of religious exercise.” Holt, 574 U.S. at 36162. “[I]t is not for [the government] to say that [the Church’s] religious beliefs” about
a particular religious exercise “are mistaken or insubstantial.” Hobby Lobby, 573 U.S.
at 725. Instead, this Court’s “‘narrow function . . . in this context is to determine’
whether the line drawn reflects ‘an honest conviction,’ and there is no dispute that it
does.” Id. (internal citations omitted). The Church has a sincere conviction that its
members should, whenever possible, gather in person on Sundays to worship. The
District’s 100-person limit on religious worship prevents the Church from engaging
in this religious practice and has done so for months. That is a substantial burden
under RFRA.

The District’s assertion that holding multiple services is an acceptable alternative is based on an apparent misunderstanding: prior to the pandemic, the Church
held three to four different religious gatherings a week for the same 1,200 congregants. See Capitol Hill Baptist Church, Service Times, https://perma.cc/MDE4M98S (listing Sunday School, Sunday Morning Service, Sunday Evening Prayer
& Praise, and Wednesday Evening Bible Study).
4

The District’s view that the Church is not burdened because it already broadcasts its services over the radio appears to rest on a similar misunderstanding: it
cites to a Church bulletin discussing a short-range radio broadcast available to
Church members who planned to attend a parking lot church service in Virginia
but who wished to stay in their cars. Such low-power, non-licensed transmissions
are limited by law to an effective service range of 200 feet. Federal Communications
Commission,
Low
Power
Radio
–
General
Information,
https://perma.cc/4U3Y-ZE3M. A short-range broadcast to church members parked
in nearby cars does not show that the Church’s religious objection to broadcasting
its services to remote listeners is insincere.
4

- App. 503 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 8 of 15

2. Compelling interest.
Once the Church has established a substantial burden, the District must demonstrate, with evidence, that applying its challenged rule to the Church is necessary to
further a compelling interest. “RFRA requires the Government to demonstrate that
the compelling interest test is satisfied through application of the challenged law ‘to
the person’—the particular claimant whose sincere exercise of religion is being substantially burdened.” O Centro, 546 U.S. at 430-31 (emphasis added). Put differently,
even when the government has identified a problem in need of solving, “the curtailment of [First Amendment rights] must be actually necessary to the solution.” Brown
v. Ent. Merchs. Ass’n, 564 U.S. 786, 799 (2011). “That is a demanding standard.” Id.
And “because [the government] bears the risk of uncertainty, ambiguous proof will
not suffice.” Id. at 799-800 (internal citations omitted).
Under this standard, the District cannot simply rest on its undoubtedly sincere
and generally praiseworthy efforts to stop the deadly spread of COVID-19. Instead it
must show that it has a compelling interest in banning the specific religious practice
here: gathering for religious worship outdoors while maintaining social distance and
wearing masks. What it may not do is assert generalized interests in protecting public
health to categorically deny all worship-related waiver requests. Compl. at ¶65; see
O Centro, 546 U.S. at 436 (“The Government’s argument echoes the classic rejoinder
of bureaucrats throughout history: If I make an exception for you, I’ll have to make
one for everybody, so no exceptions.”).
Instead of engaging in the individualized analysis that RFRA requires, the District argues that ruling for the Church “would prevent the District from restricting
the size of religious gatherings in any way” (D.C. Opp. at 1), that presumably unmasked, indoor “choir practices and religious services” have been associated with
COVID-19 outbreaks, and that “every in-person meeting carries some risk of spreading COVID-19.” Id. at 21, 24. It does this while citing analysis conceding that this

5

- App. 504 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 9 of 15

summer’s mass protests—which were in-person meetings, not limited to 100 participants—did not “ignite . . . outbreaks” of COVID-19. Id. at 21 (emphasis added).
This is a classic straw man argument. The District’s failure to engage with the
Church’s actual request, while simultaneously defending its decision to allow protestors to engage in substantially similar activities, is fatal to its claims. “A law does not
advance an interest of the highest order when it leaves appreciable damage to that
supposedly vital interest unprohibited.” Espinoza v. Mont. Dep’t of Revenue, 140 S.
Ct. 2246, 2261 (2020) (internal quotation marks omitted). That is because “[u]nderinclusiveness raises serious doubts about whether the government is in fact pursuing
the interest it invokes, rather than disfavoring a particular speaker or viewpoint.”
Brown, 564 U.S. at 802. The underinclusiveness is particularly stark in this case,
since the District has allowed religious people to engage in political protests in groups
over 100, but will not allow the same people to engage in group outdoor religious worship. D.C. Opp. at 21. The District could introduce evidence (such as infection rates
over time and evidence that masked and distant outdoor worship is particularly dangerous) to explain the different treatment, but it has chosen not to do so. As a result,
on this record, the District has not shown that it has a compelling interest in applying
its 100-person religious worship rule to the Church’s request to hold socially-distanced outdoor services with masks.
3. Least restrictive means.
Even if the District could show that it has a compelling interest in applying its
100-person limit to the outdoor, distanced, masked religious services at issue here, it
would still have to demonstrate that there is no less-restrictive alternative to its current policy. “The least-restrictive-means standard is exceptionally demanding,”
Hobby Lobby, 573 U.S. at 728, and to meet it, the District must provide evidence, not
just argument. O Centro, 546 U.S. at 428. It has not done so here. See, e.g., D.C. Opp.
at 27 (baldly asserting that “[n]arrower ways to promote public safety would be less

6

- App. 505 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 10 of 15

effective in preventing the spread of the virus” and that there is “not evidence” that
communal spread will not occur if the Church is allowed to meet).
When “many” other jurisdictions offer a particular religious accommodation, the
Government “must, at a minimum, offer persuasive reasons why it believes it must
take a different course.” Holt, 574 U.S. at 369. “If a less restrictive means is available
for the Government to achieve its goals, the Government must use it.” Id. at 365
(cleaned up).
In Holt, the Supreme Court held that Arkansas’ state prison system could not
maintain its no-beard policy, in part because it failed to explain why “the vast majority of States and the Federal Government permit inmates to grow 1/2 -inch beards”
but it did not. Id. at 368. “That so many other prisons allow inmates to grow beards
while ensuring prison safety and security suggests that the Department could satisfy
its security concerns through a means less restrictive than denying petitioner the
exemption he seeks.” Id. at 368-69.
So too here. As explained below, the vast majority of states—including Virginia,
where thousands of residents commute into the District every day—permit outdoor
religious worship with higher limits or none at all. Infra at I.B. The District has not
made any effort to show, with evidence, why these alternatives are unworkable. The
District’s failure to address other jurisdictions fails even intermediate scrutiny
(McCullen v. Coakley, 573 U.S. 464, 490 (2014)), much less the strict scrutiny that
applies here. Holt, 574 U.S. at 369.
B. Under RFRA, the District must provide evidence for why it cannot
follow the less-restrictive approaches adopted by other jurisdictions.
The District has not explained why it must “take a different course” from the dozens of states and cities that have accommodated religious worship more generously.
Holt, 574, U.S. at 369. So, for example, the District has not addressed why it cannot
follow the practice of the 42 states that allow religious worship gatherings to occur

7

- App. 506 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 11 of 15

outdoors without any statewide capacity restrictions at all.6 The majority approach,
followed by 31 states, is to not set any numerical caps on religious worship gatherings,
regardless of whether they are held indoors or outdoors.7 An additional 11 states have
capacity restrictions on indoor religious worship, but not outdoor worship.8 Under
RFRA, the District must justify its more restrictive approach, or its arguments will
fail.
The District has likewise failed to address the examples of Virginia and Maryland,
where thousands of residents commute into the District every day. Virginia does not
cap religious services at all, regardless of location. Ex. A at 8. Maryland has a
statewide cap on indoor religious worship (which is limited to 75% of occupancy), but
it has not established a similar cap on outdoor religious worship gatherings, which
its statewide order does not address. Ex. A at 4. Even the Maryland counties surrounding the District, where gathering restrictions are greater than at the state level,
allow considerably larger gatherings than the District.9
This should not come as a surprise. Nationwide, outdoor gatherings routinely receive more favorable treatment than indoor gatherings. California, for example, does
not impose any size restriction on outdoor religious gatherings—even as it subjects

6

See Ex. A.

Id. (Alabama, Alaska, Arkansas, Arizona, Florida, Georgia, Hawaii, Idaho, Illinois, Indiana, Iowa, Kansas, Michigan, Mississippi, Missouri, Montana, Nebraska, North Carolina, North Dakota, Ohio, Oklahoma, Pennsylvania, South
Carolina, South Dakota, Tennessee, Texas, Utah, Virginia, West Virginia, Wisconsin, and Wyoming).
7

Ex. A (California, Delaware, Kentucky, Louisiana, Maine, Maryland, Massachusetts, New Hampshire, New Jersey, New Mexico, Vermont).
8

Many states, including Maryland, allow local governments to establish stricter
limits than those that apply statewide. Prince George’s County CR-90-2020, Attachment A, § VI(O)(3), https://perma.cc/BWY3-BTQA (outdoor religious worship
gatherings limited to 250 people); Montgomery County Executive Order 117-20
§ 5(k)(iv), https://perma.cc/ALZ3-G4AA (absent a letter of approval from local government, outdoor religious gatherings limited to 150 people).
9

8

- App. 507 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 12 of 15

indoor religious gatherings to percentage caps that vary by a county’s disease severity. Ex. A at 1. Boston, a city with a similar population and greater density than the
District, also does not limit the size of outdoor religious worship gatherings.10 The
District, by contrast, has flatly refused to consider treating the Church’s proposed
outdoor services any differently than services held indoors.
Only a handful of states apply attendance caps to outdoor religious worship at all.
Of these, all but one has a size limit that presently exceeds 100 people.11 Some of
these states, like Nevada, allow larger outdoor gatherings if a “local health authority”
approves a plan in advance12—something the District has categorically refused to do.
Compl. at ¶¶ 63-65.
With so many other jurisdictions—including those that border the District—embracing less-restrictive alternatives, the District must provide evidence to show why
it must take a different course. See Hobby Lobby, 573 U.S. at 730-31 (holding that
existence of “an approach” other than the one used by the government showed least
restrictive means were available, even if that approach does not “compl[y] with RFRA
for purposes of all religious claims”). Unless it does so, it cannot prevail.

City of Boston, Places of Worship Overview (Updated Sept. 22, 2020),
https://perma.cc/V9CL-XAS7.
10

Ex. A (Colorado: 175 or potentially more; Connecticut: 150, up to 50% capacity
as of October 8; Minnesota: 250; Nevada: 250 or potentially more; New York: 50
persons in Phase 4; Oregon: 250; Rhode Island: 250; Washington: 200-400 depending upon county phase, but no limit on drive-in services). While New York’s
statewide capacity restrictions are worse than the District’s, its prior indoor capacity restrictions were enjoined as unconstitutional. See Soos v. Cuomo, No. 1:20cv-651, 2020 WL 3488742 (N.D.N.Y. June 26, 2020). And of course the District
cannot survive strict scrutiny simply because it is less restrictive than one state
in the country. See Holt, 574 U.S. at 368-69.
11

See, e.g., Ex. A at 5
https://perma.cc/W8Q4-TLW8).
12

(Nevada

9

Guidance

for

Safe

Gatherings,

- App. 508 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 13 of 15

CONCLUSION
Some COVID-19 church-closure cases have been difficult. But the combination of
RFRA’s clear rules and the many nearby states pursuing identical interests with far
fewer restrictions on religious worship provide an easy path for deciding this case.
Either the District provides actual evidence to satisfy strict scrutiny, or the injunction
must be granted and the 100-person limit on outdoor, masked, distanced worship
cannot be enforced.
Dated: October 6, 2020

Respectfully submitted,
/s/ Mark L. Rienzi
Mark L. Rienzi (D.C. Bar No. 494336)
Adèle A. Keim (D.C. Bar No. 989528)
William J. Haun (D.C. Bar No. 1024405)
Daniel D. Benson (D.C. Bar No. 242253)
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 New Hampshire Ave. NW, Suite 700
Washington, DC 20036
Telephone: (202) 955-0095
Facsimile: (202) 955-0090
mrienzi@becketlaw.org

10

- App. 509 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 14 of 15

CERTIFICATE OF SERVICE
I hereby certify that a copy of the forgoing document was electronically filed with
the Clerk of the Court using the CM/ECF system, which will send notification of such
filing to all counsel of record.
Dated: October 6, 2020

/s/ Mark L. Rienzi

11

- App. 510 -

Case 1:20-cv-02710-TNM Document 28 Filed 10/07/20 Page 15 of 15

CERTIFICATE OF COMPLIANCE
I hereby certify that this brief conforms to the requirements of LCvR 5.4 and
does not exceed 25 pages, as required by LCvR 7(o)(4).
Dated: October 6, 2020

/s/ Mark L. Rienzi

12

- App. 511 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 1 of 9

EXHIBIT A

- App. 512 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 2 of 9

Links to Applicable State Orders and Guidance Documents on
Nationwide Gathering Capacity Restrictions
Alabama (no gathering capacity restriction on religious exercise as of
October 5, 2020):
https://perma.cc/WS2G-LMM8;
https://perma.cc/85PC-92M5.
Alaska (no gathering capacity restriction on religious exercise as of
October 5, 2020):
https://perma.cc/5RLE-JJJZ
Arizona (no gathering capacity restriction on religious exercise as of
October 5, 2020):
https://perma.cc/NTP8-G9Q7.
Arkansas (no gathering capacity restriction on religious exercise as of
October 5, 2020):
https://perma.cc/65YU-RKQG.
California (outdoor religious gatherings “should be limited naturally
through implementation of strict physical distancing measures”):
https://perma.cc/LT3P-RTL9.
Indoor gathering restrictions based on county tier status:
https://perma.cc/D7XG-UH6D.
Colorado (a minimum of 175 people allowed at outdoor religious
gatherings):
State instructs houses of worship to work with local authorities on
capacity (Colo. Amended Public Health Order 20-35 § II(B)(2)(j)):
https://perma.cc/EV8Y-9UKZ.

1

- App. 513 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 3 of 9

While the “outdoor event” guidance is not meant for outdoor
worship, there is a square-footage restriction with a cap of 175
people: https://perma.cc/3EQS-X4SP.
Connecticut (150 people allowed for outdoor religious gatherings, will
move to 50% space capacity for outdoor gatherings on October 8, 2020):
https://perma.cc/F4YR-ZAC5.
Delaware (no outdoor gathering capacity restriction on religious
exercise as of October 5, 2020):
60% capacity limit for indoor religious gatherings:
https://perma.cc/SK4D-Y2BG.
Florida (designating “Attending religious services” as an essential
activity exempt from restrictions on public gatherings):
https://perma.cc/4RLA-YQSN.
Georgia (no gathering capacity restriction on religious exercise as of
October 5, 2020):
Current Executive Order contains no worship-specific gathering
restrictions: https://perma.cc/9Y3E-LFWQ.
Governor’s handout with Executive Order confirms that “in-person
services at places of worship is allowed, but services must be held
in accordance with strict social distancing protocols.”
https://perma.cc/DT6N-XA97.
Hawaii (no gathering capacity restriction on religious exercise as of
October 5, 2020):
Current Executive Order: https://perma.cc/HPC5-7L9S.
Idaho (no gathering capacity restriction on religious exercise as of
October 5, 2020):
Idaho guidance on houses of worship: https://perma.cc/5F9HXC8Y.

2

- App. 514 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 4 of 9

Illinois (no outdoor gathering capacity restriction on religious exercise
as of October 5, 2020):
Operative Executive Order (indoor worship should be limited to 10
people): https://perma.cc/9GC3-UXS4.
Indiana (no gathering capacity restrictions on religious exercise as of
October 5, 2020):
“Indoor and outdoor venues of all types may open at full capacity:”
https://perma.cc/5RRV-JG85.
Revised guidance for houses of worship: https://perma.cc/8XLBKGDG.
Iowa (no gathering capacity restrictions on religious exercise as of
October 5, 2020):
Effective guidance for spiritual and religious gatherings:
https://perma.cc/B52X-ER8Y.
Kansas (no gathering capacity restrictions on religious exercise as of
October 5, 2020):
“Perform or attend religious or faith-based services or activities”
protected from outset: https://perma.cc/NPJ8-C8QM.
Kentucky (no outdoor gathering capacity restrictions on religious
exercise as of October 5, 2020):
Indoor religious gatherings restricted to 50% of “building
occupancy capacity.” https://perma.cc/AUK3-RNNB.
Louisiana (no outdoor gathering capacity restrictions on religious
exercise as of October 5, 2020; indoor religious gatherings have capacity
restrictions):
“Essential activity” is “[g]oing to and from one’s place of worship:”
https://perma.cc/567D-79CA.
Interpretive memo on outdoor religious worship:
https://perma.cc/7JNW-RTYB.
3

- App. 515 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 5 of 9

Indoor place of worship guidance: https://perma.cc/JQ8E-DLAT.
Maine (no outdoor gathering capacity restrictions on religious exercise
as of October 5, 2020):
Indoor worship restricted to 50 persons or less, while “[o]utdoor
services are encouraged” and “require adherence to physical
distancing guidelines”: https://perma.cc/8BYF-H3TH.
Maryland (indoor religious gatherings limited to 75% of capacity; no
capacity restriction on outdoor religious gatherings):
Executive Order: https://perma.cc/Z7JD-YPQY.
Massachusetts (no outdoor gathering capacity restrictions on religious
exercise as of October 5, 2020; capacity restrictions in place on indoor
religious gatherings):
Gatherings for religious worship exempted from outdoor capacity
gathering requirements: https://perma.cc/5W3R-BW82.
Outdoor services “encouraged:” https://perma.cc/4U9X-U2W5.
Michigan (no gathering capacity restrictions on religious exercise as of
October 5, 2020):
Michigan Supreme Court ruling invalidating executive orders on
COVID-19, from October 2, 2020: https://perma.cc/N88E-TZC8.
Minnesota (250-person capacity for indoor and outdoor religious
gatherings):
https://perma.cc/3QAA-2ZKB.
Mississippi (no gathering capacity restrictions on religious exercise as of
October 5, 2020; indoor religious gatherings also exempted from
capacity restrictions):
Executive Order exempting religious gatherings from outdoor
gathering requirement: https://perma.cc/9FVJ-C9LW.

4

- App. 516 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 6 of 9

Missouri (no gathering capacity restrictions on religious exercise as of
October 5, 2020):
In-person worship services may be attended, while “streaming
services and other opportunities” encouraged:
https://perma.cc/2U8U-J5U6.
Montana (no gathering capacity restrictions on religious exercise as of
October 5, 2020):
https://perma.cc/XJ3B-LLDT.
Nebraska (no gathering capacity restrictions on religious exercise as of
October 5, 2020):
https://perma.cc/AU7B-BCLC.
Nevada (religious gatherings are limited to 250 people or 50 percent of
fire code capacity, indoor or outdoor, with potential to exceed 250 people
at venues with greater than 2,500 total fixed seating capacity):
https://perma.cc/RN29-VHKU
At venues with greater than 2,500 total fixed seating capacity and
upon approval of a local health authority, the 250-person cap can
be exceeded: https://perma.cc/59QH-C34L.
New Hampshire (outdoor religious gatherings limited only by “the
highest number of attendees for which the social distancing
requirements contained in this guidance can be met using the space
available for the service.” Indoor religious gatherings subject to capacity
restrictions):
https://perma.cc/77UK-WGQZ.
New Jersey (“[o]utdoor religious services are exempt from the limit on
outdoor gatherings and can exceed the normal outdoor capacity of 500
people.” Indoor religious gatherings subject to capacity restrictions):
https://perma.cc/WE5B-YCUR.

5

- App. 517 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 7 of 9

New Mexico (no outdoor capacity gathering restriction on religious
exercise; 40% capacity restraint on religious services within “an
enclosed building,” while confirming that “‘Houses of worship’ may hold
services and other functions, indoors or outdoors, or provide services
through audio visual means”):
https://perma.cc/XA6D-X4K9.
New York (50 people upon entry into Phase 4):
https://perma.cc/DSN5-6NTN.
https://perma.cc/LW4F-52FM.
The 25% occupancy restriction on indoor religious gatherings was
enjoined as unconstitutional in Soos v. Cuomo, 2020 WL 3488742
(N.D.N.Y. Jun. 26, 2020).
North Carolina (exempting “Worship, religious, and spiritual
gatherings” from restrictions on public gatherings):
https://perma.cc/6MJY-WJG3.
North Dakota (no gathering restriction on religious exercise as of
October 5, 2020):
https://perma.cc/2FFQ-KDGP.
Ohio (no gathering restriction on religious exercise as of October 5,
2020):
https://perma.cc/4Q97-GMFN.
Oklahoma (no gathering restriction on religious exercise as of October
5, 2020):
https://perma.cc/SC5M-R4W2.
Oregon (100 people for indoor religious gatherings, 250 people outdoor):
https://perma.cc/ZFP5-H52W.
Pennsylvania (exempting “religious gatherings” from restrictions on
public gatherings):
6

- App. 518 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 8 of 9

https://perma.cc/GCR6-UPUG.
Rhode Island (services limited to lesser of 66% capacity or 125 persons
indoors / 250 persons outdoors):
https://perma.cc/L3QZ-9MVS.
South Carolina (designating religious services as essential activities
and exempting them from restrictions on public gatherings):
https://perma.cc/35WK-6FX5.
https://perma.cc/3H9P-4KD8.
South Dakota (no gathering capacity restrictions on religious exercise
as of October 5, 2020):
https://perma.cc/SS3J-3M8J.
Tennessee (designating religious gatherings as an essential service
exempt from restrictions on public gatherings):
https://perma.cc/P78U-7S4G.
The governor’s guidance for houses of worship specifies that it
provides only “suggestions” that “are not, and should not be
construed as, mandates or requirements.”
https://perma.cc/JZW8-UV2V.
Texas (exempting “religious services” from restrictions on public
gatherings):
https://perma.cc/X5S7-UDCE.
Utah (“[F]aith groups are able to hold in-person religious services of any
size as long as a distance of at least six feet is maintained between
household groups.”):
https://perma.cc/K3CG-FPAJ.
Vermont (outdoor worship limited only by social-distancing rules; no
numerical cap; indoor religious gatherings subject to capacity
restrictions):
7

- App. 519 -

Case 1:20-cv-02710-TNM Document 28-1 Filed 10/07/20 Page 9 of 9

https://perma.cc/4GRG-5DNC.
Virginia (no gathering capacity restriction on religious exercise as of
October 5, 2020):
https://perma.cc/KM2U-RX56.
Washington (no restriction on outdoor limit on drive-in services, other
outdoor services capped between 200 and 400, depending on which
phase the county is in)
https://perma.cc/B9LX-GFC5.
https://perma.cc/U4UM-J3X6.
West Virginia (designating “religious gatherings” as an essential
activity exempt from restrictions on public gatherings):
https://perma.cc/G65A-K78V.
Wisconsin (no gathering restriction on religious exercise as of October 5,
2020):
Wisconsin Supreme Court decision invalidating stay-at-home
order from May 13, 2020:
https://perma.cc/ESL3-VD8P.
Wyoming (exempting “Religious or faith based organizations” from
restrictions on public gatherings):
https://perma.cc/MNF2-T4QE.

8

- App. 520 -

